<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2009 budget request for programs 
within the subcommittee's jurisdiction.]

                         DEPARTMENTAL WITNESSES

                         DEPARTMENT OF COMMERCE

            National Oceanic and Atmospheric Administration

Prepared Statement of Vice Admiral Conrad Lautenbacher, Jr. (U.S. Navy, 
   Ret.), Under Secretary of Commerce for Oceans and Atmosphere and 
                             Administrator

    Madam Chairwoman and members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's fiscal year 2009 budget request for NOAA.
    The fiscal year 2009 President's budget supports NOAA's priority to 
advance mission-critical services. The fiscal year 2009 request is $4.1 
billion, which represents a $202 million or 5.2 percent increase over 
the fiscal year 2008 enacted level. This request includes the level of 
resources necessary to carry out NOAA's mission, which is to understand 
and predict changes in the Earth's environment, and conserve and manage 
coastal and marine resources to meet our nation's economic, social and 
environmental needs. At NOAA we work to protect the lives and 
livelihoods of Americans, and provide products and services that 
benefit the economy, environment, and public safety of the nation. 
Before I discuss the details of our fiscal year 2009 budget request, I 
would like to briefly highlight some of NOAA's notable successes from 
the past fiscal year (2007).

                    FISCAL YEAR 2007 ACCOMPLISHMENTS

NOAA is Major Contributor to Nobel Prize-Winning Intergovernmental 
        Panel on Climate Change Reports
    Scientists from NOAA's Earth System Research Laboratory were among 
those sharing in the 2007 Nobel Peace Prize. The scientists were 
recognized for their contributions to the Intergovernmental Panel on 
Climate Change (IPCC). The IPCC was created in 1988 by the World 
Meteorological Organization and the United Nations Environment Program 
to provide regular assessments for policymakers of the scientific, 
technical and socio-economic aspects of climate change. IPCC has 
produced its major assessments every five to six years since 1990.
    NOAA scientists served as contributors to and government reviewers 
of the Fourth IPCC Assessment Report. NOAA's Geophysical Fluid Dynamics 
Laboratory provided model runs that enhanced the projections used in 
the IPCC report.

Magnuson-Stevens Act Implementation
    The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2007 was signed into law on January 12, 2007. 
The reauthorized Act contains significant new provisions to end 
overfishing, promote market-based approaches to fisheries management, 
improve the science used in fisheries management, improve recreational 
data collection, enhance international cooperation in fisheries 
management, and address illegal, unreported, and unregulated fishing, 
as well as bycatch of protected living marine resources. Especially 
notable is the requirement to establish an annual catch limit for each 
fishery, which for the first time creates a mandate with a timetable to 
end overfishing.

Progress on Next Generation Geostationary Satellite Program
    Geostationary satellites remain the weather sentinels for NOAA. The 
next-generation geostationary satellite series, GOES-R, will provide 
new and improved atmospheric, climatic, solar, and space data. In 2007, 
NOAA revised the management and acquisition strategy for the GOES-R 
program, partnering more closely with NASA to take advantage of each 
agency's technical expertise. In February 2007, the Advanced Baseline 
Imager, the main instrument on GOES-R, completed a key milestone, 
enabling the contractor to begin building the first instrument. 
Throughout 2007, NOAA awarded the three remaining instrument contracts 
for the Solar Ultraviolet Imager, Extreme Ultra Violet and X-Ray 
Irradiance Sensors, and Geostationary Lightning Mapper. These 
instruments will help us to understand and forecast solar disturbances 
as well as track lightning strikes from space.

NOAA's National Weather Service Provides More Specific Warning 
        Information for Severe Weather
    NOAA's National Weather Service (NWS) began issuing more 
geographically specific warnings for tornadoes, severe thunderstorms, 
floods, and marine hazards on October 1, 2007. The new ``storm-based 
warnings'' allow forecasters to pinpoint the specific area where severe 
weather threats are highest, thereby reducing the area warned by as 
much as 70 percent when compared to the previously used county-by-
county warning system. Storm-based warnings are displayed graphically 
and are extremely adaptable to cell phones, PDAs, and the Internet. The 
Emergency Alert System (EAS) is geared toward counties and NOAA Weather 
Radio (NWR) All Hazards will still sound an alarm if there is a warning 
anywhere in a county. However, text and audio messages will provide 
more specific information about the location of the storm in the 
county, and the direction in which it is moving. Storm-based warnings 
will reference landmarks such as highways, shopping centers, and parks, 
and will use directional delimiters to indicate county location.

Fleet Modernization Moves Ahead
    In June 2007, NOAA celebrated the keel laying of NOAA ships BELL M. 
SHIMADA and FERDINAND R. HASSLER in Moss Point, Mississippi. This 
marked the first time NOAA has celebrated this important construction 
milestone for two ships simultaneously. HENRY B. BIGELOW, second of the 
four fisheries survey vessels of the same class being built by VT 
Halter Marine, was commissioned into the fleet in July before beginning 
operations in New England. In September, Phase I of conversion of NOAA 
Ship OKEANOS EXPLORER (formerly USNS CAPABLE) to an ocean exploration 
ship was completed. NOAA ship PISCES was christened in December and 
subsequently launched in Moss Point, Mississippi.
New State-of-the-Art Satellite Operations Facility Officially Opened
    In June 2007, NOAA and the General Services Administration 
officially opened the new state-of-the-art NOAA Satellite Operations 
Facility (NSOF). NSOF is the new home for NOAA's around-the-clock 
environmental satellite operations, which provides data critical for 
weather and climate prediction. NSOF supports more than $50 million of 
high technology equipment, including 16 antennas monitoring the 
operations of 16 on-orbit satellites.

National Water Level Observation Network Upgraded to Real-time Status
    The National Ocean Service (NOS) completed a three-year effort to 
upgrade the technology of its National Water Level Observation Network 
(NWLON). NWLON stations provide mariners, first responders, and the 
public with real-time tide and water-level information. A major benefit 
of the upgrade is that network stations normally equipped to transmit 
water-level and other environmental data at hourly increments via NOAA 
Geostationary Operational Environmental Satellites now transmit data 
every six minutes, thus enabling users to access data more quickly.

NOAA Aids in the Recovery of Fisheries and Fishing Communities Damaged 
        by Hurricanes
    NOAA funded and conducted a number of activities aimed at helping 
Gulf Coast fisheries recover from the devastating impacts of Hurricanes 
Katrina, Rita, and Wilma, which struck the Gulf Coast in 2005. The 
states are using these funds to restore and rehabilitate oyster, 
shrimp, and other marine fishery habitats damaged or destroyed by 
hurricane events, and to conduct cooperative research and monitoring 
and other activities designed to recover and rebuild Gulf of Mexico 
fisheries and fishing communities.

NOAA Weather Radio All Hazards Activities: Meeting the Expectations of 
        the Nation for Weather and All Hazard Warning Information
    NOAA's National Weather Service added 16 broadcast stations to the 
NOAA Weather Radio (NWR) All Hazards network in 2007. In addition to 
achieving 100 percent coverage of high-risk areas, NOAA refurbished 62 
broadcast stations with technology upgrades that significantly improved 
reliability and availability, while decreasing maintenance costs. This 
allows the network to meet expectations of availability as the nation's 
weather and all hazard warning system.
    NWR is a reliable and inexpensive means of communicating weather, 
hazard, and emergency information directly to the public. The network 
infrastructure consists of 986 broadcast stations covering 98 percent 
of the nation's population and has the ability to deliver messages to 
individuals monitoring their own receivers as well as the ability to 
reach millions of listeners and viewers through the Emergency Alert 
System, which is monitored by television and radio license holders. The 
network is required to broadcast to all areas of the United States 
identified as being at high risk of experiencing severe weather and to 
sustain a high level of reliability and maintainability in those areas.

Marine Reserves Established in Channel Island National Marine Sanctuary
    In 2007, NOS established the Federal portion of the marine reserves 
and conservation area network within the Channel Islands National 
Marine Sanctuary. This is the largest network of marine reserves in 
Federal waters in the continental United States. This action 
complements the State of California's established network of marine 
reserves and conservation areas within the State waters of the 
sanctuary in 2003.

Expanding U.S. Tsunami Preparedness
    NOAA's National Weather Service (NWS) is responsible for the 
expansion of the U.S. network of tsunami detection sensors. During 
2007, 14 Deep-ocean Assessment and Reporting of Tsunamis 
(DART<SUP>TM</SUP>) buoys were established: four in the Western Pacific 
Ocean, three off the Pacific Coast of Central America, five in the 
northwestern Pacific Ocean, and two in the North Atlantic Ocean, 
bringing the total number of U.S. DART<SUP>TM</SUP> stations to 34. The 
United States, with NOAA as lead agency, is currently working with 
approximately 70 countries, the European Commission, and over 50 non-
governmental agencies in planning and implementing the Global Earth 
Observation System of Systems (GEOSS), which includes a global tsunami 
warning system. In addition, NWS works with communities to prepare for 
tsunamis through the TsunamiReady<SUP>TM</SUP> Program. As of December 
12, 2007, there are 47 TsunamiReady<SUP>TM</SUP> sites in 10 states, 
Puerto Rico, and Guam. The National Weather Service reached its goal of 
recognizing 10 new TsunamiReady<SUP>TM</SUP> communities in fiscal year 
2007.

First Buoy to Measure Acidification Launched
    The first buoy to directly monitor ocean acidification was launched 
in the Gulf of Alaska. Ocean acidification is a result of carbon 
dioxide absorbed by the ocean. The new buoy, part of a National Science 
Foundation project awarded to PMEL and the University of Washington in 
Seattle, in collaboration with Fisheries and Oceans Canada and the 
Institute of Ocean Sciences in British Columbia, measures the air-sea 
exchange of carbon dioxide, oxygen, and nitrogen gas, in addition to 
the pH (a measure of ocean acidity) of the surface waters. The buoy is 
anchored in water nearly 5,000 meters deep and transmits data via 
satellite. Rising acidity in the ocean could have a detrimental effect 
on ocean organisms, with resulting impacts on ocean life and the food 
chain.

NOAA Ships Arrive at New Home Port in Hawaii
    NOAA ships OSCAR ELTON SETTE, HI'IALAKAI, and KA'IMIMOANA relocated 
to their new home port at Ford Island, Pearl Harbor, Hawaii, heralding 
the permanent presence of NOAA on Ford Island. This was a major 
milestone in the multi-year, multi-phase construction of the NOAA 
Pacific Regional Center, a project to consolidate NOAA programs and 
operations on the island of Oahu into a single facility on Ford Island.

NOAA's Open Rivers Initiative Completes First Projects
    In its first year, NOAA's Open Rivers Initiative completed three 
projects that restored over 30 miles of spawning and rearing habitat 
for migratory fish. The obsolete Brownsville Dam, located on the 
Calapooia River in Oregon, was removed in August 2007, effectively 
eliminating an obstruction to migratory fish and a safety hazard to the 
local human community. In California, two failing and undersized 
culverts were removed, allowing endangered salmon to reach their 
historic spawning and rearing grounds. In collaboration with local 
communities, NOAA's Open Rivers Initiative will continue to restore 
free fish passage to historic habitat by removing obsolete dams and 
barriers that dot the rivers of coastal states.

Delivering Real-Time Data to Help Shellfish Growers
    Shellfish growers in the Pacific Northwest can now get near real-
time water quality data from the System-wide Monitoring Program 
operating at National Estuarine Research Reserves in Alaska, 
Washington, and Oregon. The data are available through telemetering 
capabilities, which measure, receive, and transmit data automatically 
from distant sources. Water quality data can be viewed on a Web site 
jointly sponsored by NOS and the Northwest Association of Networked 
Ocean Observing Systems (http://www.nanoos-shellfish.org/). Water 
quality and weather data are transmitted every 30 minutes via satellite 
from monitoring stations at all 27 National Estuarine Research 
Reserves, providing information to the growing Integrated Ocean 
Observing System (IOOS).

Great Lakes Lab Recognized for ``Green'' Research Vessels
    NOAA's Great Lakes Environmental Research Laboratory (GLERL) 
converted a fleet of research vessels from petroleum-based to 100 
percent bio-based fuel and lubricants, earning a White House Closing-
the-Circle Award in the green purchasing category. GLERL operates 
research vessels throughout the Great Lakes region as scientific 
platforms for ecosystems research and other NOAA interests in the area. 
The conversion was a result of a call for ``greening'' of Government 
agencies through waste reduction, recycling, and the use of 
environmentally friendly and sustainable products including bio-
products.

               FISCAL YEAR 2009 BUDGET REQUEST HIGHLIGHTS

Supporting the President's Ocean Initiative
    Building on last year's investment in Ocean Initiative related 
activities, the fiscal year 2009 President's request includes new 
increases of $49.1 million for NOAA over the fiscal year 2008 
President's request to support the President's Ocean Initiative. This 
ocean initiative includes more funding to advance ocean science and 
research; protect and restore marine and coastal areas; and ensure 
sustainable use of ocean resources.
    New investments in ocean science are aimed at monitoring and better 
understanding marine ecosystems. Increased funding of $7.0 million is 
included for the Integrated Ocean Observing System (IOOS) to support 
Data Management and Communications, Regional Observations, and the Data 
Assembly Center (DAC), which delivers real-time, quality controlled 
data from NOAA and regional observing systems. An increase of $1 
million is requested to manage the escalating size and quantity of 
hydrographic datasets collected by NOAA and other providers. This 
increase in funding will help NOAA update the nautical charts provided 
to mariners navigating on U.S. waters in a more timely fashion. In 
addition, NOAA is requesting $2 million in increased funding for the 
PORTS program, to improve and expand the delivery of real-time and 
forecasted navigation information. A recent economic benefits study of 
the Houston/Galveston PORTS program, released in May 2007, showed that 
the program brought the Houston/Galveston area significant economic 
benefits and has helped to achieve a 50 percent reduction in 
groundings.
    Projects to protect and restore valuable marine and coastal areas 
include funding of $4 million to implement the newly enacted Marine 
Debris Research, Prevention, and Reduction Act. This funding will allow 
NOAA to provide competitive grants and to develop the first Federal 
clearinghouse on marine debris. NOAA also requests increased funding of 
$5.4 million for the Open Rivers program to restore stream miles of 
fish habitat through watershed-level projects with multiple fish 
passage opportunities.
    Finally, the budget provides support to ensure sustainable access 
to seafood through the development of offshore aquaculture and better 
management of fish harvests. In direct support of new provisions of the 
MSRA, and to provide better management of fish harvests, NOAA requests 
increased funding of $31.8 million over the fiscal year 2008 enacted 
level. Of this amount, $5.1 million is requested to enhance the 
independent peer-review process for scientific data required to 
appropriately set the annual catch limits for all managed fisheries; 
$8.5 million will initiate and expand existing sampling programs and 
management procedures in order to end overfishing by 2011, as mandated 
by the MSRA; and $3.0 million will complete the final implementation 
phase of a new registry system for recreational fishermen and for-hire 
fishing vehicles. An additional $1.5 million increase is requested in 
support of deep sea coral research, allowing NOAA to begin identifying, 
understanding, and providing the information needed in order to protect 
deep coral habitats.

Sustaining Critical Operations
    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are people, integrity, excellence, teamwork, ingenuity, science, 
service, and stewardship. Our ability to serve the nation and 
accomplish the missions outlined below is determined by the quality of 
our people and the tools they employ. Our facilities, ships, aircraft, 
environmental satellites, data-processing systems, computing and 
communications systems, and our approach to management provide the 
foundation of support for all of our programs. Approximately $42.0 
million in net increases will support our workforce inflation factors, 
including $37.5 million for salaries and benefits and $4.5 million for 
non-labor-related adjustments, such as fuel costs.
    This year we have focused our increases on satellite continuity and 
operations and maintenance support for our aircraft and NOAA vessels. A 
funding increase of $242.2 million is requested to continue support of 
the Geostationary Operational Satellites (GOES) program. GOES 
satellites provide critical atmospheric, oceanic, climatic, and solar 
products supporting weather forecasting and warnings, climatologic 
analysis and prediction, ecosystems management, and safe and efficient 
public and private transportation. This increase will be used for 
continued systems engineering, development of satellite instruments, 
risk reduction activities, and transition to the systems-level 
acquisition and operations phase of the program.
    Funding of $6.1 million is also requested in support of a Major 
Repair Period for the RAINIER, NOAA's most productive hydrographic 
vessel. At 39 years old, the RAINIER requires a major capital 
investment in its mechanical and electrical systems in order to 
maintain its current operational tempo and reduce risks to personnel, 
property, and mission capability.
    Finally, NOAA requests an increase of $4.0 million in support of 
additional flight hours and operations and maintenance for our 
aircraft. The requested funds will provide an additional 1,295 flight 
hours for hurricane research, surveillance, and reconnaissance, as well 
as for other research and forecasting requirements. NOAA also asks this 
year for restoration to several of our base programs, most notably in 
the National Weather Service and the National Marine Fisheries Service. 
These requested increases in our base accounts will allow NOAA to 
sustain on-going programs and projects at the levels recommended in the 
fiscal year 2008 President's budget.

Improving Weather Warnings & Forecasts
    Severe weather events cause $11 billion in damages and 
approximately 7,000 weather-related fatalities yearly in the United 
States. Nearly one-third of the U.S. economy is sensitive to weather 
and climate. Realizing this, NOAA seeks to provide decision makers with 
key observations, analyses, predictions, and warnings for a variety of 
weather and water conditions to help protect the health, life, and 
property of the United States and its economy. Landfalling hurricanes 
are one of the most physically destructive and economically disruptive 
extreme events that impact the United States, often causing billions of 
dollars of damage in their wake. In fiscal year 2009, NOAA will 
continue to improve our hurricane research and modeling capabilities 
with a requested increase of $4.0 million for operational support and 
maintenance of the next-generation Hurricane Weather Research and 
Forecasting model and storm surge prediction system, as well as 
accelerated improvements to that system. Increased funding of $3.0 
million will support the operations and maintenance of 15 hurricane 
data buoys in the Caribbean, Gulf of Mexico, and the Atlantic Ocean, 
enhancing our real-time hurricane storm monitoring and observations. 
NOAA also continues to improve and maintain our weather warning 
infrastructure, with requested funding of $6.6 million to upgrade the 
Advanced Weather Interactive Processing System, the nation's weather 
and flood warning system. Increased funding of $4.8 million will be 
used to upgrade twelve NOAA Wind Profilers and to perform a tech-
refresh on this twenty-year-old radar system. Finally, NOAA is 
requesting $2.9 million in increased funding for modernization of the 
NOAA Weather Radio network.

Climate Monitoring & Research
    Society exists in a highly variable climate system, and major 
climatic events can impose serious consequences on society. Preliminary 
estimates of the impact of the severe drought which affected the Great 
Plains and the Eastern United States throughout 2007 are in the range 
of $5 billion, with major reductions in crop yields and low stream and 
lake levels. Continued drought and high winds in the Western United 
States in 2007 resulted in numerous wildfires, with 3,000 homes and 
over 8.9 million acres burned, and at least 12 deaths. The fiscal year 
2009 budget request contains investments in several programs aimed at 
increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers and decision makers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. NOAA continues to build a suite 
of information, products, and services that will enable society to 
respond to changing climate conditions. In fiscal year 2009, NOAA will 
support the critical National Integrated Drought Information System 
with increases of $2 million to develop and bring into operation by 
fiscal year 2010 the next-generation Climate Forecast System, leading 
to improved climate forecasting products. An increase of $74 million 
will be used to develop Clouds and the Earth's Radiant Energy System 
(CERES) and Total Solar Irradiance Sensor (TSIS) climate sensors to 
preserve decades long climate data records. The CERES sensor will 
measure the Earth's radiation budget, an essential measurement for 
determining the causes of climate variability and change. The TSIS 
sensor measures the total energy of the sun falling on the Earth, a 
measurement used to identify and isolate natural solar variations that 
impact climate in contrast to other factors, such as human influences 
on climate.

Critical Facilities Investments
    The fiscal year 2009 President's budget request also includes 
important increases for critical facilities, necessary to provide a 
safe and effective working environment for NOAA's employees.
    For fiscal year 2009, NOAA will concentrate their modernization 
efforts on three main projects. NOAA requests an increase of $40.2 
million for the continued construction of the new Pacific Region Center 
on Ford Island in Honolulu, Hawaii. This increase in funding will 
support the continued construction and renovation of two buildings, 
enabling NOAA to reduce expenditures for rent and relocate operations 
from their current location in the deteriorating Kewalo Basin and Dole 
Street Lab Facilities. An increase of $12.1 million will complete the 
design and initial preparations for a replacement facility for the 
Southwest Fisheries Science Center. Finally, $11.7 million is requested 
to support the installation of a semi-permanent replacement structure 
for the at-risk Operations Complex at the NESDIS Command and Data 
Acquisition Station in Fairbanks, Alaska. The current facility is at 
risk to experience a major structural failure in the next five years. 
The requested funding will ensure that NOAA maintains crucial mission 
operations support for the polar-orbiting satellites, as well as backup 
support for others.

                               CONCLUSION

    NOAA's fiscal year 2009 budget request provides essential new 
investments in our priority areas while maintaining critical services, 
reflecting NOAA's vision, mission, and core values. The work NOAA 
accomplished in 2007 impacted every U.S. citizen. We will build on our 
successes from last year, and stand ready to meet the challenges that 
will surface in fiscal year 2009 and beyond. NOAA is dedicated to 
enhancing economic security and national safety through research and 
accurate prediction of weather and climate-related events, and to 
providing environmental stewardship of our nation's coastal and marine 
resources. That concludes my statement, Mr. Chairman. Thank you for the 
opportunity to present NOAA's fiscal year 2009 budget request. I am 
happy to respond to any questions the Committee may have.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                     NPOESS: CERES AND TSIS SENSORS

    Question. Although the budget includes funding for the restoration 
of the CERES and TSIS climate sensors, it has not been decided whether 
TSIS would fly on NPOESS or another satellite.
    When will a decision be made regarding which satellite TSIS will 
fly on?
    Answer. NOAA is completing a study with NASA to recommend whether 
TSIS would fly on NPOESS or another satellite. The results will be 
briefed at the next NPOESS Executive Committee (EXCOM) meeting, 
currently planned for May 2008. A decision on the platform for TSIS 
will be made shortly thereafter.
    If TSIS is placed back on NPOESS doesn't it just add more 
complexity and risk to NPOESS which was the very reason it was removed?
    Answer. The NPOESS Integrated Program Office (IPO) has concluded a 
study which determined that integrating TSIS on the first NPOESS 
satellite (C1) would not pose an appreciably higher risk to the overall 
NPOESS program should the EXCOM decide to manifest TSIS on C1.
    It is important to note that the 2006 decision to remove several 
sensors from NPOESS was made not only to reduce overall program risk, 
but also to address significant cost over-runs. The latter is not an 
issue since funding for building and adding TSIS would be coming from 
outside the NPOESS program. This helps make adding TSIS to (C1) a 
feasible option.
    The study also determined that the data requirements to command the 
TSIS instrument, and to transport the data to the appropriate ground 
processing location, are well-understood and would not add risk to the 
NPOESS command and control and data handling systems. However, since 
the priority for C1 is operational weather data continuity, there is a 
clear understanding that if a decision is made to fly TSIS on C1, the 
TSIS instrument would have to be delivered with an adequate lead time 
for integration onto the C1 spacecraft to avoid jeopardizing the 2013 
launch date. If TSIS were not delivered within this timeframe, C1 could 
potentially launch without TSIS in order to maintain operational 
weather continuity.

                     VIIRS CONTRACTOR DEFICIENCIES

    Question. In discussing the recent delays caused by the VIIRS 
issues Admiral Lautenbacher stated that he was ``extremely disappointed 
with the pace of the contractor in analyzing and closing potential 
quality, workmanship, and testing issues in the VIIRS program.''
    Could you provide specific examples of what he meant by those 
comments?
    Answer. Vice Admiral Lautenbacher's comments were based on poor 
performance of the NPOESS contractors in resolving workmanship and 
design problems that arose during the initial phases of the test 
program, current technical issues, and independent assessments of 
future work required. A summary of the key issues is provided below:
  --Insufficient time had been scheduled for test preparations;
  --Insufficient time had been scheduled to review the data generated 
        from the test program;
  --Insufficient time had been scheduled to resolve problems 
        highlighted by the test program;
  --Excessive use of jumper (White) wires;
  --Excessive number of Engineering Failure Reports (EFRs) remained 
        open after completion of ambient phase; and
  --Inability to determine the root cause of the power supply anomaly.
    Question. What is NOAA doing to address these contractor 
deficiencies?
    Answer. In addition to addressing potential quality and or 
workmanship deficiencies on a case by case basis, the NPOESS Program 
Executive Officer, a NOAA Senior Executive, is conducting bi-monthly 
senior executive level reviews with the prime contractor and the sub-
contractor. These executives monitor progress and ensure corporate best 
practices and resources are being applied to the program. The NPOESS 
Executive Committee (EXCOM) directed the NPOESS contractors to increase 
management oversight at the VIIRS facility. In addition to the above 
actions that were given at the January 16, 2008 EXCOM meeting, the 
following steps are being taken by the Government team:
  --In-plant oversight has been increased.
  --Independent review of the test schedule for VIIRS has continued.
  --Weekly reviews of all open/unresolved issues are being conducted.

                    OCEAN SURFACE VECTOR WINDS DATA

    Question. I recently read in Space News that NOAA was in 
discussions with the Chinese and Indian government's to gain access to 
their satellite data for ocean surface winds.
    Answer. That is correct. NOAA has enjoyed a longstanding working 
relationship with the Indian and Chinese space agencies. NOAA is 
working though our respective Embassies in Beijing and New Delhi to 
seek timely access to surface vector wind (both speed and direction) 
data from satellite scatterometers that the Chinese State Oceanic 
Administration and the Indian Space Research Organization plan to 
launch within the next two years.
    Question. Why do we have to go overseas for our weather data?
    Answer. NOAA leverages data from international partners wherever 
possible so that we can meet our higher priority needs for 
environmental observations within our budget constraints. Currently, 
there is no funded U.S. satellite in development that would carry a 
scatterometer capable of providing similar observations in the post-
QuikSCAT era, so we are seeking access to any available observations 
from all sources.
    Question. By relying on another government's satellite will we not 
have reliability and data quality concerns?
    Answer. Our international partnership agreements include provisions 
to work with our foreign partners to achieve the greatest reliability 
and data quality possible. For example, NOAA is working with European 
Organisation for the Exploitation of Meteorological Satellites 
(EUMETSAT) and has been processing and evaluating vector winds from 
EUMETSAT's MetOp mission since its launch in late 2006. MetOp is 
nearing the end of its post launch testing and will be providing wind 
data for operational use shortly. However, while the reliability and 
quality of the MetOp Advanced Scatterometer (ASCAT) data are not a 
concern, it only provides 60 percent of the coverage that QuikSCAT 
currently offers.
    Additionally, QuikSCAT is approaching 10 years of operations. In 
light of these factors, NOAA is seeking other sources of ocean vector 
winds data. NOAA is in discussions with China and India seeking access 
to ocean vector winds data once the scheduled Chinese and Indian 
satellites have been launched. While neither China nor India have flown 
a scatterometer instrument in the past, we can anticipate a lengthy 
test and evaluation phase, during which there could be reliability and 
data quality concerns. However, since there are no funded U.S. 
satellites that would carry a scatterometer capable of providing 
observations similar to QuikSCAT in the post-QuikSCAT era, NOAA is 
seeking access to similar observations from all sources to help meet 
the need for these data.
    Question. What would we do if after signing an agreement, the 
Chinese or Indians decide to renege and not provide the data? Can we 
afford this risk?
    Answer. NOAA has had longstanding working relationships with China 
and India with full and open exchange of satellite data. NOAA will 
ensure that the agreements are directly related to protecting lives and 
property or advancing our understanding of science. NOAA will work 
closely with the U.S. Department of State to ensure that the necessary 
provisions are included in the agreements to ensure uninterrupted 
access to these data.
    Since there are no funded U.S. satellites in development that would 
carry a scatterometer capable of providing observations similar to 
QuikSCAT in the post-QuikSCAT era, NOAA is seeking access to similar 
observations from all sources. Given this situation, NOAA will have to 
assume some risk associated with a dependence on foreign sources to 
help meet the requirement for these data.
    Question. The fiscal year 2009 request includes $3 million to study 
this issue but this seems like a critical component that deserves more 
than a study that once completed will likely tell us we need another 
satellite.
    Answer. Within the President's fiscal year 2009 budget request for 
NOAA there is $3 million to explore space and non space-based 
alternatives for these data and to conduct a comprehensive cost-benefit 
analysis on all of the alternatives. Results from the fiscal year 2009 
studies will help us more clearly define the follow-on capabilities 
that we should invest in and the specific benefits of those 
investments.
    Question. What are the current cost estimates for replacement 
Quikscat type satellite that relies on the same technologies (i.e. the 
exact same as we have)? What would a replacement cost that has newer 
technology (i.e. an Advanced Quikscat)?
    Answer. The NOAA Office of Systems Development is conducting an 
analysis of alternatives for acquiring ocean surface wind vector 
measurements. This analysis is still being developed and will include 
an evaluation of cost, schedule, and performance trades for a number of 
options. NOAA expects this analysis to be completed by this summer.

             VACANCY RATES AT THE NATIONAL WEATHER SERVICE

    Question. What is the vacancy rate at the National Weather Service?
    Answer. At the halfway mark through fiscal year 2008 (though March 
31, 2008), the FTE lapse rate (job vacancy rate) for the NWS is 5.1 
percent. However, the lapse rate for the Continental United States 
(CONUS) field positions, which includes Regional Headquarters (HQ), 
River Forecast Centers, and Weather Forecast Offices, is only 2.9 
percent.
    Question. What percentage of positions is being held vacant due to 
lack of funds?
    Answer. For fiscal year 2008, approximately 113 additional 
positions are projected to be held due to a lack of labor funding, 
primarily by holding NWS HQ positions vacant.
    Background: ``Labor lapse rates'' are a function of the time from 
when a field or HQ vacancy occurs to the time that position is filled. 
They can fluctuate based on job location, job requirements/duties, NOAA 
Workforce Management staffing workload and general job market 
conditions. Due to the current housing slump, the lapse rate for CONUS 
field positions is projected to be higher in fiscal year 2008.
    Question. Is the fiscal year 2009 request sufficient to eliminate 
these vacancies and fill all operational positions in a timely manner?
    Answer. Yes. The fiscal year 2009 requested restoration of $5.8 
million in Local Warnings & Forecasts (LWF) funding and $233,000 in 
Central Forecast Guidance (CFG), combined with full funding of our 
adjustments to base (ATBs) including the federal pay raise, will be 
sufficient to address these needs.
    Question. How much additional funding would be necessary to 
accomplish that?
    Answer. Please see response to the previous question; no additional 
funding is required.

                     COORDINATION OF OCEAN RESEARCH

    Question. As the lead federal agency on oceans, how does NOAA 
coordinate its efforts with NSF's research program? With other federal 
agencies?
    Answer. As evidenced by the President's establishment of the 
cabinet-level Committee on Ocean Policy (COP, created through Executive 
Order 13366 EO), the United States has an interagency approach to 
advancing ocean research. The COP provides a framework to coordinate 
the ocean and coastal related activities (including research) of over 
20 federal agencies that administer 140 laws. In addition, the EO 
mandated coordination among federal agencies with coordination and 
consultation with state, tribal and local governments; the private 
sector; foreign governments; and international organizations. NOAA 
believes that this structure has demonstrated progress on ocean 
leadership and coordination. As directed by the Oceans Act of 2000, the 
U.S. Ocean Action Plan is the President's response to the Final Report 
of the U.S. Commission on Ocean Policy. The implementation of the Ocean 
Action Plan through the coordinated interagency structure has begun to 
improve federal capacity to integrate research across jurisdictions at 
the federal, state, and non-governmental level. This new governance 
structure is still young but the Administration is committed to its 
success.
    NOAA continues to lead national ocean-related activities within the 
new, coordinated ocean governance structure outlined above. 
Specifically, NOAA has taken an active leadership role within the COP, 
the Interagency Committee on Ocean Science and Resource Management 
Integration (ICOSRMI), the Joint Subcommittee on Ocean Science and 
Technology (JSOST), and the Subcommittee on Integrated Management of 
Ocean Resources (SIMOR). NOAA serves as co-chair on both the JSOST and 
SIMOR. The National Science Foundation (NSF) also serves as a co-chair 
with NOAA on the JSOST, thereby increasing interagency coordination. 
NOAA and NSF leadership are engaged in numerous task teams under JSOST 
and SIMOR bodies to guide the successful execution of activities and to 
build strong collaboration with our sister agencies.
    Together, as co-chairs of the JSOST, NOAA and NSF led the 
development of Charting the Course for Ocean Science and the Ocean 
Research Priorities Plan and Implementation Strategy (Charting the 
Course for Ocean Science), a major milestone in federal coordination of 
ocean research. Charting the Course for Ocean Science describes the 
first ever national ocean research priorities that focus on the most 
compelling issues in key areas of interaction between society and the 
ocean. After extensive public participation, including public workshops 
and public comments, Charting the Course for Ocean Science provides 
guidance on how the various ocean science sectors (government, 
academia, industry, and non-government entities) can and should be 
engaged, individually or through partnerships, to address the areas of 
greatest research priority and opportunity. Charting the Course for 
Ocean Science identifies 21 recommendations for science and research 
needed to support six overarching societal objectives, and puts forward 
four near-term priorities.
    The Administration is now actively engaged in implementing Charting 
the Course for Ocean Science. The fiscal year 2008 President's budget 
requested $40 million ($20 million for NOAA, $17 million for NSF, and 
$3 million for USGS) to begin implementation of the four near-term 
priorities identified in Charting the course for Ocean Science 
(Assessing Meridional Overturning Current Variability: Implications for 
Rapid Climate Change (AMOC); Comparative Analysis of Marine Ecosystem 
Organization (CAMEO); Sensors for Marine Ecosystems; and Forecasting 
the Response of Coastal Ecosystems to Persistent Forcing and Extreme 
Events). The fiscal year 2008 appropriations provided NOAA and other 
agencies a portion of the $40 million ($11.25 million). For NOAA in 
fiscal year 2008, the Office of Oceanic and Atmospheric Research has 
committed $3 million to AMOC. NOAA's National Marine Fisheries Service 
(NMFS) issued a call for CAMEO proposals which will be completed at the 
end of the fiscal year 2008 and will result in projects available for 
funding by NMFS and NSF in fiscal year 2009. The administration 
believes that all four priorities are important and as such NOAA is 
taking steps to address the Sensors for Marine Ecosystems and 
Forecasting the Response of Coastal Ecosystems to Persistent Forcing 
and Extreme Events priority areas. Activities planned for the near-term 
priorities are consistent with the NOAA Five-Year Research Plan, and 
all of the near-term priorities are areas in which NOAA has significant 
programmatic responsibilities.
    In the President's fiscal year 2009 budget, NOAA requests $20 
million to implement the four near-term priorities identified in 
Charting the Course for Ocean Science ($5 million for each near-term 
priority). NOAA is committed to working with the NSF, other agencies, 
and our partners to implement the priorities in Charting the Course for 
Ocean Science.
    Finally, the Under Secretary of Commerce for Oceans and Atmosphere 
and the Director of the National Science Foundation jointly submit a 
comprehensive annual report to the House Committee on Resources and 
Science and the Senate Committee on Commerce, Science and 
Transportation on how the oceans and coastal research activities of 
NOAA and NSF will be coordinated (in compliance with Section 9 of 
Public Law 107-299). The report describes in detail any overlapping 
ocean and coastal research interests between the agencies and specifies 
how such research interests will be pursued by the programs in a 
complementary manner. This year's annual report is currently under 
administrative review.

                               FUEL COSTS

    Question. NOAA operates a fleet of 21 ships with the price of oil 
above $100 a barrel. How has this increase in fuel costs impacted the 
amount of science that can be conducted? When you prepared your budgets 
what was your assumption for fuel costs?
    Answer. Answer. At the time of our fiscal year 2009 budget 
development, NOAA projected fuel to cost $2.47 per gallon. Today, fuel 
costs are averaging nearly $3.17 a gallon. As an example of the 
challenges we are facing, in January 2008, one ship paid over $4 per 
gallon to refuel at a foreign port under a DOD contract. Half way 
through fiscal year 2008, with diesel fuel reaching record highs and 
averaging over $3 a gallon, our projection for fiscal year 2009 fuel 
prices shows a full-year average cost of $3.66 per gallon.
    At $2.47 per gallon, we expected to perform 3,390 days of science 
in fiscal year 2009; at $3.66, we can only perform 2,600 days of 
science--a reduction of 790 days or a 23 percent decrease.
    Rising fuel prices have also impacted NOAA's ability to charter 
days at sea. The day rate to charter both UNOLS and commercial ships 
has increased due to the rise in fuel costs. For example, UNOLS' RV 
REVELLE's fiscal year 2007 day rate was $26,200/day. As of March, 2008, 
this rate is now $32,000/day, a 22 percent increase. Other UNOLS 
vessels of the same class have also correspondingly increased in their 
day rates.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                    ``JOHN C. COBB'' DECOMMISSIONING

    Question. I have been told that NOAA plans to decommission the NOAA 
fishery survey vessel JOHN C. COBB this year.
    What are NOAA's plans to replace this vessel?
    Answer. NOAA Fisheries Service is currently undertaking a 
comprehensive analysis of Southeast Alaska mission requirements that 
will address present and future MSRA mandated responsibilities. 
Potential procurement and/or long-term lease of suitable charter 
vessels to support NOAA's mission will be considered.
    Question. If this vessel is decommissioned does the fiscal year 
2009 budget request contain enough funding to contract out all of the 
surveys currently undertaken by the COBB in Alaska?
    Answer. NOAA's base funding contains $500,000 in fiscal year 2009 
to charter vessels to meet survey requirements in Southeast Alaska. 
This funding would be used to charter a vessel (or vessels) with 
capabilities similar to the COBB for work primarily in Southeast 
Alaska.

                  PACIFIC COASTAL SALMON RECOVERY FUND

    Question. The President's fiscal year 2009 budget calls for a 
drastic reduction in funding for the Pacific Coastal Salmon Recovery 
Fund.
    This program has been valuable in my State to ensure the health of 
salmon populations, and to mitigate the impacts of harvest reductions 
imposed by the Pacific Salmon Treaty on Alaska fisheries and coastal 
communities.
    How will the reduction in funding impact these efforts?
    Answer. The President's fiscal year 2009 budget requests $35 
million for Pacific Coastal Salmon Recovery Fund activities. The funds 
will be distributed under a competitive process between the eligible 
States of Washington, Oregon, California, Idaho and Alaska and Coastal 
and Columbia River Tribes.
    The funds will be distributed based on Congressional authorization 
direction for the funds--salmon habitat conservation and restoration, 
salmon stock enhancement, and salmon research and related activities--
and the following three program priorities: (1) Recovery and 
conservation of salmon and steelhead that are listed as threatened or 
endangered, or identified by a state as at-risk or to be so-listed, (2) 
Maintenance of salmon and steelhead populations necessary for exercise 
of tribal treaty fishing rights or native subsistence fishing, and (3) 
Habitat protection and restoration for salmon and steelhead. All funds 
distributed to State entities will require a 33 percent match of non-
federal funds. Under the competitive process in fiscal year 2009 the 
State of Alaska will be eligible to receive funds. The amount Alaska 
will receive will depend on how the above listed criteria are addressed 
in grant applications.
                                 ______
                                 
                Question Submitted by Senator Judd Gregg

                                 CICEET

    Question. VADM Lautenbacher, as you know, the Cooperative Institute 
for Coastal and Estuarine Environmental Technology (CICEET) is a 
partnership of the National Oceanic and Atmospheric Administration 
(NOAA) and the University of New Hampshire (UNH). CICEET is a valuable 
national resource that is making a difference in many coastal 
jurisdictions through its close coordination with the National 
Estuarine Research Reserve System.
    With my support, CICEET was established in 1997 to develop tools 
for clean water and healthy coasts nationwide. Through its nationally 
competitive, peer reviewed program, CICEET has funded development and 
demonstration of dozens of field ready technologies--with many more in 
the pipeline--that address coastal resource problems in three ways: 
tools to detect pollution, tools to enhance recovery, and tools to 
prevent pollution impacts.
    This year, the Office of Management and Budget elected to take 
CICEET out of the President's budget. Given the over ten years of 
Congressional support, an opportunity now exists for NOAA to make 
explicitly clear that CICEET is a core NOAA activity, and fund it 
directly out of its budget.
    Could you please provide a plan for how CICEET will be funded in 
fiscal year 2009 and beyond?
    Answer. The Administration has proposed a $5.2 million competitive 
research program to develop new technology to monitor coastal and 
estuarine environments and address coastal management challenges 
through the National Estuarine Research Reserves System. CICEET/UNH as 
well as previous CICEET grant recipients will be eligible to compete 
for funding through the NERRS competitive research program.
                                 ______
                                 
                      NATIONAL SCIENCE FOUNDATION

        Prepared Statement of Dr. Arden L. Bement, Jr., Director

    Chairwoman Mikulski, Ranking Member Shelby, and Members of the 
Subcommittee, I am pleased to present the National Science Foundation's 
budget for the 2009 fiscal year.
    The National Science Foundation (NSF) proposes a fiscal year 2009 
investment of $6.85 billion to advance the frontiers of research and 
education in science and engineering. Our budget request includes an 
increase of $789 million--or 13 percent--over the current fiscal year 
2008 amount. This increase is necessary to put NSF back on the course 
that was charted by the President's American Competitiveness Initiative 
(ACI) and by the America COMPETES Act. This year's budget reflects the 
Administration's continued resolve to double overall funding for the 
ACI research agencies within 10 years.
    An investment in the National Science Foundation is a direct 
investment in America's economic security. In fact, without a solid 
basic research foundation for our high-tech economy, no economic 
security is possible. Basic research underpins all of the technology 
that constitutes the lifeblood of today's global market. America's 
sustained economic prosperity is based in part on technological 
innovation resulting from previous fundamental science and engineering 
research. Innovation and technology are engines of the American 
economy, and advances in science and engineering provide the fuel.
    While the United States still leads the world in its level of 
public and private R&D investment, our counterparts around the globe 
are well aware of the importance of funding R&D. A string of recent 
reports have found evidence that China is rapidly accruing global 
technological standing, including an OECD finding that China was set to 
become the second-highest investor in R&D among world nations in 2006, 
behind only the United States.\1\ \2\ \3\ Over the last two decades, 
U.S. federal support of research in the physical sciences, mathematics, 
and engineering has been stagnant when adjusted for inflation. As a 
percentage of GDP, the U.S. federal government has halved its 
investment in physical science and engineering research since 1970. 
Conversely, the Chinese government has more than doubled its GDP 
percentage expenditure in R&D since 1995.\3\
---------------------------------------------------------------------------
    \1\ http://www.oecd.org/document/26/
0,2340,en_2649_201185_37770522_1_1_1_1,00.html.
    \2\ http://www.tpac.gatech.edu/hti2007/HTI2007ReportNSF_012208.pdf.
    \3\ http://www.nsf.gov/statistics/nsf07319/pdf/nsf07319.pdf.
---------------------------------------------------------------------------
    More than a dozen major studies have now concluded that a 
substantial increase in federal funding for basic scientific research 
is critical to ensure the preeminence of America's scientific and 
technological enterprise.
    Just recently, Norman Augustine, former CEO of Lockheed Martin, 
released a follow-up to ``The Gathering Storm'' report entitled, ``Is 
America Falling Off the Flat Earth?'' His message is clear: ``Unless 
substantial investments are made to the engine of innovation--basic 
scientific research and development--the current generation may be the 
first in our country's history to leave their children and 
grandchildren a lower sustained standard of living.'' \4\
---------------------------------------------------------------------------
    \4\ Augustine, Norman. Is America Falling off the Flat Earth? 
National Academies Press.
---------------------------------------------------------------------------
    For over fifty years, NSF has been a steward of the nation's 
science and engineering enterprise. NSF investments in discovery, 
learning, and innovation have been important to increasing America's 
economic strength, global competitiveness, national security and 
overall quality of life.
    With its relatively small size, NSF delivers an enormous ``bang for 
the buck'' of federal government research and development (R&D) 
investment. NSF represents just four percent of the total federal 
budget for research and development, but accounts for a full fifty 
percent of non-life science basic research at academic institutions. 
NSF is the research funding lifeline for many fields and emerging 
interdisciplines at the frontiers of discovery. In fact, NSF is the 
only federal agency that supports all fields of basic science and 
engineering research.
    NSF relies on a merit-based, competitive process that is critical 
to fostering the highest standards of excellence and accountability--
standards that have been emulated at other funding agencies around the 
world.

                    NSF SUPPORTS AMERICAN INNOVATION

The Foundation of Innovation
    NSF often funds a technology in its earliest stages, frequently 
before other agencies or industries get involved. NSF funding was 
involved in the developmental phase of the technology used in magnetic 
resonance imaging (MRI) now ubiquitous in diagnostic medicine, the 
research that led to the development of silicon-coated glass used in 
flat panel displays, and the early investigations that led to green and 
blue light-emitting diodes used in cell phone displays and traffic 
lights. In 1952, Caltech professor Max Delbruck used one of NSF's first 
grants to invent molecular biology techniques that enabled one of his 
students, James Watson, to discover the molecular structure of DNA, and 
another Nobel laureate, David Baltimore, to unravel some of its 
mysteries.
    In a more recent example, NSF CAREER awardee Jay Keasling, now the 
head of the NSF-sponsored Synthetic Biology Engineering Research Center 
at the University of California-Berkeley, and two postdoctoral 
researchers from his lab founded Amyris, a company that is taking a 
revolutionary approach to chemical manufacturing by harnessing 
metabolic processes in microorganisms. Through genetic engineering, the 
researchers ``program'' the microbes to churn out useful chemicals, 
bypassing traditional, more expensive methods. Amyris has engineered a 
strain of yeast that can produce large quantities of artemisinic acid, 
a precursor to a compound found naturally in a plant that fights 
malaria but is currently in short supply. Amyris is also developing a 
fermentation process to deliver a biofuel gasoline substitute. NSF 
funding of the early research conducted at Berkeley enabled the 
discoveries that led to this promising new company, named 2007 
``Business Leader of the Year'' by Scientific American magazine.
    NSF as an agency is itself the origin of transformative practices. 
One new NSF innovation is Research.gov, which is fulfilling our vision 
of a seamless interface between government funding agencies and the 
investigators we support. Research.gov is a one-stop shop, where 
researchers can go to manage their existing portfolio of grants and 
explore new opportunities. Research.gov is a tool that streamlines the 
process of applying for federal grants, making it easier and more cost-
effective for the federal government to serve its customers.

Educating Tomorrow's Workforce
    Beyond all of our efforts to advance the frontiers of knowledge and 
spur innovation, NSF is dedicated to educating and training the 
nation's skilled labor force. NSF plays a role in science, technology, 
engineering, and math (STEM) education at every educational level. Our 
contribution to education may ultimately be NSF's most profound and 
meaningful legacy.
    The scientists, technologists, engineers, and mathematicians 
trained through NSF's integration of research and education transfer 
the latest scientific and engineering concepts from universities 
directly to the entrepreneurial sector when they enter the workforce.
    Our graduate research fellowship (GRF) program has supported 
several notable technologists and scientists early in their 
professional training. Prominent economist Steven Levitt, co-author of 
the popular book Freakonomics, was an NSF GRF recipient from 1992 to 
1994. Sergey Brin, co-founder of Google, was an NSF graduate research 
fellow in the mid-1990s when he began thinking about how to create an 
internet search engine. NSF's GRF program is as old as the foundation 
itself, and gives young scientists an early career charge, allowing 
them to go on to greatness. At least three Physics Nobel Prize winners 
are former NSF GRF recipients. We are extremely pleased with the 
proposed $29 million increase in the GRF program's funding for fiscal 
year 2009 which will enable us to fund an additional 700 promising 
young American investigators. A recent article from the National Bureau 
of Economic Research suggests that an increase in the number of GRF 
awards would help to supply an increased demand for talented 
individuals in the American science and technology workforce that will 
result from an increase in R&D spending.\5\
---------------------------------------------------------------------------
    \5\ Freeman, Richard. The Market for Scientists and Engineers. NBER 
Reporter, 2007 No. 3, pp. 6-8.
---------------------------------------------------------------------------
    At some point in their careers, nearly 200 Nobel Prize-winning 
scientists received NSF funding for research in chemistry, physics, 
medicine, and economics. And scores of NSF-supported scientists shared 
a measure of the 2007 Nobel Peace Prize as members of the United 
Nation's Intergovernmental Panel on Climate Change.
    To strengthen the educational institutions that benefit from NSF 
awards, the Directorate for Education and Human Resources (EHR) 
program, Innovation through Institutional Integration (I3), challenges 
institutions to think strategically about the creative integration of 
NSF-funded awards. This provides the opportunity for NSF-grantees at 
particular institutions to cooperate and share a common vision for 
improved educational excellence at their institution.

                    AMERICA COMPETES ACT COMPLIANCE

    The America COMPETES Act contains several requirements for NSF. We 
are actively processing those directives and devising plans to 
implement them in a timely manner. In the fiscal year 2009 request, 
activities that overlap with the President's American Competitiveness 
Initiative receive top priority. These priority areas do include strong 
links to other fields, and our request includes across-the-board 
increases for all directorates.
    We are currently evaluating how to best ramp up the Robert Noyce 
Teacher Scholarship Program to bring an infusion of talented teachers 
into the nation's K-12 education system. To launch such a large-scale 
program, we will carefully evaluate what we need to do to maximize its 
societal impact and success. We will apply what we have learned from 
our other successful scholarship programs to ensure the program is 
administered in the best possible way.
    We are also working how best to evaluate grant applicants' plans 
for training undergraduates, graduate students, and postdocs in 
responsible and ethical conduct of research. A number of our programs 
including our Centers and the Integrative Graduate Education and 
Research Traineeship (IGERT) program already contain ethics components. 
We will add a new certification requirement for institutions, which 
will require the institution to have a plan in place to provide 
appropriate training and oversight in the responsible and ethical 
conduct of research for all undergraduates, graduate students, and 
postdocs participating in the NSF-funded research project.
    Open access to research results is an essential component of a 
strong and healthy scientific enterprise. We currently make available 
the citations of NSF-funded research on both the NSF website and on 
Research.gov. To further the goal of disseminating the results of NSF-
funded research, we will develop revised reporting guidelines for NSF 
principle investigators (PIs). These guidelines will enable the PIs to 
summarize the key accomplishments of their NSF-funded work, including 
scientific findings, student training, and professional development 
activities. This information will be made available on the NSF website.

                     2009 BUDGET REQUEST HIGHLIGHTS

    At NSF, we understand that new discoveries are the main driving 
force behind societal progress. As the nation's premier funding agency 
for basic research, our mission is to advance the frontiers of 
knowledge, where high-risk, high-reward research can lay the foundation 
for revolutionary technologies and tackle complex societal problems. 
The NSF budget for 2009 reflects this vital agenda, and I'm pleased to 
present it to you today.
    Let me begin with the big picture. As noted earlier, the President 
is requesting $6.85 billion for the NSF in fiscal year 2009. That's an 
increase of almost $789 million, or 13 percent above the current 2008 
appropriated amount. While it seems like a large increase, this level 
is necessary to fulfill the President's vision for physical science and 
basic research set forth in the American Competitiveness Initiative. 
The fiscal year 2009 request is squarely in line with the goal of 
doubling of ACI research agency budgets over 10 years. This increased 
investment will reinforce NSF's leadership in basic science and 
engineering and allow us to preserve America's preeminence in the 
global technology economy.
    In this year's proposed budget, funding levels increase for every 
major NSF appropriations account. Research and Related Activities 
investments increase by 16 percent, and our Education and Human 
Resources account is increased by 8.9 percent. We need rapid progress 
in these areas to stimulate the discoveries in research we need to 
maintain our standing in the global marketplace, and to keep our 
students engaged and ready to perform in the global workforce. Our 
budget includes increases for every Directorate and Office within NSF.
    Here are highlights of some of the key investments we are 
emphasizing in our 2009 budget.

Cyber-enabled Discovery and Innovation
    Cyber-Enabled Discovery and Innovation (CDI) is expected to create 
revolutionary science and engineering research results using 
``computational thinking''--thinking that encompasses all possible 
computational concepts, methods, models, algorithms, and tools. 
Computational thinking is relevant to all fields of science, 
engineering and education, and promises to have a profound impact on 
our nation's ability to generate and apply new knowledge. We expect CDI 
research to produce paradigm shifts in our understanding of a wide 
range of science and engineering phenomena, and we anticipate socio-
technical innovations to create new wealth and enhance the national 
quality of life. By investing in CDI, NSF continues its leadership in 
enabling the United States to preserve its role as the world leader in 
information technology.
    Requested Funding Level: $100 million.

Science and Engineering Beyond Moore's Law
    ``Moore's Law'' refers to the empirical observation made in 1965 by 
Intel co-founder Gordon Moore that the speed of computer processing 
based on semiconductor integrated circuits doubles about every 18 
months. With current silicon technology, we expect to reach the 
physical and conceptual limits of Moore's Law within 20 years. If we 
are ever to solve the computational challenges inherent in today's 
great scientific questions, we must find a way to take computing power 
and communications beyond Moore's Law. To get there, we'll need 
entirely new scientific, engineering, and conceptual frameworks. 
Fundamental research across many disciplines will be called upon to 
deliver the new hardware, architectures, algorithms, and software of 
the computers of tomorrow.
    Requested Funding Level: $20 million.

Adaptive Systems Technology
    Recent progress in probing the secrets of biological systems has 
been explosive. We are only just beginning to see the application of 
these new and transformational discoveries to the development of 
engineered systems, especially at the interface between human and 
machines. We call our new interdisciplinary endeavor--research at the 
convergence of human and mechanical systems--Adaptive Systems 
Technology (AST). New applications and technologies resulting from AST 
have already demonstrated substantial economic potential. Artificial 
retinas and cochlea, electronic language translators, and smart hand-
held electronics are just a handful of the products that have already 
come to market at the human-machine interface. NSF's broad portfolio 
encompasses the diverse research areas involved in this new 
interdisciplinary effort. Biologists uncover nature's progression from 
simple to complex nervous systems; physicists and chemists explain the 
fundamental processes underlying complex neural organization and 
communication pathways; mathematicians, computer scientists and 
cognitive scientists explore how systems compute; learning and 
behavioral scientists provide insights into how organisms learn and 
adapt to their environment; while engineers allow the design, analysis 
and construction of systems that mimic living nervous system networks. 
By working together, these scientists and engineers can benefit from 
the knowledge and experience of experts in other fields, developing new 
concepts through collaboration and idea-sharing.
    Requested Funding Level: $15 million.

Dynamics of Water Processes in the Environment
    This activity will build upon NSF's considerable track record on 
fundamental water research, while utilizing our unique ability to cross 
disciplinary boundaries to bring together the separate communities of 
researchers working on the varying aspects of water science. Water is 
fundamental to every economic activity in the country, and yet, we do 
not have a full understanding of the effects of human interventions and 
changing environmental conditions on the availability and quality of 
fresh water. The economic driving forces for understanding water 
processes are compelling: droughts alone cause average damages of $6 to 
$8 billion annually in the United States. Understanding water dynamics 
is also essential to understanding climate and environmental change. 
NSF's investment in Dynamics of Water Processes in the Environment will 
enhance our ability to understand complex freshwater systems at 
regional and local levels, taking advantage of advanced observation 
networks, cyberinfrastructure, and integrated databases.
    Requested Funding Level: $10 million.

National Nanotechnology Initiative
    NSF leads the U.S. nanotechnology research effort, and we remain 
strongly committed to supporting this vital emerging industry. Our goal 
is to support fundamental research and catalyze synergistic science and 
engineering research and education in emerging areas of nanoscale 
science and technology. We are also committed to research directed at 
the environmental, health, and safety impacts of nanotechnology. Novel 
materials, devices, and systems--with their building blocks designed on 
the scale of nanometers--open up new directions in science, 
engineering, and technology with potentially profound implications for 
society. With the capacity to control and manipulate matter at this 
scale, science, engineering, and technology are realizing revolutionary 
advances in areas such as individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and order-of-magnitude faster computer chips.
    Requested Funding Level: $397 million.

Climate Change Science Program
    Scientists predict that the climate of the earth is changing 
rapidly, and we have much to learn about how climate affects human 
activities, how human activities affect climate, and what we can do to 
protect human life and health in the face of disruptive climate events. 
The Climate Change Science Program (CCSP) was established in 2002 in 
response to the challenge of understanding climate and climate 
variability. Science-based knowledge is absolutely essential to our 
ability to predict the changes that are likely to take place, and 
devise informed plans to mitigate the negative impacts of climate 
change on humanity. The CCSP engages thirteen U.S. agencies in a 
concerted interagency program of basic research, comprehensive 
observations, integrative modeling, and development of products for 
decision-makers. Consistent with the fiscal year 2009 Interagency 
Implementation Priorities memo, NSF provides support for the broad 
range of fundamental research activities that form a sound basis for 
other mission-oriented agencies in the CCSP, and the nation at large.
    Building on our agency's particular strengths, NSF encourages 
interdisciplinary activities and focuses particularly on Earth system 
processes and the consequences of change. Our priorities include the 
management of enormous amount of data necessary for accurate global 
change modeling and research, the refinement and improvement of 
computational models, and the development of new, innovative earth 
observing instruments and platforms.
    Requested Funding Level: $221 million.

International Science and Engineering
    International collaboration is essential to the health of the 
nation's research enterprise. The importance of international 
partnership continues to increase as globalization ``shrinks'' our 
world. Consequently, our funding request for the Office of 
International Science and Engineering is increased by nearly 15 percent 
to $47.4 million. A major focus in our budget is the Partnerships for 
International Research and Education (PIRE) program, which increases by 
$3.0 million to $15.0 million. This program funds innovative, 
international collaborative research projects that link U.S. 
institutions and researchers at all career levels with premier 
international collaborators to work at the most promising frontiers of 
new knowledge.

Broadening Participation
    NSF remains a leader in efforts to broaden participation in science 
and engineering, so that America's science and engineering enterprise 
is as diverse as the nation from which it draws its workforce. Our 2009 
request for the Experimental Program to Stimulate Competitive Research 
(EPSCoR) program increases to $113.5 million. We are also increasing 
our request for several programs designed to reach out to 
underrepresented groups, including Alliances for Graduate Education and 
Professoriate (AGEP), the Historically Black Colleges and Universities-
Undergraduate Program (HBCU-UP), the Louis Stokes Alliances for 
Minority Participation (LSAMP), and Centers of Research Excellence in 
Science and Technology (CREST).

Enhancing Opportunities for Beginning Researchers (CAREER)
    The 2009 request provides an increase of approximately $14 million 
for funding of the CAREER program. This increase will allow us to award 
some 34 more CAREER awards than in fiscal year 2008. CAREER awards 
support exceptionally promising college and university junior faculty 
who are committed to the integration of research and education. Our 
experience with previous CAREER awardees has proven that these faculty 
become the research leaders of their respective fields, and this 
program is vital to fostering the success of emerging science and 
technology leaders.
    Requested Funding Level: $182 million.

Stewardship
    NSF's Stewardship goal, to support excellence in science and 
engineering research and education through a capable and responsive 
organization, remains a priority in the 2009 budget, with a 13 percent 
increase to $404.3 million. Our request increases the NSF workforce by 
50 staff to enable us to manage our growing and increasingly complex 
workload. Investments in information technology (IT) increase by 32 
percent to $82.0 million, with an emphasis on increasing the 
efficiency, productivity, and transparency of NSF's business processes. 
In this request, NSF's IT portfolio is realigned to tie funding for 
mission-related activities more directly to NSF's programs.
    Requested Funding Level: $404 million.

Major Research Equipment and Facilities Construction (MREFC) account
    NSF will continue to support a portfolio of ongoing projects in the 
Major Research Equipment and Facilities Construction account (MREFC), 
including the Atacama Large Millimeter Array, Ice Cube, and Advanced 
LIGO.
    The Foundation continues to be committed to the Alaska Regional 
Research Vessel (ARRV), the National Ecological Observatory Network 
(NEON), and the Ocean Observatories Initiative (OOI). However, in 
keeping with new NSF policies, Administration and Congressional 
mandates, and guidance from the National Science Board, NSF has adopted 
more stringent budget and schedule controls to improve our stewardship 
of taxpayer dollars. We are postponing requests for additional funding 
for those projects until they have undergone a final design review, 
completed a risk management plan, and developed a rigorous baseline 
budget, including carefully considered contingencies.
    NSF's MREFC portfolio includes late-stage design-phase funding for 
the proposed Advanced Technology Solar Telescope (ATST), which if 
carried into the construction phase would be the first large U.S. solar 
telescope built in the past 30 years. ATST would reveal critical 
information needed to explore crucial mysteries such as: What are the 
mechanisms responsible for solar flares, coronal mass ejections and 
space weather, with their associated impact on satellites, 
communications networks, and power grids? What are the processes that 
cause solar variability and its impact on the Earth's climate and 
evolution? The ATST project is managed by the National Solar 
Observatory, which administers the world's leading collection of solar 
telescopes.
    Requested Funding Level: $2.5 million.

                           CONCLUDING REMARKS

    Madam Chairwoman, I've touched on just a handful of programs found 
in NSF's diverse and vibrant portfolio. NSF's research and education 
activities support the nation's innovation enterprise. America's 
present and future strength, prosperity and global preeminence depend 
directly on fundamental research. This is not merely rhetoric; the 
scientific and economic record of the past 30 years is proof that an 
investment in R&D is an investment in a secure future.
    NSF may not be the largest agency that funds science and 
engineering research, but our size serves to keep us nimble. Our 
portfolio is continually evolving as we identify and pursue new 
research at the frontiers of knowledge. An essential part of our 
mission is to constantly re-think old categories and traditional 
perspectives. This ability is more important than ever, as conventional 
boundaries constantly shift and disappear--boundaries between nations, 
between disciplines, between science and engineering, and between what 
is basic and what is applied. NSF, with its mandate to support all 
fields of science and engineering, is uniquely positioned to meet the 
needs of researchers exploring human knowledge at these interfaces, 
whether we're organizing interdisciplinary conferences, enabling cyber-
sharing of data and information, or encouraging new collaborations and 
partnerships across disciplinary and national borders. No other 
government agency comes close to our flexibility in STEM education and 
basic research.
    In today's high-tech economy, the supply of new jobs is 
inextricably linked to the health of the nation's innovation endeavor. 
NSF is involved in all aspects of innovation; NSF not only funds the 
discoveries that directly become the innovations of tomorrow, we also 
fund discoveries that lead to still more discoveries that lead to the 
innovations of tomorrow, and, perhaps most critically, we train the 
technologists who dream up the discoveries that lead to the discoveries 
and innovations of tomorrow.
    Industry increasingly relies on government support for high-risk, 
high-reward basic research. If we fail to provide adequate support of 
the technological sector now, we may well reduce our own economic 
security. It is no accident that our country's most productive and 
competitive industries are those that benefited the most from sustained 
federal investments in R&D--including computers and communications, 
semiconductors, biotechnology, and aerospace.
    As we look to the century ahead of us, we face the reality that the 
other nations in this world are eager to create jobs and robust 
economies for their citizens. In this context, ``globalization'' is 
shorthand for a complex, permanent, and challenging environment that 
calls for sustainable, long-term responses, not just short-term fixes. 
Regardless of our action or inaction as a nation, the world is full of 
highly motivated and increasingly skilled workers who are working hard 
to improve their economic standing and well-being. We can either 
innovate, and keep our economic prosperity, or stagnate, and suffer the 
consequences of inaction.
    Despite some of the more pessimistic forecasts of some observers, I 
believe that America can continue to be on the leading edge of ideas 
and research. Through strong federal leadership, we can maintain the 
standing of our businesses and universities. We must not only maintain 
our position, we must actively seek to increase our strengths: 
leadership in fundamental discovery, including high-risk, high-reward 
transformational research, state-of-the-art facilities and 
infrastructure, and a world-class S&E workforce. With a firm commitment 
to these fundamental building blocks of our high-tech economy, we can 
solidify America's role as the world leader in innovation.
    Madam Chairwoman and members of the Committee, I hope that this 
brief overview has given you a taste of just how very important the 
National Science Foundation and its activities are to the future 
prosperity of the United States. I look forward to working with you in 
months ahead, and I am happy to answer any questions you may have.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                             STEM EDUCATION

    Question. Statistics show that women earn half of the bachelors 
degrees in science and engineering, yet continue to be significantly 
underrepresented in academic science and engineering careers 
(constituting 29 percent of doctoral science and engineering faculty in 
four-year colleges and universities and only 18 percent of full 
professors).
    Why was ADVANCE the one program at NSF designed specifically to 
increase the participation and advancement of women in academic science 
and engineering careers cut in the fiscal year 2009 request?
    Answer. The ADVANCE Program is an integral part of NSF's 
multifaceted strategy to broaden participation to help realize a 
diverse science and engineering (S&E) workforce. The program supports 
the critical role of the Foundation in advancing the status of women in 
academic S&E. ADVANCE is an NSF-wide activity and its success depends 
upon the cooperation, dedication, and coordinated action of 
directorates and offices from across the Foundation. EHR, where the 
ADVANCE Program now resides, supports several of the Foundation's 
flagship broadening participation programs and is well positioned to 
undertake this coordination. EHR's increased investment in fiscal year 
2009 in ADVANCE serves to offset slightly the reduction from the 
Research and Related Activities account.
    Question. NSF requests an overall increase in its fiscal year 2009 
budget of 13 percent, yet the six primary programs that it utilizes to 
advance the goal of increasing diversity in the science and engineering 
workforce are only increased a combined 7 percent.
    Why isn't NSF prioritizing the advancement of women and minorities 
in the fields of science and engineering as much as research grants?
    Answer. A seven percent increase--far higher than the average 
increase for discretionary programs--shows NSF's strong support for 
these programs. NSF remains committed to broadening participation in 
science, technology, engineering and mathematics (STEM) disciplines. 
While the following six programs are flagship efforts within the HRD 
Division in support of diversity, there are other programs at NSF that 
support this goal. Alliances for Graduate Education & the Professoriate 
(AGEP); Centers for Research Excellence in Science and Technology 
(CREST); Historically Black Colleges and Universities-Undergraduate 
Program (HBCU-UP); Louis Stokes Alliances for Minority Participation 
(LSAMP); Research on Gender in Science and Engineering (GSE); and 
Tribal Colleges & Universities Program (TCUP).
    Other programs located in the EHR Directorate that focus on 
diversity entirely or include it as a key component. They are: Research 
in Disabilities Education (RDE); Presidential Awards for Excellence in 
Science, Mathematics and Engineering Mentoring (PAESMEM); Scholarships 
in Science, Technology, Engineering and Mathematics (S-STEM); Graduate 
Teaching Fellows in K-12 Education (GK-12); Robert Noyce Teacher 
Scholarship Program (NOYCE); and Math and Science Partnerships (MSP) 
Program.
    Finally, several NSF programs focus on diversity as key components 
of workforce development: ADVANCE; Opportunities for Enhancement of 
Diversity in the Geosciences; Integrative Graduate Education Research 
Traineeship Program (IGERT); Graduate Research Fellowships (GRFs); 
EPSCoR (which focuses on broadened geographic diversity); Broadening 
Participation in Computing; and Broadening Participation in the 
Biological Sciences.
    In addition, many NSF-supported centers conduct education and 
outreach efforts to increase interest in STEM. Some of these are aimed 
specifically at groups underrepresented in science and engineering.
    Given the scope and complexity of Foundation-wide programs, NSF is 
currently developing a plan to coordinate ongoing STEM efforts to 
increase the participation of underrepresented groups as a core 
practice.
    Question. The fiscal year 2008 omnibus urged NSF to begin focus on 
broadening Hispanic participation rates in science and engineering. 
What is NSF doing to increase Hispanic participation?
    Answer. NSF appreciates the omnibus conference language encouraging 
the agency to broaden Hispanic participation throughout STEM 
disciplines. In response to the America COMPETES Act, NSF established 
an internal study group to determine the most effective ways to serve 
Hispanic-serving institutions (HSIs) through our existing programs and 
to consider the creation of a designated HSI program. We are in the 
process of gathering best practices from existing programs and 
scholarly research to complement current NSF program investments and to 
inform future programmatic directions regarding HSIs.

                              STEWARDSHIP

    Question. How does the new ``no-cost over run'' policy impact the 
Alaska Research Vessel, NEON, and the ocean observatory initiative?
    Answer. NSF expects the lead organizations for these projects to 
develop firm plans, budgets, risk assessments, and schedules for 
accomplishing the proposed activities prior to making any further 
request to Congress for construction funding. NSF will conduct Final 
Design Reviews (FDR) for all three projects, utilizing experts in all 
of the major technical, management, and administrative areas, to assure 
that these plans, budgets, risk assessments, and schedules are 
credible. Only after successful completion of these reviews will NSF 
make a request for further construction funding. The impact to these 
projects is that there will be confidence that they will accomplish 
what they propose within the envelope of requested construction 
funding, recognizing that required funding and schedules will be 
different than was previously presented in NSF budget requests.
    Question. Will NSF submit a revised budget if the University of 
Alaska presents an acceptable schedule and budget for the Alaska 
Research Vessel under the new policy?
    Answer. As is noted above, all future funding requests for the ARRV 
construction depend on the project successfully completing the final 
design review. Now that the FDR is a requirement, the current ARRV 
project plan is to complete the FDR process in time for consideration 
by the next Administration in the fiscal year 2010 budget request.
    Question. Congress provided total appropriations of $115 million 
between fiscal year 2005 and fiscal year 2007 for the Scientific Ocean 
Drilling ship. The ship is currently under construction in Singapore as 
no U.S. shipyard bid on the project.
    What special steps has NSF done to maintain oversight of this 
project given that it is on the other side of the world?
    Answer. NSF has taken a number of specific steps to maintain 
oversight of the SODV project. These steps are intended to ensure 
ongoing communication with the project team in Singapore and to address 
the rapidly changing climate in the shipbuilding industry.
    NSF has overseen the installation in Singapore of an experienced 
on-site project team, skilled in all aspects of ship construction and 
outfitting, to oversee, facilitate, and monitor progress. The on-site 
personnel are in daily communication with their stateside counterparts, 
and report regularly to NSF.
    NSF staff members have made many visits to Singapore to confer with 
those directly involved in the refit of the ship, and to see first-hand 
the activity and progress that have occurred. Except for the greater 
travel distances involved, these oversight activities are similar to 
what would be done if the work were done at a closer location.
    In addition to issues related to the location of the SODV refit, 
other issues relate to difficulties in managing the rapidly changing 
business climate in the shipbuilding industry. With a budget profile 
that allowed the SODV to enter the shipyard in 2007, rapid cost 
escalations meant that the original plan to extend the SODV was not 
financially feasible. The project team, led by the Joint Oceanographic 
lnstitutions' (JOI) Division of the Consortium for Ocean Leadership 
(COL) did not have ready a robust design for a refit within the 
existing hull, and time was needed to prepare one. In response to NSF 
concerns, COL has ensured involvement of, and buy-in from, the 
scientific ocean drilling community in the rescoped plans for the SODV 
refit; overseen augmentation of, and changes to, the senior on-site 
project management team; and led planning for the final stages of 
construction and outfitting. NSF has requested and received from COL a 
Corrective Action Plan to ensure maximum efficiency and benefit to NSF 
in these final stages of the project.
    Question. Has the weakness in the U.S. dollar adversely impacted 
the completion of the ship?
    Answer. The effect of the weak U.S. dollar has been relatively 
small compared to the overall project budget of $115 million. The 
shipyard work is being done under a fixed price contract in U.S. 
dollars, and much of the ancillary science equipment is of U.S. origin. 
There have been negative impacts, however, due to the roughly 9 percent 
decline in the United States vs. the Singapore dollar, which has made 
it somewhat more expensive to maintain the necessary U.S. oversight 
team in Singapore during the refit activity.
    Question. In the latest Semiannual Repot to Congress, the NSF 
Inspector General notes that the Large Facilities Office is not 
adequately staffed to handle it increasing responsibilities for 
oversight.
    Do you plan to hire additional staff for this office?
    Answer. NSF was able to add one additional person to the Large 
Facilities Office (LFO) in the last year, which has been very helpful. 
With a large number of ongoing and upcoming MREFC projects, we 
recognize the need to have the necessary internal resources available. 
The fiscal year 2009 budget includes funding for at least one 
additional FTE for the LFO, and we will allocate additional FTEs and 
financial resources as needed. We also engage outside project 
management expertise on a contract basis as needed.
    Directorates involved in detailed planning or implementation for 
MREFC projects are also expected to provide the more specialized 
technical expertise that is closely matched to the needs of individual 
MREFC projects. This complements the capabilities of the LFO.
    Question. If not, what other methods will you use to provide the 
additional oversight that is needed?
    Answer. NSF continues to provide training opportunities to Program 
Officers to inform them of project management issues, and NSF and NSB 
are also examining ways that earlier NSB review and analysis of 
potential future large projects could strengthen NSF's oversight.

                            CLIMATE RESEARCH

    Question. A recent GAO study of federal climate research at DOE, 
NASA, NSF, and NOAA examined how to make research data more widely 
available to research community. While some of the data generated by 
this research are stored in online achieves most remains in a less 
accessible format with individual researchers. GAO recommended that 
agencies develop additional archiving strategies.
    What is the current policy with regard to the sharing of data at 
NOAA and NSF?
    Answer. Data-sharing plans are an important consideration during 
both the peer review of proposals and subsequently in the award 
decision process. The NSF has a standing agency-wide data policy 
requiring free (other than duplication costs) and open access to data 
collected with NSF support. Most directorates have more detailed 
guidelines and terms designed specifically for the types of data 
normally collected in the research disciplines they support and may 
include specific requirements as part of their formal proposal 
solicitations.
    Question. What are NSF and NOAA doing to address these GAO 
recommendations?
    Answer. A large portion of the data collected routinely that is 
relevant to the Climate Change Science Program is obtained by various 
mission agencies (National Oceanic and Atmospheric Administration--
National Oceanographic Data Center and National Climate Data Center, 
U.S. Geological Survey, United States Department of Agriculture, 
National Aeronautics and Space Administration, etc.), which support 
national archives, and much of the data collected as part of NSF's 
research efforts is ultimately stored in such archives. For example, 
much of the paleoclimate data are stored in the World Data Center for 
Paleoclimatology run by NOAA in Boulder, CO, although some resides in 
the National Lacustrine Core Repository at the University of Minnesota. 
Data from process studies may be stored at agency archives or at 
facilities serving the broader community such as the National Center 
for Atmospheric Research (NCAR). In addition, data are stored in 
personal archives maintained by NSF Principal Investigators at their 
home institutions.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                           POLAR ICEBREAKERS

    Question. Does the funding arrangement for the polar icebreakers 
allow for adequate maintenance of the polar ice breaking fleet and the 
training/proficiency of Coast Guard crews?
    Answer. Yes, assuming that our budget requests are fully 
appropriated. Under the terms of the USCG-NSF Memorandum of Agreement, 
the USCG provides budget estimates for inclusion in the President's 
budget request. NSF and USCG develop the annual program plan that 
supports operation and maintenance of the icebreakers.
    Question. Did the National Science Foundation request funding this 
year to keep the Polar Star in care-taker status? Why did NSF opt to 
lease a foreign icebreaker rather than use the Polar Sea for this 
year's Antarctic mission?
    Answer. NSF did not request funding to keep the Polar Star in 
caretaker status.
    The Swedish icebreaker Oden was used instead of Polar Sea for 
several reasons. The Oden offers far superior capabilities for 
scientific research and the deployment enabled U.S. scientists to 
conduct research in the Southern Ocean that would otherwise have been 
impossible. In addition, using the Polar Sea for the Antarctic mission 
would have mandated subsequent dry dock maintenance and repair costs of 
approximately $5 million. Under our agreement for the Oden, our costs 
were strictly limited to those for operations. Finally, using Oden in 
Antarctica enabled us to keep Polar Sea in reserve in the North for any 
emergency Arctic duty. We should note also that the arrangement for use 
of the Oden was a government-to-government agreement and not an 
arrangement between NSF and a foreign firm.
    Question. Do you see a strategic national interest in the Arctic 
beyond your science mission?
    Answer. Other federal agencies are more qualified than NSF to 
address needs beyond those required to support scientific research. 
With decreasing ice cover in the Arctic there would seem to be a strong 
potential for an increased range of activities in the Arctic Ocean, 
including shipping and resource exploration, but a better understanding 
of why climate change is affecting different parts of the Arctic 
differently, and differently in different seasons, will be needed 
before these activities can proceed with confidence.
    Question. Does the National Science Foundation intend to fund a 
Polar Sea Arctic mission this year in order to allow the Coast Guard 
icebreaking crew to maintain its competency?
    Answer. Yes. The Polar Sea is currently underway in the Arctic, 
conducting crew training, USCG missions (including community liaison 
and law enforcement), and science of opportunity.

                     ALASKA REGION RESEARCH VESSEL

    Question. I understand construction funding for the Alaska Region 
Research Vessel was not included in the President's fiscal year 2009 
budget.
    This vessel will replace NSF's recently de-commissioned R/V Alpha 
Helix and offer great opportunities to study the coastal and open ocean 
waters of the Alaska region.
    What are your goals for completing construction of the vessel and 
what can we do to assist you in expediting the process?
    Answer. NSF's goals for completing construction are:
  --NSF will conduct a Final Design Review (FDR) this fall to validate 
        the technical design, budget, and proposed schedule for the 
        ship. The FDR's validated cost and schedule will be used to 
        formulate the fiscal year 2010 budget request under the next 
        Administration.
  --The shipyard evaluation and bidding process will commence following 
        FDR.
  --We expect shipyard construction to require 30 months or more, 
        followed by 6-12 months of sea trials and commissioning, 
        overlapping with the first scientific activities.
    We appreciate your offer of assistance and you and your colleagues' 
continued support for the Foundation's programs. In particular, your 
efforts to date with the University of Alaska to convey NSF's policies 
and the need for a rigorous pre-construction planning process have been 
especially valuable. We look forward to continuing to work with you as 
the fiscal year 2009 and subsequent budgets are considered.
                                 ______
                                 
                       NONDEPARTMENTAL WITNESSES

 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program

    The Regional Information Sharing Systems (RISS) Program 
respectfully requests that Congress appropriate $52.7 million for 
fiscal year 2009 to continue RISS's support in combating violent crime, 
criminal gangs, terrorist activity, illegal drug trafficking, organized 
criminal activity, human trafficking, identity theft, and other 
regional criminal priorities and promoting officer safety.
    RISS has been at the forefront in paving the way so that law 
enforcement, public safety, and private sector partners can share 
information and receive critical investigative and technical 
assistance. The fiscal year 2008 budget request to Congress stated that 
RISS has emerged as one of the Nation's most important law enforcement 
intelligence sharing networks and continues to support efforts to 
expand and improve information sharing.
    RISS, which dates back to the 1970s, not only offers secure 
communications, access to intelligence databases, and investigative 
resources to law enforcement and public/private partners but also 
provides services to enhance and improve the ability to detect crime, 
apprehend offenders, and successfully prosecute individuals. These 
services include information sharing, analytical support, equipment 
loans, confidential funds, field staff support, technical support, 
training, research, publications, and officer safety. In many cases, 
these are services that criminal justice agencies would not have access 
to without the support of RISS.
    RISS is a federally funded, nationwide program supporting local, 
State, Federal, and tribal law enforcement and prosecution efforts with 
membership in all 50 States, the District of Columbia, United States 
territories, Australia, Canada, and England. RISS operates on a 
national basis but provides support regionally through its six 
intelligence centers, which support and serve the unique needs of their 
regions. The six RISS centers and the areas that they serve are:
  --Middle Atlantic-Great Lakes Organized Crime Law Enforcement Network 
        (MAGLOCLEN).--Delaware, District of Columbia, Indiana, 
        Maryland, Michigan, New Jersey, New York, Ohio, and 
        Pennsylvania, as well as Australia, Canada, and England.
  --Mid-States Organized Crime Information Center (MOCIC).--Illinois, 
        Iowa, Kansas, Minnesota, Missouri, Nebraska, North Dakota, 
        South Dakota, and Wisconsin, as well as Canada.
  --New England State Police Information Network (NESPIN).--
        Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, 
        and Vermont, as well as Canada.
  --Regional Organized Crime Information Center (ROCIC).--Alabama, 
        Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
        North Carolina, Oklahoma, South Carolina, Tennessee, Texas, 
        Virginia, and West Virginia, as well as Puerto Rico and the 
        United States Virgin Islands.
  --Rocky Mountain Information Network (RMIN).--Arizona, Colorado, 
        Idaho, Montana, Nevada, New Mexico, Utah, and Wyoming, as well 
        as Canada.
  --Western States Information Network (WSIN).--Alaska, California, 
        Hawaii, Oregon, and Washington, as well as Canada and Guam.
    RISS acts as a force multiplier, enhancing the ability of criminal 
justice agencies to identify, target, and remove criminal conspiracies 
and activities spanning multijurisdictional, multistate and, sometimes, 
international boundaries. RISS facilitates the seamless exchange of 
information among agencies pertaining to known suspected criminals or 
criminal activity and enhances the coordination and communication among 
agencies that are in pursuit of criminal conspiracies determined to be 
interjurisdictional in nature.
    There is an increasing communications sophistication by criminal 
networks and a rising presence of organized and mobile narcotics crime 
as well as a resurgence of gang activity occurring across the nation. 
Interagency cooperation in sharing information has proven to be the 
best method to combat this increasing criminal activity. The RISS 
centers fill law enforcement's need for rapid, but controlled, sharing 
of information and intelligence through their unique structure, 
versatility, flexibility, and diverse services. Congress funded the 
RISS Program to address this need, as evidenced by its authorization in 
the Anti-Drug Abuse Act of 1988.
    The Bureau of Justice Assistance (BJA) administers RISS and has 
established guidelines for the delivery of RISS services. RISS is 
subject to oversight, monitoring, and auditing by the United States 
Congress; the United States Government Accountability Office; the 
United States Department of Justice (DOJ), BJA; and local and State 
governmental units. BJA also monitors RISS for 28 Code of Federal 
Regulations (CFR) Part 23 compliance. The 28 CFR Part 23 regulation 
emphasizes adherence to individual constitutional and privacy rights 
and places stricter controls on the RISS intelligence databases than 
those placed on most local, State, or Federal agencies. Evaluation of 
RISS continues to be positive. RISS supports and has fully operated in 
compliance with 28 CFR Part 23 since its inception. RISS firmly 
recognizes the need to ensure that individuals' constitutional rights, 
civil liberties, civil rights, and privacy interests are protected 
throughout the intelligence process. In this regard, RISS officials 
adopted a Privacy Policy to further strengthen their commitment and 
support of 28 CFR Part 23 and protection of individual privacy rights.
    In 1997, well before the attacks of September 11, 2001, RISS began 
building a national system, a secure intranet known as RISSNET. Through 
funding from Congress, RISS was able to develop RISSNET, thereby 
creating a gateway for disparate systems to connect while providing 
users with the ability to quickly query, analyze, and research data. 
Today, RISSNET is used as the system of choice for numerous law 
enforcement entities. RISSNET links thousands of law enforcement, 
criminal justice, and public safety agencies and uses state-of-the-art 
technology, such as DOJ's Global Justice Extensible Markup Language 
(XML) Data Model, to connect existing systems and networks. RISSNET 
provides the communications backbone and infrastructure for 
bidirectional sharing of investigative and intelligence information, 
offers secure sensitive but unclassified electronic communications, and 
provides controlled access to a variety of sensitive information 
resources. Over 80,000 access officers, representing hundreds of 
thousands of law enforcement officers from around the globe, are able 
to access RISSNET resources.
    Currently, more than 80 agencies are connected or pending 
connection to RISSNET. Examples include the El Paso Intelligence 
Center; the National White Collar Crime Center; Nlets--The 
International Justice and Public Safety Network; DOJ Criminal Division; 
information/intelligence networks from California, Colorado, Oregon, 
Utah, and Wyoming; and numerous other local, State, and Federal 
systems. In addition, the Executive Office for United States Attorneys 
has connected staff to RISSNET, and RISS continues to expand its 
partnership with the High Intensity Drug Trafficking Areas (HIDTA). 
Currently, 18 HIDTAs are electronically connected to RISSNET.
    In this world of changing technology and with the increased need to 
provide timely, accurate, and complete information to law enforcement 
and public safety professionals, the ability to connect systems and 
streamline the capacity to house, share, inquire, and disseminate 
information and intelligence is paramount. Through RISSNET, RISS 
provides valuable collaboration with others who have experienced 
similar crime problems or who are investigating the same or similar 
crimes. In addition, RISS offers resources and tools to additional 
users beyond the typical bounds of the law enforcement realm, which 
vastly enhances the information exchange. After 9/11, RISS recognized 
the need to expand communications to public safety entities and 
developed the Automated Trusted Information Exchange (ATIX). ATIX is a 
communications system that provides first responders, critical 
infrastructure personnel, and other public safety personnel involved in 
prevention and response efforts with the ability to share terrorism and 
homeland security information in a secure, real-time environment. In 
2007, ATIX was expanded to serve as a communications resource for both 
State sex offender registries and fusion centers.
    In 2007, RISS expanded its RISS National Gang Program, known 
collectively as RISSGang, to include a criminal intelligence database, 
a Web site, a bulletin board, secure e-mail, and gang-specific 
resources. The RISSGang database provides law enforcement agencies with 
access to gang suspects, organizations, weapons, locations, and 
vehicles, as well as visual imagery of gang members, gang symbols, and 
gang graffiti. The Web site contains valuable information, research, 
tools, and other resources, including an anonymizing filter that is 
automatically applied when a user clicks on one of the links to 
published criminal gang Web sites. This tool removes the ability of the 
target Web sites to identify officers.
    RISS is currently in the process of developing RISSafe, an officer 
safety event deconfliction system. RISSafe will store, maintain, and 
monitor information on planned law enforcement events--such as raids, 
controlled buys, and surveillances--with the goal of identifying and 
alerting affected agencies of potential conflicts. Over 18,000 law 
enforcement officers have been killed in the line of duty; RISSafe will 
make a significant contribution towards enhancing officer safety and 
supporting criminal investigations.
    RISS partners with a number of criminal justice organizations and 
fosters a collaborative information sharing environment. RISS partnered 
with the United States Drug Enforcement Administration and HIDTAs to 
create the National Virtual Pointer System (NVPS). NVPS is an automated 
system that connects existing deconfliction pointer databases into one 
virtual pointer system. RISS also partnered with Project Safe 
Neighborhoods, which submits data to the RISS intelligence databases 
for the purpose of reducing gun violence. The Operation Respond 
Institute electronically connected its Operation Respond Emergency 
Information System, which provides critical information on railroads 
and other transportation industries, to RISSNET.
    RISS is working with DOJ and the United States Department of 
Homeland Security (DHS) on the Counterterrorism Collaboration 
Interoperability Project (CCIP), which provides participating systems 
with the ability to publish documents for access by authorized users of 
other participating systems via Really Simple Syndication (RSS) feeds. 
This project has been recognized as a model for agencies to share 
information, as required by Presidential Executive Order 13388, 
Strengthening the Sharing of Terrorism Information to Protect 
Americans.
    Throughout 2007, RISS continued to support a number of initiatives 
to enhance information sharing, including the Dru Sjodin National Sex 
Offender Public Website and the National Criminal Intelligence Resource 
Center. RISS represents the core of collaboration and constantly seeks 
out and fosters new and existing partnerships in order to maximize the 
Nation's information sharing environment.
    RISS's partnerships and efforts have resulted in an unprecedented 
level of information and intelligence sharing. As a result, it is 
critical to ensure that the information is secure and available only to 
authorized users. RISSNET protects information through encryption, 
Internet protocol security standards, and firewalls to prevent 
unauthorized access. In addition, the criminal intelligence information 
accessed through RISSNET is controlled by its local, State, Federal, 
and tribal law enforcement member agency owners. RISS continues to 
evolve and expand, utilizing the latest technology to meet the needs of 
law enforcement member agencies.
    In 2006, RISS embarked on the RISSNET 2007 initiative to streamline 
RISS users' access to RISSNET resources. This project enhances the 
security and accessibility of RISSNET and allows for compatibility and 
interoperability of existing systems' infrastructures to leverage and 
expand information and intelligence sharing systems. RISSNET 2007 
consists of three main components--the RISSNET Portal, Secure Sockets 
Layer (SSL) authentication technology, and the Trusted Credential 
Project (TCP). The RISSNET Portal was launched in 2007 and provides 
authenticated users with one entry point for RISSNET, providing access 
to all RISSNET resources from one location. In addition, the Portal 
creates additional security layers that protect RISSNET resources and 
provides ease of access by RISS members to permitted resources. SSL is 
a widely implemented Internet browser-based technology used to transmit 
encrypted data between a Web server and a Web browser by creating a 
secure virtual connection between the browser and the server. SSL 
technology is supported by all major Internet browsers and is a 
maturely developed standard for the secure transmission of sensitive 
information. Finally, TCP seeks to identify industry-leading 
technologies for user authentication and access control and will 
develop, test, and demonstrate methods to recognize and accept 
credentials in addition to those currently used on RISSNET. These three 
projects work in unison and represent the natural next steps for 
enhancing RISS technology and service to its members.
    The RISSNET architecture is referenced and recommended in the 
General Counterdrug Intelligence Plan (GCIP) and is endorsed by the 
National Criminal Intelligence Sharing Plan (NCISP). RISS has embraced 
and integrated the recommendations contained in the NCISP and continues 
to foster similar integration among its member agencies. In addition, 
RISS has embraced the Fusion Center Guidelines developed by DOJ and DHS 
and continues to build relationships with fusion centers. RISS 
developed a Fusion Center Partnership Strategy that integrates RISS 
services and tools into fusion center operations and has signed a 
Resolution in support of fusion centers. RISS has provided analysts to 
fusion centers, participated on fusion center advisory boards, provided 
RISSNET connectivity to fusion centers, and continues to work with 
fusion center leadership to tailor RISS services to their needs.
    RISS is one of three systems promoted by DOJ's Law Enforcement 
Information Sharing Program (LEISP) Strategy and is the only nonfederal 
entity participating in the LEISP process. RISS has also begun 
exploring opportunities to meet the needs of the recently published 
National Information Sharing Strategy.
    RISS's services and tools directly benefit detectives and 
investigative units within local, State, regional, Federal, and tribal 
criminal justice entities, making RISS a comprehensive and universal 
program. RISS delivers more that 20,000 analytical products annually 
and trains more than 68,000 officers each year. RISS's field staffs 
conducted over 27,000 on-site visits to member agencies last year to 
train, support, and help integrate RISS services. This one-on-one 
support has resulted in trusted relationships and a network prized 
among its members. These services are what make RISS a unique and 
valued program.
    The success of RISS has been acknowledged and vigorously endorsed 
by the International Association of Chiefs of Police as well as other 
national law enforcement groups, such as the National Sheriffs' 
Association and the National Fraternal Order of Police.
    In view of today's increasing demands on local, State, Federal, and 
tribal law enforcement budgets, requests for RISS services have risen. 
RISS's support has had a dramatic impact on the success of numerous 
investigations. By providing timely and accurate intelligence 
information, the RISS centers have greatly enhanced law enforcement's 
ability to more effectively dismantle criminal organizations. The 
results of these successes can be measured in the number of violent 
career criminals that are removed from our communities and the 
reduction of illicit drugs that are available to our young people. 
During the 3-year period of 2005-2007, RISS generated a return by 
member agencies resulting in 15,000 arrests, narcotics seizures valued 
over $113 million, and seizures of over $51 million in currency and/or 
recovered or seized property.
    It is respectfully requested that Congress appropriate $52.7 
million for fiscal year 2009 to continue RISS's efforts in combating 
crime and terrorism. Local and State law enforcement depend on RISS for 
information sharing, investigative support, and technical assistance 
and are increasingly competing for decreasing budget resources. It 
would be counterproductive to require local and State RISS members to 
self-fund match requirements, as well as to reduce the amount of BJA 
discretionary funding. Local and State agencies require more, not less, 
funding to fight the Nation's crime problem. RISS cannot make up the 
decrease in funding that a match would cause, and it has no revenue 
source of its own. Cutting the RISS appropriation by requiring a match 
should not be imposed on the program.
    Funding is requested to support the increased needs of law 
enforcement and public safety entities, to maintain RISSNET, and to 
meet the demand for RISS services and resources. These funds will 
enable RISS to continue services to law enforcement agencies to 
identify, target, prosecute, and remove criminal conspirators involved 
in terrorism and other crimes that span multijurisdictional boundaries. 
In addition, RISS will utilize increased funds to:
  --Deploy RISSafe on a nationwide scale and integrate RISSafe with 
        intelligence systems and other deconfliction systems.
  --Expand the existing RISSGang Program by developing and implementing 
        online gang-related training programs and minimum standards for 
        such training programs.
  --Develop and implement a gang deconfliction system.
  --Coordinate and host a regional/and or national gang conference.
  --Expand fusion center partnerships by connecting fusion centers, 
        providing bidirectional sharing, and offering technical on-site 
        assistance.
  --Expand RISS ATIX to accommodate the growing number of public and 
        private sector entities requiring secure communications.
  --Upgrade and maintain the RISSNET infrastructure. Upgrade hardware, 
        operating systems, and portal framework software for the 
        RISSNET Portal.
  --Implement the Trusted Credential Project.
    RISS is grateful for this opportunity to provide the committee with 
this testimony and appreciate the support this committee has 
continuously provided to the RISS Program. (See Attachment A)

        ATTACHMENT A.--THE REGIONAL INFORMATION SHARING SYSTEMS

    Each RISS center offers basic services to member agencies. 
Traditional services include information sharing, analysis, 
investigative support, equipment loans, confidential funds, training, 
and technical assistance.
    Information Sharing.--The operation of RISSNET and its various 
applications enhances information sharing and communications among RISS 
members by providing various secure databases and investigative tools. 
Each RISS center develops and provides access to specialized 
information sharing systems for use by its member agencies.
    Analysis.--RISS center personnel create analytical products for 
investigative and prosecutorial use. These products include highly 
complex and specialized flowcharts, link-analysis charts, crime scene 
diagrams, telephone toll analysis reports, and financial analysis 
reports and provide computer forensics analysis. Staff members also 
provide video and audio enhancement services.
    Investigative Support.--Each center maintains a staff of 
intelligence technicians that support member agencies with a variety of 
investigative assistance. Staff members conduct database searches, 
utilize all RISS applications, and process batch uploads. Intelligence 
technicians respond to thousands of requests and questions.
    Equipment Loans.--Pools of specialized and surveillance equipment 
are available for loan to member agencies for use in support of 
multijurisdictional investigations.
    Confidential Funds.--Member agencies may apply for funds to 
purchase information, contraband, stolen property, and other items of 
an evidentiary nature or to provide for other investigative expenses 
related to multijurisdictional investigations. The availability and use 
of confidential funds are strictly controlled by Federal guidelines, 
and internal policies and procedures are developed by each center.
    Training and Publications.--RISS centers sponsor or cosponsor 
meetings and conferences that build investigative expertise for member 
agency personnel. Subject areas include anti-terrorism, crime-specific 
investigative and surveillance techniques, specialized equipment, 
officer safety, and analytical techniques. In addition, each center 
researches, develops, and distributes numerous publications, such as 
bulletins, flyers, and criminal intelligence publications.
    Technical Assistance.--RISS field service coordinators provide 
technical assistance to member agencies to facilitate delivery of RISS 
services. This personal interaction with member agencies significantly 
improves information sharing and ensures that member agencies are 
provided with quality and timely service.
    Centers also offer additional services based on regional and member 
agency needs.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission

    Thank you for the opportunity to submit our testimony to this 
Committee to provide our funding requests on the Department of Commerce 
fiscal year 2009 appropriations. My name is Billy Frank, and I am the 
Chairman of the Northwest Indian Fisheries Commission (NWIFC). The 
NWIFC is made up of the twenty Tribes party to the United States vs. 
Washington litigation. The NWIFC supports an increase in funding over 
that proposed by the Administration for both the NOAA Fisheries and the 
NOAA-National Ocean Service (NOS) budgets. These budgets should, at a 
minimum, be that of the fiscal year 2006 enacted levels, with 
additional monies as described below that support key Federal and State 
partnerships with the twenty (20) Treaty Indian Tribes in Western 
Washington.

           SUMMARY OF FISCAL YEAR 2009 APPROPRIATIONS REQUEST
                        NWIFC SPECIFIC REQUESTS

    $110 million for the Pacific Coastal Salmon Recovery Fund with a $9 
million allocation for the twenty affected Treaty Tribes and the 
Northwest Indian Fisheries Commission in Western Washington for their 
management responsibilities (NOAA/National Marine Fisheries).
    $3.17 million for the Tribal Ocean Ecosystem Initiative (NOAA/
National Ocean Service).

                       JUSTIFICATION OF REQUESTS

$110 million for the Pacific Coastal Salmon Recovery Fund with a $9 
        million allocation for the twenty affected Treaty Tribes in 
        Western Washington and the Northwest Indian Fisheries 
        Commission
    The Pacific Coastal Salmon Recovery Fund (PCSRF) is a multi-state, 
multi-tribe program established by Congress in fiscal year 2000 with a 
primary goal to help recover wild salmon throughout the Pacific 
Northwest and Alaska. The PCSRF seeks to aid the conservation, 
restoration and sustainability of Pacific salmon and their habitats by 
financially supporting and leveraging local and regional efforts. 
Recognizing the need for flexibility among Tribes and the States to 
respond to salmon recovery priorities in their watersheds, Congress 
earmarked the funds for salmon habitat restoration, salmon stock 
enhancement, salmon research, and implementation of the 1999 Pacific 
Salmon Treaty Agreement, as well as related agreements. PCSRF is making 
a significant contribution to the recovery of wild salmon throughout 
the region.
    The Tribes' objectives for use of the PCSRF is to restore and 
protect essential habitat that promotes the recovery of ESA listed 
Puget Sound Chinook, Hood Canal Summer chum, Puget Sound steelhead, 
Lake Ozette sockeye, and other salmon populations in the Puget Sound 
and Washington Coast. These species are essential for Western 
Washington Tribes to exercise their treaty-reserved fishing rights 
consistent with U.S. vs. Washington and Hoh vs. Baldrige. These funds 
will support policy and technical capacities within Tribal resource 
management departments to plan, implement, and monitor recovery 
activities.
    Since the program's inception, Pacific Coastal Tribes, including 
the 20 Treaty Tribes in Western Washington, have used PCSRF monies to 
remove 79 fish passage barriers--open access to 47 stream miles; 
restore 282 miles of instream habitat; restore 747 acres and 113 stream 
miles of riparian habitat; restore 129 acres of wetland habitat and 
protect 288 acres of habitat through land acquisition, easement or 
lease. The Tribes are also using these funds to implement the recovery 
plan for ESA-listed Puget Sound Chinook recently approved by NOAA.
    Unfortunately, the PCSRF monies have decreased over the past few 
years from the original amount of $110 million that was appropriated in 
2000 to $67 million in 2008. In the fiscal year 2009 budget proposal 
the Administration seeks to further decrease funding to $35 million for 
this very important program. The Tribes originally were slated to 
receive 10 percent of the overall amount, but with the declining base, 
the Tribal amount has dwindled precipitously. Restoration of these 
monies to the $110 million level will support the original intent of 
Congress and enable the Federal government to fill its obligations to 
salmon recovery and the Tribes.

$3.17 million for Tribal Ocean Ecosystem Initiative from the National 
        Ocean Service
    The Hoh River Tribe, Makah Tribe, Quileute Tribe, and the Quinault 
Indian Nation have deep connections to the marine resources off the 
coast of Washington. They have pioneered cooperative partnerships with 
the State of Washington and the Federal government in an effort to 
advance the management practices in the coastal waters. However, to be 
an effective partnership, the Tribes and their partners need additional 
funding. These requests are as follows:

            Intergovernmental Policy Council (IPC) $1.10 million
    The four Tribes, the State of Washington and NOAA National Ocean 
Service, through the Marine Sanctuary Program, have formed the 
Intergovernmental Policy Council (IPC). The IPC is intended to 
strengthen management partnerships through coordination and focus of 
work efforts. Through this partnership, the entities hope to maximize 
resource protection and management, while respecting existing 
jurisdictional and management authorities. While the IPC has received 
some funding from the Marine Sanctuary Program, the current funding 
does not provide for full participation in activities that will build 
the partnerships necessary to coordinate management and research 
activities within the Olympic Coast National Marine Sanctuary.
    For the IPC to continue to expand its capacity for program 
operations, technical staff participation and development of 
collaborative research efforts, long-term program funding is needed. 
The four coastal treaty Indian Tribes, the State of Washington and the 
Olympic Marine Sanctuary needs $1.10 million in fiscal year 2009 to 
support their IPC efforts to transition into an ocean ecosystem-based 
management system.
    As existing marine resource management transitions to an ecosystem-
based management approach a forum and coordinating body such as the IPC 
will need the capacity to collect and organize information that will 
propel discussions and recommendations into decisions and actions.

            Rockfish Assessment and Habitat Mapping $2.07 million
    The Hoh River Tribe, Makah Tribe, Quileute Tribe, Quinault Indian 
Nation and the state hope to conduct a five-year ocean monitoring and 
research initiative to support and transition into an ecosystem-based 
management of rockfish. The proposal would augment the National Oceanic 
and Atmospheric Administration existing Northwest Science Center trawl 
survey data with additional State and Tribal survey data from areas 
currently not sampled on the continental shelf and slope. It would also 
expand the existing groundfish port sampling program for the region. 
Both of these data sources are essential to evaluate stock status and 
abundance. Finally, it would accomplish a comprehensive assessment of 
the coastal ecosystem and its associated species groups.
    Effective management of the ocean ecosystem and its associated 
resources requires the development of baseline information against 
which changes can be measured. This initiative will expand on and 
complement existing physical and biological databases to enhance 
ecosystem-based management capabilities. In turn, this will support 
ongoing efforts by the State and Tribes to become more actively engaged 
in the management of offshore fishery resources. Transition to 
ecosystem-based management requires expansion of the current resource 
assessment surveys and ocean monitoring systems off the Olympic coast.
    Effective conservation actions for rockfish and other groundfish 
species will depend on accurate knowledge and distribution of sea-floor 
habitat types and species found within the region. The establishment of 
this finer-scale biological database is an essential step toward 
improving the region's forecasting capability of stock status and 
abundance.
    The partners hope to:
  --Conduct a comprehensive stock assessment of rockfish resources 
        found along the continental shelf and slope off the Olympic 
        coast and enhance the existing groundfish port sampling 
        efforts.
  --Convene a State, Tribal and Federal technical workgroup to develop 
        the sampling protocols and assessment methodologies necessary 
        to incorporate this additional survey information into the 
        annual Federal stock assessment and forecasting process.
  --Increase biological sampling through the expansion of State and 
        Tribal port sampling in Westport, La Push and Neah Bay to 
        ensure complete coverage of all groundfish fisheries (such as 
        sablefish, flatfish and lingcod), of which rockfish are a 
        component of the catch.
  --Complete multi-beam side-scan sonar mapping and surveying of the 
        seabed off the Olympic coast in cooperation and partnership 
        with the Olympic Coast National Marine Sanctuary.
  --Collaborate on a research plan with the Olympic Coast National 
        Marine Sanctuary and assist in completing the sonar mapping of 
        seafloor relief and substrate.
  --Develop a State and Tribal collaborative effort to address emerging 
        ecosystem management concerns such as the status and abundance 
        of deep-water coral and sponge communities that benefit the 
        entire region.
    The economic value associated with effective marine resource 
protection is huge. Not only are marine areas crucial for our natural 
resources and those that use them; they are bridges of commerce between 
nations and continents. Healthy oceans are essential if we value stable 
climates that will sustain our economies and our lives. Tribes must be 
partners in the efforts to research, clean up and restore the environs 
necessary to deal with identified problems.

                               BACKGROUND

    When our ancestors signed treaties, ceding millions of acres of 
land to the United States government, they reserved fishing, hunting 
and gathering rights in all traditional areas. These Constitutionally-
protected treaties, the Federal Trust Responsibility and extensive case 
law, including the U.S. vs. Washington Decision of 1974, all 
consistently support the role of Tribes as natural resource managers, 
on and off reservation. In Washington State, these provisions have 
developed into a generally successful co-management process between the 
Federal, State and Tribal governments. The co-management route is the 
one and only path that leads to true sustainability in our region, and 
is the tool that must be used to meet the many environmental challenges 
we face, such as polluted and over-appropriated waters, species decline 
and climate change. Treaties are nation-to-nation accords, and Tribes 
have always been outstanding natural resource managers and stewards of 
the land.
    However, the Federal government has chosen to cut funding to 
natural resource management programs over the past six years. There is 
no question that this jeopardizes the bond of trust between our 
governments. It also jeopardizes management programs and infrastructure 
critically important to co-management and to the health and vitality of 
natural resources, and the Tribal and non-tribal people they sustain. 
The timing of funding cuts could not have been worse. We are facing 
many environmental and natural resource management challenges in the 
Pacific Northwest, caused by human population expansion and urban 
sprawl, increased pollution problems ranging from storm water runoff to 
de-oxygenated or ``dead'' areas in the Hood Canal, parts of Puget Sound 
and in the Pacific Ocean. The pathway to the future is clear to us. The 
Federal, State and Tribal governments must strengthen our bond and move 
forward, together, with the determination and vigor it will take to 
preserve our heritage. Together, we must focus on the needs of our 
children, with an eye on the lessons of the past.

                              OUR MESSAGE

    Our message to you now is that achieving such objectives requires 
adequate funding. The Tribes strive to implement their co-management 
authority and responsibility through cooperative and collaborative 
relationships with the State and local communities. We constantly seek 
ways to restore and manage these precious natural resources in a manner 
that can be supported by all who live in this area. The work the Tribes 
do benefits all the citizens of the State of Washington, the region and 
the nation. But the increasing challenges I have described and the 
growing demand for our participation in natural resource/environmental 
management requires increased investments of time, energy and funding. 
Restoring and protecting these natural resources is essential to the 
economy and the quality of life that is so valued by those who live in 
the Northwest.
    We are sensitive to the budget challenges that Congress faces. We 
recognize that this Administration has greatly reduced the allocation 
to discretionary domestic spending during the last several years, which 
makes it increasingly difficult to address the many requests you 
receive. Still, we urge you to maintain and increase the allocation and 
appropriations for priority ecosystem management initiatives. The need 
for an ecosystem-based management approach for Washington's marine 
waters have come into sharp focus in recent years with major studies by 
the U.S. Commission on Ocean Policy and the Pew Charitable Trust. In 
its report, ``An Ocean Blueprint for the 21st Century,'' the Ocean 
Commission essentially concluded that the oceans are sick, and 
estimated the costs for reversing declines and restoring coasts and 
oceans nationwide at about $4 billion annually. Follow through on that 
report has obviously not approached that level of investment--and it 
might not for some time. But, for the sake of sustainable health, 
economies and the natural heritage of this resource, it is critically 
important for Congress to do more than it has, and to direct Federal 
agencies to do even more to coordinate their efforts with State and 
Tribal governments.
    As frequently attributed to Chief Seattle (Sealth), Tribes believe 
all things are connected. That is why we believe only through a 
holistic ecosystem management approach can we find success in achieving 
a healthy environment and robust natural resources. However, all of 
this requires adequate funding.

                               CONCLUSION

    Clearly, Western Washington Tribes are leaders in the Northwest 
salmon recovery effort. The Tribes possess the legal authority, 
technical and policy expertise, and effective programs to address 
impacts on wild salmon from harvest and hatcheries.
    The Tribes are strategically located in each of the major 
watersheds, and no other group of people is more knowledgeable about 
the natural resources than the Tribes. No one else so deeply depends on 
the resource for their cultural, spiritual and economic survival. 
Tribes seize every opportunity to coordinate with other governments, 
and non-governmental entities, to avoid duplication, maximize positive 
impacts and emphasize the application of holistic ecosystem management. 
We continue to participate in resource recovery and habitat restoration 
on an equal level with the State of Washington and the Federal 
government because we understand the great value of such cooperation.
    We ask that the Senate help us in our efforts to protect and 
restore our great natural heritage and support our funding requests. 
Thank you.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission

    Mr. Chairman, my name is W. Ron Allen and I serve as an Alternate 
Commissioner on the Pacific Salmon Commission (PSC) and as the Chair of 
the Budget Committee for the U.S. Section of the Commission. The 
Pacific Salmon Treaty (Treaty) between the United States and Canada was 
established in 1985. An Agreement was concluded in June of 1999 (1999 
Agreement) that established new abundance-based fishing regimes under 
the Treaty and made other improvements in the Treaty's structure. 
During fiscal year 2009, the PSC will implement new Treaty fishing 
regimes that are currently being renegotiated. The U.S. Section 
recommends that Congress:
  --fund the Pacific Salmon Treaty Line Item of the National Marine 
        Fisheries Service at $8,000,000 for fiscal year 2009, restoring 
        $1,000,000 previously provided by Congress in fiscal year 2005. 
        This funding provides the technical support for the states of 
        Alaska, Washington, Oregon and Idaho and the National Marine 
        Fisheries Service to implement the salmon stock assessment and 
        fishery management programs required to implement the Treaty 
        fishing regimes. Included within the total amount of $8,000,000 
        is $400,000 to continue a joint Transboundary River Enhancement 
        Program as required by the Treaty.
  --fund the Pacific Salmon Treaty Chinook Salmon Agreement line item 
        of the National Marine Fisheries Service for fiscal year 2009 
        at $1,844,000, level funding from what was provided by Congress 
        for fiscal year 2008. This funding continues to be necessary to 
        acquire the technical information to implement abundance-based 
        Chinook salmon management program provided for under the 
        Treaty.
    The base Treaty implementation projects include a wide range of 
stock assessment, fishery monitoring, and technical support activities 
for all five species of Pacific salmon in the fisheries and rivers from 
Southeast Alaska to those of Washington, Oregon, and Idaho. The states 
of Alaska, Washington, Oregon, and Idaho, and the National Marine 
Fisheries Service (NMFS), are charged with carrying out a major portion 
of the salmon fishery stock assessment and harvest management actions 
required under the Treaty. Federal funding for these activities is 
provided through NMFS on an annual basis. The agency projects carried 
out under PSC funding are directed toward acquiring, analyzing, and 
sharing the information required to implement the salmon conservation 
and sharing principles of the Treaty. A wide range of programs for 
salmon stock size assessments, escapement enumeration, stock 
distribution, and catch and effort information from fisheries, are 
represented. The information from many of these programs is used 
directly to establish fishing seasons and harvest levels.
    Congress increased this funding in fiscal year 2005 to a total of 
$8,000,000 to provide for programs needed to implement the new 
abundance-based fishing regimes established under the 1999 Agreement, 
but the level was reduced in subsequent years. The U.S. Section 
recommends that $8,000,000 be restored in fiscal year 2009 to allow 
full implementation of Treaty provisions. The 1999 Agreement and the 
fishery regimes currently being renegotiated, include fishing 
arrangements and abundance-based management approaches for Chinook, 
southern coho, Northern Boundary and Transboundary River fisheries. The 
$400,000 that has been provided since 1988 for a joint Transboundary 
River enhancement program with Canada is included in this amount.
    In 1996, the United States adopted an abundance-based approach to 
managing Chinook salmon fisheries in Southeast Alaska. Under this 
approach, Chinook harvest levels are based on annual estimates of 
Chinook abundance. This system replaced fixed harvest ceilings agreed 
to in 1985, which did not respond to annual fluctuations in Chinook 
salmon populations. Under the 1999 Agreement, this abundance-based 
management approach was expanded to all Chinook fisheries subject to 
the Treaty. Beginning in fiscal year 1998, Congress provided $1,844,000 
to allow for the collection of necessary stock assessment and fishery 
management information to implement the new approach. Through a 
rigorous competitive technical review process, the states of Alaska, 
Washington, Oregon, and Idaho, and the twenty-four treaty tribes are 
using the funding to support research and data collection needed to 
implement abundance-based Chinook salmon management coast-wide under 
the new Agreement. The U.S. Section recommends level funding of 
$1,844,000 for fiscal year 2009 to support the implementation of 
abundance-based Chinook salmon management.
    The United States and Canada agreed in 1988 to a joint salmon 
enhancement program on the Transboundary Rivers, which rise in Canada 
and flow to the sea through Southeast Alaska. Since 1989, Congress has 
provided $400,000 annually for this effort through the National Marine 
Fisheries Service International Fisheries Commission line item under 
the Conservation and Management Operations activity. Canada provides an 
equal amount of funding and support for this bilateral program. This 
funding is included in the $8,000,000 the U.S. Section is recommending 
for the fiscal year 2009 NMFS Pacific Salmon Treaty line item.
    This concludes the statement of the U.S. Section of the PSC 
submitted for consideration by your Committee. We wish to thank the 
Committee for the support that it has given us in the past.

  SUMMARY OF PROGRAM FUNDING FOR THE U.S.-CANADA PACIFIC SALMON TREATY
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Department of Commerce: Pacific Salmon Treaty Line
 Item:
    Fiscal year 2007 appropriation....................        $7,000,000
    Fiscal year 2008 appropriation \1\................         5,592,000
    Fiscal year 2009 administration request...........         5,616,000
    Fiscal year 2009 U.S. Section recommendation......         8,000,000
Pacific Salmon Treaty--Chinook Salmon Agreement Line
 Item:
    Fiscal year 2007 appropriation....................         1,844,000
    Fiscal year 2008 appropriation....................         1,844,000
    Fiscal year 2009 administration request...........         1,844,000
    Fiscal year 2009 U.S. Section recommendation......         1,844,000
------------------------------------------------------------------------
\1\ The recommended fiscal year 2008 amount includes $400,000 provided
  for the Joint Transboundary River Enhancement Program previously
  funded under the NMFS International Fisheries Commission account.

                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team

    Thank you and I am honored for the opportunity to submit this 
testimony on behalf of the Independent Tribal Court Review Team. I 
would like to address the serious funding needs of Tribal Courts and 
our requests and recommendations for the fiscal year 2009 budget for 
the Office of Tribal Justice in the Department of Justice.
    For the past two years, our Independent Review Team, under a 
commercial contract by the BIA, has been traveling throughout Indian 
Country reviewing 25 Tribal and CFR Courts. The scope of our research 
project, the first of its kind, was to: (1) Provide assistance to 
Tribes by performing an assessment of their Tribal Courts; and (2) 
provide information to the BIA and Office of Management and Budget 
(OMB) regarding the status of Tribal Courts.
    We are confident that this is the most comprehensive information 
compilation effort ever undertaken, and completed, regarding Tribal 
Courts and it is the strong recommendation of the Independent Tribal 
Courts Review Team that the Federal Tribal Courts budget be 
substantially increased in the fiscal year 2009 budget. Our Team has 
been to 25 Tribal Courts and we feel safe in saying that there is no 
one with more awareness of the current needs of Tribal Courts than our 
Review Team.

Budget Priorities, Request and Recommendations--$70.0 Million
    +$58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 USC 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds to date).
    +$11.6 million above the fiscal year 2008 enacted level for Tribal 
Courts.
    Support the continuance of set-asides in the Office of Tribal 
Justice Programs.

Justification
    There are approximately 299 tribal judicial systems in Indian 
country and 156 of these tribal and BIA Courts of Indian Offenses, 
commonly referred to as CFR Courts (Code of Federal Regulations), are 
BIA funded. All Tribal Court operational costs are funded under 
contracts, which provide less than 74 percent of need.
    The President's fiscal year 2008 enacted levels are inadequate to 
support the operations and utility of the Tribal Justice Systems. We 
respectfully request Congress to take a close look at these funding 
levels. Our research did not identify any area that could withstand a 
decrease without causing harm to Tribal Court systems and Indian 
people. Specifically, we request the following funding in the fiscal 
year 2009 budget above the fiscal year 2008 enacted levels:

------------------------------------------------------------------------
                                      Fiscal Year 2008  Fiscal Year 2009
             Line Items                    Enacted       Tribal Requests
------------------------------------------------------------------------
Tribal Courts.......................    $8.630 million    +$11.6 million
Tribal Grants:
    Youth Programs..................      14.1 million       +10 million
    Indian Alcohol & Substance Abuse     5.180 million       +10 million
    Construction....................     8.630 million       +10 million
    Sex Offender....................           940,000        +5 million
Indian Country Detention Centers....     8.630 million       +10 million
------------------------------------------------------------------------

    The Justice Department has developed grants for a variety of 
current Tribal Courts programs. Unfortunately, those grants will 
eventually run out and it is doubtful that most Tribes will have the 
funds to continue to provide those services. Some Tribes, 
unfortunately, do not place a priority on seeking grant funds for 
exactly this reason. In addition, some of those grants fund what are 
generally considered to be permanent Court needs, such as Judge or 
clerk. As Examiners, we mention to Tribes that they should not rely on 
grant funds as permanent funding. However, most Tribes have few other 
means to fund permanent positions. Federal resources used for temporary 
grant-funded Tribe Court initiatives too often turn out to be temporary 
programs. (We also note that the Tribes who need the most assistance 
tend to be the Tribes least able to acquire grant funds.) We wonder if 
it would be better if such funding were placed into a permanent Tribal 
Court funding account.
    It is a positive thing if a Tribe has recognized some Court needs 
and used its grant writers to find grant money to address those needs. 
To decrease the potential for harm when those funds are discontinued, 
those programs should contain or require the Tribe to develop formal 
plans for when the funds no longer exist. This would include, for 
example, redistribution of a caseload, records transfer and seeking new 
continuation funding. We general recommend the Court develop formal 
plans to address what will happen to projects in planning for the 
eventual loss of grant funds, particularly for those projects and 
positions, which would otherwise be considered permanent.
    It is to the credit of many Tribes that they do seek and have had 
success in obtaining grant funds for the Courts. Grant funds enable the 
Court to supplement staff or develop programs needed by the Tribe. 
Several areas, funded through grants, have proven to be successful, 
regardless of how brief the grant is and regardless of the relative 
size and wealth of the Tribe. This includes Computerization, Staff 
Development and Training, Code Development and grants curbing 
Methamphetamine Abuse.
    Tribes are expected to make do with money from the Bureau of Indian 
Affairs (BIA). The elimination of these funds will be catastrophic to 
the Tribal Courts and Judicial Systems. The remaining funds will only 
assist a small number of Tribes, hardly the intent of the Indian Tribal 
Justice Act. It was the intent of all involved to examine and determine 
the adequacy of the current Federal funding levels for Tribal Courts. 
Our research indicates that Tribal Courts are at a critical stage in 
terms of need. Tribal Court systems have Trial and Appellate Courts, 
conduct jury trials, within Courthouses that need improvements, and 
Tribal Bar listings and fees. Nationwide, there are 156 Tribes with 
Courts that receive Federal Funding. These Tribes divide a mere $11.4 
million in Federal funds. Tribal Courts must deal with the very same 
issues state and Federal Courts confront in the criminal context, 
including, child sexual abuse, alcohol and substance abuse, (namely 
Methamphetamine), gang violence and violence against women just to name 
a few. Tribal Courts, however, must address these complex issues with 
far less financial resources than their Federal and state counterparts.
    It is clear that Tribal Courts and justice systems are vital and 
important to the communities where they are located. Tribes value and 
want to be proud of their Court systems. There are many positive 
aspects about Tribal Courts. After decades of existence, many Tribal 
Courts, despite minimal funding, have achieved a level of experience 
and sophistication approaching, and in some cases surpassing, local 
non-Indian Courts. Tribal Courts, through the Indian Child Welfare Act, 
have mostly stopped the wholesale removal of Indian children from their 
families. Indian and Non-Indian Courts have developed formal and 
informal agreements regarding jurisdiction. Tribal governments have 
recognized the benefit of having law-trained Judges, without doing away 
with Judges who have cultural/traditional experience. Judicial training 
that addresses the existing problems in Indian Country, while also 
being culturally sensitive, is essential if our efforts are to be 
effective in deterring and solving crime in Indian communities.
    With the passage of the Indian Tribal Justice Act, Public Law 103-
176, 25 U.S.C.  3601 et seq. (the ``Act''), Congress found that 
``[T]ribal justice systems are an essential part of tribal governments 
and serve as important forums for ensuring public health, safety and 
the political integrity of tribal governments.'' 25 U.S.C.  3601(5). 
Congress found that ``tribal justice systems are inadequately funded, 
and the lack of adequate funding impairs their operation.'' 25 U.S.C.  
3601(8). In order to remedy this lack of funding, the Act authorized 
appropriation of base funding support for tribal justice systems in the 
amount of $50 million for each of the fiscal years 1994 through 2000. 
25 U.S.C.  3621(b). An additional $500,000 for each of the same fiscal 
years was authorized to be appropriated for the administration of 
Tribal Judicial Conferences for the ``development, enhancement and 
continuing operation of tribal justice systems . . .'' 25 U.S.C.  
3614.
    Our research also indicates that grant programs at Justice were 
only moderately effective. Tribes often did not have funding to 
maintain grant funded programs after the conclusion of the grant. These 
programs were often eliminated after the conclusion of the grant. We 
did, however, identify several areas where grants were, or could be 
effective. These are grants providing for:
  --Computer Upgrade, Training and Court Management Software.--Tribes 
        generally do not have available funds to upgrade their use of 
        computer technology. Increased use of computer technology 
        improves the function of the Court and even may result in Court 
        staff savings due to the decreased staff time needs.
  --Digitizing of Tribal Codes.--Tribes most often collect their Codes 
        in very large three ring binders. Everyone does not always 
        receive new law. It is difficult to obtain a copy of the Code. 
        If Codes are digitized, they can be easily distributed on CD 
        and even be placed on the Tribal website. The result is a more 
        efficient system
  --Development of MOU/MOAs with Local Non-Indian Jurisdictions.--There 
        is a large and growing problem resulting from the Oliphant 
        Case. Tribal jurisdictions have no control over unlawful acts 
        committed by non-Indian offenders. This has specifically 
        resulted in drug dealers and methamphetamine labs moving on to 
        Indian lands. Many Tribes and non-Indian jurisdictions have 
        developed MOU/MOAs that provide for jurisdictional compromise 
        between Law Enforcement and Courts. More of these agreements 
        should be encouraged.
  --Administration of Tribal Courts.--Tribal legislatures and 
        Administration generally have several areas of relationship; 
        including hiring, payroll, and financial administration of the 
        Court. Often, Tribal governments are confused and very 
        concerned about where to draw the line regarding the 
        relationship with the Court. They do not want to violate the 
        Courts independence. Tribes need help to formally develop the 
        relationship between the Courts and other governmental 
        entities. This may include such things as development of an 
        over-site committee and a judicial employment contract.

Independent Tribal Court Review Team Report Findings
    The Independent Tribal Court Review Team completed the Tribal & CFR 
Court Reviews Project Fiscal Year 2006 Final Report. The Report 
contains 132 findings regarding all areas involving Tribal Courts. Many 
of the findings support the recommendations made above, including 
several indicating that Tribal Courts are under-funded. We list some of 
these below:
  --Finding #38.--The Federal Funds are inadequate to fund most Court 
        needs. Other Court needs such as technology, supplies, travel 
        and training, are usually assumed by the Tribe. These needs are 
        often provided by decreasing available funds for Tribal 
        Programs. Or, the needs are simply not provided and the Courts 
        must make due without these services.
  --Finding #32.--Almost all Courts are under-funded. Court budgets 
        vary widely. When you get beyond the few Tribes with very 
        successful economic development ventures, a substantial number 
        of the Courts, approximately 90 percent, are under-funded. They 
        are missing staff positions and common items such as a safe, a 
        Court recording system, telephone systems, or security systems. 
        Almost every Court that is under-funded is still mostly 
        functional.
  --Finding #33.--Many are under-funded at a critical level. Some 
        contracted Courts are very poor. There are Courts with only a 
        part-time Judge and a Clerk. They must rely on Administration 
        for simple items, such as printer ink. There is no training. 
        Salaries are below the poverty level. We have seen Courts that 
        operate on less than $25,000 per year. We have seen groups of 
        Tribes with low Federal funding numbers joined into a single 
        overworked Court system that can only provide limited service.
  --Finding #6.--A very small number of Tribes have large amounts of 
        available economic development funds. These Tribes (about 10 
        percent) are those few with very successful economic 
        development ventures. These Tribes contribute 90 percent or 
        more of the funding to their Courts. These Tribes pay well, 
        they have several Attorneys on staff, including on the Court 
        staff and have fully funded law enforcement. These Tribes are 
        better trained and experientially and financially able to deal 
        with Court matters, including criminal matters, than local 
        city, county and state governments.
  --Finding #5.--Most Tribal economic development funds provide jobs 
        and pay for a modest amount of other governmental services. The 
        biggest fallacy about Indian Nations is that gaming has made 
        all Tribes rich. (This fallacy isn't always bad. It often 
        encourages non-Indian governments and law enforcement to work 
        with the Tribe.) The vast majority of Tribes has limited 
        economic development that (1) funds itself and (2) can modestly 
        assist Tribal programs and the Court budgets. A portion of 
        Tribes has no economic development or economic development that 
        only funds itself.
    Finally, the Indian Civil Rights Act: A Report of the United States 
Civil Rights Commission, June 1991 found that ``the failure of the 
United States Government to provide proper funding for the operation of 
tribal judicial systems . . . has continued for more than 20 years.'' 
The Commission also noted that ``[f]unding for tribal judicial systems 
may be further hampered in some instances by the pressures of competing 
priorities within a tribe.'' Moreover, they opined that ``If the United 
States Government is to live up to its trust obligations, it must 
assist tribal governments in their development . . .'' More than 
sixteen years ago, the Commission ``strongly support[ed] the pending 
and proposed Congressional initiatives to authorize funding of Tribal 
Courts in an amount equal to that of an equivalent State Court'' and 
was ``hopeful that this increased funding [would] allow for much needed 
increases in salaries for judges, the retention of law clerks for 
tribal judges, the funding of public defenders/defense counsel and 
increased access to legal authorities.''
    We are still hopeful that these recommendations will come to 
fruition!
    On behalf of the Independent Tribal Court Review Team: Charles D. 
Robertson Jr., Esquire, the Honorable Philip D. Lujan, Court Reporter 
Myrna Rivera and the Honorable Elbridge Coochise, thank you again for 
your consideration of these requests. Should you have any questions, 
please feel free to contact Team Leader Elbridge Coochise at 602-418-
8937 or Charles D. Robertson, Jr. at 605-390-0061.
                                 ______
                                 
          Prepared Statement of the American Chemical Society

    The American Chemical Society (ACS) appreciates the opportunity to 
submit public testimony to the Commerce, Justice, Science and Related 
Agencies Subcommittee on the fiscal year 2009 budget for the National 
Science Institute of Standards and Technology (NIST).
    The ACS is a nonprofit scientific and educational organization, 
chartered by Congress in 1937, with more than 160,000 chemical 
scientists and engineers as members. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry and science, and brings its expertise to 
bear on state and national matters.
    Investments in NIST advanced research, measurement methods, and 
standards are vital to American industry as well as the nation's 
economic competitiveness and security. Increased funding is necessary 
to meet ongoing private sector needs for NIST measurements and 
standards, as well as the growing needs in homeland security, advanced 
manufacturing, climate, and nanotechnology. America's future 
competitiveness will be enhanced through sustained, predictable federal 
investments in science agencies like NIST.
    Specifically, the ACS urges Congress to support the $634 million 
funding level (5.5 percent increase over fiscal year 2008) for the NIST 
core programs as outlined in the President's fiscal year 2009 budget 
request. While this falls short of the level authorized to enhance U.S. 
innovation and competitiveness in the America COMPETES Act passed last 
summer with overwhelming bipartisan support, we hope that Congress will 
strive to return to this funding blueprint over time. Additionally, the 
ACS supports the $535 million request for NIST laboratories (21.3 
percent increase over fiscal year 2008). However, we strongly dissent 
from the proposed termination of the Technology Innovation Program 
(TIP) and urge Congress to fund the program at its authorized level of 
$131.5 million.

NIST Laboratories
    NIST laboratories serve as the technological nerve center for 
countless products and services across industries. By advancing 
research and extremely accurate measurement technology, NIST enables 
universal quality-control technologies that undergird industrial 
productivity, efficiency improvements, and faster product development. 
NIST also plays a critical role in advancing public health and safety, 
environmental progress, and national security. For example, NIST's 
calibration and related measurement methods are critical in areas such 
as emission control, fuel-composition control, laser eye surgery, 
smoke-detector sensitivity, electricity-meter readings, energy-
efficiency measurement, and the operation of fiber optics. The ACS 
strongly supports the $535 million request for NIST laboratories.
    However, we remain concerned that recent cuts in standards-related 
programs have hampered NIST's ability to promote U.S. standards and to 
facilitate global trade. Without NIST's consensus-based measurement 
standards, companies would be less innovative, less efficient, and less 
competitive. Independent studies show that every dollar invested in 
NIST measurement and standards returns at least three dollars in 
national economic benefit.
    Additionally, the ACS supports the request for $99 million for NIST 
facilities. These funds support facility improvements and acquisition 
of cutting-edge equipment in Boulder, Colorado, and Gaithersburg, 
Maryland. In previous years, in excess of $100 million was used 
annually to support projects peripheral to the NIST mission. As a 
result, NIST facilities are suffering to the point of becoming 
ineffective for cutting-edge research.
Technology Innovation Program
    The ACS continues to support NIST's Technology Innovation Program 
(TIP), established to support, promote, and accelerate innovation in 
the United States through high-risk, high-reward research in areas of 
critical national need. This program enables small- and medium-sized 
businesses to work in joint ventures and with universities to 
commercialize high-risk technologies. Without this program, the United 
States would continue to be at a global competitive disadvantage if 
these businesses, the traditional incubators of innovation, could not 
pursue high-risk opportunities. ACS strongly opposes the 
administration's proposed termination of TIP. We urge Congress to fully 
fund TIP (as was the practice to restore funding to the Advanced 
Technology Program--TIP's predecessor) at the $131.5 million level 
authorized by the America COMPETES Act (Public Law 110-69) for fiscal 
year 2009.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the Chairwoman and Members of the Subcommittee: The American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). Frontier research on Earth, energy and the 
environment has fueled economic growth, mitigated losses and sustained 
our quality of life. The Subcommittee's leadership in expanding the 
federal investment in basic research is even more critical as our 
nation competes with rapidly developing countries, such as China and 
India, for energy, mineral, air and water resources. Our nation needs 
skilled geoscientists to help explore, assess and develop Earth's 
resources in a strategic, sustainable and environmentally-sound manner 
and to help understand, evaluate and reduce our risks to hazards. AGI 
supports a total budget of $7.32 billion for NSF (as authorized in the 
America COMPETES Act of 2007--Public Law 110-69); $542 million for 
Scientific and Technical Research and Services at NIST (as authorized 
in America COMPETES Act); $4.5 billion for NOAA (an increase of $400 
million over the request to maintain core programs and infrastructure), 
and $4.869 billion for the Science Mission Directorate at NASA (an 
increase of about $428 million over the request to maintain core 
research and missions).
    The President's American Competitiveness Initiative and the America 
COMPETES Act of 2007 supports a doubling of physical science research 
at NSF and NIST, while noting the importance of robust research and 
science education programs at NASA and NOAA. AGI strongly supports both 
initiatives and the inclusion of Earth science in such efforts.
    AGI is a nonprofit federation of 44 geoscientific and professional 
societies representing more than 100,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.

NSF
    We applaud the President's request for a 13 percent increase for an 
overall budget of $6.854 billion for NSF and the Administration's 
commitment to the American Competitiveness Initiative. We hope that the 
Subcommittee can strengthen our research and science education 
initiatives by funding NSF at an overall budget of $7.32 billion which 
is consistent with the amount authorized in the America COMPETES Act of 
2007. NSF remains under funded and would benefit from an increase of 
about $466 million over the request in fiscal year 2009. AGI believes 
that such a forward-looking investment in tight fiscal times will pay 
important dividends in future development and innovation that drives 
economic growth, especially in critical areas of sustainable and 
economic natural resources and reduced risks from natural hazards.
    NSF Geosciences Directorate.--The Geosciences Directorate is the 
principal source of federal support for academic Earth scientists and 
their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. The President's 
budget proposal requests an increase of about 13 percent (about $96 
million) for a total budget of about $849 million, which AGI strongly 
supports.
    The President's request for fiscal year 2009 asks for $260.58 
million for Atmospheric Sciences, $177.73 million for Earth Sciences, 
$353.5 million for Ocean Sciences and $56.82 million for Innovative and 
Collaborative Education and Research (ICER) within the Geosciences 
Directorate. Much of the geosciences research budget is for 
understanding that is critical for current national needs, such as 
climate change, water and mineral resources, energy resources, 
environmental issues and mitigation of natural hazards. AGI asks the 
Subcommittee to strongly support these essential investments and 
requests that these investments be used for research.
    A significant concern for NSF and GEO is the rising costs of 
materials, infrastructure, and operations and maintenance. Costs for 
drilling, ships, instrumentation and raw materials are sky-rocketing as 
the supply and demand for these has increased in the public and private 
sector. Unexpected shortages, increasing competition and growing demand 
is significantly increasing the cost of basic research in GEO. This is 
one reason for NSF's decision to defer the Alaska Region Research 
Vessel (ARRV) and the Ocean Observatories Initiative (OOI) which would 
receive no funding from the Major Research Equipment and Facilities 
Construction (MREFC) account, but would instead receive about $7.5 
million from the GEO Research and Related Activities account for 
planning.
    Infrastructure and operation and maintenance costs for facilities 
are coming directly from the research budget within GEO. Among the 
major facilities, the Academic Research Fleet would receive $87.96 
million, EarthScope Operation would receive $26.29 million, 
Incorporated Research Institutions for Seismology (IRIS) would receive 
$12.2 million, Ocean Drilling Activities would receive $47.4 million, 
Ocean Observatories would receive $10.5 million and the National Center 
for Atmospheric Research would receive $95.42 million. These facilities 
are essential for not only basic research but also for addressing 
critical issues facing the nation, such as climate change, energy and 
mineral resources, water resources and hazards mitigation. Funding for 
these facilities, many of which have been operating for decades, must 
remain robust and require an infusion of funds approaching $300 
million. Therefore AGI strongly supports the congressionally mandated 
budget of $7.32 billion for NSF in fiscal year 2009 and asks that a 
significant fraction of the $466 million increase relative to the 
President's request be used to support facilities, whose operating 
funds are coming from the research budget of GEO.
    We would encourage the general increase for GEO to focus on funding 
research, which means providing essential support to the faculty, 
staff, post-doctoral researchers, graduate students and undergraduate 
students at universities and other educational/research institutions 
across the nation. The outstanding facilities being maintained by GEO 
require investments in outstanding human capital through competitive 
research grants. Now is the time to boost Earth science research and 
education to fill the draining pipeline of skilled geoscientists and 
geo-engineers working in the energy industry; the construction 
industry, particularly on levees and dams; the environmental industry; 
the academic community, particularly on understanding natural hazards 
and the sustainability of our natural resources; the primary federal 
Earth science agencies, such as the United States Geological Survey; 
and in all areas of education.
    NSF Support for Earth Science Education.--Congress can improve the 
nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI supports the Math and Science Partnership (MSP) 
program, a competitive peer-reviewed grant program that funds only the 
highest quality proposals at NSF. The NSF's MSP program focuses on 
modeling, testing and identification of high-quality math and science 
activities whereas the Department of Education MSP program does not. 
The NSF and Department of Education MSP programs are complementary and 
are both necessary to continue to reach the common goal of providing 
world-class science and mathematics education to elementary and 
secondary school students. AGI opposes the transfer of the MSP from NSF 
to the Department of Education.

NOAA
    AGI appreciates the President's request for increased funding for 
NOAA for a total budget of $4.1 billion. Unfortunately, NOAA's funding 
has remained flat, at $3.9 billion since fiscal year 2005 and based on 
an annual inflation rate of 3 percent a budget of $4.4 billion in 
fiscal year 2009 would leave the agency's budget level in constant 
dollars. NOAA cannot support its core mission services including 
weather and severe storm forecasting, spill response, ocean observing, 
habitat restoration and conservation, and research on climate change, 
fisheries, and coastal and marine ecosystems without a more robust 
budget. We ask that the Subcommittee provide small increases (about 10 
percent increases to their total budgets) rather than proposed cuts to 
the National Ocean Service, the National Marine Fisheries Service and 
the Office of Atmospheric Research following the recommendations of the 
U.S. Commission on Ocean Policy. AGI also supports the additional 
increased funding for the National Weather Service for analysis, 
modeling and upgrading of observing systems and additional increases 
for the National Environment Satellite, Data and Information Service 
for the development of the Geostationary Operational Environmental 
Satellite (GOES-R) and the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS). Both satellite systems will 
maintain a global view of the planet to continuously watch for 
atmospheric triggers of severe weather conditions such as tornadoes, 
flash floods, hailstorms, and hurricanes.

NIST
    We applaud the President's request for a 22 percent increase in 
research and related funding for NIST in fiscal 2009. Basic research at 
NIST is conducted by Earth scientists and geotechnical engineers and 
used by Earth scientists, geotechnical engineers and many others on a 
daily basis. In particular, we strongly support increases for 
Measurements and Standards for the Climate Change Science Program ($5 
million), Disaster Resilient Structures and Communities ($4 million) 
and the National Earthquake Hazards Reduction Program (NEHRP) ($3.3 
million). The climate change research will improve the accuracy of 
climate change measurements, may reduce satellite costs and may help to 
guide climate change policy. The hazards research will help to reduce 
the estimated average of $52 billion in annual losses caused by floods, 
fires and earthquakes. NIST is the lead agency for NEHRP, but has 
received only a small portion of authorized and essential funding in 
the past. AGI strongly supports a doubling of the NIST budget over 5 to 
7 years as authorized in the America COMPETES Act of 2007, so that core 
research functions at NIST are maintained, while needed funding for 
climate change and hazards are protected.

NASA
    AGI supports the vital Earth observing programs within NASA. 
Currently the topography of Mars has been measured at a more 
comprehensive and higher resolution than Earth's surface. While AGI is 
excited about space exploration and the President's Vision for 
Exploration, we firmly believe that NASA's Earth observing program is 
effective and essential to solving global to regional puzzles about 
Earth systems, such as how much and at what rate is the climate 
changing. AGI strongly supports the requested increase for Earth 
Science and Planetary Science programs within the Science Mission 
Directorate.
    The Science Mission Directorate, which includes Earth Science, 
Planetary Science, Astrophysics and Heliophysics, would receive $4.441 
billion in the fiscal year 2009 proposal, a decline of 6 percent or 
$265 million compared to fiscal year 2008 enacted levels. The 
President's fiscal year 2009 budget request would provide $1.3675 
billion for NASA's Earth Science program, a 6.8 percent increase over 
the fiscal year 2008 appropriation to continue with current missions 
and begin development of new missions. AGI is very grateful to see an 
increase for Earth science. Unfortunately, about $570 million of the 
increase created for the decadal survey missions is funded through the 
transfer of funding from other science divisions, resulting in 
reductions in the Mars Exploration Program, a delay to the Solar Probe 
mission and other programmatic cuts. In addition the funding outlook 
does not come close to meeting the $500 million annual increase 
recommended by the National Academies decadal survey report to bring 
the program back to its fiscal year 2000 funding level and enable the 
decadal recommendations.
    AGI asks for a budget of $4.869 billion for the Science Mission 
Directorate at NASA or an increase of about $428 million over the 
President's request. The increase would eliminate the $265 million 
deficit compared to fiscal year 2008 enacted budget for the Science 
Mission Directorate in the President's proposal and would include an 
additional $163 million for the Earth Science program (for a total of 
$1.530 billion in fiscal year 2009). This would bring the Earth Science 
program up to an increase of $250 million about half of what is needed 
to meet the priorities of the decadal survey, but enough to keep key 
missions on track under tight fiscal constraints. We strongly urge the 
Subcommittee to return spending levels for Earth science within NASA to 
fiscal year 2000 levels (eliminating a 30 percent cut over the past 6 
years) and implement the priorities of the National Academies Earth 
Science and Applications from Space Decadal Survey.
    I appreciate this opportunity to provide testimony to the 
Subcommittee and would be pleased to answer any questions or to provide 
additional information for the record. I can be reached at 703-379-2480 
ext. 228 (voice), 703-379-7563 (fax), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f78598809699b796909e809295d9988590">[email&#160;protected]</a>, or 4220 King 
Street, Alexandria VA 22302-1502.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History

Overview
    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the American Museum of Natural History (AMNH) 
seeks $3.5 million to advance its successful multi-year collaboration 
with NASA to contribute its unique science, education, and 
technological capacity to helping the Agency to meet these goals.
About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With some 4 million annual on-site visitors--
approximately half of them children--it is one of the largest, fastest 
growing, and most diverse museums in the country. Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology, comparative genomics, and informatics to Earth science, 
biodiversity conservation, and astrophysics. Their work forms the basis 
for all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.

The American Museum--NASA Partnership
    NASA and the AMNH for many years engaged in a partnership founded 
on a joint commitment to cutting-edge research and the integration of 
that research into unique educational tools and resources. The AMNH has 
worked with the Agency to develop innovative technologies and resources 
that provide an unparalleled platform for interpreting, displaying, and 
distributing NASA content to audiences nationwide.
  --The Museum has built a set of singular national resources that 
        bring cutting-edge science and integrated NASA content to total 
        audiences of more than 16 million in New York City, across the 
        country, and around the world. In the New York area alone, the 
        Museum reaches nearly four million annual visitors, including 
        more than 450,000 children in school groups and more than 5,000 
        teachers, with millions visiting online.
  --We have created Science Bulletins--technologically innovative, 
        immersive multimedia science encounters, presenting space, 
        Earth, and life science news and discoveries in visually 
        stunning feature documentaries, data visualizations, and weekly 
        updates.
  --We have launched a successful program to disseminate project 
        resources to informal learning venues nationally and 
        internationally, with Science Bulletins already on view in 40 
        locations across the country (including eight NASA visitor 
        centers), with more being added.
  --The Museum has made numerous technological breakthroughs--it has 
        established leadership in science visualization and high 
        resolution renderings of massive data sets; it has converted 
        its Space Shows to digital format, making the AMNH the only 
        full planetarium dome content provider that crosses all major 
        platforms; it has pioneered a unique online distribution 
        network that each week streams new science content in HD MPEG2 
        encodes to partners across North America and most recently, has 
        simplified the technical requirements of the network, including 
        new server and/or lower bandwidth for downloading, so that 
        content is more accessible to more venues.
  --AMNH routinely hosts major events celebrating NASA's mission 
        highlights and milestones. Recent events have included live, 
        large-scale events of broadcasts of the New Horizons launch, 
        Stardust sample return, and Mars Reconnaissance Orbiter arrival 
        at Mars.
  --The Museum's educational mission is fueled by and reflects cutting-
        edge science, including the work of our scientists in 
        collaboration with NASA centers and researchers.
    Building on this foundation, the Museum seeks in fiscal year 2009 
to advance the AMNH-NASA collaboration--with a particular focus on 
scaling up to reach even larger audiences--with a program for 
communicating current science content, and content about NASA science 
and missions in particular, to diverse national audiences. The Museum's 
activities will include the development of current NASA science 
education resources, such as Science Bulletins, and continuing to scale 
up their national distribution for presentation in public spaces and 
for classroom use.
    Science Bulletins (SB) is a nationally distributed, multimedia 
science exhibition program targeted to informal learning settings. It 
presents cutting-edge research and discoveries in visually compelling 
feature documentaries and updates in flexible, large-screen, high-
definition video and interactive kiosk versions, as well as in a free 
online version adapted for classroom use. Our SB program for the 
following year includes expanding dissemination significantly, 
developing new visualization methods for use in the development and 
distribution of SB, and reaching out in diverse ways to the formal 
education sector to maximize access to the Science Bulletins at the K-
12 level.
    Museum activities for the next year also include R&D on new 
techniques for visualizing massive space science data sets, creating 
visualization tools for presenting NASA missions and other dynamic 
science stories, and for advancing innovative solutions to technical 
challenges in presenting digital planetarium shows. AMNH will conduct 
extensive internal and external evaluation of this program's 
activities.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History

Overview
    Recognizing its potential to support NOAA in its goals to 
understand and predict changes in the Earth's environment; to conserve 
and manage coastal and marine resources; and to protect, restore, and 
manage the use of coastal and ocean resources to meet our Nation's 
economic, social, and environmental needs, the American Museum of 
Natural History (AMNH) seeks $2 million to advance a partnership with 
the agency to promote the environmental education, outreach, and 
research so pivotal to the health of our nation and our planet.

About the American Museum of Natural History
    The AMNH is one of the nation's preeminent institutions for 
scientific research and public education. Since its founding in 1869, 
the Museum has pursued its mission to ``discover, interpret, and 
disseminate--through scientific research and education--knowledge about 
human cultures, the natural world, and the universe.'' It is renowned 
for its exhibitions and collections of more than 32 million natural 
specimens and cultural artifacts. With nearly four million annual 
visitors, its audience is one of the largest, fastest growing, and most 
diverse of any museum in the country. Museum scientists conduct 
groundbreaking research in fields ranging from zoology, comparative 
genomics, and informatics to Earth, space, and environmental sciences 
and biodiversity conservation. Their work forms the basis for all the 
Museum's activities that seek to explain complex issues and help people 
to understand the events and processes that created and continue to 
shape the Earth, life and civilization on this planet, and the universe 
beyond.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of scientific data to mitigate 
threats to global biodiversity, and to integrating this information 
into the conservation process and disseminating it widely. It conducts 
conservation-related field projects around the world, trains 
scientists, organizes scientific symposia, presents public programs, 
and produces publications geared toward scientists, policy makers, and 
the lay public. Each spring, the CBC hosts symposia that focus on 
conservation issues. The 2007 symposium, Small Matters: Microbes and 
Their Role in Conservation, brought together a diverse group of 
microbiologists and conservation biologists to explore broad questions 
of the planet's microbial diversity and how conservation practices take 
microbial life into account. The 2008 symposium, Sustaining Cultural 
and Biological Diversity in a Rapidly Changing World: Lessons for 
Global Policy will seek to bridge gaps, address challenges and 
opportunities, and help to forge a long-term multi-dimensional vision 
for sustaining biological and cultural diversity.
    The Museum's renovated Hall of Ocean Life, reopened in spring 2003, 
is a major focal point for public education on marine science issues. 
Drawing on the Museum's world-renowned expertise in Ichthyology as well 
as other areas of Vertebrate as well as Invertebrate Zoology, the Hall 
is pivotal in educating visitors about the oceans' key role in 
sustaining life on our planet. The renovated Hall of Ocean Life, 
together with the new Halls of Biodiversity, Planet Earth, and the 
Universe and the rebuilt Hayden Planetarium (part of the new Rose 
Center for Earth and Space) provide visitors with a seamless 
educational journey from the universe's beginnings to the formation and 
processes of Earth to the extraordinary diversity of life on our 
planet.

Common Goals of NOAA and AMNH
    The National Oceanic and Atmospheric Administration (NOAA) is 
committed to understanding and predicting changes in the Earth's 
environment and to conserving and managing coastal and marine resources 
to meet the nation's needs. NOAA's Education Plan outlines a broad 
vision for reaching various audiences to build awareness and knowledge 
of issues related to the world's atmosphere, climate, oceans, and 
coastal ecosystems. Addressing the needs of teachers, students, and 
policy makers as well as the general public, the agency's goals include 
enhancing environmental literacy and knowledge, application of NOAA 
science, and development of a capable and diverse workforce for 
environmental science.
    The American Museum of Natural History shares NOAA's commitment to 
these environmental goals and to the scientific research and public 
education that support them. Since its founding in 1869, the American 
Museum has pursued its mission of scientific investigation and public 
education. Its exhibitions and collections serve as a field guide to 
the entire planet and present a panorama of the world's cultures. 
Museum collections of some 32 million specimens and cultural artifacts 
provide an irreplaceable record of life. More than 200 Museum 
scientists conduct groundbreaking research in fields as diverse as 
systematic and conservation biology, astrophysics, and Earth and 
biodiversity sciences. The work of scientific staff fuels exhibitions 
and educational programming that reach annually an on-site audience of 
nearly four million visitors--nearly half of them children.

Environmental Literacy Initiative
    In fiscal year 2004, as a result of Congressional leadership, the 
Museum entered into a partnership with NOAA that launched a multi-year 
marine science and education initiative. Support for this initiative, 
which encompassed a broad range of education and research activities 
closely aligned with NOAA goals and purposes, was continued in fiscal 
year 2005 (and recommended in the fiscal year 2007 Senate report), and 
further leveraged by Museum scientists who successfully secured 
competitive NOAA education and research funding.
    Building upon this strong foundation, and in concert with the 
strategic priorities of NOAA and the Museum, we seek $2 million in 
fiscal year 2009 to join with NOAA in education, outreach, and research 
activities that promote environmental literacy, particularly concerning 
climate. Over a one-year period, the Museum will seek to advance the 
nation's climate literacy by carrying out a rich agenda of public 
education and outreach activities, many in conjunction with a major 
national exhibition on climate change. These activities will include 
presenting current climate-related issues and news in the Museum's 
nationally distributed Science Bulletins program; developing advanced 
visualization tools and techniques for presenting environmental data to 
the public in varied formats; developing on-site and online 
professional development offerings, exchanges, and resources for 
teachers, children, families, and students; presenting programs for the 
general public; and carrying out research that advances conservation of 
marine ecosystems systems.
                                 ______
                                 
        Prepared Statement of the American Physiological Society

    The American Physiological Society (APS) thanks the Subcommittee 
for its commitment to scientific research at the National Science 
Foundation (NSF) and the National Aeronautics and Space Administration 
(NASA). Scientific research plays an important role in technological 
innovation and economic development and therefore is critical to the 
future of our nation. The APS recognizes that the NSF has benefited 
from recent budget increases, but is disappointed that the agency has 
fallen behind the budget levels endorsed by Congress and the 
Administration in the America COMPETES Act passed in 2007. The APS 
recommends that the NSF be funded at the authorized level of $7.33 
billion in fiscal year 2009, which will keep the agency on track to 
double its budget over the next several years. While the overall budget 
for NASA continues to grow, the APS remains concerned about the lack of 
consistent funding for research into the effects of spaceflight on 
humans. The APS recommends that funding for NASA's Human Research 
Program (HRP) be reinvigorated with increased funds in fiscal year 
2009.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has more than 10,000 members who do research 
and teach at public and private research institutions across the 
country, including colleges, universities, medical and veterinary 
schools. Many of our members conduct physiology research that is 
supported by funds allocated through the NSF and NASA. In this 
testimony, the APS offers its recommendations for fiscal year 2009 
funding for both agencies.

NSF
    The basic science initiatives funded by the NSF are driven by the 
most fundamental principles of scientific inquiry. Although at times 
NSF-funded research may seem to be exploring questions that lack 
immediate practical application, we have learned again and again that 
the relevance of the knowledge gained becomes apparent over time. The 
NSF provides support for approximately 20 percent of federally funded 
basic science and is the major source of support for non-medical 
biology research, including integrative, comparative, and evolutionary 
biology, as well as interdisciplinary biological research.
    The majority of the funding NSF provides is awarded through 
competitive, merit-based peer review, which ensures that the best 
possible projects are supported. NSF has an excellent record of 
accomplishment in terms of funding research endeavors that have 
produced results with far-reaching potential. Listed below are just a 
few of NSF's most recent advances in biological research.\1\
---------------------------------------------------------------------------
    \1\ Research examples from http://www.nsf.gov, accessed March 18, 
2008.
---------------------------------------------------------------------------
  --Scientists have developed computational methods to catalog genes 
        involved in memory and learning.
  --Research into the molecular characteristics of degenerative 
        neurological diseases such as Alzheimer's, Parkinson's and the 
        human version of Mad Cow disease has revealed similar molecular 
        pathology underlying all three diseases.
  --Novel imaging techniques have been developed that could aid in the 
        earlier diagnosis of pancreatic cancer, a disease that is 
        especially deadly due to delayed detection.
  --Studies of abnormally developed frogs led to the discovery that 
        nutrient runoff from agriculture fuels parasitic infections 
        that lead to developmental deformities in amphibians.
  --Researchers studying flatworms (planaria) found that the 
        connections between cells play a role in regulating how adult 
        stem cells contribute to injury repair.
    In addition to funding innovative research in labs around the 
country, the NSF also fosters the next generation of scientists through 
education programs. The APS has benefited from this support which 
allows us to provide training opportunities and career development 
activities to enhance the participation of underrepresented minorities 
in science. The APS was recognized for its efforts in 2003 with a 
Presidential Award for Excellence in Science, Mathematics and 
Engineering Mentoring (PAESMEM), funding for which was provided by NSF 
and was reinvested in our education programs. We believe that NSF is 
uniquely suited to administer science education programs of the highest 
quality, and we recommend that Congress continue to provide federal 
funds for science education through the NSF.
    Passage of the America COMPETES Act showed that Congress is 
committed to fostering the NSF not only through increased 
appropriations, but also through explicit support for the agency's 
respected education programs. We thank Congress for the passage of the 
America COMPETES Act and join the Federation of American Societies for 
Experimental Biology (FASEB) in recommending that the NSF be funded at 
the full authorized level of $7.33 billion in fiscal year 2009.

NASA
    The Human Research Program (HRP) at NASA conducts research and 
develops countermeasures with the goal of enabling safe and productive 
human space exploration. During prolonged space flight, the 
physiological changes that occur due to microgravity, increased 
exposure to radiation, confined living quarters, and alterations in 
eating and sleeping patterns can lead to health problems and reduced 
ability to perform tasks. APS scientists are actively engaged in 
research that explores the physiological basis of these problems, with 
the goal of contributing to the development of countermeasures.
    Given NASA's current focus on manned space exploration, it is 
critical that resources be devoted to research into the health effects 
of prolonged space flight. NASA is the only agency whose mission 
includes addressing the biomedical challenges of manned space 
exploration. Over the years, the amount of money available for 
conducting this kind of research at NASA has dwindled, and this year 
the budget request for the Human Research Program stands at only $151.9 
million. The cuts are especially troubling given the Administration's 
commitment to returning humans to space. NASA and the National 
Institutes of Health signed a memorandum of understanding in 2007 that 
provides a framework for the two agencies to work together and move 
health research forward. While the agreement does not involve any 
funding obligations, we are hopeful that the agencies will develop 
plans to take advantage of the opportunities for collaboration. The APS 
joins FASEB in applauding Congress' call in the fiscal year 2008 
Omnibus bill for NASA to ``establish and ongoing relationship'' with 
the National Academies for the purpose of ``independent project 
review.'' Independent review will help ensure that resources are 
appropriately directed towards critical research programs.
    The APS urges Congress and NASA to increase support for peer-
reviewed research into the health risks of long-term space flight and 
development of appropriate countermeasures at a rate that meets or 
exceeds the biomedical research and development price index (BRDPI).
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
          Society of America, Soil Science Society of America

    The American Society of Agronomy, Crop Science Society of America, 
Soil Science Society of America (ASA-CSSA-SSSA) are pleased to submit 
the following funding recommendations for fiscal year 2009. ASA/CSSA/
SSSA understand the challenges the Senate Commerce, Justice, Science, 
and Related Agencies Appropriations Subcommittee faces with the tight 
agriculture budget for fiscal year 2009. We also recognize that the 
Commerce, Justice, and Science Appropriations bill has many valuable 
and necessary components, and we applaud the efforts of the 
Subcommittee to fund mission-critical research through the National 
Science Foundation.
    With more than 25,000 members and practicing professionals, ASA-
CSSA-SSSA are the largest life science professional societies in the 
United States dedicated to the agronomic, crop and soil sciences. ASA-
CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.

Biological Sciences Directorate
            Molecular and Cellular Biosciences (MCB)
    The Molecular and Cellular Biosciences division of NSF Biology 
directorate provides funding for critical research that contributes to 
the fundamental understanding of life processes at the molecular, 
subcellular, and cellular levels. Programs such as the Microbial 
Observatories increase the understanding of microbial distribution in a 
variety of ecosystems--the first step in evaluating microbial impact on 
ecosystem function. ASA-CSSA-SSSA support the proposed increase for MCB 
to $126 million, yet, disagree with the proposed change in priorities. 
Historically, the division focused on understanding living networks and 
complex molecular and cellular systems, microbial biology, and 
fundamental plant biology research. However, priorities for fiscal year 
2009 focus on metagenomics, theoretical and mathematical modeling, 
synthetic biology, small RNA biology, and the role of intracellular 
environment on the dynamic structure and function of complex 
biomolecules. We agree that considerable advances investigating 
interactions between microbial communities and plants have been made, 
however critical gaps do remain requiring additional study to 
understand the complex, dynamic relationships existing between plant 
and microbial communities.

            Integrative Organismal Systems (IOS)
    The emergence of a bioeconomy requires greater reliance on plants 
and crops, further expanding their use into the energy sector. To meet 
the increased demands and develop more robust crops, additional 
fundamental understanding regarding the basic biology of these crops is 
needed. The Plant Genome Research Program (PGRP) accomplishes these 
objectives by supporting key NSF projects. The Developing Country 
Collaborations in Plant Genome Research program links U.S. researchers 
with partners from developing countries to solve problems of mutual 
interest in agriculture and energy and the environment. Additionally, 
in collaboration with the U.S. Department of Energy and the U.S. 
Department of Agriculture, the Plant Genome Research Program has 
financed the Maize Genome Sequencing Project--a sequencing project for 
one of the most important crop grown globally. Finally, the 
International Rice Genome Sequencing Project, published in 2005 the 
finished DNA blueprint for rice, a crop fundamental to populations 
worldwide. To continue the discovery of new innovative ways to enhance 
crop production for a growing population, sustained funding is needed 
for similar projects. It is therefore critical the fiscal year 2009 
decision to transfer the Plant Genome Research Program to IOS does not 
adversely impact PGRP. ASA-CSSA-SSSA are concerned that dedicated 
funding for the Plant Genome Research Program may be directed towards 
other programs, such as the Arabadopsis 2010 Program. ASA-CSSA-SSSA 
recommend that the Plant Genome Research Program continue to receive 
the funding intended for it. To ensure adequate funding for all of the 
programs under IOS, we recommend that it receive an overall 10 percent 
increase to $220.86 million.

            Emerging Frontiers (EF)
    The Emerging Frontiers division supports multidisciplinary research 
opportunities and networking activities whereby new initiatives will be 
fostered and subsequently integrated into core programs. The Plant 
Science Cyberinfrastructure Collaborative is a critical program funded 
under EF. Established in fiscal year 2008, this center establishes 
multi-disciplinary teams of computational science experts and plant 
science experts to address evolving critical questions in plant 
science. ASA-CSSA-SSSA offer full support for the President's proposed 
$2.48 million increase (37.4 percent) over fiscal year 2008 funding 
levels for the Plant Science Cyberinfrastructure Collaborative.
Geological Sciences Directorate

            Atmospheric Sciences (ATM)
    Changes in terrestrial systems will have great impact on 
biogeochemical cycling rates. The Atmospheric Sciences division funds 
critical programs, such as Atmospheric Chemistry, that increase 
understanding of biogeochemical cycles. Soils and plants make up one of 
the largest sinks and sources for several environmentally important 
elements. ASA-CSSA-SSSA support the President's proposed 13.6 percent 
increase in funding for the Atmospheric Science division to $260.58 
million.

            Earth Sciences (EAR)
    The Earth Sciences division supports research emphasizing improved 
understanding of the structure, composition, and evolution of the 
Earth, the life it supports, and the processes that govern the 
formation behavior of the Earth's materials. Fiscal year 2009 
priorities will support theoretical research, including the biological 
geosciences, the hydrologic sciences, and the study of natural hazards. 
Important programs funded within this division are the Critical Zone 
Observatories, which focus on watershed scale studies that advance 
understanding of the integration and coupling of Earth surface 
processes as mediated by the presence and flux of fresh water. ASA-
CSSA-SSSA support the $750,000 increase to this project.

Engineering Directorate
            Chemical, Bioengineering, Environmental and Transport 
                    Systems (CBET)
    CBET supports research that enhances the protection of U.S. 
national health, energy, environment, security, and wealth. CBET 
supports programs, such as the Biotechnology, Biochemical, and Biomass 
Engineering, which offer critical solutions to global environmental 
problems associated with climate change. The continual funding of the 
Biotechnology, Biochemical, and Biomass Engineering program is 
essential if we are to develop genetically engineered biofuel 
feedstocks that are more feasible for conversion into biofuels. ASA-
CSSA-SSSA agree with the President's recommend $42.34 million increase 
for CBET to $173.34 million in fiscal year 2009.

Directorate for Education and Human Resources
            Division of Graduate Education
    ASA-CSSA-SSSA are dedicated to the enhancement of education, and 
concerned about recent declines in enrollment for these sciences. To 
remain competitive, scientific fields need to find new, innovative ways 
to reach students. The programs offered in the Education and Human 
Resource Directorate accomplish this goal. The Graduate Teaching 
Fellows in K-12 Education offers graduate students interested in 
teaching, an opportunity to get into the classroom and teach utilizing 
new innovative ways of teaching the material. ASA-CSSA-SSSA support the 
$2 million increase to $49 million in the President's budget for this 
program, but request a 10 percent increase over fiscal year 2008 
funding levels to $51.7 million. Graduate students are the next crop of 
scientists, therefore opportunities for study must be increased with 
increasing demands of science. Global problems rely on scientific 
discovery for their amelioration; therefore it is critical that the 
United States continue to be a leader in graduate education. The ASA-
CSSA-SSSA recommend an increase to the Integrative Graduate Education 
and Research Traineeships (IGERT) from no change from fiscal year 2008 
to an increased level of $30 million (20 percent increase) in fiscal 
year 2009. Education is the key for our future competitiveness; 
therefore it is essential increases in education funding remain on par 
with goals set forth by ACI, so ASA-CSSA-SSSA recommend an overall 
increase of 15 percent in fiscal year 2009 over fiscal year 2008 to 
$832.44 million.

            Division of Undergraduate Education
    Advanced Technological Education (ATE) program focuses on the 
education of technicians for the high-technology fields that drive our 
nation's economy. We support continued funding for this program. ASA-
CSSA-SSSA recommend that this program receive a 20 percent increase 
over fiscal year 2008 to $62 million in fiscal year 2009.
NSF-Wide Programs

            Dynamics of Water Processes in the Environment
    Providing an adequate supply and quantity of water for human use, 
while maintaining the integrity of natural ecosystems, is one of the 
greatest challenges facing the country. ASA-CSSA-SSSA support the 
creation of the multi-disciplinary, multi-scale research program, 
Dynamics of Water Processes in the Environment with $10 million in 
fiscal year 2009.

            Climate Change Science Program
    The Climate Change Science Program, initiated in 2002, provides the 
Nation and the world with the science-based knowledge to predict, 
change, manage risk, and take advantage of opportunities resulting from 
climate change and climate variability. Biological systems are critical 
to mitigating the impacts and effects of climate change. Additional 
research is needed to examine potential crop systems, plant traits, 
wetland properties, and other ecosystem adaptations to help manage 
climate change. The basic sciences of agro-ecosystems, plant 
improvement, soils, and riparian and wetland ecology need support. 
Therefore while ASA-CSSSA-SSSSA maintain the importance of the 
President's proposed increase to CCSP funding to $220.6 million in 
fiscal year 2009; however additional funding is needed for the 
Biological Sciences. Therefore, ASA-CSSSA-SSSA recommend a 10 percent 
increase in the current funding level from BIO to $16.6 million.
    As you lead the Congress in deliberation on funding levels for the 
National Science Foundation, please consider American Society of 
Agronomy, Crop Science Society of America, Soil Science Society of 
America as supportive resources. We hope you will call on our 
membership and scientific expertise whenever the need arises.
    Thank you for your thoughtful consideration of our requests. For 
additional information or to learn more about the American Society of 
Agronomy, Crop Science Society of America and Soil Science Society of 
America (ASA-CSSA-SSSA), please visit www.agronomy.org, www.crops.org 
or www.soils.org or contact ASA-CSSA-SSSA Director of Science Policy 
Karl Glasener (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d464a414c5e4843485f6d4c4a5f424342405403425f4a">[email&#160;protected]</a>, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f09b979c9183959e9582b093829f8083de9f8297">[email&#160;protected]</a>, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="214a464d4052444f445361524e484d520f4e5346">[email&#160;protected]</a>).
                                 ______
                                 
   Prepared Statement of the American Society of Mechanical Engineers

    The National Science Foundation (NSF) Task Force of ASME's 
Technical Communities is pleased to provide comments on the NSF fiscal 
year 2009 budget request, in support of this year's proposed funding 
level of $6.85 billion for the NSF. Founded in 1880 as the American 
Society of Mechanical Engineers, ASME is a worldwide engineering 
society of over 127,000 members focused on technical, educational and 
research issues. It conducts one of the world's largest technical 
publishing operations, holds approximately 30 technical conferences and 
200 professional development courses each year, and sets many industry 
and manufacturing standards.

NSF Fiscal Year 2009 Budget Request Overview
    With its commitment to broad-based, cross-cutting programs that 
advance the boundaries of science and engineering, the NSF is essential 
in guiding the nation's non-defense-related research and education. As 
recognized by the Administration and Congress, in order for the United 
States to remain competitive in the integrated global marketplace, the 
nation must ``support and promote innovation research in the United 
States through high-risk, high-reward projects that meet fundamental 
scientific and technological challenges.'' To implement this vision, 
the America COMPETES Act, which was signed into law in August 2007, 
includes the NSF as one of three key federal science and engineering 
agencies targeted for budget doubling over 10 years. To this end, ASME 
strongly endorses the NSF's investments in the requisite acquisition of 
new knowledge and in the development of talent whereby transformative 
research is supported and a world-class science and engineering 
workforce is built, inciting innovation, encouraging economic growth, 
addressing critical national needs, and establishing our nation's role 
as a global leader.
    The total fiscal year 2009 NSF budget request is $6.85 billion 
representing an $882 million or 13.6 percent increase over the fiscal 
year 2008 estimate of $6.03 billion. It is worth noting that the 
original fiscal year 2008 request was $6.43 billion, which was reduced 
to $6.03 billion (representing only a 2 percent increase over fiscal 
year 2007) in the final fiscal year 2008 omnibus spending measure. 
Thus, after setbacks in fiscal year 2007 and fiscal year 2008, the 
present budget request places NSF back on the path of budget doubling 
set forth in the President's American Competitiveness Initiative (ACI) 
and the America COMPETES Act.
    Research and Related Activities (RRA) comprises the dominant 
portion of the total NSF request at $5.6 million, representing a 16 
percent increase over the fiscal year 2008 estimate of $4.8 million. 
After flat funding in fiscal year 2008, all of NSF's research 
directorates would receive considerable increases in fiscal year 2009, 
recovering from post-2004 NSF budget cuts to reach all-time highs in 
inflation-adjusted dollars. Funding for the Engineering Directorate 
(ENG) would increase by 19.2 percent over the current year estimate to 
$759 million, of which $127 million is budgeted (through mandate) for 
the Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STTR) programs that ENG administers for all of 
NSF.
    ENG consists of the following disciplinary-area divisions: 
Chemical, Bioengineering, Environmental, and Transport Systems (CBET), 
up 32.3 percent to $173 million; Civil, Mechanical and Manufacturing 
Innovation (CMMI), up 26.3 percent to $202 million; Electrical, 
Communications and Cyber Systems (ECCS), up 13 percent to $94 million; 
Industrial Innovation and Partnerships (IIP), up 15.8 percent to $141 
million; Emerging Frontiers in Research and Innovation (EFRI), up 16 
percent to $29 million; and Engineering Education and Centers (EEC), up 
3.4 percent to $120 million.
    A portion of the ENG budget (allocated from the constituent 
divisions) will continue to support research and education efforts 
related to broad, Foundation-wide investments in a number of areas, 
including the Administration's interagency R&D priorities. Under ENG, 
three new priority areas are funded in fiscal year 2009, i.e. Adaptive 
Systems Technology ($3.49 million), Dynamics of Water Processes in the 
Environment ($0.53 million), and Science and Engineering Beyond Moore's 
Law ($4 million). The following continuing areas also receive 
increases: National Nanotechnology Initiative (up 2.2 percent to $140 
million), Cyberinfrastructure (up 7.1 percent to $60 million), and 
Networking and Information Technology R&D (up 45.9 percent to $28 
million--$16.8 million of which is Cyber-enabled Discovery and 
Innovation). Climate Change Science Program ($1 million) funding 
remains level, and the Human and Social Dynamics initiative concluded 
in fiscal year 2008, with funds returning to core programs for 
continued support.

The ASME NSF Task Force Position
            Affirmation and Endorsement
    The ASME NSF Task Force maintains its high endorsement of NSF's 
crucial role in directing the fundamental research and education that 
keeps America at the leading edge of science, engineering, and 
technology. NSF has an outstanding record of supporting a broad range 
of high-quality research, from ``curiosity-driven'' science to targeted 
initiatives. This achievement has been made possible only through 
strict adherence to the independent peer review process for merit-based 
awards. ASME recognizes the significance and relevance of NSF's 
investment areas that address major national needs for the 21st 
century. The increases proposed under the America COMPETES Act would 
allow NSF to properly sustain and expand these efforts and commitments, 
honing the nation's competitive edge.
    The fiscal year 2009 budget request represents a 13.6 percent 
increase over the fiscal year 2008 estimate. Over three-quarters of the 
total $882 million increase for NSF is in R&D funding, totaling $5.6 
billion, a gain of $772 million or 16 percent over the fiscal year 2008 
estimate. After flat funding in fiscal year 2008, this request would 
bring R&D investment to an all-time high in inflation-adjusted dollars, 
allowing the research directorates to recover from the budget cuts that 
occurred after 2004. In a competitive, multifaceted, and ever-changing 
global setting, adequate investment in basic science and engineering 
research, that involves both established and emerging areas, is 
essential in recognizing and nurturing innovation, in preparing the 
next generation of scientific talent and leaders, and in producing the 
products, processes, and services that improve health, living 
conditions, environmental quality, energy conservation, and national 
security for all Americans.
    Overall, the Task Force also supports and commends activities 
within ENG. NSF's vision of ``advancing discovery, innovation, and 
education beyond the frontiers of current knowledge'' is exemplified 
within ENG. It is important to recognize that it is through such 
fundamental science and engineering research by which next generation 
technologies are frequently engendered. Examples of successes emerging 
from ENG include the fabrication of nanowires for optical applications, 
presenting the potential to miniaturize microphotonic devices and 
transform telecommunications. ENG's SBIR program has developed 
lightweight, flexible, low-cost, and more efficient solar cells--
plastic reels coated with layers of dye-sensitized titania 
nanoparticles, enabling capture of larger portions of the visible 
spectrum and absorption of more energy. ENG has also funded pioneering 
work on embedding transistors into microcantilevers, where deflections 
resulting from the binding of target molecules in a specific 
environment, create measurable changes in drain current of the 
transistor. This technique allows for a unique sensor system that could 
potentially detect the presence of heart disease from a person's drop 
of blood or detect the presence of chemicals used for explosives.
    NSF leads the U.S. nanotechnology research effort, and ENG is the 
focal point within NSF for this key national research endeavor. ASME 
has strongly supported the National Nanotechnology Initiative (NNI) 
since its inception as an NSF investment area in fiscal year 2000. 
Increased funding amounts are requested for research at the fundamental 
level, as well as in environmental, health, and safety aspects. Within 
the total NSF-wide investment for NNI, ENG's contribution will increase 
by $3 million to a total of $140 million.
    Finally, ASME continues to support NSF's vision to ``empower future 
generations in science and engineering.'' In coordination with the 
Department of Education, NSF will continue funding for the Math and 
Science Partnership program (at $51 million), aimed at improving K-12 
science, technology, engineering, and mathematics (STEM) education and 
teaching. Funding for the Faculty Early Career Development (CAREER) 
awards, which support exceptionally promising college and university 
junior faculty who are most likely to become the academic leaders of 
the 21st century, will increase $14.2 million to $181.9 million. The 
fiscal year 2009 request provides $245.9 million for NSF's three 
flagship graduate fellowship and traineeship programs: $124.8 million 
for the Graduate Research Fellowship (GRF) program, $63.8 million for 
the Integrative Graduate Education and Research Traineeship (IGERT) 
Program, and $57.3 million for the Graduate Teaching Fellowships in K-
12 Education (GK-12) program. This funding will enable NSF to support 
an estimated 5,450 graduate students. NSF supports the Research 
Experiences for Undergraduates program (REU) at $61.6 million, and the 
Research Experiences for Teachers program (RET) at $9.7 million. NSF 
continues to broaden participation in science and engineering, with 
support totaling $674.4 million. This includes efforts to reach all 
states and regions, e.g. the Experimental Program to Stimulate 
Competitive Research (EPSCoR), which increases to $113.5 million, as 
well as efforts that focus on underrepresented groups.

            Questions and Concerns
    ASME's key questions and concerns arising from the fiscal year 2009 
budget request center on: the need to fund NSF at the appropriate level 
as specified in the America COMPETES Act; a more even funding 
distribution for ENG with respect to other Directorates within NSF; a 
balance between manufacturing and services R&D within ENG; and 
increased funding for non-priority-area core disciplinary research 
within ENG.
    NSF is the only federal agency mandated ``to strengthen the health 
and vitality of U.S. science and engineering and support fundamental 
research and education in all scientific and engineering disciplines.'' 
While comprising only 4 percent of the total federal budget for R&D, 
NSF provides 45 percent of the federal support given to academic 
institutions for non-medical basic research. Moreover, while NSF does 
not directly support medical research, its investments do provide the 
technologies in diagnosis, medicine, manufacturing pharmaceuticals, and 
drug delivery that are essential for the medical sciences and related 
industries. Given recent budget cuts at the appropriations stage, the 
ASME NSF Task Force believes that NSF is severely under funded, with 
the immediate and future welfare of our nation at stake.
    Recognizing the urgency in preserving the nation's past success in 
leading-edge discovery and innovation, Congress and the Administration 
enacted the America COMPETES Act in August of 2007, laying out a bold 
path toward revitalizing basic research in the physical sciences and 
engineering. Beginning with the release of the National Academies' 
report, Rising Above the Gathering Storm, the America COMPETES Act was 
the culmination of a growing consensus among policy makers, engineers, 
and scientists that substantial national efforts related to R&D funding 
in the physical sciences and engineering are needed to preserve the 
nation's competitiveness. The America COMPETES Act was a bipartisan 
bill supporting the doubling of funding over ten years at three key 
federal science agencies (NSF, the Department of Energy's Office of 
Science, and the Department of Commerce's National Institute of 
Standards and Technology). However, despite an increase for NSF and the 
other two agencies, the proposed fiscal year 2008 increase for NSF was 
far from met in the final appropriation. As a result, the ASME NSF task 
force urges Congress to recommit to the ideals of the America COMPETES 
Act, and to fund NSF at the level of the fiscal year 2009 President's 
request, i.e. $6.85 billion, which is commensurate with the intended 
doubling plan.
    ENG is the single largest source of federal funding for university-
based, fundamental engineering research--providing 40 percent of the 
total federal support in this area. However, ENG (less SBIR/STTR) is 
still only fifth in total funding (at $632 million) of the six 
Directorates within NSF, despite receiving the second largest 
percentage increase of the Directorates at 19.6 percent and matching 
CISE for the second largest total amount increase at $104 million. At 
the same time, ENG supports 23 percent of the total NSF REUs, which 
give U.S. undergraduates research experience to encourage them to 
pursue doctoral studies. ENG also supports over 50 percent of the total 
NSF RETs, which give K-12 teachers and community college faculty 
research experience so that they can extend their experience into 
classrooms. It's important to note that ENG supports these two 
activities at the highest percentages among the Directorates within 
NSF. Our Nation's long-standing global prominence in technological 
innovation may be at risk, if such investments in basic engineering 
research and education are constrained by lack of federal funding in 
engineering.
    Driving new innovation, knowledge-intensive industries comprising 
both services and manufacturing are critical in surviving in the 
worldwide economy. However, since 2002, the nation's decades-long 
comparative advantage in the trade balance of high-technology products 
has shifted from surplus to deficit. Of concern is the transformation 
of the United States from a sustainable ``making products'' economy to 
an unsustainable ``selling products'' economy. As found in a study by 
the World Technology Evaluation Center, Inc. (WTEC) on American 
Manufacturing, globalization of manufacturing and the low level of 
government investment in manufacturing R&D have stripped the United 
States of its position as the recognized leader in manufacturing 
innovation and the commercialization of new technologies. Given the 
need for local manufacturing for national security, wealth generation, 
and quality of life (e.g. health care products compromised by unknown 
sources), the portfolio balance of manufacturing versus services R&D 
within ENG should be examined.
    Encouragingly, the 16 percent growth in RRA allows for the support 
of 1,370 additional research grants NSF-wide. For ENG, 454 additional 
grants are anticipated, along with a funding-rate increase from 16-20 
percent and a $2,000 increase in average annualized award size, for 
unsolicited fundamental research proposals for individual investigators 
and small group activities. Although we are moving in the right 
direction, the total funding for non-priority-area core disciplinary 
research (from which new priority areas and even new disciplines are 
often conceived) within ENG should still be examined. Not counting the 
SBIR/STTR program, the funding for investment priority-areas 
constitutes over 40 percent of the budget request for ENG. The Task 
Force does not advocate for the redistribution of monies from 
investment priority-areas into non-priority core areas, but rather 
significant increases for completely flexible core funds in order to 
develop the creative and novel ideas that feed the comprehensive 
fundamental Science, Engineering, and Technology knowledge base, which 
serves as a foundation for this nation's greatness.

Closure
    The ASME NSF Task Force urges Congress to support the 
Administration's request at a minimum of $6.85 billion for fiscal year 
2009, and enthusiastically commends the National Science Foundation's 
leadership in projecting the nation's basic research and development 
vision. We applaud Congress for its recent passage of the House budget 
resolution, which includes significant increases that would bring NSF 
into full compliance with the America COMPETES Act. A substantial 
increase in the NSF's budget, by increasing both the number and size of 
its awards, especially in core disciplinary research and education, 
will enable the NSF to better position itself to fulfill its leadership 
responsibility in directing the nation's research and development 
activities. As Congress considers the fiscal year 2009 appropriations 
bills, we hope that the aforementioned resolution is effected, ensuring 
that the necessary basic R&D funding is secured for future U.S. 
competitiveness in science and technology.
    This testimony represents the considered judgment of the NSF Task 
Force of ASME's Technical Communities and is not necessarily a position 
of ASME as a whole.
                                 ______
                                 
                Prepared Statement of Bell Incorporated

    On behalf of Bell Incorporated, a global packaging manufacturer, 
located in Sioux Falls, South Dakota, I would like to thank the 
Committee for allowing our organization to submit this testimony for 
the record. I am writing to respectfully request that the Hollings 
Manufacturing Extension Partnership program be provided the authorized 
$122 million within the fiscal year 2009 Commerce, Justice, Science and 
Related Agencies Appropriations Bill. This requested level of funding 
for 2009 was provided for in the recently enacted America COMPETES Act. 
As you know, the Hollings Manufacturing Extension Partnership (MEP) is 
a program within the Department of Commerce, National Institute of 
Standards and Technology, a program authorized to improve 
competitiveness of America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In South Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. Several years ago, our company began our commitment 
to continuous improvement with the assistance of Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
                   and Land-Grant Colleges (NASULGC)

    On behalf of the NASULGC Board of Natural Resources (BNR), we thank 
you for your support of science and research programs within the 
National Science Foundation. As members of the scientific academic 
community we encourage you to support an appropriation of at least 
$6.85 billion for the National Science Foundation, including at least 
$675 million for the Directorate of Biological Sciences (BIO). The 
fiscal year 2008 enacted level for NSF is $6.07 billion. The 
administration's fiscal year 2009 request is $6.85 billion for NSF and 
$675 million for BIO. Furthermore, within BIO, we ask that you support 
the President's budget request for the National Ecological Observatory 
Network (NEON) at $26 million in fiscal year 2009.
    While we are pleased that the NSF received an increase (3 percent) 
in fiscal year 2008 over fiscal year 2007 enacted level, we are 
concerned that when adjusted for inflation, the NSF is still receiving 
less funding than in previous years. The BNR supports a 13 percent 
increase for the NSF over the 2008 enacted level to keep it above the 
level of inflation over the past several years and fulfill the promises 
of the America COMPETES Act.
    State universities and land-grant colleges truly welcome and are 
excited by the passage of the America Competes Act and the renewed 
national focus on scientific research and education. Education and 
scientific research have served as the infrastructure and foundation 
for much of Nation's economic and national security. We are also 
extremely pleased with the administration's proposal to double funding 
in the physical sciences at NSF over the next 10 years; however, we 
feel that biological sciences are equally important to America's 
competitiveness.
    Better support for the BIO Division of Environmental Biology is a 
very serious need. NSF's BIO support represents 63 percent of all 
federal funding for basic research in environmental biology. Of the 
non-medical aspects of the biological sciences, BIO is the dominant 
federal supporter of basic research at academic institutions--providing 
66 percent of all support. NSF's contribution to a broad array of the 
biological sciences is critically important--particularly in such areas 
as environmental biology and plant sciences.
    If continued increased investments are not made in environmental 
biology, the younger generation of ecological scientists at our 
universities will be shut out of graduate study, and the contributions 
they should be making to our improved understanding of the environment 
will never happen. These young scientists need to be empowered to help 
us recognize the value of our natural capital, better equipping us to 
protect the America's long term economic and environmental interests.
    Using the University of Alabama as one example out of many BIO-
supported universities, BIO's Division of Environmental Biology has 
been the major source of funding that has supported research and 
education associated with the Aquatic Biology Program and the Center 
for Freshwater Studies for the past 15 years. The Ecosystem Science, 
Ecological Biology, and the Systematic Biology and Inventories clusters 
have been especially important in supporting individual investigator 
and interdisciplinary, collaborative projects. These funded projects 
have been instrumental in furthering our understanding of the important 
Mobile River System, the largest river system that drains into the Gulf 
of Mexico, east of the Mississippi River. Additionally, these projects 
have also supported over 100 undergraduate, graduate, and post-doctoral 
students at our institution.
    Many recent graduate students that received support from the NSF 
Division of Environmental Biology are already greatly contributing to 
the field, especially in recovery efforts in the Gulf Coast. The 
knowledge gained from their NSF funded projects is especially valuable 
at a time when both coastal and inland areas along the Gulf coast are 
increasingly being affected by major hurricanes such as Katrina and 
Rita. An understanding of the roles of river floodplains and wetlands 
in mediating major floods and storm surges is critical to effective 
management and restoration of these environments.
    Another program that deserves much support is the NSF-National 
Ecological Observatory Network (NEON), which is envisioned as a 
continental-scale research and infrastructure platform that will 
provide unprecedented advances in ecological forecasting and 
prediction. NEON will transform the way we conduct science by enabling 
the integration of research and education from natural to human 
systems, and from genomes to the biosphere. NEON will address many 
issues critical to the nation's environmental and economic health, 
including land use and climate change, invasive species, and hurricane 
effects. We support the current NSF budget request for funding for NEON 
in the Directorate for Biological Sciences (e.g., Division of 
Biological Infrastructure and Emerging Frontiers).
    Issues of national importance related to the environment, economy, 
agriculture, and human welfare require an understanding of how living 
organisms function and interact with nonliving systems. Advancing 
fundamental scientific discovery in all aspects of life--from molecules 
to whole ecosystems--is supported within NSF, where the ability to 
integrate the range of biological sub-disciplines is unique.

About NASULGC
    NASULGC is the nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all fifty 
states. The Association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.

About the Board on Natural Resources
    The Board's mission is to promote university-based programs dealing 
with natural resources, fish and wildlife, ecology, minerals and 
energy, and the environment. Most NASULGC institutions are represented 
on the Board. Present membership exceeds 500 scientists and educators, 
who are some of the nation's leading research and educational expertise 
in environmental and natural-resource disciplines.
    This testimony was developed for the BNR by the Chair of the BNR's 
Ecology Section, Dr. Amy Ward, Professor of Biological Sciences, 
University of Alabama.
                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
                   and Land-Grant Colleges (NASULGC)

    On behalf of the National Association of State Universities and 
Land-Grant Colleges' Board on Oceans and Atmosphere, thank you for the 
opportunity to provide recommendations for the fiscal year 2009 budgets 
for the National Oceanic and Atmospheric Administration (NOAA), the 
National Aeronautic and Space Administration (NASA), and the National 
Science Foundation (NSF). All three agencies support research at our 
member institutions that provides critical information to policymakers 
and communities across the country. That is why we strongly recommend 
$4.5 billion for NOAA; $380.6 million in the NASA Earth Science 
Research Account; and $6.85 billion for NSF. Furthermore, within NOAA, 
we recommend $471 million for the Ocean and Atmospheric Research (OAR), 
including $72 million for the National Sea Grant Program; $930.7 
million for the National Weather Service (NWS); $29.5 million for the 
National Ocean Service (NOS) Ocean and Coastal Research Program and the 
NOS Oceans and Human Health Initiative; $96 million for the Integrated 
Ocean Observing Systems (IOOS); and $1.2 billion for the National 
Environmental Satellite, Data and Information Service (NESDIS). Within 
NSF, we recommend $848.7 million for the Geosciences Directorate; $98 
million for the Academic Research Fleet; and $244.74 million for the 
Major Research Equipment & Facilities Construction account, including 
$38 million for the Integrated Ocean Drilling Program (IODP), and $31 
million for the Ocean Observatories Initiative (OOI) .

About NASULGC
    NASULGC is the nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all fifty 
states. The Association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.

About the Board on Oceans and Atmosphere
    The BOA's primary responsibility is to advance research and 
education in the marine and atmospheric sciences through a federal 
relations program. The board currently has approximately 200 regionally 
distributed members, including some of the nation's most eminent 
research scientists, chief executive officers of universities, marine 
and atmospheric scientists, academic deans, and directors of Sea Grant 
programs.

NOAA
    In order to maintain our country's homeland security, scientific 
leadership, and economic competitive edge, we must have a diverse 
portfolio of federally supported science research and programs. 
Consequently, we are concerned about the significant cuts made to NOAA 
in fiscal year 2006, 2007, and 2008. The science-based work of NOAA 
protects and impacts every American citizen, everyday. NOAA is the 
third largest source of funds for academic marine research in the 
federal government. As a member of the Friends of NOAA Coalition, 

NASULGC strongly recommends $4.5 billion for NOAA in fiscal year 2009.
    BOA recommends a portion of the $4.5 billion be used to support the 
following programs:
    $471 million for Oceanic and Atmospheric Research (OAR), including 
$72 million for the National Sea Grant College Program (Sea Grant). The 
fiscal year 2008 enacted level is $380 million while the President's 
fiscal year 2009 request is $382 million. The research conducted 
through OAR and partnering universities helps us understand climate 
variability, provide better protection for coastal resources, 
contribute to our Nation's commerce, and support our transportation 
systems. OAR supports such important programs as the Ocean Exploration, 
the National Undersea Research Program, U.S. THORPEX medium-range 
forecast improvement research program, transition research for new 
operational forecast models, Climate Operations and Sea Grant.
    For Sea Grant, the fiscal year 2008 enacted is $57.1 million while 
the President's fiscal year 2009 request is $55 million. In constant 
dollars, the program is at its lowest funding levels since its 
inception four decades ago. Sea Grant is the flagship program between 
NOAA and the academic community, supporting the work of 31 colleges 
located in coastal and Great Lakes states and serving as the core of a 
national network of more than 300 institutions involving more than 
3,000 scientists, educators, students, and outreach experts.
    BOA supports the President's request of $930.7 million for the 
National Weather Service (NWS). The fiscal year 2008 enacted is $805.3 
million. NWS provides weather, hydrologic, and climate forecasts and 
warnings for the United States, for the protection of life and property 
and the enhancement of the national economy. NWS data and products form 
a national information database and infrastructure which can be used by 
other governmental agencies, academia, the private sector, the public, 
and the global community.
    $29.5 million for the extramural portions of both the NOS ocean and 
coastal research program and the Oceans and Human Health Initiative 
(OHHI). The fiscal year 2008 enacted level is $3 million while the 
President's fiscal year 2009 request is $1 million. Within the NOS, BOA 
supports restoration of the drastic cuts in competitive extramural 
research, bringing funding back to the more sustainable and effective 
level provided in fiscal year 2005. In addition, we support the 
appropriation of sufficient funds for full NOAA participation in 
collaborative NOS science programs, particularly OHHI. NOS support for 
extramural research conducted in cooperation with NOAA scientists is 
leading to improved knowledge and forecasts to address complex problems 
such as harmful algal blooms, hypoxia, coastal stressors and ecosystem-
based management of fisheries.
    $96 million for the Integrated Ocean Observing System (IOOS), 
(including $50 million for Regional Ocean Observing Systems (ROOS), $10 
million for data management and communications, $30 million for IOOS 
enhancements and $6 million for global ocean observing system 
enhancements). Fiscal year 2008 enacted is $26.4 million while the 
President's fiscal year 2009 request is $6.5 million for NOAA IOOS and 
$14.6 million for IOOS Regional Observations (competitive funding). 
IOOS is critical to improving predictions of climate change and 
weather, improving the safety of maritime operations, and reducing 
public health risks. While BOA is supportive of NOAA's inclusion of 
IOOS in its budget request, funding still falls short of last year's 
funding by $5 million, and we prefer placing the vast majority of 
funding for IOOS into competitive funding for the ROOS.
    BOA supports the President's fiscal year 2009 request of $1.2 
billion for NESDIS. BOA strongly supports the building and 
strengthening of NOAA's satellite systems, because these programs are 
extremely important to timely and accurate weather forecasts that 
directly affect public safety, protection of property, and economic 
health and development. In supporting this request, however, BOA is 
concerned that the increase in satellite budget for the Geostationary 
Operational Environmental Satellite not come at the expense of other 
programs within NOAA. Money directed to satellite programs should be in 
addition to funding of other NOAA programs.

NASA
    Last year, the National Research Council released its report, 
``Earth Science and Applications from Space: National Imperatives for 
the Next Decade and Beyond.'' The report found that between 2000 and 
2006, funding for Earth Sciences (ES) has fallen from $2 billion to 
$1.5 billion annually. ES research is absolutely critical to 
understanding global climate change, such as the decline of Earth's ice 
sheets or the health of the global oceans. BOA generally supports the 
findings of this report, and we urge the committee to increase the ES 
funding levels consistent with the report's recommendations so that 
future missions as well as research and analysis (R&A) are supported. 
It is also critical to continually evaluate the scientific priorities 
of future missions so that mission priorities can be adjusted to 
provide the most benefit and imminent gaps in capabilities and 
systematic observations can be addressed. For this reason, BOA 
recommends additional funding to support a gap analysis of critical 
systematic and emerging science priorities and to adjust mission 
strategies as appropriate, including the development of new mission 
plans where appropriate.
    ES activities currently fall within the agency's Science Mission 
Directorate. We continue to see ES activities, such as R&A in the past 
five years, being cut because of other agency priorities. ES 
investments in university-based research have resulted in valuable 
advances in weather forecasting, improved climate projections, and 
understanding of Earth ecosystems. Furthermore, the R&A program within 
ES is the primary mechanism for funding to the academic community. 
Through its support for young scientists and graduate students, the R&A 
program supports innovation in ES and technology using NASA's satellite 
missions. New sensor concepts, new data processing algorithms, and new 
approaches to global-scale ES are the legacy of the research funded by 
the R&A program. In view of the rapid changes taking place in global 
climate, weather, ice cover, carbon cycle science and ecosystems, it is 
essential that NASA maintain a strong level of R&A funding to derive 
maximum benefit from today's missions as well as to support the 
innovation needed to develop the missions of tomorrow. To ensure the 
viability and effectiveness of our ES R&A programs, BOA supports 
restoring Earth Sciences funding to fiscal year 2000 levels, an 
increase of approximately 33 percent.

NSF
    BOA welcomes the renewed national focus on scientific research and 
education as illustrated by the passage of the American COMPETES Act. 
BOA supports the President's NSF fiscal year 2009 budget request of 
$6.85 billion. The fiscal year 2008 enacted is $6.06 billion.
    BOA recommends that a portion of that $6.85 billion be used to 
support the following program:
    BOA supports the President's request of $848.7 million for the 
Geosciences Directorate. No specific numbers for the Geosciences 
Directorate were enacted for fiscal year 2008. As the principal source 
of federal funding for university-based fundamental research in the 
geosciences, GEO addresses the Nation's need to understand, predict, 
and respond to environmental events and changes. GEO-supported research 
also advances our ability to predict natural phenomena of economic and 
human significance, such as climate changes, weather, earthquakes, 
marine ecosystem change, and disruptive events in the solar-terrestrial 
environment.
    $244.74 million for the Major Research Equipment & Facilities 
Construction Account, (MREFCA) and within MREFCA, $31 million for the 
Ocean Observatories Initiative (OOI) and $38 million for the Integrated 
Ocean Drilling Program (IODP). The fiscal year 2008 enacted for MREFCA 
is $220.74 million, while the President's fiscal year 2009 request is 
$147.51 million. No specific fiscal year 2008 numbers were enacted for 
OOI or IODP. The President's fiscal year 2009 request is $10.50 million 
for OOI and $47.74 million for IODP.
    The OOI will provide the oceanographic research and education 
communities with continuous, interactive access to the ocean. Through a 
global-scale array, a regional-scaled cabled network, and a network of 
coastal observatories, scientists will be able to study real-time data 
transmission and visual images from the seafloor multiple, interrelated 
processes over variable timescales. OOI will also provide the ideal 
platform for training a new generation of oceanographers skilled in the 
use and manipulation of large, oceanographic, time-series datasets, a 
necessity given the planned establishment of the National Integrated 
Ocean Observing System (IOOS).
    The IODP is an international partnership of scientists, research 
institutions, and agencies using ocean drilling to explore the 
evolution and structure of Earth as recorded in the ocean basins. As 
part of its co-leadership of IODP with Japan, NSF will provide a light 
drillship and science support services for high-resolution studies of 
environmental and climate change, observatory and biosphere objectives. 
The contracting, conversion, outfitting and acceptance trials of a new 
Scientific Ocean Drilling Vessel will enable NSF to move forward with 
its portion of IODP.
    $98 million for the Academic Research Fleet (ARF). Finally, to 
optimize the potential of these ocean research infrastructures, 
operating and maintenance funding will be required. No specific funding 
was enacted for ARF in fiscal year 2008. The administration's fiscal 
year 2009 request is $83.96 million.
                                 ______
                                 
     Prepared Statement of the California State Coastal Conservancy

                                SUMMARY

    On behalf of the California State Coastal Conservancy, I want to 
thank the Subcommittee for this opportunity to present our priorities 
for fiscal year 2009. The Conservancy respectfully requests the 
following funding levels needed from the listed NOAA accounts for the 
implementation of the California Seafloor Mapping Program (CSMP). Our 
requests during fiscal year 2009 are as follows: $1,000,000 for the 
Office of Coast Survey; $300,000 for the NOAA National Marine Fisheries 
Service Southwest Fisheries Service Center and $3,500,000 for the NOAA 
Coastal Services Center. The Conservancy is also seeking a $1 million 
appropriation for the NASA Ames Research Center located in the Silicon 
Valley section of California in support of our efforts with the South 
San Francisco Bay Salt Ponds Restoration. In totaling our requests the 
Conservancy is asking for $5.8 million in funding during fiscal year 
2009 from accounts under the subcommittees jurisdiction.

                         CONSERVANCY BACKGROUND

    The California State Coastal Conservancy, established in 1976, is a 
state agency that uses entrepreneurial techniques to purchase, protect, 
restore, and enhance coastal resources, and to provide access to the 
shore.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay. 
Through such projects, the Conservancy: protects and improves coastal 
wetlands, streams, and watersheds; works with local communities to 
revitalize urban waterfronts; assists local communities in solving 
complex land-use problems and protects agricultural lands and supports 
coastal agriculture to list a few of our activities.
    Since its establishment in 1976, the Coastal Conservancy has: 
helped build more than 300 access ways and trails, assisted in the 
completion of over 100 urban waterfront projects, joined in partnership 
endeavors with more than 100 local land trusts and other nonprofit 
groups and completed projects in every coastal county and all nine San 
Francisco Bay Area counties.

                  CALIFORNIA SEAFLOOR MAPPING PROGRAM

    The California State Coastal Conservancy, in conjunction with 
numerous state and federal partners, is ambitiously pursuing the 
mapping of the entirety of the seafloor directly off the coast of the 
state of California. This project will produce detailed bathymetric 
maps of some of the most productive ocean waters in the United States 
and the world and as such is critical for a multitude of reasons.
    A large number of ocean management decisions can be made more 
effectively with accurate statewide mapping of seafloor substrate, 
marine habitat types, and bathymetry (underwater topography) of 
California's coastal and nearshore waters. This information will inform 
the designation of new marine reserve areas as well as the monitoring 
of all reserve areas along the California Coast. High resolution sea 
floor maps will distinguish underwater habitats and highlight faults, 
chasms, fissures, crevices and pinnacles and will help identify and 
understand known and unknown fault dynamics along the seismically 
active California Coast. This information will then be utilized by 
scientists and resource managers to identify potential biological hot 
spots to aid their understanding of the highly productive and diverse 
ecosystem along the California Coast. Further, information concerning 
the size and extent of activity associated with known and unknown 
underwater fault lines will allow our communities to better prepare for 
the possibility of cataclysmic seismic activity of the California 
Coast.
    In addition, the project will provide extensive navigational 
benefits as it will identify hidden reefs, sunken obstacles and other 
navigation hazards in California's near and offshore waters. This 
information is essential for the safety of maritime commerce vessels, 
and subsequently the economies of California and the nation. These maps 
will provide greater knowledge and understanding of navigational 
channels and hazards surrounding the Ports of Los Angeles, Long Beach, 
and Oakland, the nations 1st, 2nd and 4th busiest port facilities 
respectively, which collectively are responsible for 50 percent of the 
nation's total container cargo volume.
    Examples of some additional applications that would benefit from 
marine mapping and data include: understanding sediment transport and 
sand delivery, identifying dredging and dumping sites, regulation of 
offshore coastal development, and illuminating the dynamics of 
fisheries and other marine species. Detailed bathymetric maps are also 
critical in the development of an ocean circulation model that will 
allow us to better predict ocean response to natural and human-induced 
changes.
    We are committed to the success and completion of the project and 
have secured $12.5 million from the State of California Ocean 
Protection Council (OPC) for the advancement of the project to date. 
The OPC also intends to appropriate an additional $7.5 million in 
fiscal year 2009 if funds become available. We are also working with 
the Packard Foundation to determine the potential of financial support.
    In support of the project the California Coastal Conservancy is 
seeking $1,000,000 from the Office of Coast Survey (OCS) in the 
National Oceanographic and Atmospheric Administration. OCS has been 
surveying the coastal waters of the United States and producing 
navigational charts for our nation's ports and waterways for nearly two 
centuries. Federal funds would be used to augment state funds to 
collect remaining data in California's state waters. OCS committed 
$2,000,000 to the program in fiscal year 2008.
    In addition, we are seeking $300,000 in funding from the National 
Marine Fisheries Service Southwest Fisheries Science Center. Habitat 
differences of biological and geological significance cannot always be 
discerned from remotely sensed data. Some physical (grab samples) or 
visual (video) sampling is required to meet International Hydrographic 
Organization standards. Working in cooperation with the USGS and the CA 
Department of Fish and Game, federal funds and staff time for NMFS are 
needed to assure biological accuracy of the mapping effort. An 
additional $1.5 million will be requested from the U.S. Geological 
Survey Coastal and Marine Geology Program for scientific data 
collection (hydrographic surveys of the seafloor, video ground-truthing 
of remotely collected data to verify habitats and geologic structure, 
and seismic profiling to determine geologic stability) and for final 
map production. Although most of the hydrographic survey data will be 
collected by private industry, the Coastal and Marine Geology Program 
of the USGS is uniquely qualified to ground truth the accuracy of the 
data, and in coordination with the CA Geological Survey, create 
finished map products.
    We are also seeking $3,500,000 in funding for the establishment of 
a NOAA West Coast Coastal Services Center. This is essential as the 
CSMP will produce vast amounts of data and maps. An established Coastal 
Service Center in this region will allow NOAA to work with the state to 
ensure managers have access to essential data and to develop decision-
making tools for resource managers. These tools will help local and 
state managers make connections between coastal land use and marine 
resources and better understand climate change and sea level rise 
impacts on our coastal and ocean resources. The establishment of the 
West Coast Services Center will also enhance the federal support for 
the West Coast Governors' Agreement on Ocean Health such as the 
development of social economic baselines for coastal communities and 
West Coast-wide mapping products, tools, and technical training through 
the Digital Coast effort.
    Finally, the subcommittee should know that the CSMP enjoys broad 
support from a multitude of local, state, and federal agencies. These 
entities include: NOAA, USGS, Mineral Management Service, U.S. Coast 
Guard, U.S. Army Corps of Engineers, U.S. Fish and Wildlife Service, CA 
Department of Fish and Game, CA State Lands, CA Coastal Commission, and 
CA State Water Resources Control Board. The CSMP is also supported by 
the federal Integrated Ocean Observing Program and the two regional 
associations within California, the Central and Northern Coastal Ocean 
Observing System (CeNCOOS) and the Southern CA Coastal Ocean Observing 
Program (SCCOOS). Seafloor mapping is included as a major priority in 
the OPC's strategic plan and in the West Coast Governor's Agreement on 
Ocean Health. Furthermore, the Interagency Working Group on Ocean and 
Coastal Mapping, established by the Joint Subcommittee on Ocean Science 
and Technology, is currently drafting a National Ocean and Coastal 
Mapping Strategic Action Plan that will highlight the state-federal 
partnerships developed for CSMP as a model for the country.

  SOUTH SAN FRANCISCO BAY SALT PONDS RESTORATION--NASA AMES RESEARCH 
                                 CENTER

    The California State Coastal Conservancy in conjunction with the 
U.S. Fish and Wildlife Service, U.S. Army Corps of Engineers, NOAA, the 
Santa Clara Valley Water District and Alameda County Flood Control and 
Water Conservation District is pursuing the restoration of over 15,100 
acres of salt ponds formerly owned by the Cargill corporation. The 
project, known as the South San Francisco Salt Ponds Restoration 
Project, is the largest wetlands restoration initiative on the west 
coast of the United States and the 2nd largest restoration project in 
the nation, trailing only the Comprehensive Everglades Restoration 
Program in size and scope.
    The project will provide dramatic benefits to the region, state and 
nation by transforming 15,100 acres of salt ponds formerly owned by the 
Cargill Corporation into a vibrant wetlands area that will provide 
extensive habitat for federally endangered birds, fish and wildlife. In 
addition, the project will improve wildlife oriented recreational 
opportunities including fishing, hunting, environmental education and 
bird-watching.
    In addition, the project will provide increased public access to 
areas of the South San Francisco Bay that were previously unreachable 
through the creation of new bay trails and other associated 
undertakings. The construction of one particular segment of bay trail 
runs adjacent to the NASA Ames Research facility. The facility, 
currently well removed from public access, will need upgraded security 
features to safeguard its personnel and contents in advance of 
increased public access to the area. As such, we are seeking a $1 
million in increased funding for the facility for the construction of 
this fence. Of this amount $661,800 will be for 13,236 linear feet of 
fencing, $50,000 for 10 double swing gates valued at $5,000 per gate 
and $60,000 is required for the installation of closed circuit 
monitoring technologies.
    This request is supported by the center and all our project 
partners. Specifically, the South San Francisco Bay Salt Ponds Project 
is supported by a great number of respected organizations including: 
the San Francisco Bay Joint Venture, the City of San Jose, The Bay 
Institute, Save the Bay, the Bay Trail Program, the National Audubon 
Society, and many other local governments, environmental groups, 
community groups, businesses, and recreation organizations.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers

Introduction
    Thank you, Chairwoman Mikulski, Ranking Member Shelby and other 
distinguished members of the Subcommittee, for this opportunity to 
express support for the Census Bureau and the National Science 
Foundation (NSF), two agencies important to the Population Association 
of America and the Association of Population Centers (PAA/APC). PAA and 
APC request that you support the administration's budget for the Census 
Bureau at $2.6 billion and for NSF at $6.8 billion.

Background on the PAA/APC and Demographic Research
    The PAA is an interdisciplinary, scientific organization comprised 
of over 3,000 research professionals, including demographers, 
economists, sociologists, and statisticians. The APC is a similar 
organization comprised of over 30 universities and research groups that 
foster collaborative demographic research and data sharing, translate 
basic population research for policy makers, and provide educational 
and training opportunities in population studies.
    Demography is the study of populations and how and why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, immigration and disabilities 
as well as racial, ethnic and socioeconomic changes in populations. 
Among the major policy issues, population researchers study the 
demographic causes and consequences of population aging, trends in 
fertility, marriage, divorce and their effects on the health and well 
being of children, and immigration and migration and how these patterns 
affect the ethnic and cultural diversity of our population and the 
nation's health and environment.
    PAA/APC members rely on a number of federal agencies charged with 
funding demographic research and generating reliable, accessible data. 
The ability of our members to produce meaningful research, often used 
to inform policy decisions, requires the use of substantial data sets 
and support for research projects and research training. Both the 
Census Bureau and National Science Foundation (NSF), which are under 
your subcommittee's jurisdiction, are key to the success of our field.

The Census Bureau
    The Census Bureau is the most comprehensive source of demographic 
and economic data on every facet of our nation's population and 
communities. PAA and APC members rely on accessible data produced by 
the Census Bureau to conduct their research. Thus, we support the 
Administration's request of $2.6 billion for the Census Bureau in 
fiscal year 2009 and hope the Subcommittee will as well. This funding 
is necessary to support the significant ramp-up activities in the final 
preparation year for the 2010 decennial census and to support the 
agency's ongoing survey operations, too.
    We recognize the fiscal year 2009 request is double the fiscal year 
2008 appropriation of $1.3 billion. However, as you know, the Census 
Bureau's budget is cyclical and must increase dramatically in the years 
immediately preceding the decennial census to pay for necessary 
preparations. In fiscal year 2009, these activities include:
  --Opening and staffing 150 ``early'' local census offices;
  --Canvassing all neighborhoods and rural areas to verify addresses 
        (on the Master Address File) and geographic locations (in the 
        TIGER system);
  --Finalizing data capture, data processing, and telecommunications 
        systems;
  --Printing hundreds of millions of census questionnaires and other 
        forms; and
  --Conducting promotional activities, including the Regional 
        Partnership Program, to assure the greatest possible level of 
        participation in 2010.
    The groundwork done in the final year before the census will, to a 
large extent, determine the success of the 2010 Census. The Census 
Bureau must receive, at a minimum, the President's requested funding 
level, to ensure vital preparations are thorough and timely.
    Fiscal year 2009 is also a pivotal year for the American Community 
Survey (ACS), which has replaced the traditional census long form. In 
2010, the ACS will provide the first demographic, economic, and housing 
characteristics data for areas as small as census tracts and block 
groups, based on five years worth of data collection for households 
(2005-2009). To assure the data collected in the last year are as 
accurate as in previous years, the Census Bureau needs sufficient 
funding to continue sampling three million households that receive the 
ACS annually.
    The Administration's request also will enable the agency to 
continue its other ongoing surveys, which measure changes in individual 
and household demographic and economic conditions. For example, in 
fiscal year 2009, the Census Bureau will tabulate and publish data from 
the 2007 Economic Census, launch an initiative to improve the 
collection of economic statistics on the growing service sector, and 
continue the Survey of Income and Program Participation. Continuation 
of these activities is particularly important in the current difficult 
economic climate, as these data provide a basis for key economic 
indicators and help Congress assess the prudence of fiscal policy 
proposals.

National Science Foundation (NSF)
    PAA and APC, as members of the Coalition for National Science 
Funding, support the President's fiscal year 2009 budget request for 
NSF of $6.8 billion. This budget will enable the NSF Social, Behavioral 
and Economic Science Directorate (SBE) to continue its support of 
social science surveys and a rich portfolio of population research 
projects.
    The mission of NSF is to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense. The demography of our population directly impacts the 
health, prosperity, welfare, and security of our nation. NSF's support 
of demographic research, particularly its support of large-scale 
longitudinal surveys, such as the General Social Survey and Panel Study 
of Income Dynamics, is central to the agency's mission and essential 
for the field of demographic research. NSF is the funding source for 
approximately 20 percent of all federally supported basic research 
conducted by America's colleges and universities, including basic 
behavioral and social research. Demographic research also depends on 
support from NSF for support of individual research projects and 
research centers.
    The Census Bureau and the National Science Foundation support, 
indirectly and directly, the collection and availability of rich data 
sources important to PAA/APC members. Our demographers, economists, 
sociologists, and statisticians rely on federally supported data to 
conduct sound research and inform public policy. Investments in these 
data sets are investments in good policy.
    Thank you for considering our requests and for supporting federal 
programs that benefit the field of demographic research.
                                 ______
                                 
  Prepared Statement of the Consortium of Social Science Associations 
                                (COSSA)

    Mr. Chairman and Members of the Subcommittee: The Consortium 
represents over 110 professional associations, scientific societies, 
universities and research institutes concerned with the promotion of 
and funding for research in the social, behavioral and economic 
sciences. COSSA functions as a bridge between the research world and 
the Washington community. A list of COSSA's membership is attached.
    Like you, COSSA was disappointed in some of the final numbers in 
the fiscal year 2008 Consolidated Appropriations Act. We had hoped the 
Administration and the Congress could agree on an overall number that 
would have allowed you to maintain some of the early promising 
increases for the National Science Foundation and other agencies. We 
hope the fiscal year 2009 process will work more smoothly.
    We appreciate the opportunity to comment on the proposed fiscal 
year 2009 budgets for the National Science Foundation (NSF), for which 
we recommend at least $6.85 billion; the Bureau of Economic Analysis, 
for which we support the proposed budget of $86.9 million; the Census 
Bureau, for which we recommend whatever funds, both regular and 
``emergency'' appropriations, that may be necessary to ensure a fair 
and accurate Census and protect the Bureau's other data collection 
activities; the National Institute of Justice (NIJ), for which we seek 
$50 million in program funds, and Bureau of Justice Statistics (NIJ), 
for which we urge $50 million in program funds. COSSA is well aware 
that each year you confront difficult choices among competing agencies 
under the Subcommittee's jurisdiction. We hope that you will give these 
agencies' needs generous consideration.

                   NATIONAL SCIENCE FOUNDATION (NSF)

    COSSA strongly recommends that NSF receive at least the President's 
request of $6.85 billion in fiscal year 2008. We recognize that this is 
below the authorized level of $7.33 billion, that would double NSF's 
budget in seven years, but we are realistic. We also strongly support 
the Research and Related Activities request of $5.594 billion.
    We realize the NSF fiscal year 2009 budget proposal is driven by 
the Administration's American Competitiveness Initiative (ACI). And we 
know that the ACI grew out of the National Academies' Rising Above the 
Gathering Storm (RAGS) report. Both of these have asserted that 
reinvigorating the physical sciences and engineering are a national 
priority. Yet, there are admonitions from the RAGS report, from the 
language in the fiscal year 2008 appropriations report, for which we 
are grateful to this Subcommittee, and from the COMPETES Act, that the 
social, behavioral and economic (SBE) sciences should not be left 
behind. COSSA believes the NSF's fiscal year 2008 allocation and the 
fiscal year 2009 request suggest that is what is happening. There is no 
apparent increase in the fiscal year 2008 current plan for the SBE 
directorate and its fiscal year 2009 proposed increase of $18 million 
pales in comparison to the $235 million boost for the physical and 
mathematical sciences. NSF is extremely important for federal support 
for basic research in the SBE sciences. For some fields in these 
sciences, NSF is the only source of federal support for basic research 
and infrastructure development.
    Now is also a time when advances in methodologies, computing power, 
and interdisciplinary cooperation are helping SBE scientists produce 
significant results. We need sustained support for the new modes of 
research, such as collaborations, economic and political laboratories, 
merged databases, functional MRIs, and virtual centers that have 
transformed SBE research.
    The social and behavioral research portfolio is enormous and 
supports science of tremendous intellectual excitement and substantial 
societal importance. Let me list a number of areas, far from a 
comprehensive list, where social and behavioral research plays a 
significant role in addressing America's and the world's problems.
  --The Brain/Behavioral Interface--neuroeconomics, law and 
        neuroscience, biomarkers
  --Ethical, Legal and Social Implications (ELSI)--
    --Information Technology--privacy, human-machine interfacing
    --Nanotechnology--regulatory and safety considerations
  --Climate Change
    --Human Dimensions, International Politics, Land Use, Coupled 
            Natural and Human Systems
  --Energy
    --Behavior Changes for Conservation
    --Biofuel Impact on Rural America
  --Developing Human Capital
    --Language and Other Learning, Skill Formation, Changing Workforce.
  --Social Networks--terrorism, teen sexual behavior
  --Decision Making--under uncertainty, risk taking and risk aversion
  --Organizational Change--virtual organizations, flat pyramids, 
        telecommuting
  --Public Health--obesity, health disparities, lifestyle choices
  --A Fair Society--broadening participation and enhancing diversity
  --A Safe Society--crime and criminal justice
  --Changing Demographics
    --International Aspects--global aging, migration, birth and death 
            Rates
    --U.S.--internal shifts, immigration
    --Changing Family Structure
  --Global Issues--Conflict and Cooperation, Terrorism, Differential 
        Economic Growth, Compatibility of Economic and Political 
        Freedom
    As you can recognize, many of these are issues the Congress deals 
with constantly. Social and behavioral research provides you with 
answers to many of these vexing problems. Yet, at budget time, we are 
relatively poor orphans.
    Admittedly, not all of these issues are related to NSF's agenda. 
However, basic research on individual, group, and societal behavior is 
the underpinning for much of the knowledge and insight that policy 
makers bring to coping with these issues. Of course, we understand, as 
political science studies have shown, that research results are not the 
only consideration used by policy makers.
    Some specific SBE-related programs continue, such as the initiative 
on the Science of Science and Innovation Policy (SciSIP). These studies 
examine how national research and development systems work, how to 
measure and nurture innovation, and how to direct the nation's 
investments. Two major competitions have been solicited, generating 
high demand, and more will follow. Unfortunately, the fiscal year 2008 
lack of a spending increase affected the ability of this program to 
fund some excellent proposals.
    The Foundation-wide, SBE-managed, priority called Human and Social 
Dynamics (HSD) has come to an end. HSD supported projects that 
investigated the dynamics of human action and development, as well as 
knowledge about organizational, cultural, and societal adaptation and 
change. It utilized multidisciplinary research teams and comprehensive, 
interdisciplinary approaches across the sciences. Two major HSD foci 
will continue as part of the core programs within SBE: environmental 
research and the development of international, integrated, microdata 
sets to enhance analysis of both national and global attitudes and 
trends.
    SBE maintains its support for major long-term data bases such as 
the Panel Study on Income Dynamics, the General Social Survey, and the 
American National Election Studies. These three extraordinary sets of 
time-series data continue to paint a portrait of American's economic, 
social, and political attitudes and behavior over five decades, while 
updating their methodology and expanding their scope.
    With regard to the Education and Human Resources directorate (EHR), 
COSSA believes that broadening participation in science, across all the 
sciences, is a worthy endeavor. We support NSF's programs to ensure 
that all students get a chance to become scientists; including SBE 
scientists. COSSA recently organized and led a full-day retreat on 
Enhancing Diversity in the Sciences with the participation of 
representatives from professional associations, scientific societies, 
NSF, and NIH. Information about the retreat can be found at 
www.cossa.org.
    We strongly support the 32 percent proposed budget increase for 
NSF's Graduate Education programs to provide more fellowships. These 
have been extremely important for budding scientists across all the 
disciplines. We also believe in programs that will enhance the quality 
of teaching in our K-12 system, not only for math and science, but for 
all subjects. It is clear from NAEP and other tests that American 
students need help across-the-board.
    We also strongly support funding for EHR research that evaluates 
the effectiveness of these programs and enhances their ability to get 
the job done right. We also believe that STEM education cannot be done 
in isolation from social, economic, and cultural factors that influence 
our education system and its students. The SBE sciences are in the 
forefront of providing research and evidence for improving how our 
children learn and survive in the modern, complex societies in which we 
live. NSF's Science of Leaning Centers program is an important part of 
this and COSSA strongly supports the continued funding of these Centers 
found in the Integrated Activities account.

         THE U.S. CENSUS BUREAU AND BUREAU OF ECONOMIC ANALYSIS

    COSSA is a member of the 2010 Census Advisory Committee and as we 
move toward that redesigned short-form Census, the large increase 
proposed for the Bureau's fiscal year 2009 budget becomes imperative if 
we are to get the count right. We are aware that there are difficulties 
surrounding the preparations for 2010, particularly with regard to the 
use of handheld devices to verify addresses and to conduct the 
nonresponse follow up. We hope that Congress and the Bureau can 
cooperate to ensure that these problems are straightened out.
    Nonetheless, the Census is constitutionally mandated and has an 
important impact on reapportionment, redistricting, and the 
distribution of federal and state funds. So we must make every effort 
and spend whatever is necessary to make sure we get a fair and accurate 
count.
    In addition, the other regular activities at the Census Bureau 
should not suffer as a result of the difficulties with the preparations 
for 2010. The American Community Survey (ACS) has allowed the decennial 
to become a short-form census and ACS' annual data collections also 
provide timelier information for use by state and local governments and 
businesses. The other Bureau activities are also important to 
maintaining our economic statistical databases that play an important 
role in employment policy, housing policy, and economic policy and 
their funding should be sufficient.
    COSSA also supports the increase proposed for the fiscal year 2009 
Bureau of Economic Analysis (BEA) that continues the development of 
measures of investment in R&D and other knowledge-based activities in 
order to incorporate them into the nation's GDP. BEA also maintains the 
nation's current income accounts, an important tool for economic policy 
making.

     NATIONAL INSTITUTE OF JUSTICE (NIJ) AND THE BUREAU OF JUSTICE 
                            STATISTICS (BJS)

    At the House CJS Subcommittee hearing with the Office of Justice 
Programs there were many references to the studies and data collections 
of NIJ and BJS. The problem has been that these references do not 
necessarily translate into increased budget support. In recent years, 
these agencies have seen their budgets stagnate and in some years go 
down. We appreciate this Subcommittee's support of the fiscal year 2008 
increase for BJS and the strong report language regarding the 
importance of the National Crime Victimization Survey (NCVS). We ask 
for enhanced resources for these agencies in fiscal year 2009, $50 
million in program funds for each agency. The cost of crime to victims 
and to society is far out of proportion to the budget for research 
studies and the collection and analysis of data that are essential to 
understanding how to effect change with regard to crime and criminal 
justice.
    Recently, the National Academies' Committee on National Statistics 
has been reviewing BJS' programs. In early January they released their 
report Surveying Victims: Options for Conducting the National Crime 
Victimization Survey. In many years, NCVS takes up to 60 percent of the 
BJS budget.
    The Committee found that ``as currently configured and funded, the 
NCVS is not achieving and cannot achieve BJS' legislatively mandated 
goal to `collect and analyze data that will serve as a continuous and 
comparable national social indication of the prevalence, incidence, 
rates, extent, distribution, and attributes of crime.' '' They 
recommend that BJS needs additional funds to ``generate accurate 
measures of victimization, which are as important to understanding 
crime in the United States as the UCR measure of crimes reported to the 
police.'' Additional resources will also permit NCVS to provide sub-
national data, a sticking point for many practitioners regarding the 
NCVS.
    Recent increases in crime are not uniform across America. Many 
large cities continue to show declines, while medium-size cities and 
rural areas are experiencing difficulties. There are many possible 
explanations and the sorting out process continues. But it is clear 
that strategies that worked in some places, ``hot spots,'' community 
policing, crime mapping, are not working in others. The re-entry of 
former prison inmates into the general population creates more 
concerns. COSSA sponsored a session on April 4 on Violent Crime: What's 
Happening and Why in which distinguished criminologists and a former 
judge discussed these problems. NIJ needs more resources to support 
further explorations of this differentiation that now marks criminal 
activity.
    The National Academies' has also begun a study of NIJ's research 
activities. COSSA testified to that panel in December of last year. The 
NIJ social science portfolio has been limited in recent years, as 
budgets have decreased and the fascination with technological fixes 
continues. COSSA has nothing against technology, but as has been proven 
in so many areas, human behavior and social conditions often thwart 
technology-driven solutions and thus the focus, we believe has to 
shift.
    In July of each year, NIJ convenes a large R&D conference that 
examines major issues facing the criminal justice community. It is a 
special opportunity to bring together scientists, practitioners, and 
policy makers to interact and cooperate on setting research agendas.
    Again, I understand that this is expected to be another difficult 
year for the appropriations' process. COSSA hopes that when you 
consider the fiscal year 2009 funding for the agencies I discussed, you 
will treat them as generously as you can.
    Thank you for the opportunity to present our views.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS

Governing Members
American Association for Public Opinion Research
American Economic Association
American Educational Research Association
American Historical Association
American Political Science Association
American Psychological Association
American Society of Criminology
American Sociological Association
American Statistical Association
Association of American Geographers
Association of American Law Schools
Law and Society Association
Linguistic Society of America
Midwest Political Science Association
National Communication Association
Rural Sociological Society
Society for Research in Child Development
Membership Organizations
American Agricultural Economics Association
American Association for Agricultural Education
Association for Asian Studies
Association for Public Policy Analysis and Management
Association of Research Libraries
Council on Social Work Education
Eastern Sociological Society
International Communication Association
Justice Research and Statistics Association
Midwest Sociological Society
National Association of Social Workers
National Council on Family Relations
North American Regional Science Council
North Central Sociological Association
Population Association of America
Social Science History Association
Society for Behavioral Medicine
Society for Research on Adolescence
Society for the Psychological Study of Social Issues
Society for the Scientific Study of Sexuality
Sociologists for Women in Society
Southern Political Science Association
Southern Sociological Society
Southwestern Social Science Association
Colleges and Universities
Arizona State University
Brown University
University of California, Berkeley
University of California, Davis
University of California, Irvine
University of California, Los Angeles
University of California, San Diego
University of California, Santa Barbara
Carnegie-Mellon University
University of Chicago
Clark University
Columbia University
Cornell University
Duke University
George Mason University
George Washington University
University of Georgia
Harvard University
Howard University
University of Illinois
Indiana University
University of Iowa
Iowa State University
Johns Hopkins University
John Jay College of Criminal Justice, CUNY
Kansas State University
University of Kentucky
University of Maryland
Massachusetts Institute of Technology
Maxwell School of Citizenship and Public Affairs, Syracuse
University of Michigan
Michigan State University
University of Minnesota
Mississippi State University
New York University
University of North Carolina, Chapel Hill
North Carolina State University
Northwestern University
Ohio State University
University of Oklahoma
University of Pennsylvania
Pennsylvania State University
Princeton University
Purdue University
Rutgers, The State University of New Jersey
University of South Carolina
Stanford University
University of Tennessee
State University of New York, Stony Brook
University of Texas, Austin
Texas A & M University
Tulane University
Vanderbilt University
University of Virginia
University of Washington
Washington University in St. Louis
West Virginia University
University of Wisconsin, Madison
University of Wisconsin, Milwaukee
Yale University
Centers and Institutes
American Academy of Political and Social Sciences
American Council of Learned Societies
American Institutes for Research
Brookings Institution
Center for Advanced Study in the Behavioral Sciences
Cornell Institute for Social and Economic Research
Institute for Social Research, University of Michigan
Institute for the Advancement of Social Work Research
Institute for Women's Policy Research
National Bureau of Economic Research
National Opinion Research Center
Population Reference Bureau
Social Science Research Council
                                 ______
                                 
              Prepared Statement of Crary Industries Inc.

    On behalf of Crary Industries Inc., manufacturer of agricultural 
and outdoor equipment, located in West Fargo, North Dakota, I would 
like to thank the Committee for allowing our organization to submit 
this testimony for the record. I am writing to respectfully request 
that the Hollings Manufacturing Extension Partnership program be 
provided the authorized $122 million within the fiscal year 2009 
Commerce, Justice, Science and Related Agencies Appropriations Bill. 
This requested level of funding for 2009 was provided for in the 
recently enacted America COMPETES Act. As you know, the Hollings 
Manufacturing Extension Partnership (MEP) is a program within the 
Department of Commerce, National Institute of Standards and Technology, 
a program authorized to improve competitiveness of America's 
manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. We have worked on a variety of improvement projects 
with the assistance of Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience

Introduction
    Mr. Chairman and members of the subcommittee, I am Eve Marder, 
Ph.D., President of the Society for Neuroscience (SfN) and the Victor 
and Gwendolyn Beinfield Professor of Neuroscience at Brandeis 
University. It is my honor to submit this testimony on behalf of SfN in 
support of the National Science Foundation.
    My research focuses on understanding how circuit function arises 
from the intrinsic properties of individual neurons and their synaptic 
connections. Of particular interest is the extent to which similar 
circuit outputs can be generated by multiple mechanisms, both in 
different individual animals, or in the same animal over its lifetime. 
To address this, my lab studies the central pattern generating circuits 
in the crustacean stomatogastric nervous system, such as those found in 
crabs and lobsters. Central pattern generators are groups of neurons 
found in vertebrate and invertebrate nervous systems responsible for 
the generation of specific rhythmic behaviors such as walking, 
swimming, and breathing. I am the recipient of federal support from the 
National Institutes of Health, and from the National Science Foundation 
for research and the training of the next generation of scientists.

Fiscal Year 2009 Budget Request
    The Administration requests a budget of $6.85 billion for NSF in 
fiscal year 2009, a 13 percent increase from fiscal year 2008. The 
administration's request for the Research and Related Activities (R&RA) 
account, where all NSF grant funding resides, is $5.59 billion, an 
increase of 16 percent from fiscal year 2008. The scientific community 
applauds this strong support for the agency--it is a crucial step in 
keeping the United States competitive in science and technology.
    SfN is advocating a budget of $7.33 billion for NSF in fiscal year 
2009, the amount authorized by the House in the America COMPETES Act. 
This represents a 20.8 percent increase for NSF. While this increase 
seems large, we ask that the Subcommittee consider the following:
  --NSF accounts for nearly 25 percent of federal support of basic 
        research at U.S. academic institutions.
  --This is effectively a two-year increase. NSF received an increase 
        of just 1.3 percent for fiscal year 2008 after Congress passed 
        much larger amounts in their spending bills.
  --In some cases, directorates not covered under the American 
        Competitiveness Imitative actually saw funding decreases in the 
        last fiscal year, including the Biological Sciences Directorate 
        (-2.9 percent).
    SfN supports such dramatic budgetary action because it represents a 
necessary step in the advancement of physics, computer science, 
mathematics, chemistry, engineering, as well as biology. These fields, 
and scientists trained in them, are crucial for us to understand the 
brain and the way it controls behavior. Through NSF grants and 
cooperative agreements with colleges, universities, K-12 school 
systems, and other research organizations throughout the United States, 
neuroscientists can continue to conduct the basic research that 
advances scientific knowledge and leads to tomorrow's treatments and 
cures. Additionally, SfN recognizes the leadership role that NSF plays 
in driving innovation in science education.

Basic Research--Fundamental Science
    Continued investment in basic research at NSF is essential to 
laying the groundwork for discoveries that will inspire scientific 
pursuit and technological innovation for future generations. As 
reflected in the America COMPETES Act, aggressive investment in 
technology and scientific research is crucial to ensure America 
sustains its global leadership and competitiveness. Science is now a 
truly global enterprise that has the potential to revolutionize the 
human experience, health and activity--the question is whether America 
will maintain its role leading the next generation of scientific 
advances.
    Future scientific progress requires the kinds of quantitative and 
interdisciplinary training that NSF fosters. NSF programs such as the 
Integrative Graduate Education and Research Traineeship Program (IGERT) 
are producing a cohort of scientists who have learned to work 
cooperatively, and have learned to learn across disciplinary 
boundaries, ensuring that the workforce is provided highly trained 
scientists who are unafraid of the challenges of the future.
    NSF-funded biologists and neuroscientists are discovering 
fundamental mechanisms important to understanding how humans and other 
animals behave, develop, communicate, learn, and process information. 
Understanding the neuroscience of animal diversity is necessary as we 
confront environmental and agricultural changes in the future. NSF-
funded physicists, mathematicians, computer scientists and engineers 
have done ground-breaking work that enables the analysis of EEG data, 
the development of brain prosthetic devices, and other technologies 
that will assist in the rapid diagnosis and treatment of epilepsy and 
stroke. NSF-funded statisticians are developing new methods for 
analysis of the large amounts of genome data, on humans and other 
organisms, and developing better statistical tools for looking at the 
effects of the environment on human and animal populations. NSF-funded 
chemists have developed new methods that allows for the extremely 
accurate measurement of very small amounts of brain hormones.
    Indeed, many of the new findings in neuroscience can be traced back 
to fundamental work in these other fields that has contributed to new 
technologies of all kinds. This allows us to carry out new kinds of 
experiments not imaginable even 5-10 years ago. Consider these recent 
advances in neuroscience made possible by discoveries in other fields:
    Artificial Cochlea.--NSF-funded researchers at the University of 
Michigan developed an artificial cochlea to assist the hearing-
impaired. The device, made mainly of Pyrex glass, silicone oil and 
silicon nitride, works by converting vibrations into electrical pulses 
that the brain is able to process. Via cochlear implants, nearly 
120,000 people have had partial hearing restored.
    Brain Mapping.--Scientists at the College of William and Mary used 
NSF funding to create real-time, dynamic maps of patients' brains to be 
used during neurosurgery. Computers use images taken prior to surgery 
combined with live data feeds from the patient's brain during the 
procedure to show changes and assist neurosurgeons with quicker, more 
accurate medical procedures that will result in lives saved.
    These discoveries have great potential to improve the lives of 
Americans and almost certainly would not have been made without the 
strong commitment to interdisciplinary research at NSF.

What is the Society for Neuroscience?
    The Society for Neuroscience is a nonprofit membership organization 
of basic scientists and physicians who study the brain and nervous 
system. Recognizing the field's tremendous potential, the Society was 
formed in 1969 with less than 500 members. Today, SfN's membership 
numbers more than 38,000 and it is the world's largest organization of 
scientists devoted to the study of the brain. Neuroscience advances the 
understanding of human thought, emotion, and behavior. Our member 
neuroscientists work to understand animal and human nervous systems, 
how they develop, learn, and how they interact with their environment. 
Our membership includes investigators from backgrounds as diverse as 
physics, chemistry, engineering, mathematics, biology, biochemistry, 
and psychology, brought together to understand all aspects of brain 
function, from molecules and genes to cognition.
    SfN is devoted to education about the latest advances in brain 
research, and to raising awareness of the need to make neuroscience 
research a funding priority. Many SfN members are committed to 
developing educational innovations that take advantage of new 
neuroscience research.

Conclusion
    The scope of the challenge of understanding the human mind requires 
a bold approach and the ability to undertake high-risk, high-reward 
projects. With proper funding, the NSF can do both. By laying the 
groundwork for revolutionary discoveries and advances in neuroscience 
with interdisciplinary research, NSF is poised to keep the United 
States competitive in the 21st century and beyond.
    We urge the subcommittee to support and approve a 20.8 percent 
increase to the NSF budget for fiscal year 2009. Thank you for the 
opportunity to submit this testimony.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    Thank you, Mr. Chairman for the opportunity to present this 
testimony on behalf of the American Society of Plant Biologists (ASPB). 
Founded in 1924, ASPB is a non-profit society of 5,000 plant 
scientists. My name is Rob McClung. I am Associate Dean of the Sciences 
at Dartmouth College and President of ASPB. ASPB urges Subcommittee 
support for the fiscal year 2009 budget request of the National Science 
Foundation (NSF) of $6.85 billion, including $5.59 billion for NSF 
Research and Related Activities and $790 million for NSF Education and 
Human Resources. ASPB urges a 16-percent increase for the NSF 
Directorate for Biological Sciences, which is the average of increases 
for all directorates in the fiscal year 2009 request.
    ASPB joined with 17 other science societies in a March 17 letter to 
the Chairman and Ranking Member expressing appreciation for your 
leadership in supporting NSF and comparable increases for all science 
disciplines. As noted in the letter, we are concerned that the NSF 
fiscal year 2009 budget request again tries to distinguish among the 
disciplines in its proposed increases for the research directorates.
    The Consolidated Appropriations Act of 2008 indicates that the 
``Committees also believe the Foundation should maintain comparable 
growth in fiscal year 2008, to the extent possible for the biological 
sciences and social, behavioral, and economic sciences directorates. 
Each of the science disciplines is valuable in maintaining U.S. 
competitiveness.'' This reflects language in the House Report. Thank 
you, Mr. Chairman and Mr. Ranking Member for your leadership on this 
provision.
    Your position is supported by the America COMPETES Act, which 
treats all disciplines as priorities. In addition, ``Rising Above the 
Gathering Storm'' said there should not be a disinvestment in such 
important fields as the life sciences and social sciences.
    We join with 17 other science societies in asking that the 
Subcommittee include report language in the fiscal year 2009 
Appropriations report that asks NSF to ensure that the biological 
sciences, geosciences and social, behavioral and economic sciences 
directorates receive increases in fiscal year 2009 that are comparable 
to the other directorates.
    It is only through advances in all science disciplines that the 
nation will take advantage of the full range of innovation the science 
community has to offer.
    Investment in world leading basic research sponsored by NSF 
contributes to U.S. leadership in the world in science and technology. 
U.S. leadership in a wide range of science disciplines is needed for 
U.S.-based development of new technologies that will help U.S. 
industries and workers compete and survive in the highly competitive 
global market.
    Support for NSF is an investment in the knowledge base of our 
nation. Existence of a highly educated workforce is a major 
consideration for businesses in determining what part of the world they 
will start or expand their operations. Despite the attractions of lower 
costs for wages, land, buildings and related costs to companies 
considering moving jobs offshore, it is the highly skilled workforce in 
the United States that plays a major role in contributing to job starts 
and business expansions here at home.
    The students, post doctoral students, assistant professors and 
professors supported at universities across the nation by NSF research 
and education grants make up a valuable talent pool highly prized by 
business and industry. In addition to the United States, other nations 
are aware of the contributions the science community can make to its 
economy.
    Educating and training its citizens to be world leading scientists 
and providing a reasonable opportunity for success in a science 
academic career have been keys to success for the U.S. science 
community and its related industries. Support provided by NSF for 
research proposals selected based on the highest scientific merit as 
determined through peer review is essential to development of the 
nation's scientific talent base. We're concerned that the high rate of 
rejection of even the highly rated biology proposals by NSF, will 
discourage some talented young students from pursuing a career in 
science.
    Grant approval rates at 21 percent for the NSF Directorate for 
Biological Sciences are below the average of 23 percent for all 
directorates in NSF Research and Related Activities. We appreciate the 
10.3 percent increase in the budget request for the Directorate for 
Biological Sciences. We request that the Subcommittee increase funding 
for the Directorate for Biological Sciences to the 16-percent average 
increase for Research and Related Activities in the budget request. 
This would make possible the granting of more awards for a greater 
number of high quality research proposals.
    The NSF Directorate for Biological Sciences is the major source of 
support for fundamental non-medical biology research conducted at 
universities across the nation. Increased support for non-medical 
biology research could strengthen the nation's world standing and 
competitive strength in this important area of research. This would in 
turn strengthen U.S.-based industries dependent upon basic biological 
research, including biotechnology, bioenergy, biosafety, biodefense and 
agriculture.
    In concert with maintaining preeminence in science and technology, 
one of the keys to maintaining world leadership for the United States 
will be to assure a reliable and affordable energy supply for industry 
and consumers. Basic plant research supported by the NSF Directorate 
for Biological Sciences is providing knowledge that is contributing to 
bioenergy research capabilities of the U.S. Department of Energy and 
U.S. Department of Agriculture. For example the Plant Genome Research 
Program (PGRP) and 2010 Project are producing a treasure trove of 
knowledge of plant gene structure and functions.
    As projected in a report prepared by DOE and USDA in April 2005, 
advances in plant and related research will enable the United States to 
produce more than 1.3 billion tons of biomass ``enough to produce 
biofuels to meet more than one-third of the current demand for 
transportation fuels.'' The report is titled ``Biomass as Feedstock for 
a Bioenergy and Bioproducts Industry: The Technical Feasibility of a 
Billion-Ton Annual Supply.'' The report can be found at: http://
www1.eere.energy.gov/biomass/pdfs/final_billionton_vision_report2.pdf.
    A letter to the editor I wrote on ``The next generation of 
biofuels'' that was published in The Washington Times March 6, 2008 and 
is appended to my statement commends the Congress and President for 
initiating needed investments in new generation biofuels. We encourage 
additional investment in all phases of plant research. This will hasten 
the day when biofuels make up 33 percent instead of three percent of 
the transportation fuels used in the United States.
    Plant genome research has helped propel plant science into a new 
modern era with far more capabilities in biology, bioinformatics, 
computational biology, modeling systems, systems biology and other 
areas. Findings in future years through the Plant Genome Research 
Program and 2010 Project will further enhance research capabilities 
with plants. As the primary source for food, fiber and feed and a 
promising clean alternative energy source, increased knowledge of plant 
structure and function is essential to meeting life-sustaining human 
needs.
    A recent report of the National Academies found many important 
contributions from the NSF-sponsored National Plant Genome Initiative. 
The report found that basic plant genome research serves a wide 
diversity of agricultural and environmental purposes, as well as 
contributing to basic scientific discovery. For example, by increasing 
knowledge of how plants cope with extreme environmental stresses, plant 
genomics research can help scientists more precisely breed or engineer 
plants that can thrive as climates change. This knowledge is 
particularly important with respect to how water is used to grow crops. 
Economically viable production of fuels from plant biomass, in 
quantities that could contribute to a reversal of the world's 
dependence on fossil fuels, will require increases in plant 
productivity and advances in plant biomass-to-fuel conversion.
    A key to maintaining the health and security of the United States 
and its citizens is to continue to provide secure food supplies. NSF 
support for basic plant research contributes to the local economies 
nationwide, including rural areas, while helping to secure the food 
supply of all Americans. As the first step of every food chain, plants 
and research on plants plays an essential role in meeting the 
nutritional needs of people here and abroad.
    The NSF Directorate for Biological Sciences sponsors examination of 
basic research questions on plants and other organisms that will lead 
to technologies to continue a secure supply of domestically produced 
food and bioenergy.
    Thank you again for this opportunity to present our testimony 
before the Subcommittee.

               [From The Washington Times, March 6, 2008]

                         LETTERS TO THE EDITOR

                    The Next Generation of Biofuels

    Oil closed at $100 a barrel Feb. 19 for the first time. The 
Washington Times reported on Feb. 20 (``Oil tops $100 on refinery, 
OPEC,'' Business) that fears that the Organization of the Petroleum 
Exporting Countries may cut production contributed to the price 
increase.
    Some analysts see this $100 mark as just a stop on the way to $200-
per-barrel oil, possibly by the end of this decade. The reason cited is 
similar to newspaper reports on the bump to $100 per barrel--OPEC's 
control of supply.
    In addition to the economic and political challenges imposed by our 
reliance on foreign oil, we also need to be concerned that greenhouse 
gas (GHG) emissions associated with the use of fossil fuel contribute 
significantly to global warming, evident from observed increases in 
global air and ocean temperatures, widespread melting of snow and ice 
and a rising global average sea level. Is there a large-volume 
alternative to the use of increasingly costly oil with its high GHG 
emissions? There will be.
    We are at the early stages of research on the next generation of 
biofuels using plant cellulose. Plant stems, stalks and leaves will 
become low-cost feedstocks for biofuels. A 2005 report from the U.S. 
Department of Agriculture and the U.S. Department of Energy projects 
that there will be enough biomass (cellulose) to meet more than one-
third of the current U.S. demand in transportation fuels.
    At the same time, next-generation biofuels will greatly lower 
emissions of stored carbon compared to gasoline. Biofuels will be 
better for Americans' pocketbooks and the environment.
    The President and Congress are to be commended for initiating 
needed investments in new-generation biofuels research. Additional 
investment is needed in all phases of plant research. This will help 
hasten the day when biofuels make up 33 percent instead of 3 percent of 
the transportation fuels used in the United States.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

Interest of the IME
    The IME is the safety and security association of the commercial 
explosives industry. The production, distribution, storage and use of 
explosives are highly regulated. ATF is one of the agencies that play a 
primary role in assuring that explosives are identified, tracked, and 
stored only by authorized persons. The ability to manufacture, 
distribute and use these products safely and securely is critical to 
this industry. We have carefully reviewed the Administration's fiscal 
year 2009 budget request for ATF and have the following comments about 
its impact on the commercial explosives industry.

Addressing Statutory Mandates
    The commerce of explosives is one of the nation's most heavily 
regulated activities. As noted above, ATF plays a key role in this 
regulatory scheme through its implementation of Federal Explosives Law 
(FEL). Yet, ATF seems to have forgotten its statutory mandate to 
``protect interstate and foreign commerce''--which is the business of 
the commercial explosives industry--in its quest to be a lead 
terrorist/criminal agency.\1\ ATF states that it is ``dedicated to 
preventing terrorism, reducing violent crime, and protecting our 
Nation.'' \2\ ATF's own data, however, suggests that commercial 
explosives are not a ``preferred tool'' of criminals or terrorists.\3\ 
While ATF claims to work ``with . . . industry members . . . to make 
regulation less burdensome'', the needs of the legitimate explosives 
industry are secondary to the agency's criminal enforcement 
interests.\4\ By statute, ATF is supposed to ``take into consideration 
. . . the standards of safety and security recognized in the explosives 
industry'' when issuing rules and requirements.\5\ But, our 
recommendations are increasingly bypassed--we believe to the detriment 
of safety and security. Finally, we see ATF reaching out to regulate in 
areas that are not the Bureau's primary area of responsibility at a 
time when ATF is not keeping up with the responsibilities already on 
its plate. With this perspective, we offer the following comments on 
ATF's budget request and program performance.
---------------------------------------------------------------------------
    \1\ Public Law 91-452, Sec. 1101.
    \2\ ATF Fiscal Year 2008 Budget Submission, page 1.
    \3\ Over half of substances used in illegal bombing incidents are 
not regulated by ATF. Only 18 percent involve explosives subject to FEL 
requirements, and of these, 91 percent are common fireworks or 
components. ``Implementation of the Safe Explosives Act'', OIG, DOJ, 
Report Number I-2005-005, page 59.
    \4\ ATF Fiscal Year 2009 Budget Submission, page 39.
    \5\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
Adequacy of Budget Resources
    As contrasted with the fiscal year 2008 budget justification, ATF's 
fiscal year 2009 budget request does not disclose the level of funding 
slated for its explosives regulatory program. Last year, the amount was 
$63.6 million or 23 percent of its entire Arson and Explosives (A&E) 
budget.\6\ Inasmuch as the fiscal year 2009 budget request anticipates 
no increase to current services, we expect that the allocation to the 
explosives regulatory program is roughly the same or $62.5 million of 
the $267.2 million request for the A&E program.\7\ While the budget 
request anticipates an increase of four FTE for the A&E program, the 
justification indicates that the revised FTE is only to maintain 
current services.\8\ As discussed below, we are concerned that ATF has 
not directed additional FTE to address the regulatory needs of the 
commercial explosives industry. Absent a reprogramming of resources, 
however, the Bureau's ability to perform its regulatory functions in a 
timely manner is jeopardized.
---------------------------------------------------------------------------
    \6\ ATF Fiscal Year 2008 Budget Submission, page 47 & 14, and ATF 
Fiscal Year 2009 Budget Submission, Exhibit G: Crosswalk of 2008 
Availability.
    \7\ ATF Fiscal Year 2009 Budget Submission, page 39.
    \8\ ATF Fiscal Year 2009 Budget Submission, Exhibit B.
---------------------------------------------------------------------------
Protect Commerce
    Our industry relies on ATF to efficiently and effectively perform a 
number of functions to ensure that the legitimate commerce of 
explosives can go forward safely and unimpeded.\9\ In this regard, we 
support all necessary resources for these essential services. However, 
the budget justification contains information suggesting that ATF will 
fall short of its three-year statutory obligation to inspect 100 
percent of its licensee/permittees as required by law.\10\ We are also 
disappointed not to see a performance measure concerning investigation 
of explosives thefts.
---------------------------------------------------------------------------
    \9\ These functions include the issuance of licenses to companies 
engaged in the manufacture, importation, and distribution of commercial 
explosives, and permits to those that purchase and receive these 
materials, background checks of certain employees of licensees and 
permittees, and regulations to ensure that commercial explosives are 
stored safely and securely. Additionally, when explosives are stolen, 
lost, or used for illegal purposes, we rely on the ATF to recover 
products and investigate incidents as necessary.
    \10\ ATF Fiscal Year 2009 Budget Submission, page 48 and FN5.
---------------------------------------------------------------------------
Industry Standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements. We have endeavored to fulfill this obligation through the 
development of industry best practices for safety and security, 
participation in relevant standard-setting organizations, and forums 
for training. We have offered ATF recommendations that we believe will 
enhance safety and security through participation in the rulemaking 
process, in the Bureau's research efforts, and in other standard 
setting activities. Our interface with ATF in these settings prompts 
the following comments.
  --Rulemakings.--Under the heading of ``Explosives . . . Regulatory 
        Programs,'' ATF states that it has ``issued three rulings.'' 
        \11\ Two of these three rulings apply to the explosives 
        industry.\12\ While we are appreciative of these rulings, they 
        are interpretive statements of agency policy and should not be 
        confused with regulatory activity conducted pursuant to the 
        Administrative Procedure Act (APA). Under the APA, ATF has six 
        open rulemakings of interest and concern to the explosives 
        industry, the same number of outstanding dockets as reported 
        last year.\13\ The oldest of these was proposed in 2001. 
        Several are a result of the enactment of the 2002 Safe 
        Explosives Act (SEA). Two of these rulemakings were issued as 
        ``interim final rules,'' which allows rules to be enforced 
        without public input as to the effect of the rule on the 
        regulated community. Subsequently, IME raised a number 
        interpretative questions and concerns about these rules which 
        are critical to the continued commerce of commercial 
        explosives. Yet, ATF has delayed again the projected date for 
        finalizing these rules until October 2008 and the projected 
        dates for finalizing every other open rulemaking of 
        significance to IME.
---------------------------------------------------------------------------
    \11\ ATF Fiscal Year 2009 Budget Submission, page 44.
    \12\ The rulings allow for the use of computer records under 
certain conditions and storage options for residual amounts of bulk-
blasting agents.
    \13\ Semiannual Agenda, http://www.reginfo.gov/public/do/
eAgendaMain (December 10, 2007).
---------------------------------------------------------------------------
    Last year, Congress directed ATF to address these long-standing 
rulemaking concerns.\14\ Despite this fact, ATF has not requested 
additional staff to address its regulatory backlog or other pending 
requests for interpretive guidance and accommodations that are the day-
to-day work of regulatory agencies. These regulatory tasks may be at 
odds with ATF's vision as a law enforcement agency, but they are 
critical to the lawful conduct of the commercial enterprises the Bureau 
controls.
---------------------------------------------------------------------------
    \14\ Conference Report--Consolidated Appropriations Act, 2008, H.R. 
2764/Public Law 110-161, page 257, citing, ``Open Rules.--The 
Appropriations Committees concur with language in the House Report 
regarding open rulemakings and the delay in resolving the rules due to 
staff shortages. The ATF to report within two months after enactment of 
this Act on the status of all open rules and the ATF's plans to address 
the backlog.''
---------------------------------------------------------------------------
  --Data.--ATF is continuing efforts to enhance data capabilities. 
        These efforts should be supported. We are only disappointed in 
        one aspect. We rely on ATF's data collection and analysis 
        capabilities. IME needs data about incidents and theft and 
        losses to perfect our safety and security recommendations and 
        practices. The latest full-year information we have about 
        explosive incidents is from 2003. We urge the Subcommittee to 
        ensure that ATF has the resources to gather and release this 
        information in a timelier manner.
  --IMESAFR.--IME prides itself in being the safety and security 
        advocates for the commercial explosives industry. The technical 
        expertise of our members is a resource we gladly share with 
        government agencies. In this regard, IME has spent years and 
        hundreds of thousands of dollars developing and validating a 
        credible alternative to strict interpretation of quantity-
        distance tables used to determine safe setback distances from 
        explosives in collaboration the Department of Defense 
        Explosives Safety Board and Canadian and U.S. regulatory 
        agencies, including ATF. The result is a windows-based computer 
        model for assessing the risk from a variety of commercial 
        explosives activities called IMESAFR.\15\ Not only can IMESAFR 
        determine the amount of risk presented, but it can also 
        determine what factors drive the overall risk and what actions 
        would lower risk, if necessary. The probability of events for 
        the activities were based on the last 20 years experience in 
        the United States and Canada and can be adjusted to account for 
        different explosive sensitivities, additional security threats, 
        and other factors that increase or decrease the base value. 
        Following this effort, we expected that ATF would be willing to 
        recognize this powerful assessment tool as an alternative for 
        the regulated community to meet quantity-distance limitations, 
        which limitations are themselves standards developed by the 
        IME. However, this has not been the case. ATF has not taken 
        advantage of opportunities to partner with IME and accept this 
        risk-based approach to explosives safety. ATF's reluctance to 
        recognize risk-based modeling is contrary to the norm practiced 
        by all other federal agencies with regulatory responsibilities 
        over the explosives industry. We believe that the consistency 
        of risk analysis offered by IMESAFR is preferable to the 
        haphazard ``variance'' approach ATF uses to address setback 
        issues now.
---------------------------------------------------------------------------
    \15\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities.
---------------------------------------------------------------------------
Areas of Responsibility
    ATF has used resources to venture into areas of regulatory 
authority that are not within its primary sphere of responsibility. In 
2003, ATF chose to interpret FEL to give it authority to set clearance 
standards for workers involved in the transportation of commercial 
explosives. In 2005, there was a flurry of concern about the breadth of 
ATF security checklist documents that included standards for facility 
security such as surveillance, training, public and employee access, 
vehicle control, fencing and gates--areas of expertise reserved for the 
Department of Homeland Security (DHS). Since then ATF has advocated for 
authority or otherwise suggested a role to regulate ammonium nitrate 
and other easily purchased/unregulated materials used by terrorists in 
improvised explosive devices.\16\
---------------------------------------------------------------------------
    \16\ ATF Fiscal Year 2007 Budget Submission, pages 18, 21, 53, 54, 
56 and 66. ATF Fiscal Year 2008 Budget Submission, pages 6, 7, 44, 45, 
and 49. ATF Fiscal Year 2009 Budget Submission, pages 7 and 45.
---------------------------------------------------------------------------
    While we respect ATF's expertise and authority to establish 
standards for explosives storage magazines, ATF's statutory authority 
does not reach to the security of ammonium nitrate or other explosive 
precursors.\17\ Congress has tasked this responsibility to the DHS 
under its Chemical Facility Anti-terrorism Standards authority and 
through the enactment of the Secure Handling of Ammonium Nitrate Act of 
2007.\18\ Many materials can be manipulated to produce an explosive 
effect. However, in their unadulterated state they will not 
explode.\19\ DHS is far better positioned to address the range of 
issues raised by the prevalence of these precursor materials. According 
to Homeland Security Presidential Directive 7, DHS is charged to 
identify, prioritize and coordinate protection of the nation's critical 
infrastructure, of which chemical manufacturing is one sector.\20\ The 
Government Accountability Office, in a report on implementation of 
critical infrastructure programs, identifies no role for the ATF, or 
the Department of Justice, in developing a national infrastructure 
protection plan or in guarding that infrastructure and its 
products.\21\ IME supports chemical facility, hazardous materials 
transportation and ammonium nitrate security standards. However, we 
question ATF's involvement and attendant use of resources in these 
areas, when the Bureau consistently falls behind in its own vital 
regulatory responsibilities.
---------------------------------------------------------------------------
    \17\ ``Implementation of the Safe Explosives Act'', OIG, DOJ, 
Report Number I-2005-005, page ii.
    \18\ 72 FR 17688 (April 9, 2007) & 72 FR 65396 (November 20, 2007) 
and. The Consolidated Appropriations Act, 2008, H.R. 2764/Public Law 
110-161, sec. 563.
    \19\ Containing the Threat from Illegal Bombings, NRC, 1998, page 
130.
    \20\ Homeland Security Presidential Directive/HSPD-7, paragraphs 13 
& 15, December 17, 2003.
    \21\ Agency Plans, Implementation, and Challenges Regarding the 
National Strategy for Homeland Security, January 2005, GAO-05-33, pages 
18, 47, 78 and 133.
---------------------------------------------------------------------------
Performance Measure Improvements
    For a number of years, IME has expressed concern about the lack of 
appropriate performance measures for the commercial explosives 
industry. Currently, ATF has three performance and two efficiency 
measures that apply to the commercial explosives industry.\22\ Only one 
performance and one efficiency measure are directed at facilitating 
regulatory compliance. These measures are the number and percentage of 
explosives licensee/permittees that are inspected and the percent of 
perfected explosives applications acted on within 90 days. Yet, ATF is 
now proposing to delete the only efficiency measure applicable to the 
explosives industry because the ``measure was never developed.'' \23\ 
Not only should Congress direct the Bureau to restore and implement 
this measure, it should direct the agency to institute other measures 
of performance and efficiency for the explosives regulatory program. We 
have advocated for measures showing the number of background checks 
that ATF has performed, within what average timeframe, and of those, 
how many individuals failed to receive clearance, and of those, how 
many appealed the Bureau's findings; the number of rulemakings 
outstanding and their priority; turnover rates among agents and 
inspectors; and the number of individuals from which agencies that are 
trained through ATF programs. Absent information of this type, it is 
unclear how Congress can effectively oversee ATF's explosives 
operations and determine the adequacy of its budget request.
---------------------------------------------------------------------------
    \22\ ATF Fiscal Year 2009 Budget Submission, page 49.
    \23\ ATF Fiscal Year 2009 Budget Submission, page 49.
---------------------------------------------------------------------------
Leadership
    The ATF has been without a director since August 2006. Director-
designee Michael J. Sullivan has served with distinction for nearly a 
year. He came at a particularly challenging time and has overseen the 
agency's move to its new headquarters. We believe the Bureau has been 
too long without permanent leadership and we urge Congress to promptly 
act on this nomination.

Conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the important 
role played by ATF in helping our industry achieve and maintain safe 
and secure workplaces. Industry and the public trust that ATF has the 
resources to fulfill its regulatory responsibilities. It is up to 
Congress and, in particular, this Subcommittee to ensure that ATF has 
the resources it needs. We strongly recommend full funding for ATF's 
explosives program.
                                 ______
                                 
    Prepared Statement of the Association for Psychological Science

Summary of Recommendations
  --APS supports the Coalition for National Science Funding 
        recommendation of $7.326 billion for the National Science 
        Foundation in fiscal year 2009.
  --We ask for the Committee's support of Section 7018b of the America 
        COMPETES Act (Public Law 110-69) which provides equal 
        consideration for NSF's Social, Behavioral and Economic 
        Sciences Directorate. This will ensure that the behavioral and 
        social sciences share proportionately in the increases received 
        by NSF, which is essential to strengthen the vital role of 
        these sciences in achieving innovation and realizing the full 
        potential of basic research to benefit our Nation.
  --NSF-funded psychological scientists have won the Nobel Prize and 
        the President's Medal of Science for their groundbreaking work. 
        Greater funding for the SBE Directorate will result in more 
        such breakthroughs and will ensure that the Nation continues as 
        the world's leader in behavioral and social science research 
        and training.
    Mr. Chairman, Members of the Committee: Thank you for this 
opportunity to present the views of the Association for Psychological 
Science (APS) on the fiscal year 2009 appropriations of the National 
Science Foundation (NSF). APS is dedicated to the promotion, 
protection, and advancement of the interests of scientifically oriented 
psychology in research, application, teaching, and the improvement of 
human welfare. Our 20,000 members are scientists and academics at the 
Nation's universities and colleges. The NSF supports many members of 
APS, and a great deal of basic research in our field simply could not 
exist without NSF funding.

The Nation's Premiere Basic Research Enterprise
    In the America COMPETES Act of 2007, Congress and the President 
agreed that basic science research budgets should be doubled. The 
fiscal year 2008 omnibus appropriation, however, did not provide the 
necessary funds to keep pace with this goal. The National Science 
Foundation received only a 2.5 percent increase for fiscal year 2008, 
$364 million less than the President's request. The continued 
underfunding of NSF constitutes a significant delay in this Nation's 
science and technology advancement--one we cannot afford in the face of 
rising global competitiveness.
    A renewed commitment to basic research and educational programs at 
NSF is essential to capitalize on the enormous promise of scientific 
innovation, to train future scientists, and to ensure the success of 
multidisciplinary initiatives. The basic science community asks the 
Committee to make the underlying intent of this Act a reality. The 
increase we are recommending today, as a member of the Coalition for 
National Science Funding, is a critical step in offsetting the under-
funding that has been a chronic condition for NSF.

The Social, Behavioral and Economic Sciences (SBE) Directorate
    It is crucial to recognize the role the behavioral and social 
sciences play in fostering innovation. The President's Science Advisor 
and Director of the Office of Science and Technology Policy, John 
Marburger, has underscored the importance of our discipline in this 
endeavor, and your colleagues in the House, led by Subcommittee on 
Research and Science Education Chair Brian Baird, have asked NSF to 
comply with the statutory requirement in Public Law 110-69, Section 
7018b to give equal consideration to the Social, Behavioral, and 
Economic Sciences (SBE) Directorate.
    Under the Administration's budget plan, the SBE Directorate would 
receive $233.48 million, 8.5 percent over fiscal year 2008. While this 
stems the tide of below-average increases in previous years, it is 
unacceptably disproportionate to other Directorates, which are 
receiving between 10.3 and 20.2 percent increases. The America COMPETES 
Act specifically called on NSF not to disinvest in the behavioral and 
social sciences over the long term. We are concerned about this 
imbalance, given the enormous potential of behavioral science to 
address many critical issues facing the Nation, including global 
competitiveness. To offset previous years' under-funding, we ask the 
Committee to, at the very least, give the SBE Directorate the 8.5 
percent increase the President proposed in this year's NSF budget 
request. We also ask that the SBE Directorate share proportionately in 
any such increases ultimately received by NSF.
    An Overview of Basic Psychological Research.--NSF programs and 
initiatives that involve psychological science are our best chance to 
solve the enigma that has perplexed us for so long: How does the human 
mind work and develop? APS members include many scientists who conduct 
basic research in areas such as learning, cognition, and memory, and 
the linked mechanisms of how we process information through visual and 
auditory perception. Others study judgment and decision-making (which 
is the focus of a Nobel prize recently awarded to APS Fellow and NSF 
grantee Daniel Kahneman); mathematical reasoning (the focus of the 
recent President's Medal of Science awarded to APS Fellow and NSF 
Grantee R. Duncan Luce); language development; the developmental 
origins of behavior; and the impact of individual, environmental, and 
social factors in behavior.
    What's more, basic psychological research supported by NSF and 
conducted by APS members ultimately has had a wide range of 
applications, including designing technology that incorporates the 
perceptual and cognitive functioning of humans; teaching math to 
children; improving learning through the use of technology; developing 
more effective hearing aids and speech recognition machines; increasing 
workforce productivity; and ameliorating social problems such as 
prejudice or violence. While this is a diverse range of topics, all 
these areas of research are bound together by a simple notion: that 
understanding the human mind, brain, and behavior is crucial to 
maximizing human potential. That places these pursuits squarely at the 
forefront of several of the most pressing issues facing the Nation, 
this Congress, and the Administration.

SBE Directorate Highlights
    Research supported by the SBE Directorate has the potential to 
increase employee productivity, improve decision making in critical 
military or civilian emergency situations, and inform the public 
policymaking processes across a range of areas. To give just a few 
examples:
    Developmental and Learning Sciences.--This program supports studies 
that increase our understanding of cognitive, linguistic, social, 
cultural, and biological processes related to children's and 
adolescents' development and learning. This kind of research adds to 
our basic knowledge of how people learn and the underlying 
developmental processes that support learning. For example, one 
recently funded study is identifying the cognitive, emotional, and 
social characteristics that make some children more suggestible than 
others with respect to legal questioning. The results of these studies 
will have important implications for developing scientifically sound 
interviews that produce the most accurate reports from children, and 
for constructing instruments to detect children who are prone to 
suggestive factors, which can be adapted for use in schools, mental 
health, medical, and forensic contexts.
    Perception, Action, and Cognition.--The perception, action, and 
cognition program at NSF supports research on these three functions, 
and the development of these capacities. Topics include vision, 
audition, attention, memory, reasoning, written and spoken discourse, 
motor control, and developmental issues in all topic areas. One recent 
study funded by this program looks at the important role language plays 
in emotion perception, and understanding the mechanisms by which 
language might influence emotion perception. This research shows that 
the emotions you see in others are influenced by what you know about 
emotion (especially the language that you speak). It may well be the 
case that people can be taught to become better emotion perceivers, and 
hence, better communicators.
    Cognitive Neuroscience.--Cognitive neuroscience, within the last 
decade, has become an active and influential discipline, relying on the 
interaction of a number of sciences, including psychology, cognitive 
science, neurology, neuroimaging, physiology, and others. The cross-
disciplinary aspects of this field have spurred a rapid growth in 
significant scientific advances. The blooming field of social 
neuroscience is yielding research, for example, on the psychological 
and neural mechanisms involved in the experience of empathy. Brain 
imaging is being used to measure the effects of stigma, racial bias, 
similarity, and past shared experiences between oneself and others. 
This important research will yield a better understanding of the 
cognitive and neurological mechanisms involved in empathy as well as 
our ability to share feelings and care for others. Both the findings 
and the techniques will be of tremendous value to clinicians as well as 
other researchers.

Cross-Cutting Behavioral Initiatives at NSF
    Cyber-enabled Discovery and Innovation.--This new, cutting-edge 
program supports research on computational thinking, complexity, and 
interacting systems. NSF expects that this ambitious new undertaking 
with potentially transformative results will revolutionize the field 
and shed light onto wide-ranging topics such as emergent phenomena and 
tipping points in human development. Research into the complexity of 
social systems will constitute a significant contribution to this 
endeavor. This investment will help maintain our Nation's expertise in 
information technology, an essential element for our future 
competitiveness.
    Adaptive Systems Technology.--A new interdisciplinary initiative, 
this program recognizes the essential human element of exciting new 
technologies and machines. The human-machine interface is crucial to 
explore if we are going to make the best use of the latest technology. 
While biologists describe the trajectory from simple to complex systems 
and chemists explain the processes underlying complex neural 
organization, cognitive scientists explore how systems compute and 
behavioral scientists provide insights into how organisms learn and 
adapt to their environment. By working together, these scientists can 
reap the benefits of and develop new ideas through collaboration.
    Science of Science and Innovation Policy (SciSIP).--In 2005, the 
President's Science Advisor, John Marburger, called for a national 
``science of science policy,'' asking for research on innovation and 
scientific discovery processes, as well as on how policymakers use 
science to shape policy. In response, NSF created the Science of 
Science and Innovation Policy (SciSIP) research program. By studying 
science as a social process, SciSIP's goal is the development of an 
evidence-based platform for science policy. One example of the kind of 
ideas materializing from this initiative is the measurement of well-
being, which deals with such questions as: How can science policy and 
science outcomes be evaluated by measuring societal well-being? Can 
scientific priorities be based on well-being? Does well-being as an 
outcome lead to different science priorities than considering other 
outcomes? What about national competitiveness and productivity in 
relation to science and well-being? Addressing these questions has 
implications for health and the economy, both of which are linked to 
well-being.
    In closing, I want to note that building and sustaining the 
capacity for innovation and discovery in the behavioral sciences is a 
goal of the National Science Foundation. We ask that you encourage 
NSF's efforts in these areas, not just those activities described here, 
but the full range of activities supported by the SBE directorate and 
by NSF at large. Your support will help NSF lay the groundwork for this 
long-overdue emphasis on these sciences. Thank you.
    We would be pleased to answer any questions.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2009 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization with more than 42,000 members. The ASM mission is 
to enhance the science of microbiology, to gain a better understanding 
of life processes, and to promote the application of this knowledge for 
improved health and environmental well-being.
    The President requests a 13 percent increase in the NSF's budget 
for fiscal year 2009 for a total funding level of $6.85 billion. 
Included in this request is $5.6 billion for Research and Related 
Activities (R&RA), an increase of $773 million, or 16 percent above 
fiscal year 2008. With the 16 percent growth, NSF anticipates 
supporting an additional 1,370 research grants, which will help 
increase the overall funding rate to 23 percent from the 21 percent 
rate in fiscal year 2008. However, the success rates in many important 
biological sciences programs remain below 20 percent. The ASM, 
therefore, recommends a 16 percent, or $98 million, increase for BIO, 
consistent with the requested increase for R&RA. The ASM also 
recommends that the overall increase for R&RA be $808 million, or 16.8 
percent, and the overall increase for NSF be 13.6 percent above fiscal 
year 2008, to cover ASM's recommended increase for BIO without 
affecting the requested increases for other programs.
    The NSF plays a critical role in the discovery of new knowledge in 
the biological sciences. The Society has a number of concerns about BIO 
funding for the biological sciences, which are discussed below. Our 
nation's competitiveness in areas such as nanotechnology, climate 
change, water sustainability, and alternative energy sources depends on 
innovation in the biological sciences. It is essential that NSF 
continue strong support for the biological sciences to maintain and 
expand the contributions of biological sciences research for human, 
environmental, and economic well being.
    The NSF has successfully leveraged its resources for over half a 
century to promote progress in all fields of science and to enhance its 
effectiveness and productivity. The NSF builds the nation's research 
capability through investments in advanced instrumentation and 
facilities, and by supporting excellence in science and engineering 
research and education through its competitive, peer-reviewed grants 
programs. These activities are essential for increasing the nation's 
economic and scientific competitiveness. Nearly 90 percent of the NSF's 
budget supports extramural grants, selected through a competitive merit 
review process, that meet the mission of the Foundation ``to promote 
the progress of science; to advance the national health, prosperity, 
and welfare; to secure the national defense . . .'' The NSF has been 
especially responsive to and benefited from supporting individual 
investigators and investigator-initiated ideas.
    The ASM particularly supports increased funding for R&RA. This 
funding will promote support for unsolicited grants that potentially 
advance the frontiers of learning and discovery. The ASM 
enthusiastically supports the continuation of the NSF's tradition of 
funding investigator-initiated research.

NSF Biological Sciences
    The NSF provides 67 percent, about two-thirds, of federal support 
for U.S. academic basic research in non-medical biological sciences. 
This means that NSF's BIO, is arguably the most important source of 
non-medical funding for biological research, infrastructure, and 
education in the United States. Through its long history of 
productivity and innovation, biological research supported by the NSF 
has been critical for understanding issues of national importance such 
as the environment, economy, agriculture, and human welfare.
    NSF funding is not only important for understanding the functions 
and behaviors of organisms, it is especially important for 
understanding how organisms, such as microbes, function and interact 
with physical and chemical systems. For example, basic biological 
research has provided physicists and chemists with model systems used 
in nanotechnology, chemical production and renewable energy generation, 
each of which are important for American competitiveness. Thus, it is 
essential to continue strong investments in the biological sciences, 
since they translate to advances in physical, mathematical, 
engineering, and computational sciences.
    The Administration has proposed an fiscal year 2009 budget for BIO 
of $675 million, an increase of 10.3 percent over fiscal year 2008. 
This increase continues along the proposed track of the President's 
American Competitiveness Initiative (ACI). The ASM is concerned that 
funding for BIO since fiscal year 2003 has flattened and even 
decreased. The success rate of competitive awards for BIO in fiscal 
year 2009 is estimated at 19 percent, well below the overall NSF 
estimated funding rate of 23 percent. Additionally, some programs 
within BIO have funding rates less than 14 percent, such as the 
Microbial Observatories/Microbial Interactions and Processes (MO/MIP) 
programs, Assembling the Tree of Life program, and the Ecology of 
Infectious Diseases program. Funding rates for BIO research grants have 
been consistently lower than agency wide average research funding 
rates, and the gap between BIO and agency wide funding rates has 
increasingly widened in the last three years.
    Scientific opportunities in the biological sciences are increasing 
significantly, illustrated by the estimated 20 percent increase in BIO 
research grant proposals from fiscal year 2003 through fiscal year 
2007. However, as opportunities have steadily increased, BIO research 
grant funding rates have decreased significantly from 26 percent in 
fiscal year 2003 down to an estimated 19 percent in fiscal year 2007.
    Growth in BIO is essential for progress in the biological sciences. 
Growth in the total NSF budget should be reflected by real growth in 
BIO as well as other NSF directorates. We, therefore, recommend an 
increase in the BIO budget consistent with the President's request for 
R&RA in fiscal year 2009, of 16 percent, for a total of $710 million.
    Research in BIO is key to providing fundamental support that is 
needed for research supported by other NSF directorates. The rapid 
growth in knowledge by the biological sciences is resulting in the 
formation of new multi-disciplinary, interdisciplinary, and 
transdisciplinary efforts that often involve physical and chemical 
sciences and engineering. Advances in programs in bioenergy and 
biophysics now depend as much on biology as they do on other scientific 
disciplines. BIO supports scientific disciplines other than the 
biological sciences through programs such as Environmental Genomics, 
MO/MIP, and contributes to interagency priorities, such as climate 
change and the new NSF-wide program Dynamics of Water Processes in the 
Environment (WATER).

            BIO MO/MIP
    In addition to its general concerns about biological sciences 
funding, the ASM is concerned with a proposal to shift funding in 
fiscal year 2009 to strengthen core BIO programs and to eliminate 
support for the demonstrably highly successful Microbial Observatories 
(MO), Microbial Interactions and Processes (MIP) programs. These 
programs represent the only sustained national initiatives to describe 
broadly and understand the diversity of microbial life within the 
United States. Loss of these programs will mean that other nations with 
which the United States competes in biotechnology (e.g., China, Japan, 
Korea, Germany) will continue to support efforts to discover microbial 
diversity, while the US decreases support.
    Differences in funding emphases between existing core programs and 
microbe-specific programs will likely lead to lower success rates and 
less funding for microbial researchers. Funding success rates for MO/
MIP are already less than 10 percent. The ASM recommends that MO and 
MIP should be identified as a part of the core programs in BIO, rather 
than be discontinued. The ASM also recommends increased support for MO/
MIP.
    Maintaining programs such as MO/MIP is essential to ensure 
continued discovery of the microbial world, over 99 percent of which 
remains undescribed. Because they are ubiquitous and functionally more 
diverse than all plants and animals combined, microbes continue to 
offer enormous economic potential for industry, agriculture, and 
medicine. Bioprospecting has already led to many commercial 
applications, including probiotics, biofuels, and wastewater treatment. 
The wealth of bacteria, viruses, and other microorganisms that have yet 
to be cultivated or understood comprise an untapped resource for 
industry, agriculture, and medicine.
    Loss of MO/MIP cannot help but reduce our nation's competitiveness 
and ability to sustain leadership in microbial biology. Loss of these 
programs will also adversely affect agricultural research involving a 
collaboration between USDA and NSF.

NEON
    The ASM supports the establishment of the National Environmental 
Observatories Network (NEON), which will be the first national 
ecological measurement and observation system designed to answer 
fundamental regional- to continental-scale scientific questions about 
the current state of major ecosystems and their response to climate 
change and other disturbances. Full implementation of the NEON platform 
will transform our ability to detect and predict changes in ecosystems, 
and to provide information necessary to respond to change. Integration 
of microbial biology into the NEON framework also promises to provide a 
new level of understanding of the interactions between microbes, 
ecosystems and climate change. The ASM strongly encourages this 
integration through expanded funding in BIO, and expresses its concern 
that funding for NEON-related research not reduce the capacities of 
current BIO programs.

Support for Geosciences, Engineering, and Physical Sciences
    Biology and microbial biology are important components of all the 
research directorates at NSF and should be strongly supported within 
them. The ASM supports the fiscal year 2009 proposed increases in 
funding for the research activities at the Geosciences Directorate 
(GEO), the Engineering Directorate (ENG), and the Mathematical and 
Physical Sciences Directorate (MPS).
    The Geobiology and Low-Temperature Geochemistry program in GEO 
provides an example of the mutually beneficial relationship between 
biological sciences and geosciences. Among other areas, this program 
examines interactions between biological and geological systems at all 
scales of space and time, interactions between microbes and 
economically important resources, and interactions among microbes, 
minerals and groundwater. The Geobiology and Low-Temperature 
Geochemistry Program also facilitates cross-disciplinary efforts to 
harness new bioanalytical tools, such as those emerging from molecular 
biology. The ASM supports the proposed request of $178 million for 
Earth Sciences (EAR), an increase of $22 million, or 14 percent, above 
fiscal year 2008, with an emphasis towards increased support for the 
biological geosciences and $354 million for Ocean Sciences Funding 
(OCE), an increase of $43 million, or 14 percent above fiscal year 
2008.
    Similarly, the Engineering Directorate employs microbial research 
to examine problems involved in the processing and manufacture of 
economically important products, and in the efficient utilization of 
chemical resources and renewable bioresources. Much of this work 
depends on bioinformatics originating from genomic and proteomic 
studies. The ASM supports the proposed request of $173 million for 
Chemical, Bioengineering, Environmental, and Transport Systems (CBET), 
an increase of $42 million or 32 percent, above fiscal year 2008. High 
emphasis applications for the biological sciences within this program 
include postgenomic engineering, tissue engineering, biophotonics, 
nano-biosystems, and biotechnology, leading to improved biosensors, 
biomaterials, and controlled drug release.
    Collaboration with other scientific disciplines is also very 
important for continued progress in physics, including biological 
physics at molecular and cellular levels. MPS supports 
interdisciplinary research that greatly benefits the physical sciences 
as well as the biological sciences by creating tools that assist in 
advancing biological research and other disciplines. The ASM also 
supports the NSF-wide investment, Dynamics of Water Processes in the 
Environment (WATER). WATER supports research on living organisms in 
freshwater ecological systems.

Workforce Development and Training
    Support for science and engineering education, from pre-K through 
graduate school and beyond is an essential part of NSF's mission. 
Research funded by NSF is thoroughly integrated with education to help 
ensure that there will always be a skilled workforce to support new and 
future scientific, engineering, and technological fields, and a robust 
community of educators to train and inspire coming generations.
    In fiscal year 2007 BIO alone, support approximately 13,000 people, 
including senior researchers, other professionals, postdoctorates, 
graduate students, undergraduate students, and K-12 teachers. Due to 
flat funding in fiscal year 2008, this number dropped to approximately 
12,700. Increased support for the NSF is essential to fostering a 
competitive, well-trained scientific workforce. The proposed increase 
for BIO is estimated to support over 13,500 senior researchers, other 
professionals, postdoctorates, graduate students, undergraduate 
students, and K-12 teachers.

Conclusion
    Support for the NSF is essential for maintaining and improving the 
nation's scientific and economic competitiveness. The ASM recommends a 
13.6 percent increase in funding for the NSF, slightly above the 
President's request, but below the NSF's authorized level for fiscal 
year 2009. However, the ASM is concerned that BIO has suffered from 
flat funding over the last six years and we recommend at least a 16 
percent increase for BIO, the same as the increase proposed by the 
President for the entire Research and Related Activities, of which BIO 
is a part. This increase will recapture ground lost to inflation, 
expand the currently successful programs, and take advantage of new 
scientific opportunities in the biological sciences, such as 
metagenomics. Increased funding for the NSF should ensure adequate 
funding for all areas of science. One of the primary strengths of the 
NSF is its ability to catalyze important interactions among research 
disciplines in the physical and biological sciences. Consequently, all 
science must be well funded and encouraged.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as it considers the 
fiscal year 2009 appropriation for the NSF.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association

    The Sea Grant Association (SGA) \1\ respectfully submits for the 
official record this written testimony for fiscal year 2009 to the 
Senate Appropriations Subcommittee on Commerce, Justice, and Science. 
SGA joins with other stakeholders in urging the Subcommittee to 
recognize and support the vital programs of the National Oceanic and 
Atmospheric Administration (NOAA) and requests that the Subcommittee 
fund NOAA at $4.5 billion for fiscal year 2009. Further, SGA requests 
that within the overall fiscal year 2009 appropriation for NOAA, the 
Subcommittee appropriate $72 million for the National Sea Grant College 
Program, which is a key component of NOAA's extramural research, 
education and outreach enterprise playing a direct role in keeping our 
coastal communities safe, prosperous, and vibrant.
---------------------------------------------------------------------------
    \1\ The Sea Grant Association is a non-profit organization 
dedicated to furthering the Sea Grant program concept. The SGA's 
regular membership consists of the academic institutions that 
participate in the National Sea Grant College Program, located within 
the National Oceanic and Atmospheric Administration (NOAA). SGA 
provides the mechanism for these institutions to coordinate their 
activities, to set program priorities at both the regional and national 
level, and to provide a unified voice for these institutions on issues 
of importance to the oceans, coasts and Great Lakes. The SGA advocates 
for greater understanding, use, and conservation of marine, coastal and 
Great Lakes resources.
---------------------------------------------------------------------------
    Growth of the National Sea Grant College Program (Sea Grant) has 
been stunted during that last few years, which over time has begun to 
directly impact the services delivered on a daily basis to our coastal 
communities. The constituents of the Sea Grant program--coastal 
resource managers, state and local governments, tourism sectors, 
fishing industries, and the general public to name a few--have come to 
expect and rely on a certain level of service and expertise from the 
Sea Grant program. However, as the needs of our coastal communities 
have increased, funding required for the Sea Grant program to support 
these needs has not kept pace. The SGA recommendation of $72 million is 
realistic and even represents an amount below that which is authorized 
for the program for fiscal year 2004 \2\. The programmatic request of 
$72 million is also consistent with the amount requested in a Dear 
Colleague Letter for Sea Grant that was submitted to your Subcommittee 
earlier this month with 32 signatures. In addition, attached is a list 
of about 300 stakeholders who attest to the value of the Sea Grant 
program.
---------------------------------------------------------------------------
    \2\ National Sea Grant College Program Act Amendments of 2002, 
Public Law 107-299.
---------------------------------------------------------------------------
    With the costs of research and education rising, the near flat-
funding of Sea Grant during the last few years has forced programs to 
reduce staff and leave numerous high-quality research and outreach 
projects unsupported. An increased investment in Sea Grant will not 
only enhance its ability to meet these additional demands, it will also 
leverage additional state and university matching funds, reflecting its 
unique value as a federal-state partnership.
    The Administration's request of $55 million for fiscal year 2009 
would reverse the small progress made by the program last year by 
eliminating the modest growth provided by the Congress for fiscal year 
2008 (for a total fiscal year 2008 budget of $57.1 million). At the 
level proposed by the Administration, the Sea Grant program would be 
asked to operate at its lowest level in its 40 year history in 2007 
dollars (see the below chart).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The implications of what is essentially a freeze in funding for Sea 
Grant are significant with respect to the economy, sustainability of 
natural resources, and national safety and security. The Sea Grant 
network is severely strained and challenged to support its current 
activities, staff, and operations within this budget scenario, and has 
difficulty investing in important new research, education and outreach 
geared toward addressing emerging challenges in such areas as regional 
climate change and coastal community resiliency.
    At present, only about 12 percent of the research proposals 
submitted for funding to the Sea Grant program are funded due to 
resource constraints. By contrast, the research funding success rate at 
the National Science Foundation is just over 20 percent. Sea Grant 
directors estimate that they receive enough high quality meritorious 
research proposals--of importance and relevance to NOAA's mission--to 
fund about 25 percent, or double what the program is currently able to 
support. Within the current budget for Sea Grant of $57.1 million, 
about $30 million is used to support research. The balance of the Sea 
Grant budget is used to support related extension, communication, 
education and program management. Based on this, the research portion 
of the Sea Grant program could responsibly manage between $60 million 
to $80 million annually--or double its current research budget. At this 
level, the Sea Grant program could support important research proposals 
that currently go unfunded to answer questions and provide new 
knowledge needed by ocean and coastal resource managers.
    It is also important to remember that the success of the Sea Grant 
program is attributable to its unique ability to intimately tie 
research results to an extension, communication, and education process 
that is essential to ensure the use of science to meet the needs of our 
citizens. The current level of expenditure for extension, 
communication, and education in the Sea Grant program is approximately 
$25 million. A recent report to the NOAA Science Advisory Board \3\ 
called on NOAA to substantially expand its extension, outreach, and 
education activities. Sea Grant has the experience and the ``on-the-
ground'' network to fulfill that policy recommendation immediately if 
sufficient additional support from NOAA were forthcoming. As the 
research program expands to meet increasing demands, so too must the 
tools that put the research results in the hands of decision makers so 
that they can be utilized. The Sea Grant extension, communication, and 
education function should be increased commensurate with the level of 
research funding in the program from its current $25 million to between 
$40 million to $50 million to ensure the continued balanced approach 
when it comes to research, extension, communication, and education.
---------------------------------------------------------------------------
    \3\ Engaging NOAA's Constituents: A Report from the NOAA Science 
Advisory Board, March 2008.
---------------------------------------------------------------------------
An Investment in the Economic, Environmental and Social Well-being of 
        the Nation
    Research and outreach programs supported by Sea Grant are based on 
competition, undergo rigorous peer-review, and are geared toward 
addressing the marine, coastal and Great Lakes challenges that face our 
citizens. The federal investment in Sea Grant enables a nationally 
coordinated network embedded in the best research universities to apply 
unparalleled intellectual capital to address these problems and 
opportunities while assisting NOAA in addressing its missions. Cost-
effectiveness is enhanced by access to existing university management 
infrastructure.
    Sea Grant serves the nation in many ways. Sea Grant's unmatched 
access to regional, state and local constituencies through its 
extension and outreach programs ensures that the federal investment is 
targeted at relevant issues. The Sea Grant model contributes to the 
missions of NOAA and other federal agencies, and state and local 
governments, to the benefit of the general public. In addition, marine 
education programs supported by Sea Grant funds reach from kindergarten 
to marine-related business people to elder hostels.
    Sea Grant is a national program addressing national, regional, 
state and local needs. It is a partnership among government, academia, 
business, industry, scientists, and private citizens to help Americans 
understand and wisely use our precious coastal waters and Great Lakes 
for enjoyment and long-term economic growth. This network unites 32 
Programs, over 300 universities, and millions of people. Sea Grant is 
an agent for scientific discovery, technology transfer, economic 
growth, resource conservation, and public education. It is government 
as our citizens want it--visible, tangible, relevant, efficient, and 
effective.
Informing Smart Policy through Sound Science
    The interface between science and policy is precisely where the Sea 
Grant program applies its precious resources. As the program makes 
decisions on the funding of research projects, issues that are acutely 
important to local, regional and national decision-makers receive 
priority attention. Extension and educational resources are also 
deployed in ways that enhance the relevance and impact of the science 
and discoveries that result from Sea Grant-funded research.
    There is a growing demand from our nation's decision makers and 
public for scientifically-sound decisions to many of today's complex 
problems. Sea Grant's integration of science and outreach allows for 
up-to-date and ongoing needs assessment that helps identify the most 
important and timely issues that benefit from science-based decision 
making. Technological and scientific approaches, though desirable, 
cannot solve all of society's problems, and Sea Grant's ability to 
embed itself within the communities it serves enables the social 
dynamics of human ecology to be incorporated thereby improving the 
utility and impact of investments through the Sea Grant program. Sea 
Grant's work is always fresh. Although the program has been in place 
for 40 years, the constant attention to societal needs through 
stakeholder interactions allows the program to be nimble and 
responsive, while also maintaining the rigor and reliability of a 
strategic enterprise.
    In recent years, the work of two major national commissions \4\ 
have brought into focus the importance of our oceans and coasts to our 
nation's natural heritage, security, and economy. With an offshore 
ocean jurisdiction larger than the total land mass of the United 
States, U.S. waters support rich and diverse systems of ocean life, 
provide a protective buffer, and support important commerce, trade, 
energy, and mineral resources. And in each example, Sea Grant is there.
---------------------------------------------------------------------------
    \4\ An Ocean Blueprint for the 21st Century, U.S. Commission on 
Ocean Policy, April 20, 2004; America's Living Oceans: Charting a 
Course for Sea Change, Pew Oceans Commission, June 2, 2003.
---------------------------------------------------------------------------
  --More than $1 trillion, or one-tenth, of the nation's annual gross 
        domestic product (GDP) is generated within near-shore areas, 
        the relatively narrow strip of land immediately adjacent to the 
        coast. Looking at all coastal watershed counties, the 
        contribution swells to over $6.1 trillion, more than half of 
        the nation's GDP;
  --In 2003, ocean-related economic activity contributed more than $119 
        billion to American prosperity and supported over 2.2 million 
        jobs. Roughly three-quarters of the jobs and half the economic 
        value were produced by ocean-related tourism and recreation. 
        More than 13 million jobs are related to trade transported by 
        the network of inland waterways and ports that support U.S. 
        waterborne commerce;
  --Annually, the nation's ports handle more than $700 billion in 
        goods, and the cruise industry and its passengers account for 
        $11 billion in spending;
  --The commercial fishing industry's total value exceeds $28 billion 
        annually, with the recreational saltwater fishing industry 
        valued at around $20 billion, and the annual U.S. retail trade 
        in ornamental fish worth another $3 billion; and
  --Nationwide retail expenditures on recreational boating exceeded $30 
        billion in 2002.
    The SGA recognizes and appreciates the difficult funding tradeoffs 
the Subcommittee is forced to make each year. We urge you to consider 
Sea Grant as an investment in the future health and well-being of our 
coastal communities and support the program at $72 million for fiscal 
year 2009. Thank you for the opportunity to present these views.
    For more information, please visit www.sga.seagrant.org or contact: 
Paul Anderson, SGA President, 207.581.1435, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4030212e242532332f2e002d21292e256e252435">[email&#160;protected]</a>; Rick 
DeVoe, SGA External Relations Committee Chair, 843.727.2078, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="403229232b6e2425362f250033233325212732212e346e2f3227">[email&#160;protected]</a>; Joel Widder, Government Relations, 
202.289.7475, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b110c121f1f1e093b171e0c120856190e09101e5518141655">[email&#160;protected]</a>
                                 ______
                                 
      Prepared Statement of the American Psychological Association

    The American Psychological Association (APA), a scientific and 
professional organization of more than 148,000 psychologists and 
affiliates, is pleased to submit testimony for the record. Because our 
behavioral scientists play vital roles within the National Science 
Foundation (NSF), National Aeronautics and Space Administration (NASA) 
and the National Institute of Justice (NIJ) within the Department of 
Justice (DOJ), APA will address the proposed fiscal year 2009 research 
budgets for each of these agencies:
  --APA recommends that the Subcommittee support the President's fiscal 
        year 2009 request of $6.85 billion for NSF.
  --APA requests that the Subcommittee provide $18.3 billion for NASA, 
        including $671 million for NASA Advanced Capabilities (which 
        houses the Human Research Program), and $594 million for NASA 
        Aeronautics.
  --APA urges the Subcommittee to reverse the trend of budgetary 
        neglect for NIJ (within DOJ) by providing $50 million in fiscal 
        year 2009 for NIJ programs.

National Science Foundation
            Core Psychological Research at NSF
    NSF is the only federal agency whose primary mission is to support 
basic research and education in math, engineering and science--
including the behavioral and social sciences. NSF's investment in basic 
research across these disciplines has allowed for extraordinary 
scientific and technological progress, ensuring continued economic 
growth, improvements in the design, implementation and evaluation of 
public education, strengthened national security, and the generation of 
cutting edge new knowledge.
    APA supports the Administration request of $6.85 billion for NSF in 
fiscal year 2009, and urges Congress to implement a doubling of the NSF 
budget over the next ten years. This is consistent with Administration 
and Congressional plans to invest substantially in federal science 
agencies with the capacity to stimulate global competitiveness and 
innovation. Within the overall NSF budget, APA supports a strong 
investment in psychological research throughout the research and 
education directorates foundation-wide, in order to address critical 
national challenges with an understanding of human behavior at their 
core. The America COMPETES Act specifically noted the importance of 
funding the social sciences and this must be reflected in an increase 
for NSF's behavioral and social science research portfolio comparable 
to proposed increases for other sciences at NSF.
    Although psychologists receive funding from diverse programs within 
NSF, most core psychological research is supported by the Social, 
Behavioral and Economic Sciences Directorate (SBE), with its focus on 
the variables that determine human behavior across all ages, affect 
interactions among individuals and groups, and decide how social and 
economic systems develop and change. In addition to core behavioral 
research in cognitive neuroscience, human cognition and perception, 
learning and development, and social psychology, SBE also will continue 
to support the development of science metrics through its Science of 
Science and Innovation Policy (SciSIP) research program. Funding SciSIP 
research is fundamental to identifying processes by which investments 
in research are transformed into social and economic outcomes, and 
providing a more effective evaluation of the ``return'' on scientific 
investments.
    The Biological Sciences Directorate at NSF also provides support 
for research psychologists who ask questions about the very principles 
and mechanisms that govern life at the level of the genome and cell, or 
at the level of a whole individual, family or species. In previous 
testimony, APA has expressed concern about diminishing support for key 
behavioral research programs within this Directorate, most notably 
those focused on learning and cognition. NSF recognizes the importance 
of learning and cognition to many branches of science already, and 
supports Foundation-wide initiatives and individual research projects 
that seek to understand the neural or genetic mechanisms by which 
learning occurs, that use learning as an assay for the effects of 
environmental change on a biological system, that construct and 
evaluate artificial learning systems, that conceptualize the role of 
learning in biodiversity and evolution and that apply learning 
principles to education and workforce challenges.
    However, we hope that NSF's focus on transformational science will 
continue to recognize that behavior links everything from molecular 
biology to ecology because in a sense behavior is the ultimate genetic 
phenotype. Animals behave to eat, defend and reproduce, so an 
understanding of how the molecular processes within and beyond the 
central nervous system lead to behavior and how behavior serves an 
adaptive function seems essential to integrating biology across levels. 
Within the field of animal behavior and cognition there are clear 
demonstrations that this integration is occurring. For example, 
individual differences in gene expression can now be linked to 
individual differences in memory, attention, decision making, 
individual adaptation and fitness. The opportunity for understanding 
individual differences is unprecedented.

National Aeronautics and Space Administration
            Behavioral Research is Critical for Space Exploration and 
                    Air Safety
    Over the last 20 years, the NASA research budget has gone down 
steadily, with space exploration expanding at about the same rate. The 
result is an increasing gap in life sciences and human factors 
knowledge--knowledge that is critical for successful missions and for 
improving both the safety and efficiency of our current and future 
aerospace systems. Longer space missions place increasing demands on 
psychological health and performance in space. Psychological scientists 
are meeting these challenges head on by extending the information 
management capacity of individuals through computational systems--
systems that can sense when the user is overloaded, or determine what 
needs to be done next and automatically adapt. Such systems improve 
human decision-making and allow humans to function in extremely 
challenging environments, such as space flight. The need for science-
based practical principles to enhance systems, interfaces, team 
dynamics, decision-making, training, and psychological health continues 
to grow, but with a diminishing research budget, NASA behavioral 
scientists are ill equipped to take on this crucial task.
    In 2005, Congress endorsed the Vision for Space Exploration (VSE) 
to send humans to the moon and then to Mars. An understanding of human 
performance in space is critical for VSE, and the ability to measure 
and predict human performance through all mission phases enhances 
mission safety and mission success. APA urges NASA to prioritize life 
sciences and human aeronautics research and to restore its support for 
these programs to a level commensurate with other NASA programs.
    In the recently passed America COMPETES Act, NASA is directed to 
increase funding for basic STEM research to boost competitiveness and 
innovation. APA urges the Subcommittee to explicitly include social 
sciences in the STEM definition for NASA, consistent with the 
definition authorized in the America COMPETES Act in the section on 
NSF.
    In the NASA Authorization Act of 2005, Congress authorized 
$18,686,300,000 for fiscal year 2008. The actual allocation for fiscal 
year 2008 shortchanged the agency by over $1 billion. At $17.6 billion, 
the President's fiscal year 2009 budget request again shortchanges the 
agency and fails even to keep pace with inflation. APA requests that 
NASA's budget be at least $18.3 billion in order for the agency to 
succeed in moving forward with the Vision for Space Exploration (VSE) 
while also sustaining its non-Exploration missions. In order to 
preserve the integrity of the agency's missions, APA further urges 

Congress to block transfer authority between budget accounts.
            Human Research Program
    Over the past several years, support for programs in the life 
sciences has diminished significantly, despite a renewed commitment in 
2005 to extend human presence in space, and an unprecedented interest 
in behavioral research. Now, what remains of the Human Research Program 
is budgeted at $152 million, an increase of just 3.4 percent over 
fiscal year 2008. Human research must be securely and adequately funded 
and considered an integral component of space mission planning. A 
successful overall behavioral health program will require a broad 
perspective, multiple convergent research strategies, and a variety of 
settings, including space itself. APA therefore requests that NASA's 
budget for Advanced Capabilities, which houses the Human Research 
Program, be increased to the fiscal year 2008 level of $671 million.
            Aviation Safety
    Aeronautics research (including human factors) has long been a 
cornerstone of NASA. APA applauds NASA Ames Research Center for its 
historic attention to human factors research but continued cuts to 
aeronautics programming and a recent reorganization of the Aeronautics 
Research Mission Directorate threaten to dismantle this once world-
class center for human factors research. The Aeronautics Research 
Mission has been re-oriented to emphasize disciplines such as 
aerodynamics over human performance and operational issues. Further, 
the agency's fiscal year 2008 allocation diminished the spending power 
of the aeronautics program by 40 percent compared to 2004, forcing NASA 
centers to cut jobs and university grants in aeronautics research, 
especially in the area of human performance and aviation safety. NASA's 
continual underfunding of aeronautics research also poses a significant 
threat to the Next Generation's (NextGen) schedule and budget. APA 
therefore recommends that Congress restore NASA's Aeronautics budget to 
at least the fiscal year 2006 level of $594 million.

Department of Justice--National Institute of Justice
    Behavioral and social science research is also essential to 
improving the criminal justice system. The National Institute of 
Justice (NIJ) is the research, development, and evaluation arm of the 
Department of Justice. It funds research in a range of scientific 
disciplines, including behavioral and social science research aimed at 
identifying evidence-based solutions for reducing crime and increasing 
public safety. The Administration has proposed flat funding for NIJ in 
fiscal year 2009 for a total of $34.7 million, equal to its fiscal year 
2008 level and a dramatic 32 percent decrease from the fiscal year 2007 
level of $54.3 million. APA strongly urges the Committee to reverse 
this trend of budgetary neglect for NIJ and recommends providing $50 
million in fiscal year 2009 for NIJ programs.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Agency Involved: Department of Justice
    Program Involved: COPS Tribal Resources Grant Program (TRGP)
Summary of GLIFWC'S Fiscal Year 2009 Testimony
    GLIFWC requests that Congress: (1) fund the TRGP at $31,065,000 in 
fiscal year 2009 (the same level as fiscal year 2007 enacted and 
$16,025,000 more than fiscal year 2008 enacted), (2) maintain the 
Tribal Resources Grant Program (TRGP) as a distinct program within the 
DOJ COPS Office of Justice Programs, and (3) ensure that special 
conservation agencies remain eligible, unlike in fiscal year 2006.

Ceded Territory Treaty Rights and GLIFWC's Role
    GLIFWC was established in 1984 as a ``tribal organization'' within 
the meaning of the Indian Self-Determination Act (Public Law 93-638). 
It exercises authority delegated by its member tribes to implement 
federal court orders and various interjurisdictional agreements related 
to their treaty rights. GLIFWC assists its member tribes in: securing 
and implementing treaty guaranteed rights to hunt, fish, and gather in 
Chippewa treaty ceded territories; and cooperatively managing and 
protecting ceded territory natural resources and their habitats.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For the past 24 years, Congress and Administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific federal obligations under: (a) a number of United States/
Chippewa treaties; (b) the federal trust responsibility; (c) the Indian 
Self-Determination Act, the Clean Water Act, and other legislation; and 
(d) various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.

Community-based Policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise is that effective detection 
and deterrence of illegal activities, as well as education of the 
regulated constituents, are best accomplished if the officers work 
within tribal communities that they primarily serve. The officers are 
based in reservation communities of the following member tribes: in 
Wisconsin--Bad River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, 
Sokaogon Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; 
and in Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert.

Interaction With Law Enforcement Agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the tribes' conservation codes, but are fully certified 
officers who work cooperatively with surrounding authorities when they 
detect violations of state or federal criminal and conservation laws. 
These partnerships evolved from the inter-governmental cooperation 
required to combat the violence experienced during the early 
implementation of treaty rights in Wisconsin. As time passed, GLIFWC's 
professional officers continued to provide a bridge between local law 
enforcement and many rural Indian communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
inter-jurisdictional legal training attended by GLIFWC officers, tribal 
police and conservation officers, tribal judges, tribal and county 
prosecutors, and state and federal agency law enforcement staff. DOJ 
funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders trained in the use of defibrillators, and to 
train them in search and rescue, particularly in cold water rescue 
techniques. When a crime is in progress or emergencies occur, local, 
state, and federal law enforcement agencies look to GLIFWC's officers 
as part of the mutual assistance networks of the ceded territories. In 
fact, the role of GLIFWC's officers in these networks was further 
legitimized in 2007 by the passage of Wisconsin Act 27. This law 
affords GLIFWC wardens the same statutory safeguards and protections 
that are afforded to their DNR counterparts. GLIFWC wardens will now 
have access to the criminal history database and other information to 
identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.

GLIFWC Programs Funded by DOJ
    GLIFWC recognizes that adequate communications, training, and 
equipment are essential both for the safety of its officers and for the 
role that GLIFWC's officers play in the proper functioning of 
interjurisdictional emergency mutual assistance networks in the ceded 
territories. GLIFWC's COPS grants have provided a critical foundation 
for achieving these goals. Significant accomplishments with Tribal 
Resources Grant Program funds include:
    Increased Versatility and Homeland Security on Superior.--In 2007 
GLIFWC used COPS funding to obtain a 22 foot boat to expand patrol 
capabilities and coverage on Lake Superior. This boat also provides 
greater versatility than GLIFWC's larger patrol boat to access bays and 
harbors in the Lake. The boat will be stationed in Marquette for use in 
both the 1836 and 1842 ceded territories in Lake Superior, as well as 
to provide increased emergency response, when needed.
    Emergency Response Equipment and Training.--Each GLIFWC officer has 
completed and maintains certification as a First Responder and in the 
use of life saving portable defibrillators. Since 2003, GLIFWC officers 
have carried First Responder kits and portable defibrillators during 
their patrol of around 275,000 miles per year throughout the ceded 
territories. In remote, rural areas the ability of GLIFWC officers to 
respond to emergencies provides critical support of mutual aid 
agreements with federal, state, and local law enforcement agencies.
    Ice Rescue Capabilities.--Each GLIFWC officer maintains 
certification in ice rescue techniques and was provided a Coast Guard 
approved ice rescue suit. In addition, each of the patrol areas was 
provided a snowmobile and an ice rescue sled to participate in 
interagency ice rescue operations with county sheriffs departments and 
local fire departments.
    Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
completed Wilderness Search and Rescue training. The COPS Tribal 
Resources Grant Program also enabled GLIFWC to replace a number of 
vehicles that were purchased over a decade ago, including 10 ATV's and 
16 patrol boats and the GPS navigation system on its 31 foot Lake 
Superior Patrol Boat. These vehicles are used for field patrol, 
cooperative law enforcement activities, and emergency response in the 
1836, 1837 and 1842 ceded territories. GLIFWC officers also utilize 
these vehicles for boater, ATV, and snowmobile safety classes taught on 
reservations as part of the Commission's Community Policing Strategy, 
providing critical outreach to tribal youth.
    Hire, Train and Equip Three Additional Officers.--Funding was 
contracted to provide three additional officers to ensure tribes are 
able to meet obligations to both enforce off-reservation conservation 
codes and effectively participate in the myriad of mutual assistance 
networks located throughout a vast region covering 60,000 square miles. 
As required by the program, GLIFWC has absorbed the salary costs 
related to sustaining those positions, however COPS funding is needed 
now more than ever to sustain the other components of program related 
to training and equipment.
    Consistent with numerous other federal court rulings on the 
Chippewa treaties, the United States Supreme Court re-affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights in 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. In addition, a consent decree 
signed in 2007 will govern the exercise of treaty rights in inland 
portions of the 1836 ceded territory in Michigan, where one of GLIFWC's 
member tribes exercises treaty rights.
    But for GLIFWC's COPS grants, this expanded workload, combined with 
staff shortages would have limited GLIFWC's effective participation in 
regional emergency services networks in Minnesota, Michigan and 
Wisconsin. The effectiveness of these mutual assistance networks is 
more critical than ever given: (1) national homeland security concerns, 
(2) state and local governmental fiscal shortfalls, (3) staffing 
shortages experienced by local police, fire, and ambulance departments 
due to the call up of National Guard and military reserve units, and 
(4) the need to cooperatively combat the spread of methamphetamine 
production in rural areas patrolled by GLIFWC conservation officers. 
Examples of the types of assistance provided by GLIFWC officers follow:
  --As trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --Search and rescue for lost hunters, fishermen, hikers, children, 
        and the elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        Counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        Counties in Michigan).
  --Being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        Counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Bayfield, Burnett, Sawyer, and Vilas Counties in 
        Wisconsin).
  --Use of a thermal imaging camera (purchased through the COPS 
        program) to track an individual fleeing the scene of an 
        accident (Sawyer County, Wisconsin).
  --Assistance in evacuating residents after a chemical plant explosion 
        (Burnett County, Wisconsin).
  --Organizing and participating in search and rescues of ice fishermen 
        on Lake Superior (Ashland and Bayfield Counties in Wisconsin), 
        Lake Superior boats (Baraga County in Michigan and with the 
        U.S. Coast Guard in other parts of western Lake Superior), and 
        kayakers (Bayfield County in Wisconsin).
    In 2008, GLIFWC proposes to utilize DOJ TRGP funding for training 
and equipment to: (1) recognize, secure and respond appropriately to 
homeland security threats, (2) improve response to incidents that 
trigger joint law enforcement activities such as ``incident command 
center'' protocols and training, and (3) improve community awareness 
through state certified safety classes (hunter safety, boater safety, 
ATV safety and snowmobile safety). Simply put, supporting GLIFWC's 
officers will not only assist GLIFWC in meeting its obligations to 
enforce tribal off-reservation codes, but it will enhance 
intergovernmental efforts to protect public safety and welfare 
throughout the region in the states of Wisconsin, Minnesota, and 
Michigan. The COPS Tribal Resources Grant Program provides essential 
funding for equipment and training to support GLIFWC's cooperative 
conservation, law enforcement, and emergency response activities. We 
ask Congress to support increased funding for this program.
                                 ______
                                 
         Prepared Statement of Killdeer Mountain Manufacturing

    On behalf of Killdeer Mountain Manufacturing, manufacturer of 
aerospace assemblies, located in Killdeer, Halliday, Hettinger, and 
Dickinson, North Dakota, I would like to thank the Committee for 
allowing our organization to submit this testimony for the record. I am 
writing to respectfully request that the Hollings Manufacturing 
Extension Partnership program be provided the authorized $122 million 
within the fiscal year 2009 Commerce, Justice, Science and Related 
Agencies Appropriations Bill. This requested level of funding for 2009 
was provided for in the recently enacted America COMPETES Act. As you 
know, the Hollings Manufacturing Extension Partnership (MEP) is a 
program within the Department of Commerce, National Institute of 
Standards and Technology, a program authorized to improve 
competitiveness of America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. Our company is currently working on a nationally 
recognized Lean Enterprise Certification Program with the assistance of 
Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories

    On behalf of the National Association of Marine Laboratories I am 
pleased to submit this statement for the official record in strong 
support of the research and education programs under the subcommittee's 
jurisdiction that play a vital role in the ocean, coastal, and Great 
Lakes research and education enterprise. I will focus my remarks on 
four key areas: federal support for extramural ocean, coastal and Great 
Lakes research; the next generation of ocean infrastructure; U.S. 
innovation and competitiveness through investment in the marine 
sciences; and ocean education, literacy, diversity and workforce 
development.
    The National Association of Marine Laboratories (NAML) is a 
nonprofit organization of about 100 institutions employing more than 
10,000 scientists, engineers, and professionals and representing ocean, 
coastal and Great Lakes laboratories stretching from Maine to the Gulf 
of Mexico, Guam to Bermuda, and from Alaska to Puerto Rico. NAML labs 
support the conduct of high quality ocean, coastal and Great Lakes 
research and education in the natural and social sciences and the 
effective use of that science for decision-making on the important 
issues that face our country.

 FEDERAL SUPPORT FOR EXTRAMURAL OCEAN, COASTAL AND GREAT LAKES RESEARCH

    NAML strongly urges the Subcommittee to maintain and strengthen its 
support for cutting-edge ocean, coastal, and Great Lakes research and 
education across the federal funding agencies within its jurisdiction.
    The marine sciences are inherently interdisciplinary, push the 
envelope in terms of technology development, test the boundaries of our 
data collection and analysis systems, and offer an effective training 
ground for future scientists and engineers. NAML believes that 
competitive, merit-based research support by all relevant federal 
agencies is essential to the overall progress of coastal, ocean and 
Great Lakes science and education. Specifically, NAML calls on the 
Subcommittee in the fiscal year 2009 appropriations bill to support the 
research and education programs of the National Science Foundation, the 
National Oceanic and Atmospheric Administration, and the National 
Aeronautics and Space Administration one of its highest priorities.

National Science Foundation (NSF)
    NSF provides vital support for basic research and education which 
enhances public understanding of the Nation's oceans, coastal areas, 
and the Great Lakes and strengthens the long-term economic 
competitiveness and national security of our country. NSF support for 
cutting edge research, cyberinfrastructure, as well as more traditional 
instrumentation and infrastructure is essential for the health of the 
Nation's research enterprise. NSF also plays a large role in supporting 
education and training for the next generation of scientists and 
engineers and enhancing diversity by attracting and retaining women and 
minorities. Marine labs contribute significantly to this objective 
through the research and education programming conducted with NSF 
support. NAML is supportive of proposals from the Administration ($6.9 
billion request for fiscal year 2009) and the Congress (via the America 
COMPETES Act) to substantially increase NSF support for fiscal year 
2009 and urges that in the provision of such resources, they be 
distributed in a balanced way to include all of the NSF directorates 
consistent with similar guidance provided in the fiscal year 2008 
appropriations conference report.

National Oceanic and Atmospheric Administration (NOAA)
    NOAA is a critical player in ocean, coastal and Great Lakes 
research and education and many NAML labs are co-located with, or 
linked to, NOAA laboratories. Through its partnerships with marine labs 
and universities, NOAA has access to world-class expertise and unique 
research facilities. In addition, by partnering with the external 
research and education community, NOAA can leverage funds and 
facilitate multi-institution cooperation, all for the purpose of 
promoting the very best science. NAML urges the Subcommittee to 
recognize the value of NOAA by funding the agency at a budget of $4.5 
billion for fiscal year 2009, as supported by the Friends of NOAA 
Coalition. In addition, we call on the Subcommittee to emphasize NOAA's 
key extramural research and education programs which assist NOAA in 
addressing its mission. These programs include: the National Sea Grant 
College Program, the National Undersea Research Program, Ocean 
Exploration and Research, the National Estuarine Research Reserve 
System, the Competitive Research Program within NOAA's Climate Program 
Office, the Integrated Ocean Observing System, Oceans and Human Health, 
Coastal Zone Management, Office of Education and the various joint and 
cooperative institutes. In addition, NOAA supports important research 
in aquaculture and invasive species.
    In 2007, NOAA released a comprehensive five year research plan \1\ 
that highlights the linkage between NOAA research and the Nation's 
economic competitiveness. A healthy NOAA budget coupled with solid 
partnerships with the extramural research and education communities 
will only strengthen NOAA's research and education capabilities and 
ultimately make our nation safer.
---------------------------------------------------------------------------
    \1\ Research in NOAA: Toward Understanding and Predicting Earth's 
Environment, National Oceanic and Atmospheric Administration, June 
2007.
---------------------------------------------------------------------------
National Aeronautics and Space Administration (NASA)
    Budgets for NASA earth and space science have declined in recent 
years despite fervent calls from the community to protect science 
funding at the agency. The National Academy of Sciences released a 
report in 2007 \2\ calling on NASA to ``renew its investment in Earth 
observing systems and restore its leadership in Earth science and 
applications.'' NAML is not alone in its contention that this nation is 
in need of a balanced investment in NASA that will maintain a strong 
and vibrant earth and space science enterprise. NASA's support for 
earth observations and research is vital in helping us better 
understand our own planet. We are encouraged that the Administration 
has called for Earth and Space science increases in its fiscal year 
2009 budget request. NAML urges the Subcommittee to renew its 
investment in the NASA Earth Science budget for fiscal year 2009.
---------------------------------------------------------------------------
    \2\ Earth Science and Applications from Space: National Imperatives 
for the Next Decade and Beyond, Committee on Earth Science and 
Applications from Space: A Community Assessment and Strategy for the 
Future, National Research Council, January 2007.
---------------------------------------------------------------------------
                NEXT GENERATION OF OCEAN INFRASTRUCTURE

    In addition to program support for research at the various federal 
funding agencies, support for infrastructure and instrumentation--
including long term planning for the next generation of 
infrastructure--is critical to the operation of marine labs. NSF in 
particular provides important support for basic laboratory facilities, 
instrumentation, support systems, computing and related 
cyberinfrastructure, and ship access through the important Major 
Research Instrumentation (MRI) and the Field Stations and Marine 
Laboratories (FSML) programs. The U.S. Commission on Ocean Policy's 
report \3\ made several recommendations about the need for development 
and enhancement of ocean, coastal and Great Lakes research 
infrastructure. NAML recognizes the need for infrastructure investment 
at all scales, from traditional infrastructure--such as marine 
laboratories, ships, observation systems, satellites--to next 
generation infrastructure and technology like genomics, proteomics, 
robotics, nanotechnology, and other advanced computational approaches. 
As federal research budgets grow, so too must support for critical 
infrastructure required to effectively implement research and 
education. We are hindering our brightest scientific minds by denying 
them the proper infrastructure needed to support their research. NAML 
urges the Subcommittee to recognize the importance of sustained support 
for infrastructure across the federal research agencies and provide 
commensurate funding for fiscal year 2009.
---------------------------------------------------------------------------
    \3\ An Ocean Blueprint for the 21st Century, U.S. Commission on 
Ocean Policy, April 20, 2004.
---------------------------------------------------------------------------
    FEDERAL SUPPORT FOR U.S. INNOVATION AND COMPETITIVENESS THROUGH 
                   INVESTMENT IN THE MARINE SCIENCES

    NAML notes that the Federal government has targeted the ``physical 
sciences'' for funding increases in recent years, despite the outcome 
of the fiscal year 2008 appropriations process. The Congress, through 
enactment of the America COMPETES Act (Public Law 110-069), recognized 
that the physical sciences did not only refer to science coming out of 
the National Science Foundation, the Department of Energy's Office of 
Science, and the National Institute of Standards and Technology, as 
defined by the Administration. In addition to these agencies the 
COMPETES Act acknowledged the role that many Federal agencies--such as 
NOAA and NASA--play in U.S. innovation and competitiveness. For fiscal 
year 2009, NAML urges the Subcommittee to fund all of the ``physical 
science'' agencies, including NSF, NOAA, and NASA, at levels that will 
help the nation keep pace on the global stage.

     OCEAN EDUCATION, LITERACY, DIVERSITY AND WORKFORCE DEVELOPMENT

    NAML believes that an informed, engaged and ocean literate populace 
is critical for the economic, environmental health of our planet and to 
the quality of life of all Americans. NAML encourages the federal 
government to strengthen its commitment to enhancing ocean, coastal and 
Great Lakes education, literacy, diversity and workforce development.
    In early 2008 NAML developed a whitepaper \4\ addressing the ocean 
education mission at NOAA and calling on NOAA to be a strong 
contributor to the implementation of the recommendations made within 
the 2006 Conference on Ocean Literacy (CoOL) report \5\. The Conference 
on Ocean Literacy was a watershed event that brought together for the 
first time all of the Federal entities overseeing ocean education and 
literacy. Its subsequent report issued key recommendations for 
fostering an ocean-literate society and increasing ocean workforce 
diversity. NAML looks forward to working with NOAA, as well as other 
federal agencies with ocean education missions, in implementing the 
report's recommendations.
---------------------------------------------------------------------------
    \4\ Ocean Literate America: A Whitepaper in Support of the National 
Oceanic and Atmospheric Administration's Ocean Education Plan, National 
Association of Marine Laboratories, February 2008.
    \5\ Conference on Ocean Literacy Report, Washington, D.C., June 7-
8, 2006.
---------------------------------------------------------------------------
    A strong national ocean policy can only be sustained with the most 
up to date and reliable scientific information. To ensure that the 
Nation will continue to generate the very best knowledge investment is 
needed today in coastal, ocean, and Great Lakes education programs that 
support learning at all age levels, by all disciplines, and for all 
Americans. NAML labs work closely with many programs throughout the 
Federal government to produce a more ocean-literate populace. These 
include the Centers for Ocean Science Education Excellence program 
(COSEE) and the Louis Stokes Alliance for Minority Participation 
program at NSF, and the Office of Education and National Sea Grant 
College Program within NOAA. Not only do marine labs serve as excellent 
training grounds for experiential ocean education, they are also 
committed to enhancing diversity within the field of ocean, coastal and 
Great Lakes research and education by fostering relationships with 
community colleges and minority-serving institutions (MSIs) to provide 
distinctive learning opportunities for underrepresented groups. At 
marine laboratories, students achieve a greater understanding of the 
oceans and coastal ecosystems and take with them a sense of stewardship 
for these important environments. Given the interdisciplinary nature of 
the ocean sciences, a continued interagency approach will be needed by 
the Federal government to foster a truly ocean-literate populace. NAML 
urges the Subcommittee to provide priority funding for the science 
education programs noted above for fiscal year 2009.
    Thank you for the opportunity to express these views on behalf of 
the National Association of Marine Laboratories. We hope the 
Subcommittee will take these points into consideration as you move 
forward in the fiscal year 2009 appropriations process.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                      Experimental Biology (FASEB)

Mission
    Our nation's ability to remain competitive in the global economy 
depends on its capacity to develop new knowledge, train scientists, and 
provide resources that fuel discovery and innovation. Funding for the 
National Science Foundation's (NSF) scientific research and education 
programs is essential to the fulfillment of these goals.
    NSF's mission is ``to promote the progress of science; to advance 
the national health, prosperity, and welfare; [and] to secure the 
national defense.'' \1\ Although NSF receives less than 5 percent of 
the federal research and development (R&D) budget, it has a leading 
role in advancing U.S. science, technology, engineering and mathematics 
(STEM). In addition to providing necessary support for large scale 
research facilities, NSF funds approximately 20 percent of all 
federally-sponsored basic research \2\ and at least two-thirds of all 
federally-sponsored non-medical basic research at America's colleges 
and universities.\3\ Each year, this funding results in grants to more 
than 200,000 scientists, teachers and student researchers for cutting-
edge projects at thousands of institutions across the country. NSF is 
also a major force in science education and training. The agency 
supports education research and funds initiatives to prepare teachers, 
develop curricula, and engage students in scientific activities that 
are critical for strengthening our scientific workforce. NSF's support 
of science and education and its emphasis on integrating research and 
education make it unique among federal research sponsors; its broad 
approach stimulates the flow of ideas across scientific boundaries and 
brings new insight to bear on perplexing research questions. NSF's 
pioneering research investments have advanced the frontier of science 
and have led to the development of marketable technologies, processes 
and methods.
---------------------------------------------------------------------------
    \1\ National Science Foundation. http://www.nsf.gov/about/. 
Accessed September 17, 2007.
    \2\ Ibid.
    \3\ AAAS Report XXXII: Research and Development Fiscal Year 2008. 
(2007) American Association for the Advancement of Science. Washington, 
DC.
---------------------------------------------------------------------------
    A recent National Academies report warns that as other countries 
make R&D spending a top priority, the scientific and technological 
building blocks that are critical to U.S. economic leadership are 
eroding.\4\ Expressing a similar sentiment, the U.S. Office of Science 
and Technology Policy stated that ``keeping our competitive edge in the 
world economy requires policies that lay the ground work for continued 
leadership in innovation, exploration, and ingenuity.'' \5\ Although 
Congress recognized NSF's contribution to the science and technology 
enterprise when it authorized a doubling of the agency's budget by 
2007, NSF's budget remains far below the amount the NSF Authorization 
Act of 2002 specified.\6\
---------------------------------------------------------------------------
    \4\ National Academies of Science. (2007) Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Future. Washington, DC.
    \5\ Domestic Policy Council. (2006) American Competitiveness 
Initiative: Leading the World in Innovation. Office of Science and 
Technology Policy. Washington, DC.
    \6\ Public Law 107-368. (December 2002) National Science Foundation 
Authorization Act of 2002.
---------------------------------------------------------------------------
    Enactment of the America Creating Opportunities to Meaningfully 
Promote Excellence in Technology, Science, and Education (COMPETES) Act 
\7\ in 2007 renews U.S. commitment to science and technology and puts 
NSF on a path to double its budget by 2015, permitting the agency to 
expand its support for scientific research and education and training 
programs. These critical investments in NSF will ensure that the United 
States remains at the forefront of scientific discovery and 
technological innovation.
---------------------------------------------------------------------------
    \7\ H.R. 2272. (August 2007) America Creating Opportunities to 
Meaningfully Promote Excellence in Technology, Science, and Education 
(COMPETES).
---------------------------------------------------------------------------
Select Accomplishments in Research and Education
    Research that NSF funds traverses the sciences, captures the 
imagination, and improves our quality of life. A few highlights of 
innovative research and education projects NSF supports follow.

            Nanotechnology
    Nanotechnology is a multidisciplinary field in which scientists 
design and build objects and even machines with the dimensions of 
individual atoms and molecules. This new research area is 
revolutionizing everything from computers to health care, and NSF is 
leading the charge.
  --Developing Medical Nanosensors.--Scientists have developed nanosize 
        chemical sensors that can detect glucose in human tissue. This 
        research is paving the way for the development of a class of 
        biosensors that could improve the way diabetics monitor blood 
        sugar and facilitate tracking a variety of other molecules, 
        such as hormones, cholesterol and drugs.
  --Disrupting Cancer Development.--Scientists have found they can use 
        antisense DNA to disrupt cells' production of cancer-causing 
        proteins; attaching gold nanoparticles to antisense strands 
        enhances their ability to disrupt the production of these 
        proteins.
            High-End Computing and Advanced Networking
    Computational research that NSF funds is driving discovery in 
critical scientific fields. High-end computing and advanced networking 
is enabling scientists to better understand biological systems and 
apply new knowledge to pressing health, environmental and social 
concerns.
  --Developing HIV Drugs.--Scientists are harnessing the power of 
        super-computers to model molecular structure and movement. 
        Structural models of enzymes that permit HIV to survive and 
        proliferate have guided the development of new drugs to target 
        these essential proteins.
  --Networking Biodiversity Data.--The Global Biodiversity Information 
        Facility has created a worldwide network of biodiversity data, 
        including genetic and ecological data, on the earth's myriad 
        species. This information is useful in predicting the spread of 
        disease, identifying the sources of disease-resistant crop 
        genes, and tracking the spread of invasive species.

            Materials Science and Engineering
    Nature produces an array of materials with structural properties 
that the materials scientists create in labs cannot rival. Basic 
research on the structures of these materials is helping engineers 
develop new products with medical and industrial applications.
  --Developing Artificial Joints and Limbs.--Basic research on the 
        biology of the unique cartilaginous skeletons of sharks may 
        help researchers design biological materials that are suitable 
        for the development of artificial joints and limbs.
  --Medical Uses of Collagen.--Researchers have discovered ways to 
        modify collagens that may help block the formation of scar 
        tissue, control the growth of blood vessels in tissues for 
        implantation, and develop better infection-fighting bandages.
            Basic Physiological Processes
    Though it may not be evident at first glance, humans have a fair 
amount in common with species as diverse as fungi, frogs and bears. Due 
to similarities at the genetic, cellular and physiological levels, 
studying these and other organisms yields insight into human health and 
disease. NSF support for this basic scientific research paves the way 
for human medical advances.
  --Advancing Organ Transplant Technology.--Researchers discovered that 
        certain frogs produce an ``antifreeze'' that prevents cell 
        damage in frigid temperatures. As a result, these frogs can 
        survive for months in freezing weather even though their major 
        organs have come to a practical halt. Research in this area may 
        lead to technologies that permit longer preservation of human 
        organs and, therefore, improve transplantation success rates.
  --Using Baker's Yeast to Study HIV.--Yeast cells are structurally 
        similar to human cells and contain harmless retrovirus-like 
        elements that scientists use to model HIV. A mechanism 
        scientists discovered in these retrovirus-like elements may be 
        the missing link to retrovirus replication and may provide a 
        new target for the development of HIV drugs.
            Science Education and Training
    The National Science Foundation supports the nation's STEM 
infrastructure by contributing to science education. NSF programs are 
cultivating the next generation of scientists and engineers by 
developing research curricula, engaging K-12 and undergraduate students 
in science, providing support for graduate and postdoctoral 
researchers, and improving teacher training.
  --Math and Science Partnership (MSP) Program.--This program supports 
        educational partnerships between universities, local school 
        systems, businesses, and informal science organizations. Early 
        analyses of this initiative demonstrate that participating 
        students show improvements in math and science proficiency.
  --Science, Technology, Engineering, and Mathematics Talent Expansion 
        (STEP) Program.--The STEP program aims to increase the number 
        of students who obtain undergraduate degrees in STEM 
        disciplines through grant support to academic institutions. 
        With STEP funding, colleges and universities have developed 
        programs to engage women and minorities in science, provide 
        students with research opportunities, and introduce them to 
        scientific careers.
  --Integrated Graduate Education Research and Training (IGERT) 
        Program.--This initiative supports 125 doctoral degree programs 
        that foster interdisciplinary training in emerging scientific 
        domains. IGERT trainees have produced important scientific and 
        technological breakthroughs, which include a handheld imaging 
        device that can detect breast tumors and ``bio-transformable'' 
        materials doctors can implant in the body to deliver drugs or 
        open blood vessels.

Investing in the Future
    NSF's strategic plan for the future \8\ outlines the agency's 
approach to building our nation's research capacity. By combining 
support for basic research, education, and training with investments in 
emerging areas of scientific interest and need, NSF will ensure that 
the United States has the infrastructure and talent to maintain its 
role as a leader in science and technology.
---------------------------------------------------------------------------
    \8\ National Science Foundation (2006). Investing in America's 
Future: FY 2006-2011. http://www.nsf.gov/pubs/2006/nsf0648/NSF-06-
48.pdf. Accessed October 31, 2007.
---------------------------------------------------------------------------
            Fundamental and Transformational Research
    NSF will continue to support both transformational R&D and the 
basic science on which it depends. The agency is emphasizing 
interdisciplinary investigation in areas such as the neural bases of 
behavior, energy and climate research, and nanomaterial safety. Through 
investments in computer science and mathematics, NSF will advance 
research in all STEM disciplines and enhance our ability to make future 
discoveries.
            Systems Biology
    Support for NSF is critical to advancing new areas of biological 
discovery such as systems biology. NSF has led this emerging field, 
which unites biologists, chemists, engineers, mathematicians and 
physicists. Systems biologists are developing a better understanding of 
living systems and their interactions with the non-living world, which 
is essential to understanding the global impact of phenomena such as 
climate change.
            Education and Training
    By funding initiatives such as MSP, STEP and IGERT, NSF will 
continue to foster innovative approaches to science education. NSF's 
focus on integrating research and education; bridging gaps between K-
12, undergraduate science and technical education; and expanding 
partnerships between academia and industry will broaden interest and 
participation in science careers.

Recommendation
    If we are to continue to lead the world in innovation and prepare 
for future prosperity, funding for NSF is essential. As NSF Director 
Arden Bement, Jr. has said, ``America's sustained economic prosperity 
is based on technological innovation made possible, in large part, by 
fundamental science and engineering research. Innovation and technology 
are the engines of the American economy, and advances in science and 
engineering provide the fuel.'' \9\ Without a greater commitment to 
NSF, our country faces the grave possibility of losing its global 
dominance in science and technology.
---------------------------------------------------------------------------
    \9\ Dr. Arden L. Bement, Jr., Director National Science Foundation. 
(March 29, 2006) Testimony before the Senate Commerce, Science, and 
Transportation Subcommittee on Technology, Innovation, and 
Competitiveness. http://commerce.senate.gov/pdf/bement-032906.pdf. 
Accessed on September 17, 2007.
---------------------------------------------------------------------------
    In keeping with the America COMPETES Act of 2007, FASEB recommends 
an appropriation of $7.33 billion for the National Science Foundation 
in fiscal year 2009.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians

    On behalf of the tribal nations of the National Congress of 
American Indians (NCAI), the Nation's oldest and largest organization 
of tribal governments, we are pleased to present our recommendations on 
the Administration's fiscal year 2009 budget for Indian programs.
Recommendations
    Priority 1.--Reject consolidation of DOJ programs and restore 
funding to fiscal year 2002 levels. Top three priorities at DOJ: COPS 
$35 million, Tribal Courts $15 million, Tribal Prison Construction $35 
million.

                                              DEPARTMENT OF JUSTICE
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year--
                                                             ---------------------------------------------------
                                                                                                         2009
                                                                                                      (Restored
                                                                  2006         2007         2008      to fiscal
                                                                enacted      enacted      Omnibus     year 2002
                                                                                                       Levels)
----------------------------------------------------------------------------------------------------------------
Indian Assistance:
    Tribal Prison Construction..............................        9,000        9,000        8,630       35,000
    Indian Tribal Courts Program............................        8,000        8,000        8,630       15,000
    Alcohol and Substance Abuse.............................        5,000        5,000        5,180        5,000
Community Oriented Policing Services: Tribal Law Enforce-          14,808       15,000       15,040       35,000
 ment.......................................................
Title V--Incentive Grants: Tribal Youth.....................       10,000       10,000       14,100       14,100
----------------------------------------------------------------------------------------------------------------

    Priority 2.--Fully fund Violence Against Women Act programs; 
Research on violence against Native women; and the National Tribal Sex 
Offender and Order of Protection Registry.

                                                      VAWA
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year--
                                                             ---------------------------------------------------
                                                                                                         2009
                                                                                                      (Restored
                                                                  2006         2007         2008      to fiscal
                                                                enacted      enacted      Omnibus     year 2002
                                                                                                       Levels)
----------------------------------------------------------------------------------------------------------------
Research on violence against Native women...................  ...........  ...........          940        1,000
National Tribal Registry....................................  ...........  ...........          940        1,000
----------------------------------------------------------------------------------------------------------------

    Priority 3.--Department of Commerce, Office of Native American 
Business Development, $3 million.

Background
    The administration of justice in Indian Country is clearly in 
crisis.\1\ Because of the unique legal and political status of Indian 
tribes within the United States, the federal government has a 
responsibility to assist tribes in safeguarding Native people from 
crime. Despite this responsibility, law enforcement and criminal 
justice services in Indian Country are chronically underfunded. In 
October 1997, the Executive Committee for Indian Country Law 
Enforcement Improvements issued its final report to the Attorney 
General and the Secretary of the Interior. The report concluded that 
``there is a public safety crisis in Indian Country,'' and ``the single 
most glaring problem is a lack of adequate resources in Indian 
Country.'' \2\ In the wake of this report, funding for tribal justice 
systems was increased for several years. Ten years later, however, 
funding levels have been cut and law enforcement and justice systems in 
Indian Country are once again operating without the resources they 
need. As a result, tribal communities continue to suffer crisis levels 
of crime.
---------------------------------------------------------------------------
    \1\ Michael Riley, Lawless Lands, Denver Post (Nov. 11-14, 2007).
    \2\ Report of the Executive Committee for Indian Country Law 
Enforcement Improvements (1997), available at http://www.usdoj.gov/otj/
icredact.htm.
---------------------------------------------------------------------------
    The Bureau of Justice Statistics estimates that Native Americans 
``experience an estimated 1 violent crime for every 10 residents age 12 
or older.'' \3\ Native Americans are the victims of violent crime twice 
as often as African Americans, two and half times as often as whites, 
and four and a half times as often as Asian Americans.\4\ Two specific 
areas of crime in Indian Country deserve particular mention: domestic 
violence and drug-related crime.
---------------------------------------------------------------------------
    \3\ Steven W. Perry, Bureau of Justice Statistics, U.S. Dep't of 
Justice, ``American Indians and Crime: A BJS Statistical Profile,'' 
1992-2002, at iv (2004) [hereinafter American Indians and Crime 1992-
2002], available at http://www.ojp.usdoj.gov/bjs/pub/pdf/aic02.pdf.
    \4\ Id. at 5.
---------------------------------------------------------------------------
    Violence against Women.--Nearly every study on the rate of sexual 
assault in the last ten years that has included race or ethnicity as a 
factor has concluded that American Native American women suffer a rate 
of sexual violence at least 2 to 3 times higher than any other group of 
women in the United States.\5\ In 2000, the National Violence Against 
Women Survey concluded that more than 1 in 3 Native women will be raped 
in their lifetime.\6\ These statistics demonstrate that violence 
against Indian women has reached crisis proportions. Full funding for 
the programs authorized by the Violence Against Women Act will bring 
much needed resources to tribal governments.
---------------------------------------------------------------------------
    \5\ Amnesty International, Maze of Injustice: The Failure to 
Protect Indigenous Women From Sexual Violence in the United States 
(2007); Lawrence A. Greenfeld & and Steven K. Smith, Bureau of Justice 
Statistics, U.S. Dep't of Justice, ``American Indians and Crime,'' p. 
3, table 3 (Feb. 1999), available at http://www.ojp.usdoj.gov/bjs/
abstract/aic.htm.
    \6\ Patricia Tjaden & Nancy Thoennes, National Inst. of Justice, 
U.S. Dep't of Justice, ``Full Report of the Prevalence, Incidence, and 
Consequences of Violence Against Women,'' p. 23 (2000), available at 
http://www.ncjrs.gov/pdffiles1/nij/183781.pdf.
---------------------------------------------------------------------------
    Methamphetamines.--Nationally Native Americans have the highest 
rates of methamphetamine abuse.\7\ On some reservations the reported 
rate of meth abuse has been as high as 30 percent.\8\ The Bureau of 
Indian Affairs Office of Law Enforcement Services surveyed tribes with 
whom they work closely on law enforcement, 74 percent of tribes 
indicated that meth is the drug that poses the greatest threat to their 
community.\9\ Meth causes dramatic increases in violent crime, suicide, 
and child neglect. An informal survey of the seven FBI offices located 
primarily in Indian country estimated that approximately 40 percent to 
50 percent of violent crime cases investigated in Indian country 
involve meth.\10\ In addition, the National Indian Child Welfare 
Association estimates that 80-85 percent of the Indian families in 
child welfare systems have drug or alcohol abuse issues.\11\
---------------------------------------------------------------------------
    \7\ Office of Applied Studies, Substance Abuse and Mental Health 
Services Administration, ``Methamphetamine Use, Abuse, and Dependence: 
2002, 2003, and 2004. The National Survey on Drug Use and Health 
Report,'' (Sept. 16, 2005).
    \8\ Donna Vigil, Director, Division of Health Programs, White 
Mountain Apache Tribe, Oral testimony offered to the U.S. Senate 
Committee on Indian Affairs Hearing on Indian Youth Suicide (May 17, 
2006).
    \9\ The New Mexico Investigative Support Center, ``Bureau of Indian 
Affairs Office of Law Enforcement Services, National Methamphetamine 
Initiative Survey,'' p. 4 (2006) [hereinafter National Methamphetamine 
Initiative Survey], available at http://www.ncai.org/ncai/Meth/
BIA_MethSurvey.pdf.
    \10\ FBI Indian Country Unit Presentation, The Federal/Tribal Meth 
Summit sponsored by the Department of Justice, Attorney General's 
Advisory Committee, Native American Issues Subcommittee of United 
States Attorneys (Oct. 13, 2005).
    \11\ Connie Bear King, Testimony of the National Indian Child 
Welfare Association before the Senate Finance Committee regarding 
Keeping America's Promise: Health Care And Child Welfare For Native 
Americans (March 22, 2007), available at http://www.senate.gov/
finance/hearings/testimony/2007test/032207testcbk.pdf.
---------------------------------------------------------------------------
    In order to address the profound needs in many tribal communities, 
additional law enforcement and criminal justice resources are badly 
needed. The most telling indicators of the under-resourcing of public 
safety services in Indian Country are the chronic law enforcement 
staffing deficit, the over-burdened tribal courts, and the deplorable 
conditions of tribal detention facilities.
    Law Enforcement Staffing.--More than 200 tribal police departments, 
ranging from small departments with only two officers to those with 
more than 200 officers, help to maintain public safety in Indian 
Country. Current funding for tribal law enforcement and first 
responders lags well behind that for non-tribal law enforcement. The 
Bureau of Indian Affairs conducted an analysis of law enforcement 
staffing in Indian Country in 2006, and found that Indian Country has 
2,555 law enforcement officers, yet needs a total of 4,409, resulting 
in a gap of 1,854 officers, or a 42 percent unmet staffing need. 
According to the Bureau of Justice Statistics, cities like Baltimore, 
Detroit, and Washington have police-to-citizen ratios of 3.9 to 6.6 
officers per 1,000 residents. On the other hand, virtually no tribal 
police department has more than 2 officers per 1,000 residents. 
Increased funding for tribes under the COPS program will help to close 
this gap.
    Tribal Courts.--Tribal judicial systems, the primary and most 
appropriate institutions for maintaining order in tribal communities, 
frequently are overburdened due to lack of federal funding. Tribal 
courts are overwhelmed with hundreds of serious cases declined by U.S. 
attorneys as well as increasing meth and drug crimes. Tribal courts 
have been level funded for at least the last five years. Increased 
funding for tribal courts will ensure that tribal justice systems are 
equipped to handle their increasing case load.
    Detention Facilities.--Well functioning detention centers for 
tribal members both accused and convicted of crimes are of great 
importance to criminal justice in Indian Country. Detention centers in 
Indian Country often do not meet minimum acceptable standards for 
prisons: frequently basic maintenance does not occur, major sanitation 
concerns exist, safety and security are inadequate, resources for 
juveniles do not exist, funding for rehabilitation and re-entry 
programs is almost non-existent, health care services for inmates are 
lacking, and there is very little accountability for fixing the 
problems that plague tribal detention centers.\12\ As such, the safety 
of tribal members who are incarcerated is often jeopardized and the 
safety of tribal members in the community is put at risk because 
prisoners are offered few basic services and quickly released due to 
over-crowding. Increased funding for the construction of tribal 
detention facilities is imperative.
---------------------------------------------------------------------------
    \12\ U.S. Department of the Interior, Office of the Inspector 
General, ``Neither Safe Nor Secure: An Assessment of Indian country 
Detention Facilities,'' P. 1-6 (2004), available at http://
www.doioig.gov/upload/IndianCountryDetentionFinal%20Report.pdf.
---------------------------------------------------------------------------
    Juvenile Justice.--A critical piece of law enforcement is juvenile 
detention facilities and juvenile rehabilitation and treatment 
programs. Many tribes have no place to house juvenile offenders and are 
required to shoulder the cost of transportation and bed rental in order 
to send their youth to another jurisdiction--often far from their 
communities. In addition, tribes have no ongoing source of funds for 
non-detention programs for youth. Research on juvenile justice has 
shown that detention is the most expensive and often the least 
effective way to deal with young offenders; it should be the last 
resort. However, without the resources to support alternatives to 
detention, tribes have few options for addressing juvenile crime. 
Increased funding for the Tribal Youth Program will allow tribes to 
begin to address this need.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute

    On behalf of Marine Conservation Biology Institute (MCBI), I wish 
to thank the members of the Commerce, Justice, Science, and Related 
Agencies Appropriations Subcommittee for the opportunity to submit 
written testimony on fiscal year 2009 National Oceanic and Atmospheric 
Administration (NOAA) appropriations. MCBI supports funding increases 
to the President's fiscal year 2009 budget for several significant NOAA 
conservation programs and activities as follows: $2 million for 
Hawaiian monk seal recovery; $5.5 million for the Deep Sea Coral 
Research and Technology Program; $30 million for the National Marine 
Sanctuaries Program; and $2.9 million for the Marine Protected Areas 
Program.
    MCBI is a national, nonprofit environmental organization whose 
mission is to advance the science of marine conservation biology and 
secure protection for ocean ecosystems. Our headquarters are in 
Bellevue, Washington; we also have offices in Hawaii, California and 
Washington, DC. MCBI is a member of the Friends of NOAA Coalition and 
supports the Coalition's recommendation for funding NOAA at $4.5 
billion in fiscal year 2009. Our justifications of increases for 
critical conservation programs and activities are as follows:
    The Hawaiian monk seal is one of the most critically endangered 
marine mammals in the world, and is the only U.S. marine mammal species 
whose entire range lies within U.S. jurisdiction. Most Hawaiian monk 
seals reside in the Papahanaumokuakea Marine National Monument, but 
there is a small important sub-population in the Main Hawaiian Islands. 
Over the last 20 years, the Hawaiian monk seal population has declined 
to approximately 1,200 individuals.
    The Hawaiian monk seal is headed toward extinction unless the 
National Marine Fisheries Service (NMFS) and its partner agencies 
aggressively budget for, and implement the recommendations of the 2007 
recovery plan, which strives to protect and enhance the overall number 
of breeding female seals. This is not an unattainable goal, but it will 
require a variety of concurrent actions and interventions at a 
projected annual cost of approximately $7 million annually over the 
next 5 years. Although this cost may seem high, in comparison, the 
Steller seal lion whose current Western population is approximately 
45,000 has received $55 million in conservation support since 1998, 
while the more critically endangered Hawaiian monk seal has received 
approximately $21 million over the same time period.
    For fiscal year 2009, the President's budget includes an $855,000 
request from NOAA in the monk seal line item. Additionally, 
discretionary funding usually is allocated from other Protected 
Resources line items for seal management. In fiscal year 2008, for 
example, total funding for the seal base program is approximately $2.1 
million. Even at this funding level, research and protection 
interventions in the Northwestern Hawaiian Islands have been cut back 
by two-thirds for the summer field season. Furthermore, there are no 
funds requested in fiscal year 2009 for managing seals in the Main 
Hawaiian Islands where human interactions are a significant threat to 
recovery.
    To recover the monk seal, the recovery team is unanimous that the 
recovery plan must be implemented aggressively on a sustained basis. I 
urge the subcommittee to increase seal funding as follows:
  --For fiscal year 2009, MCBI recommends an additional $2 million 
        above the President's budget request be added to the monk seal 
        line item specifically for recovery plan implementation. $1 
        million of this amount is needed for the Pacific Island 
        Fisheries Science Center's ongoing field efforts to enhance pup 
        and juvenile survival principally in Papahanaumokuakea.
  --Another $1 million is needed for coordinating the seal recovery 
        program and crisis intervention actions in the Main Hawaiian 
        Islands. Of this $1 million, MCBI recommends $150,000 for a 
        Regional Office Coordinator, and $600,000 for six field 
        response team leaders who handle day to day interventions to 
        protect the 100 or so seals scattered around the Main Islands. 
        The remaining $250,000 would go for programs to educate the 
        public on appropriate behavior toward seals, prevent seal 
        disease, and capture and rehabilitate entangled, abandoned, 
        sick or wounded seals for eventual release back into the ocean.
    The Deep Sea Coral Research and Technology Program is an exciting 
addition to the budget this year. With the recent discovery of 
extensive deep sea coral ecosystems within U.S. waters--ecosystems 
every bit as diverse as many tropical coral reef systems--scientists 
are now challenged to understand these ecosystems to the fullest. 
Unfortunately, many deep sea coral areas are highly susceptible to 
destructive fishing practices, particularly bottom trawling. Under the 
newly reauthorized Magnuson-Stevens Conservation and Management Act of 
2006, NOAA was directed to create a new Deep Sea Coral Research and 
Technology Program under the direction of the National Marine Fisheries 
Service.
    MCBI is pleased to see start-up funding of $1.5 million for the 
program in the fiscal year 2009 NOAA request. However, we would like to 
mention that due to the expensive technology and research vessel time 
required to study and map deep sea corals, an additional $5.5 million 
could be used to fund known research needs:
  --An area of the southeastern U.S. shelf edge and slope spanning 
        approximately 23,000 square miles is of top priority for 
        mapping and scientific studies for the conservation of deep sea 
        corals. With adequate funding, extensive mapping of this 
        southeastern shelf can be accomplished with three 30-day 
        scientific cruises at approximately $2 million per cruise.
  --In addition, another priority for the Deep Sea Coral Research and 
        Technology Program is the development of observer by-catch 
        workshops. These workshops will train fisheries observers to 
        identify corals brought up by commercial fishers and assess the 
        continued impacts that fishing is having on seafloor corals. $1 
        million would fund at least three workshops in the regions 
        where they are most needed.
    The National Marine Sanctuaries Act authorizes the Secretary of 
Commerce to designate and manage areas of the marine environment for 
resource protection and multiple use. Currently, the National Marine 
Sanctuary Office is responsible for managing the nation's 13 marine 
sanctuaries and the Papahanaumokuakea Marine National Monument in the 
Northwestern Hawaiian Islands. Collectively, these units cover more 
area than the entire National Park System.
    The President has requested $49.8 million in fiscal year 2009 for 
the Sanctuary Program base. This includes $44.4 million for Operations, 
Research and Facilities (ORF) and $5.4 million for Procurement, 
Acquisition, and Construction. This is a decrease of $6.5 million from 
the $56.3 million enacted in fiscal year 2008.
    Given the pressing needs to better protect sanctuary resources, 
MCBI recommends a considerable increase in funding of $23 million in 
fiscal year 2009, to bring the overall program budget to $80 million. 
This would include $60 million for the ORF base and $20 million for 
acquisition and construction. With the proper funding, the Office of 
National Marine Sanctuaries can better execute its responsibilities as 
a leader in ocean management and conservation. Funding will support 
monitoring and enforcement of sanctuaries, ensure public access through 
visitor facilities and programs, and promote scientific research.
    The Marine Protected Areas Program is responsible for the 
implementation of Executive Order 13158, ``Marine Protected Areas'' 
(MPAs). MPAs are defined as discrete areas of the ocean that have some 
degree of formal protection under federal, state, tribal and local 
laws. MPAs are essential to maintain biological diversity, protect 
ocean habitats, and effectively manage fish populations. NOAA is tasked 
with undertaking a gap analysis to identify which additional types of 
marine areas should be protected.
    Given the ongoing degradation of our ocean resources, research to 
implement the executive order has moved excessively slowly, in part due 
to insufficient funding. After receiving a start-up budget of $3 
million in fiscal year 2001, the MPA Program budget reached almost $5 
million in fiscal year 2004, and then dropped rather abruptly to $1.5 
million in fiscal year 2007 and 2008. During this period of decline, 
the center lost 70 percent of its staff (i.e., a loss of 18 full and 
part-time employees).
    MCBI recommends $2.9 million be added to the fiscal year 2009 
budget for the MPA Science Center in fiscal year 2009. Without adequate 
funding, the MPA Center cannot properly carry out the goals of creating 
and expanding a national system of MPAs, rendering technical assistance 
to state-level MPA programs, and maintaining its MPA inventory.
    In conclusion, MCBI respectfully requests that the subcommittee 
augment funding for the marine ecosystem and species protection 
programs mentioned above. Thank you for the opportunity to share our 
views.
                                 ______
                                 
      Prepared Statement of the National Corn Growers Association

    The National Corn Growers Association (NCGA) appreciates the 
opportunity to share with the subcommittee our appropriations 
priorities for fiscal year 2009, and we respectfully request this 
statement be made part of the official hearing record.
    The National Corn Growers Association (NCGA) is a national 
organization founded in 1957 and represents more than 32,000 members in 
48 states, 47 affiliated state organizations and more than 300,000 corn 
farmers who contribute to state check-off programs for the purpose of 
creating new opportunities and markets for corn growers.
    NCGA's top priority in the fiscal year 2009 Science, State, Justice 
and Commerce appropriations bill is maintaining funding and focus of 
the $101.22 million for the National Science Foundation (NSF) Plant 
Genome Research Initiative (initiative). The initiative is supported by 
the Interagency Working Group on Plant Genomes under the auspices of 
the National Science and Technology Council within the Office of 
Science and Technology Policy. In 1997, NCGA spearheaded the effort on 
legislation that authorized major plant genome research, which resulted 
in the Plant Genome Research Initiative. Obtaining genome sequence 
information frequently leads to breakthroughs in the study of a 
particular organism. The goal of the initiative is to understand the 
structure and function of plant genes at all levels in species of 
economic importance and indeed, the initiative has led to an 
unprecedented increase in our understanding of the genomics and 
genetics of plants. The initiative also changed the way research is 
conducted in plant biology and helped to attract a new generation of 
scientists to the plant sciences field at U.S. colleges and 
universities.
    Bringing agriculturally important plant species into the genomic 
age is an important goal. Initial major accomplishments included the 
completion of the model laboratory plant Arabidopsis and rice genome 
sequences. Completion on those genomes demonstrated that genomic 
sequence was the most comprehensive way toward gene discovery--a first 
step toward identifying the role of each gene. Building upon lessons 
learned sequencing smaller plant genomes, sequencing the corn genome 
became feasible. Arabidopsis, a member of the brassicaceae, or mustard, 
family, has a genome of 125 million base pairs. Rice's genome has 430 
million base pairs. Sequencing the corn genome had been considered 
difficult because of its large size and complex genetic arrangement. 
The genome has 50,000 genes scattered among the haploid genome size of 
2.3 billion nucleotides--molecules that form DNA--that make up its 10 
chromosomes.
    In 2004, valuable corn research was made available through NCGA to 
research scientists working to understand the maize genome through the 
availability of sequencing data from Ceres, DuPont and Monsanto. This 
information, combined with the corn sequence data already in the public 
domain, significantly accelerated the identification of genes within 
the entire corn genome and was a precursor to the effect that the full 
corn sequence will have on the research community.
    In 2005, NSF, the United States Department of Agriculture (USDA) 
and the Department of Energy (DOE) awarded $29.5 million to sequence 
the corn genome. NSF selected a consortium of four research 
institutions to sequence the maize genome: The University of Arizona, 
Washington University in St. Louis, Iowa State University in Ames and 
Cold Spring Harbor Laboratory in Cold Spring Harbor, New York. The goal 
of the Maize Genome Sequencing Project is to unravel the DNA sequence 
of the maize plant and to identify the genes and begin to determine 
their position on the chromosomes--the tiny bundles of DNA that form 
the storage units of genetic information. The sequencing of corn pushed 
the state of the art of genetic research to new levels as its genome 
has complexities beyond any plant sequenced to date. The highly 
repetitive regions of DNA, formerly considered ``junk'' DNA, are 
extremely prevalent in corn, and have been shown to have a significant 
impact on how the genetic engine of life truly works. These issues have 
posed significant challenges to researchers interested in crop 
improvement, plant molecular biology, or genome evolution. Using a 
physical map that covers about 95 percent of the maize genome map, 
scientists generate a draft sequence to reveal the locations of 
regulatory elements within stretches of so-called non-coding ``junk'' 
DNA. Focus of the project does center on gene-containing regions and 
are sequenced in detail. This sequencing strategy enables the 
consortium to sequence the corn genome at a fraction of the cost that 
was necessary to decipher the human genome, which is only slightly 
larger than the corn genome.
    Today, genomic research technology and techniques are ready to 
complete a high quality corn genome sequence. The result will be the 
complete sequence and structural understanding of the entire corn 
genome, annotated functional sequences, and their locations on corn's 
genetic and physical map. This genome will be the most complex 
eukaryotic genome to be sequenced to date, including the human genome. 
The corn genome sequence will, in turn, help in the eventual completion 
of other major crop genome sequences, as itself benefited from 
knowledge gained through the prior completion of other genome 
sequences. Corn will also serve as a model system to aid in elucidating 
clues to improve the growth and development of other related grass 
crops, such as wheat, sorghum, millet and barley. Importantly, access 
to all of this information is shared through GenBank, Gramine, MazeGDB 
and other public repositories for genome-sequence data.
    With focused funding, we will be much closer to achieving the goal 
of this initiative--understanding the structure and function of all 
economically significant plant genes. The corn industry, including the 
academic research community, grain handlers, growers, and seed 
companies, supported the corn genome sequencing project and will 
continue to support a program that maintains its focus on discovering 
the functionality of genes in economically important plant species. A 
complete corn genome sequence and the application of its information 
will provide a wide range of benefits. Both the public and private 
sectors will be able to expedite their breeding programs and increase 
their knowledge of corn's important agronomic traits. Corn growers will 
be able to plant varieties of corn that are better suited to market and 
environmental needs, such as pest resistant traits, lower nitrogen 
needs, and higher yields--all increasing sustainability. Quality 
researchers will continue to be attracted to the field of plant 
genomics and genetics.
    Consumers will also benefit from more abundant and sustainable 
food, feed and fuel supplies. Corn is not only grown for food and feed, 
it is converted to a myriad of processed food products--literally 
thousands of products in the typical supermarket contain corn. 
Improvements aim at increasing yield and nutritional value and 
optimizing the properties crucial for grain products such as flour and 
pasta. The production of corn-based products with enhanced nutritional 
value that are safer and less allergenic will directly benefit 
consumers.
    Corn is also an important material for many industrial purposes and 
products including rubber, plastics, fuel and clothing. Corn is a model 
system for studying complex genomic structure, organization and 
function and its high quality genetic map will serve as the foundation 
for studies that may lead to improved biomass and bioenergy resources 
from corn and related plant species.
    The request for the Directorate for Biological Sciences (BIO) is 
$675.06 million, and increase of $63.04 million, or 10 percent, over 
the fiscal year 2008 request of $612.02 million. The Directorate for 
Biological Sciences supports research, infrastructure, and education in 
the biological sciences at U.S. colleges, universities, non-profit 
research institutions, and other research and education organizations.
    BIO includes a sub-activity request for Plant Genome Research (PGR) 
of $101.22 million, an amount that does not contemplate an increase 
from the fiscal year 2008 request. PGR sub-activity was initiated in 
fiscal year 1998 as a stand alone budget managed by Biological 
Infrastructure (DBI). In general, 36 percent of the PGR portfolio is 
available for new research grants. The remaining 64 percent is used 
primarily to fund continuing grants made in previous years. PGR 
supports research in agronomic significant species. However, the fiscal 
year 2009 budget proposes to roll PGR into the Integrated Organismal 
Systems (IOS) sub-activity, potentially causing the program to lose 
focus. Rolling the PGR budget into IOS will result in a significant 
reduction in funds available for new genetic projects in economically 
important species as the needs of non-agricultural plants would be 
served from the same budget. The fiscal year 2009 budget also proposes 
to roll Arabidopsis 2010 into the IOS sub-activity. It is important to 
note that model systems research such as this project, has been 
traditionally supported through NSF's core budget and not PGR or IOS. 
This change may result in a reduction of resources available for 
economically significant plants, such as continued work on new projects 
involving the rice genome and future new project stemming from corn 
genome work, during flat budget cycles. The Arabidopsis 2010 project 
and the NSF's independent Plant Genome Research Program (PGRP) 
complement each other and provide a broad base of support for the plant 
biology research community. Arabidopsis 2010 has traditionally received 
up to $25 million per year. It is critical that both activities remain 
separate and receive enough support to achieve their goals.
    Maintaining and improving upon the resources available for crop 
systems is now more important than ever, as agriculture tries to meet 
the demands of consumers worldwide by providing a safe and secure 
supply of resources for human and animal nutrition, fiber, bioenergy, 
and industrial feeds. Continued strong governmental support of basic 
agricultural research is essential to ensure that the innovation 
pipeline remains robust. NCGA requests that this subcommittee include 
in the fiscal year 2009 Science, State, Justice and Commerce 
appropriations bill language that secures the $101.22 million PGR 
budget to be applied exclusively to species of economic importance, 
keeping in line with the original intent of the program.
    Thank you for the support and assistance you have provided to corn 
growers over the years. Please feel free to contact Jon Doggett at 202-
628-7001 if you need any additional information.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Madam Chairman and Members of the Subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2009 funding for 
the National Fish and Wildlife Foundation (Foundation). We appreciate 
the Subcommittee's past support and respectfully request your approval 
of $4 million through the National Oceanic and Atmospheric 
Administration's (NOAA) fiscal year 2009 appropriation.
    This funding request is well within the authorized levels and would 
allow the Foundation to uphold our mission and expand our successful 
partnership with NOAA. Madam Chairman, I want to make one very 
important point: we are asking for your support of well-established 
conservation programs with national significance. The Foundation is an 
honest broker for the federal agencies and we have a remarkable track 
record of bringing private partners together to leverage federal funds 
and maximize conservation impacts.
    In 1999, Congress expanded the Foundation's mandate to specifically 
include NOAA's mission to restore and protect marine and coastal 
resources. During fiscal year 2001-2006, the Foundation received an 
average appropriation of $2 million annually to further the mission of 
NOAA's National Marine Fisheries Service and National Ocean Service 
through cooperative agreements and leveraging of private sector funds. 
In fiscal year 2007, the Foundation sustained cooperative agreements 
with NOAA to continue our partnership programs. We respectfully request 
that the Subcommittee restore NOAA appropriations for the Foundation in 
fiscal year 2009 to accelerate our work with NOAA to protect coastal 
habitats and marine species.
    This fiscal year 2009 request would allow the Foundation to expand 
key partnerships and highly successful grant programs in the areas of 
marine debris removal, coral reef conservation, marine species 
protection and coastal ecosystems such as Delaware Bay, Long Island 
Sound, Tampa Bay, San Francisco Bay, Puget Sound and Chesapeake Bay. 
The Foundation continues to excel in grant-making while providing 
thought leadership, accountability and sustainable conservation 
outcomes. Our unique ability to organize federal agencies and private 
partners to work together to achieve mutual conservation goals through 
on-the-ground and in-the-water grant programs is notable and there is 
significant potential to advance these efforts in fiscal year 2009 and 
beyond.
    In addition to NOAA, the Foundation works closely with the U.S. 
Fish and Wildlife Service (FWS) and other Department of the Interior 
agencies, the Environmental Protection Agency (EPA), and USDA's Natural 
Resources Conservation Service (NRCS), among others. On average, every 
federal dollar is leveraged with three or more matching dollars from 
the non-federal sector. Therefore, a NOAA appropriation of $4 million 
in fiscal year 2009 would turn into a minimum of $8 million, according 
to the Foundation's Congressional Charter which requires a minimum of a 
1:1 match, and have the potential to turn into $16 million or more for 
on-the-ground conservation. Funds appropriated by this Subcommittee are 
fully dedicated to project grants and do not cover any overhead 
expenses of the Foundation.
    This Subcommittee's funding will also attract additional funding 
for conservation through corporate sponsorship, legal settlements, and 
direct gifts. Through our targeted grants, the Foundation strategically 
invests federal funds entrusted to us to achieve measurable success in 
``moving the needle'' on collaborative conservation objectives over the 
next five to ten-year period. To date, the Foundation has leveraged 
more than $53 million in NOAA funds to invest more than $157 million 
for on-the-ground and in-the-water conservation. Over 1,200 project 
grants have been awarded, focusing on the conservation needs of at-risk 
species, habitat enhancement, coastal restoration, marine debris clean-
up, environmental education, and community-based stewardship.
Conserving Fish, Wildlife, Plants and Habitats
    fiscal year 2009 appropriations through NOAA will be focused on 
mutually agreed upon projects according to our Keystone Initiatives and 
the objectives of the Foundation's Special Grant Programs, which are 
specific to a geographic area, group of species, or conservation 
concern. The Keystone Initiatives represent the new core portfolio of 
the Foundation's grant making with clearly defined long-term goals, 
well-articulated strategies, and defined budgets to reach desired 
outcomes. In 2007 the Foundation continued implementing a new strategic 
plan and developing targeted Keystone Initiatives, with the goal of 
achieving sustainable and measurable conservation impacts.
    Four Keystone Initiatives were launched by the Foundation in 2007: 
(1) Birds, (2) Wildlife and Habitats, (3) Fish, and (4) Marine and 
Coastal Conservation. Each grant approved under a Keystone Initiative 
will be designed to provide a measurable outcome that brings us one 
step closer to the final long-term conservation goal of the Initiative. 
Achieving success through our Keystone Initiatives will also help to 
fulfill the objectives of the National Fish Habitat Action Plan and the 
National Oceanographic Partnership Program, among others.
    With increased support through NOAA appropriations, the Foundation 
can accelerate our collaborative efforts to achieve long-term 
conservation impacts for fish and wildlife through our Keystone 
Initiatives. Increased funding in fiscal year 2009 will also help to 
strengthen the Foundation's Special Grant Programs, a few of which are 
highlighted below:
  --The Coral Reef Conservation Fund was initiated in 2000 with NOAA to 
        build public-private partnerships and leverage resources for 
        effective stewardship of marine and coastal resources, and the 
        communities that depend on them. FWS and NRCS have contributed 
        to the Fund which supports grants to reduce and prevent 
        degradation of coral reefs and associated habitats. Recently, 
        the Harold K.L. Castle Foundation provided additional support 
        for our efforts in Hawai'i and Tesoro Corporation is providing 
        additional support in 2008 for an education and outreach 
        campaign. The Foundation has provided funding for nearly 200 
        projects with $7.3 million in federal and non-federal funds, 
        leveraged with $11.6 million in non-federal matching funds, for 
        a total of $18.9 million for coral reef conservation in 38 
        countries, including 4 U.S. states and 8 U.S. territories.
  --The International Sea Turtle Conservation Fund supports projects 
        for the six species of sea turtles found in the Western 
        Hemisphere, all of which are considered endangered or 
        threatened. Since 1998, grants have been awarded for more than 
        100 projects in over 25 countries, representing a total of $6.2 
        million in funding from both federal and non-federal sources. 
        Projects focus on key nesting and foraging areas for species 
        survival as well as local capacity-building and outreach with 
        fisherman to increase awareness and minimize damage caused by 
        certain fishing techniques to marine turtle populations. This 
        collaborative effort with NOAA and FWS is the leading source of 
        funding for sea turtles in the Western Hemisphere.
  --The Marine Debris Prevention and Removal Program was established in 
        2006 through a partnership with NOAA's Marine Debris Program. 
        The program focuses on improving best management practices of 
        ports and marinas, reducing derelict fishing gear, and research 
        to better understand the impacts of marine debris on marine 
        mammals, sensitive habitats, and tourist and fishing 
        industries. Since 2006, the Foundation has supported 28 
        projects with over $1.2 million in federal funds, leveraged 
        with over $1.5 million in non-federal matching funds for 
        projects in 13 States and 4 U.S. Territories. In 2007, the 
        Foundation formed partnerships with industry to prevent debris 
        introduction to the marine environment, including the new Reel 
        in and Recycle Program in partnership with Pure Fishing and 
        Berkeley Recycling, and the Nets to Energy in partnership with 
        Covanta, aimed at recycling retiring or derelict fishing gear 
        and convert it into energy.
  --The Pinellas County Environmental Fund (PCEF) is a unique 
        partnership formed in 2000 between the Pinellas County Board of 
        County Commissioners, NOAA, and the Foundation to actively 
        pursue the protection, restoration, and enhancement of fish and 
        wildlife habitat around Tampa Bay. PCEF helps to implement the 
        on-the-ground habitat and species conservation recommendations 
        developed through the Tampa Bay Estuary Program and 
        incorporated into the Tampa Bay Comprehensive Conservation and 
        Management Plan. Since inception, the PCEF has leveraged $9.6 
        million with an additional $14.3 million in matching funds to 
        support 123 projects for a total conservation investment of 
        nearly $24 million in the Tampa Bay area.
    Other Special Grant Programs supported by NOAA, including the 
Delaware Estuary Watershed Grants Program, Long Island Sound Futures 
Fund and Chesapeake Bay Stewardship Fund, continued positive results in 
2007 with grantee requests far exceeding available funds. As mentioned, 
the Foundation is successfully building bridges between the government 
and private sector to benefit NOAA's mission. Fiscal year 2009 
appropriations through NOAA allow the Foundation to continue our 
investment in common-sense, innovative, cooperative approaches that 
directly benefit coral reefs and other marine habitats as well as 
targeted species, such as Loggerhead turtles, Hawskbill turtles, and 
Pacific coho salmon.

A Tradition of Successful and Accountable Performance
    Since 1984, the Foundation has awarded nearly 9,500 grants to over 
3,000 organizations in the United States and abroad and leveraged--with 
our partners--more than $400 million in federal funds into over $1.3 
billion for conservation. NFWF is recognized by Charity Navigator with 
a 4-star rating for efficiency and effectiveness. The Foundation has 
taken important strides to improve our grant review and contracting 
process to ensure we maximize efficiency while maintaining strict 
financial and evaluation-based requirements. Interactive tools through 
our website have improved communication with our stakeholders and 
helped to streamline our grant-making process. We expect that as of 
spring 2008, the Foundation will be operating under a paperless 
application system.
    Grant-making through our Keystone Initiatives and Special Grant 
Programs involves a thorough internal and external review process. Peer 
reviews involve federal and state agencies, affected industry, non-
profit organizations, and academics. Grants are also reviewed by the 
Foundation's Keystone Initiative staff, as well as evaluation staff, 
before being recommended to the Board of Directors for approval. In 
addition, according to our Congressional Charter, the Foundation 
provides a 30-day notification to the Members of Congress for the 
congressional district and state in which a grant will be funded, prior 
to making a funding decision.
    Once again, Madam Chairman, we greatly appreciate your continued 
support and hope the Subcommittee will approve funding for the 
Foundation in fiscal year 2009.
                                 ______
                                 
    Prepared Statement of the Optoelectronics Industry Development 
                              Association

    On behalf of the 75 member organizations of the Optoelectronics 
Industry Development Association (OIDA) and our approximately 200 
affiliates, I urge you to fund the National Institute of Standards and 
Technology (NIST) in fiscal year 2009 at the levels authorized in the 
America COMPETES Act signed into law in 2007: $541.9 million for 
Scientific and Technical Research and Services, $86.4 million for 
Construction of Research Facilities, $131.5 million for the new 
Technology Innovation Program, and $122 million for the Manufacturing 
Extension Partnerships, or a total of $881.8 million.
    The high technology community depends on sound metrology to support 
its products. The NIST Optoelectronics Division helped develop the 
metrology standards that enabled American companies to establish a very 
strong market share in optical fiber, which provides the backbone of 
the Internet. But the need for metrology assistance continues and our 
members therefore strongly support NIST's proposed fiscal year 2009 
initiative called ``Going at Light Speed: Optical Communications and 
Computing.'' In a different area, the NIST Optical Technology Division 
provides the standards for the emerging solid state lighting industry, 
in which our members are developing new technology that will save 
energy, help our environment, and enable new lighting functions. These 
are just a few examples from our industry.
    We strongly object to the absence of an Administration request for 
funding for the new NIST Technology Innovation Program (TIP). Like its 
predecessor, the Advanced Technology Program (ATP), TIP will help our 
members, many of which are small and medium-sized companies, advance 
their technologies through the most difficult and risky stages of 
development. We believe that the legislation creating TIP has resolved 
all significant concerns with ATP, and TIP will prove to be an 
extraordinarily successful program.
    We appreciate your consideration of the needs of our industry. The 
Optoelectronics Industry Development Association is a Washington, DC-
based organization that is the focal point for vision, transformation, 
and growth of the optoelectronics industry. OIDA advances the 
competitiveness of its members by focusing on the business of 
technology, not just technology itself.
                                 ______
                                 
    Prepared Statement of the International Fund for Animal Welfare

    The International Fund for Animal Welfare and our more than 2 
million members worldwide appreciate this opportunity to submit 
testimony in support of recovery efforts for the endangered North 
Atlantic right whale. On behalf of the many scientists, academics, 
aquariums, and conservationists who are deeply worried about the plight 
of the North Atlantic right whale, we are writing to request the 
Subcommittee's support for restoring funding for North Atlantic right 
whale conservation and research programs administered by the National 
Oceanic and Atmospheric Administration (NOAA)/National Marine Fisheries 
Service (NMFS). Adequate funding is essential to ensure that this 
endangered marine mammal is not lost forever. Specifically, we ask 
Congress to restore funding in NOAA's fiscal year 2009 budget to the 
fiscal year 2005 level of $12.5 million. This funding is vital for the 
long-term recovery of this species. At least half of the requested 
amount should be directed to funding disentanglement efforts and a 
competitive grants program that focuses on (1) innovative entanglement 
mitigation and monitoring, (2) reproduction and health research (health 
assessment, reproduction studies and monitoring, and non-invasive 
medical assessments), and (3) monitoring of anthropogenic impacts 
(necropsy, carcass recovery, field monitoring, scar analysis).
    The North Atlantic right whale is one of the worlds' most 
endangered marine mammals, with only about 300-400 whales remaining 
today. While the North Atlantic right whale is protected under both the 
Endangered Species Act and the Marine Mammal Protection Act, a lack of 
adequate resources over the years has severely hampered NMFS' ability 
to effectively protect and recover this endangered species.
    The survival of each individual is vitally important to ensure the 
survival of this species. Since 1986, the majority of confirmed North 
Atlantic right whale deaths, have resulted from human-induced causes 
including ship strikes and entanglements in fishing gear. Since January 
2004, twenty right whale deaths have been confirmed. These data are a 
minimum estimate of the actual number of deaths as they do not account 
for animals that may have died at sea and gone undetected. At least 
nine of these mortalities were linked to ship strikes. Seven of them 
were reproductively mature females and three were pregnant with near-
term fetuses at the time of death, suggesting that females are 
particularly vulnerable to ship strikes. These data alone represent a 
loss of more than five percent of the total breeding population adding 
yet more pressure to the successful recovery of this species.
    Little is known about the year-round distribution of right whales. 
Existing federally-funded surveys operate seasonally, and only in 
specific areas where human impacts are thought to be greatest. This 
results in many areas with little or no survey effort, which has led to 
a lack of understanding of other areas that may be important to right 
whale survival, which puts them at an avoidable and unnecessary risk.
    Restoring funding to the fiscal year 2005 level of $12.5 million 
would provide much-needed funding for: surveys (both visual and 
acoustic); mandatory ship reporting systems; ship strike strategy 
implementation (including enforcement of speed restrictions and routing 
measures); mortality investigations; disentanglement efforts; gear 
research; state and federal cooperative research grants; health 
assessments; population monitoring; implementation and refinement of 
take reduction plans; and other high-priority projects identified in 
the recovery plan. This will allow NMFS to improve protections for 
right whales by reducing the threat of entanglements in fishing gear 
and preventing fatal ship strikes.
    The urgency of this situation is highlighted by the announcement in 
December, 2006, of the extinction of the Yangtze, or baiji, river 
dolphin in China. In the 1980's, scientists estimated there were 400 
baiji alive, only a remnant of the estimated 5,000 that once existed, 
but a number sufficient to allow recovery for the species, if 
adequately protected. Sadly, over-fishing, vessel traffic, noise 
pollution, habitat degradation and marine debris continued to exert 
ever-increasing pressure on the remaining population. The result? In 
less than 30 years, they are now officially extinct and join the 
growing list of species that humans have helped drive to extinction.
    The similarities between the history and fate of the baiji and the 
North Atlantic right whale are alarming. Human generated threats such 
as vessel strikes, entanglements in fishing gear, pollution, and 
habitat degradation have replaced whaling as a threat. We are seeing 
the increasing industrialization of our oceans, and whales will be the 
first to pay the price of our neglect.
    North Atlantic right whales remain at risk of extinction from 
human-induced vessel strikes and entanglements in fishing gear, and 
from low reproductive rates. NMFS has made laudable efforts to reduce 
mortalities from shipping and fishing, but these efforts have been 
hamstrung by inadequate funding and information. We remain hopeful that 
the Administration will soon issue long-overdue protections from ship 
strikes and provide the funding needed for implementation and 
monitoring to ensure full compliance with these protective measures.
    In collaboration with scientists, academics, aquariums, 
conservationists, and as identified in NMFS' own recovery plan, we have 
identified the following funding priorities for fiscal year 2009 to 
further recovery efforts of North Atlantic right whales. The requested 
funding will ensure the survival of right whales by providing better 
information to managers, developing solutions for conflicts with 
industry, supporting management measures that integrate industry and 
right whale needs, and monitoring progress toward these goals.
Innovative entanglement mitigation and monitoring
    Gear research is urgently needed to develop fishing methods and 
gear types that will not harm right whales while also allowing 
fishermen to make a living. A new rule mandating sinking groundline 
will be in effect in October 2008 and is likely to reduce right whale 
entanglements. No clear options or agreement on vertical lines exist, 
and work on this problem is urgently needed. Vertical lines may account 
for up to 70 percent of entanglements.

Reproduction and health research (health assessment, reproduction 
        studies and monitoring, and non-invasive medical assessments)
    Right whale reproduction is still suffering from unknown effects. 
The potential causes of impaired reproduction include habitat problems 
(including noise and pollution), incidental effects of entanglements 
(over 70 percent of right whales have been entangled), disease 
(possible human sources), and red tides. Identifying those causes could 
lead to prevention or solutions that would enhance population recovery. 
Health assessments are a critical tool for evaluating the aftermath of 
ship strikes and entanglements, and allow predictions of survival. In 
addition, health assessments are essential for evaluating trends in the 
population related to reproduction and survival.

Monitoring of anthropogenic impacts (necropsy, carcass recovery, field 
        monitoring, scar analysis)
    Support for necropsy work on stranded right whales is needed to 
determine the cause of death. This is a fundamental tool for evaluating 
whether management actions have been effective. Monitoring of 
anthropogenic impacts on right whales through photo-documentation and 
scarring analysis is critical to understanding whether management 
actions regarding fishing and shipping have been effective. Appropriate 
photographic data collection, scarring analysis, and entanglement 
documentation are all required to understand the status of the right 
whale population.

Surveys (both visual and acoustic, habitat studies)
    Effective management of human activities to reduce impacts to right 
whales requires a detailed understanding of migratory paths and 
behavioral patterns. Shipboard and aerial surveys are the single most 
important source of information to determine seasonal distribution of 
right whales. Shipboard surveys also collect vital population data, 
including biopsy samples for genetic studies and fecal samples for 
reproduction and health research. Passive acoustic surveys provide a 
simple tool for evaluating the presence of whales when poor weather or 
nighttime conditions prevent visual surveys. These combined datasets 
are essential for managers attempting to manage anthropogenic risk to 
right whales.
    While surveys directly address our need to understand right whale 
distribution, habitat studies address questions of why right whales 
visit particular habitats. Right whales may experience different risks 
depending upon the habitat use of an area (i.e., surface feeding in the 
great South Channel puts whales at risk from ships, and bottom feeding 
may put whales at risk from certain fishing gear). Short-term tagging 
studies, combined with prey and oceanographic sampling, can provide 
valuable information to managers, and long term non-invasive tagging 
techniques (under development), can do this across several habitats.

Disentanglement efforts
    Until appropriate ``whale-safe'' gear and or methods have been 
developed and implemented, disentanglement efforts are our last line of 
defense against right whale deaths from fishing gear. Right whales are 
commonly hard and always dangerous to disentangle. Pharmacological 
restraint may enhance success, and these and other available tools 
should be deployed as appropriate.

Catalog and population monitoring, genetic studies
    The foundation of all right whale research and conservation efforts 
is the individual identification of right whales, which allows tracking 
of births, deaths, movements, and anthropogenic effects by age, sex, 
and genetic characteristics. Catalog data identifies segments of the 
population that are at risk from human activities, and is the only way 
to monitor recovery.
    The catalog is critical for tracking population size and trends, 
developing population models for management, and targeting particular 
management actions. Genetic analyses provide information that cannot be 
obtained by any other means including factors affecting the 
reproductive rate, and genetic identification of live and dead right 
whales.

Implementation, refinement, and enforcement of take reduction plans
    NMFS has the ultimate responsibility for reducing take of North 
Atlantic right whales, and needs adequate support and the best 
available data to ensure this process is effective and informed by good 
science.
    In conclusion, we respectfully request that the Subcommittee on 
Commerce, Justice, Science, and Related Agencies appropriate no less 
than $12.5 million in the fiscal year 2009 for recovery of the 
endangered North Atlantic right whale. Funding of the previously 
mentioned programs is essential to not only protect the North Atlantic 
right whale from further decline, but to help recover their population 
to a level that will ensure these charismatic creatures, which play an 
integral role in the oceans' ecosystems, will survive for the benefit 
and enjoyment of future generations.
                                 ______
                                 
                      Prepared Statement of Oceana

    On behalf of the more than 250,000 supporters of Oceana, an 
international, non-profit conservation organization devoted to 
protecting ocean waters and wildlife, I submit the following testimony 
on the fiscal year 2009 budget for the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce. I request that 
this testimony be submitted for the official record.
    The National Oceanic and Atmospheric Administration's (NOAA) 
mission is ``to understand and predict changes in Earth's environment 
and conserve and manage coastal and marine resources to meet our 
Nation's economic, social, and environmental needs.'' More 
specifically, NOAA manages our fisheries, researches climate change, 
and predicts our weather, among other critical duties. Funding for this 
agency has been well below the needed level to fully address all of its 
responsibilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the fiscal year 2009 budget, the Administration requests $4.11 
billion for NOAA. Oceana is pleased that the Administration request is 
above the fiscal year 2008 enacted amount of $3.91 billion. The 
majority of the increase is directed to the Procurement, Acquisition 
and Construction (PAC) account for needed improvements to the NOAA 
satellite program. While this increase is necessary to keep our 
satellites operating, more resources must also flow into the 
Operations, Research and Facilities (ORF) account, which funds the 
programmatic work of the agency. The ORF account has remained stagnant 
since fiscal year 2005, which when taking inflation into account, has 
resulted in less money for ocean conservation and management.
    Oceana urges the Subcommittee to provide $4.5 billion for NOAA in 
the fiscal year 2009 Commerce, Justice, Science appropriations bill. 
NOAA has a critical role in promoting sustainable coastal communities 
and a healthy economy. We recommend that any increase above the 
President's request be directed into the ORF account to provide 
resources for fishery management, coral reef protection, undersea 
research, ocean wildlife conservation, coastal management, and ocean 
education.
    More specifically, we urge the subcommittee to fund the following 
critical ocean research and conservation programs at these recommended 
levels: $56 million for fishery observer programs; $40.5 million for 
stock assessments; $57.1 for enforcement activities; $15 million for 
deep water coral conservation; $26.4 million for sea turtle research 
and management; $82 for marine mammal research and management; and $10 
million for ocean acidification research.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Marine Fisheries Service (NMFS)
    The Administration's fiscal year 2009 request for the National 
Marine Fisheries Service is less than the previous year's enacted level 
and is below the fiscal year 2008 Administration's request. This 
decrease is disappointing; especially considering the President's 
signing into law the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act (MSRA) in January 2007. This 
comprehensive law includes critical changes to our fishery management 
system and requires additional funding to implement these changes. The 
Administration's request includes approximately $32 million for new 
programs to implement the requirements under the MSRA, but more money 
is needed to provide data for responsible fishery management. Stock 
assessments and fishery observers are just a few examples of such 
programs. In addition, sufficient enforcement of fishery management 
laws is needed.

            Fishery Observer Programs--$56 million
    Fishery observers are independent scientists who gather information 
about fishing practices by accompanying fisherman at sea. Observers 
collect data on the composition of what is caught and brought on board 
during fishing operations. This is in contrast to landings data which 
only records what is brought to port--failing to account for bycatch--
often dead or injured fish, marine mammals, sea turtles, sea birds and 
other ocean wildlife that is discarded. According to the NMFS, 
observers are currently deployed in only 42 of the nation's 300 
fisheries. Of the fisheries that have observers, coverage levels in 
many of these fisheries are well below the amount needed for precise 
and accurate estimates of bycatch and total catch of fish and other 
marine species.

            Stock Assessments--$40.5 million
    Oceana supports the President's request for $40.5 million for the 
fisheries stock assessment program. Almost two-thirds of the nation's 
fish populations lack basic information to determine whether or not 
those fish populations are depleted or ``overfished.'' In fact, there 
are 65 ``major'' stocks or stock complexes classified as ``unknown'' 
with respect to their population status. The Magnuson-Stevens Fishery 
Conservation and Management Act requires that the fisheries of the 
United States end overfishing, therefore accurate data is needed to 
provide regional fishery managers with the information needed to make 
management decisions.

            Enforcement--$57.1 million
    Successful fishery management relies upon fair enforcement of laws, 
regulations, and other requirements of fishery management plans. 
Without resources for enforcement personnel at sea and at ports, 
compliance with fisheries laws will be inconsistent. The enforcement 
program also provides resources for cooperative agreements with state 
enforcement authorities.

            Deep Sea Coral Conservation--$15 million
    The Magnuson-Stevens Fishery Conservation and Management Act 
provides the regional Fishery Management Councils with the authority to 
protect deep sea coral habitat. These long-lived, slow growing corals 
can be destroyed in a matter of minutes by certain types of destructive 
fishing gear. These coral areas often serve as nurseries for 
commercially important species. Recognizing the importance of corals, 
the President's budget includes $1.5 million for a deep sea coral 
research program to identify and map sensitive habitat areas. Oceana 
supports this recommended increase for research and also would like 
additional resources be used for additional fishery observers, 
enforcement of protected areas, and the minimization of gear impacts on 
deep sea coral habitat.

            Sea Turtle Research and Conservation--$26.4 million
    Oceana requests that the Subcommittee reject the Administration's 
funding cut to the marine turtle program and instead expand upon 
existing funding. For over 25 years, all sea turtles that swim in U.S. 
waters are listed as endangered or threatened under the Endangered 
Species Act, yet populations of sea turtles continue to decline. 
Commercial fisheries alone are authorized to kill 10,000 and injure an 
additional 334,000 turtles each year. Beyond commercial fishing, the 
federal government has not analyzed the cumulative impact of all 
permitted activities on sea turtle populations. There is not enough 
research on the health of sea turtle populations to ensure that these 
authorized takes are not jeopardizing the existence of the species. 
Additional funding will enhance research, recovery and conservation 
activities for imperiled sea turtles species.

            Marine Mammal Research and Conservation--$82 million
    Oceana requests that funding for the marine mammal program be 
restored to the fiscal year 2005 level of $82 million. These funds will 
help ensure that National Marine Fisheries Serve adopts measures to 
recover depleted and strategic marine mammal species, such as Northern 
right whales, bottlenose dolphins, and pilot whales. Activities that 
may be supported by these funds include marine mammal research, bycatch 
reduction strategies recovery plan implementation, and marine mammal 
mortality event response. The President's request of $41.23 million is 
only half of the enacted fiscal year 2005 level.

            Ocean Acidification--$10 million
    In addition to climate change, humanity's emissions of carbon 
dioxide are altering the acidity of the world's oceans. As emissions 
increase, more carbon dioxide is absorbed by the oceans, thus altering 
the water chemistry. Researchers agree that ocean acidification will 
pose a significant threat to marine ecosystems over the next century, 
with significant potential impacts to fisheries and coral reefs. More 
research is needed to better understand the ecological implications of 
these predicted impacts to the entire marine ecosystem and the degree 
to which marine organisms and ecosystems will be able to adapt to 
increased acidity. Oceana recommends $10 million for an ocean 
acidification research program.

Climate Change
    NOAA's role in climate change includes monitoring, researching, and 
predicting the impacts of climate change on humans and the environment. 
In the oceans alone, ocean acidification, sea level rise, and increased 
intensity of storms are just a few of the areas under NOAA's purview, 
not to mention, coastal infrastructure impacts, changes to inland 
weather patterns, and increased satellite needs to monitor global 
fluctuations. NOAA's research capabilities are becoming increasingly 
important in our changing world. New money is needed now to address 
climate change. This increased research should not come out of the 
existing NOAA budget and at the cost of current programs.
    Overall, substantial increases are needed for the National Oceanic 
and Atmospheric Administration. Increases to the PAC account cannot 
come at a cost to the ORF funding. Both accounts need substantial 
increases in the fiscal year 2009 budget and in years to come if NOAA 
intends to manage our fisheries, conserve endangered species, protect 
ocean and coastal habitat, monitor global warming and its impacts, 
predict our weather, and perform other critical services to our nation.
    Thank you for your consideration of these recommendations.
    Oceana received no funding from a federal grant (or subgrant 
thereof) or contract (or subcontract thereof) in the current fiscal 
year or either of the two previous fiscal years.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences (AIBS) encourages the 
Committee to provide the National Science Foundation (NSF) with $7.326 
billion for fiscal year 2009, the funding level authorized by the 
America COMPETES Act.
    AIBS is a nonprofit scientific association dedicated to advancing 
biological research and education for the welfare of society. Founded 
in 1947 as a part of the National Academy of Sciences, AIBS became an 
independent, member-governed organization in the 1950s. AIBS is 
sustained by a robust membership of some 5,000 biologists and nearly 
200 professional societies and scientific organizations; the combined 
individual membership of the latter exceeds 250,000. AIBS advances its 
mission through participating in coalition activities in research, 
education, and public policy; publishing the peer-reviewed journal 
BioScience and the education Web site ActionBioscience.org; providing 
scientific peer review and advisory services to government agencies and 
other clients; convening meetings; and managing scientific programs.
    The fiscal year 2008 omnibus appropriations provided only a 2.5 
percent increase over fiscal year 2007 funding for the NSF. This 
appropriation disappointed many in the science community who had hoped 
for the 10 or 11 percent increase pledged by Congress through House and 
Senate Appropriations Committee marks, respectively.
    Although the President's fiscal year 2009 budget request recognizes 
the need to increase funding for the NSF, the request would only 
provide a modest two-year adjustment for NSF programs such as the 
Biological Sciences directorate (BIO). Thus, we encourage the Committee 
to work to provide NSF funding at the level authorized in the America 
COMPETES Act (Public Law 110-69), enabling a modest increase for BIO 
and the Social, Behavioral and Economics directorate (SBE).
    Invigorating our innovation enterprise, improving science 
education, strengthening research infrastructure, and addressing 
energy, security, and environmental problems are bipartisan national 
priorities. NSF is the primary federal agency that funds fundamental 
research through competitively awarded, peer-reviewed, extramural grant 
programs. These research grants drive discovery and have enabled the 
United States to remain a global economic and scientific leader. 
Moreover, NSF-sponsored biological sciences research is transformative 
and leads to the development of sustainable and cost-effective 
solutions for society's greatest challenges, including energy 
independence, climate change, and security.
    NSF's BIO directorate is vital to our nation's continued leadership 
in the biological sciences, the fields of science dedicated to 
understanding how organisms and ecological systems function. Research 
disciplines heavily dependent upon the directorate include botany, 
ecology, microbiology, zoology, basic molecular and cellular biology, 
and systematics and taxonomy. Equally important, NSF provides essential 
support for our nation's biological research infrastructure, such as 
field stations and natural science collections (e.g. university-based 
natural history museums), and education and training programs for 
undergraduate, graduate and post-doctoral students.
    According to government data, BIO provides 67 percent of federal 
grant support for fundamental biological research conducted at our 
nation's universities and other nonprofit research centers. 
Transformative research in the biological sciences has advanced our 
understanding of complex living systems and is leading the way forward 
in addressing major challenges--protecting the environment, conserving 
biodiversity, and developing new bio-inspired technology. In fact, 
during a hearing before the House CJS Subcommittee on February 27, 
2008, NSF Director Arden Bement referred to this century as ``the bio 
century'' and went on to explain that bioscience is ``where the 
fundamental work is being done.'' Indeed, biological research from 
molecules and cells to ecosystems is the backbone supporting major 
cross-foundation initiatives, including Adaptive Systems Technology and 
Dynamics of Water Processes in the Environment (WATER). To continue to 
support activities across the Foundation, it is critical that BIO 
receives appropriate funding to advance its core research programs.
    The President's fiscal year 2009 budget request would provide 
$5.594 billion to support disciplinary research programs within the 
Research and Related Activities (R&RA) account. This funding level 
would provide an average 16.0 percent increase over fiscal year 2008 
estimated appropriations for the R&RA account; however, within R&RA, 
proposed budget increases are spread unevenly among the directorates. 
For example, the Mathematical and Physical Sciences directorate would 
increase $235.36 million (20.2 percent) and the Engineering directorate 
would increase $122.46 million (19.2 percent) over their respective 
fiscal year 2008 estimated appropriations while BIO is slated for just 
a $63.04 million increase (10.3 percent). This pattern would be 
understandable and acceptable if it were a one-year anomaly. However, 
this pattern of funding has become the norm--leaving some directorates, 
such as BIO, SBE and Geosciences behind.
    In contrast, COMPETES authorizes $5.742 million for R&RA in fiscal 
year 2009, and would provide an average 19.1 percent increase over 
fiscal year 2008 appropriations. Moreover, COMPETES-authorized funding 
levels would provide NSF with the necessary funding to provide BIO with 
a 19 percent increase, placing it more on-par with the trajectory of 
other directorates.
    Administration officials point to the importance of aligning the 
budget with priorities articulated in both the American Competitiveness 
Initiative and the America COMPETES Act. Yet, language in COMPETES 
(Public Law 110-69, Sec. 7018(b)) calls for parity in funding among 
scientific disciplines by specifying, ``The Director shall give 
priority in the selection of awards and the allocation of Foundation 
resources to proposed research activities, and grants funded under the 
Foundation's Research and Related Activities Account, that can be 
expected to make contributions in physical or natural science, 
technology, engineering, social sciences, or mathematics, or that 
enhance competitiveness, innovation, or safety and security in the 
United States.''
    Indeed, research in the biological sciences has directly 
contributed to the development of new technologies and has advanced our 
understanding of life in critical areas, including genomics, emerging 
diseases, ecosystem services, global change, nanotechnology, and 
complex systems. Such research has led to important discoveries with 
implications for American competitiveness and public health and safety. 
For example, scientists at Arizona State University funded through BIO 
used a special laser to analyze the split-second process within 
photosynthesis where plants harness light energy; their research may 
have important implications for the development of solar energy 
technologies. It is imperative that we understand how biological 
systems--whether a microbe or an ecosystem--function so that we can 
address current issues like global change and can innovate solutions to 
additional challenges that will likely emerge in the future.
    Members of the biological sciences community are concerned that 
inadequate funding is being provided to fundamental biological and 
environmental sciences. For twelve years, the research grant funding 
rate for BIO has been consistently lower than the NSF-wide funding 
rate. In 2008, the research grant funding rate was only 15 percent 
compared with an agency-wide rate of 21 percent. Unfortunately, this 
trend occurs at a time when BIO is contributing the largest percentage 
of federal dollars to basic biological sciences research and the number 
and scope of problems requiring biological information continues to 
increase.

Key Areas
    Increased funding for NSF at the level authorized by the America 
COMPETES Act would enable more robust investment in the five core 
programs supported by BIO: Molecular and Cellular Biosciences; 
Integrative Organismal Systems; Environmental Biology; Biological 
Infrastructure; and Emerging Frontiers.
    The fiscal year 2009 budget request includes important funding for 
the National Ecological Observatory Network (NEON), the first national 
ecological measurement and observation system designed to answer 
regional- to continental-scale scientific questions. NEON is an 
innovative facility that is designed to transform the way science and 
education are conducted by enabling integration of data from natural- 
to human-dominated systems and from genomes to the biosphere. A total 
of $26 million has been requested for NEON in the fiscal year 2009 BIO 
budget. Roughly $16 million would be funded from Emerging Frontiers and 
$10 million from Biological Infrastructure.
    BIO provides essential support for the development and maintenance 
of other important research infrastructure (e.g., natural science 
collections and field stations) that is necessary to advance our 
understanding of biological systems.
    Indeed, there is a growing national awareness of the need to 
reinvest in the physical and personnel resources associated with our 
nation's scientific collections. Evidence for this may be found in the 
annual Office of Science and Technology Policy (OSTP) and Office of 
Management and Budget (OMB) memorandum to federal agencies on research 
and development priorities, which has charged federal agencies to 
evaluate the needs of the collections they host or support. A federal 
interagency working group on scientific collections has also been 
established. As part of this effort, NSF is surveying non-federal 
research collections to gain a better understanding of the nature of 
our nation's holdings.
    Unfortunately, the fiscal year 2009 budget request for the Division 
of Biological Infrastructure (DBI) is $86.99 million, only 0.1 percent 
more than DBI's fiscal year 2008 appropriation ($86.94 million). The 
biological sciences community is increasingly concerned that decreasing 
investment in the tools of science, namely the facilities, collections, 
and instruments that enable discovery, will have profound and negative 
impacts on the science.
    Research support is only one of NSF's important missions. NSF is a 
vital component of our nation's formal and informal science education 
system. Whether through programs such as Research Experiences for 
Undergraduates, Integrated Graduate Education and Research 
Traineeships, or other fellowships for graduate and post-doctoral 
researchers, NSF provides the resources required to recruit, educate 
and train our next generation of scientists. We encourage Congress to 
continue to support these vital science education programs.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the National Science Foundation. If you have any 
questions or require additional information, please contact either of 
us at 202-628-1500.
                                 ______
                                 
            Prepared Statement of Padgett Business Services

    On behalf of Padgett Business Services, located in Fargo, North 
Dakota, I would like to thank the Committee for allowing our 
organization to submit this testimony for the record. I am writing to 
respectfully request that the Hollings Manufacturing Extension 
Partnership program be provided the authorized $122 million within the 
fiscal year 2009 Commerce, Justice, Science and Related Agencies 
Appropriations Bill. This requested level of funding for 2009 was 
provided for in the recently enacted America COMPETES Act. As you know, 
the Hollings Manufacturing Extension Partnership (MEP) is a program 
within the Department of Commerce, National Institute of Standards and 
Technology, a program authorized to improve competitiveness of 
America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. In several companies, I have had the opportunity to 
partner with Dakota MEP to further develop our manufacturing capacity.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
              Prepared Statement of Phoenix International

    On behalf of Phoenix International, a leader in the design and 
manufacture of custom, integrated electronic solutions, located in 
Fargo, North Dakota, I would like to thank the Committee for allowing 
our organization to submit this testimony for the record. I am writing 
to respectfully request that the Hollings Manufacturing Extension 
Partnership program be provided the authorized $122 million within the 
fiscal year 2009 Commerce, Justice, Science and Related Agencies 
Appropriations Bill. This requested level of funding for 2009 was 
provided for in the recently enacted America COMPETES Act. As you know, 
the Hollings Manufacturing Extension Partnership (MEP) is a program 
within the Department of Commerce, National Institute of Standards and 
Technology, a program authorized to improve competitiveness of 
America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. With the assistance of Dakota MEP, our company has 
worked on a number of improvement projects to improve productivity.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
  Prepared Statement of the Red Cliff Band of Lake Superior Chippewas

    The following is a brief, qualitative analysis of the local impact 
of the Presidents fiscal year 2009 budget proposal as we understand it 
from data available in the Department of the Interior Indian Affairs 
Budget Justifications Fiscal Year 2009 and related budget documents. A 
more detailed, large-scale analysis of the appropriation is available 
from the National Congress of American Indians (www.ncai.org), but here 
we focus on concerns and priorities of the Red Cliff Band, a small, 
federally-recognized Indian Tribe in far northern Wisconsin.
    Key information about the Red Cliff community is available in the 
attached Red Cliff ``Community Snapshot'' http://www.redcliff-nsn.gov/
planning/08snapshot-2.pdf

Natural Resources Management
    The President's fiscal year 2009 budget continues to stifle the 
Tribe's effort to maintain an active role in the management and 
stewardship of the Lake Superior fishery resource, which has tangible 
recreational and economic benefits for the region and which was 
severely impacted by heavy cuts to the Tribal Management Development 
Program (TMDP) in the mid 80's and 90's. Funding since that time has 
stagnated such that, in 2009, TMDP funding will still have not 
recovered to levels of over twenty years prior, yet cost for such 
things as utilities, staff benefits, and supplies have significantly 
increased over that time, and this has prevented the Tribe from 
adequately addressing its aging hatchery facilities and water systems.
    Lake Superior has the only fully-restored, self-sustaining trout 
populations in Lake Superior, due in substantial part to Red Cliff's 
efforts. Now the fisheries management department of the Tribe, which 
co-manages an area of almost 2.8 million hectares, is further 
threatened by a dramatic increase in disease-management costs 
associated with the deadly fish disease VHS.
    Without offsets to these cumulative cost increases, the viability 
of Red Cliff's fisheries programs is severely threatened.
    More details about the accomplishments and challenges of the Red 
Cliff Natural Resources program are attached (Attachment 2).
    Request: At minimum, restore Red Cliff's TMDP funding to mid-80's 
funding levels of $300,000 (up from $222,000 proposed for fiscal year 
2009) and reject Bush's 30 percent cut to the BIA's Fish Hatchery 
Maintenance program.

Public Safety and Justice
    Tribally-designated COPs grants have served as the Tribe's only 
reliable source of law enforcement vehicles and field equipment in the 
past decade. Red Cliff responds to emergencies not only on reservation 
lands but, at times, on the beautiful but dangerous shores of Lake 
Superior and the adjacent National Park lands, and Red Cliff likewise 
responds to the mutual aid requests of the City of Bayfield and 
Bayfield County. President Bush's budget will eliminate Tribal COPs 
set-asides, reducing the likelihood of our responders' availability and 
preparedness, thereby threatening the safety and well-being of 
residents and tourists.
    Likewise, set-asides are proposed to be eliminated for Tribal 
Courts, for which Red Cliff's base funding is also being reduced by 4.2 
percent in the President's budget. Red Cliff Tribal Court has no 
alternative funding and has already curtailed expenditures on judges 
and otherwise limited its services in the enforcement of vital local 
laws. With further erosion of funds, Red Cliff will continue to 
struggle to bring justice to the victims of child abuse, protect its 
treaty rights, or generally enforce the Red Cliff Code on which it 
depends for its sovereignty and civil order.
    Finally, the fiscal year 2009 budget Justification shows that 
nearly $15,000 for Red Cliff community fire protection has been 
eliminated. Red Cliff's local Fire Department which, again, serves Red 
Cliff and adjacent communities, is very much dependent on CFP dollars 
for equipment purchases, the most recent being wildland fire fighting 
vehicle attachments.
    Request: Reject the President's proposal to consolidate DOJ 
programs and eliminate Tribal set-asides. Maintain previous years' 
average funding levels of +/- $15,000 for Community Fire Protection.

Education and Job Training
    With combined elimination of the Johnson O'Malley (JOM) and Job 
Placement and Training programs from the BIA's Consolidated Tribal 
Government budget, Red Cliff stands to lose over $73,500 in much-needed 
assistance to already-disadvantaged local people.
    The Red Cliff Tribe does not feel JOM's GPRA/PART ratings reflect 
the strong value that our community places on the JOM program, which 
serves as an important way to promote educational parity for children 
whose families experience unemployment and poverty rates several times 
that of surrounding Bayfield County. JOM provides such things as sports 
gear, instrument rentals, and other important academic supports which 
can make the difference between attainment and alienation. While JOM 
cannot solve all of the challenges of the Bayfield School district with 
its large proportion of native students, the tutors paid for by Red 
Cliff's JOM program have helped many young learners build the academic 
confidence to resist otherwise high truancy rates of the District.
    Job training and placement for Tribal members is especially 
important in light of Red Cliff's geographic isolation and distance to 
the service industries in which local jobs are relatively scarce. In 
light of great commitment to their ancestral lands and culture and 
their obligations to local extended families, Tribal members seeking 
jobs rely on placement and training assistance to increase their 
likelihood of local employment.
    Request: Reject the Presidents proposed elimination of the Johnson 
O'Malley program and Job Placement and Training programs.

Housing and Community Facilities
    The President's fiscal year 2009 budget proposes elimination of the 
Department of the Interior's Housing Improvement Program (HIP). While 
the program is competitive and does not result in a large number of 
projects in a community as small as Red Cliff, the Tribal members it 
does assist are among our most needy: the elderly and disabled. With 
housing having been in extremely short supply on the Red Cliff 
Reservation, deterioration of an elder's home often guarantees 
stressful relocation. HIP is often the only option for remodeling or 
replacement of existing homes where the elder cannot afford or qualify 
for other housing programs.
    A $4.6 million reduction has also been proposed for the Indian 
Community Development Block Grant program in fiscal year 2009. In Red 
Cliff, ICDBGs have been an absolutely essential solution to the 
abovementioned housing shortage. With ICDBGs and DOD Sec. 154 funds, 
the Tribe has been able to make the most significant housing 
infrastructure improvements in a generation--making over 175 sewered 
home sites available in the coming years. Likewise, ICDBGs offer the 
Tribe one of its primary options to address aging and inadequate public 
facility space.
    Every dollar eliminated from ICDBGs translates to homes not served 
with essential utilities or to community services that cannot be sited 
in Red Cliff.
    Request: Restore $13.6 million eliminated from the DOI's Housing 
Improvement Program and $4.6 million from HUD's Indian Community 
Development Block Grant. programs in fiscal year 2009.

Health
    The President's fiscal year 2009 budget does not slash budgets for 
the Indian Health Service, yet neither does it address the disturbing 
health trends in the community that are likely to pose a massive burden 
to the health care budgets of the Red Cliff Health Center, the City of 
Ashland's health service providers, Bayfield County, and the State of 
Wisconsin.
    We are referring in part to the fact that local data shows 74 
percent of native patients at the Red Cliff Health Center--including 
many children--are obese or at risk of obesity, and the resulting 
incidence of Type 2 diabetes and related complications are projected to 
triple disease-related health care expenditures for those afflicted, an 
increase that is above and beyond the double-digit medical services 
inflation that has been disproportionately impacting our impoverished 
community.
    The ten-year old Red Cliff Health Center is one of the Tribes 
greatest social and economic successes and has already met or exceeded 
some patient service levels that were not projected to be realized 
until 2015. The Red Cliff Health Center's ability to address the vital 
health needs of the Red Cliff community--ranging from pre-natal care to 
mental health treatment to dental services--are presently most limited 
by space available.
    To address the obesity challenge and other service demands 
mentioned above, the Health Center seeks a facility expansion of at 
least 5,000 to 8,000 square feet at a base cost of $1 million to $1.4 
million which would be dedicated to preventative health and specialty 
health services. IHS and other federal funds for facility expansion are 
presently very limited.
    The Red Cliff Health Center has earned a reputation for offering 
quality services to Tribal and non-Tribal members throughout the 
County. A special appropriation for Health Center expansion will help 
the Red Cliff Tribe to help avert the looming cost crisis and to offer 
marketable services and health industry jobs.
    For additional details see Attachment 3.
    Request: Special appropriation of up to $1.4 million for expansion 
of Red Cliff's Health Center for preventative health services.
Welfare
    President Bush's fiscal year 2009 national budget proposes a $14 
million reduction in welfare assistance, which includes BIA's General 
Assistance Program (GA). Estimates of Tribe-specific cuts are not 
clear, but the fiscal year 2009 BIA budget justification shows that, 
both with regard to clients served and welfare costs for GA, Red Cliff 
could expect a cut of as much as 40 percent from fiscal year 2007 
levels of $82,000, which allows the Tribe to assist with over 300 cases 
per year.
    Compared with adjacent Bayfield County, the rates of unemployment 
and children in poverty in Red Cliff are as much as three times and 
five times higher, respectively. Loss of 40 percent of Tribal GA funds 
could pose extreme hardships to a number of our residents who have few 
if any other income options.
    Request: Reject Bush's proposed $14 million cut to BIA's welfare 
assistance programs.

Transportation
    The President's proposal to cut in half the BIA road maintenance 
program comes at a time when costs for fuel, pavement, and other 
materials have substantially increased the per-mile cost of maintaining 
Red Cliff's 35 miles of reservation roads--costs which are already high 
due to severe winter conditions commonly experienced in our location at 
the northern tip of Wisconsin.
    The road maintenance funding cuts will have significant impacts 
beyond Red Cliff. The Tribe realizes great operating efficiencies by 
using BIA road maintenance dollars to contract with the nearby Town of 
Russell, whose facilities, staff, and equipment are utilized for road 
grading, snow removal, vegetation clearing, and other services 
necessary to maintain safe roads for residents and visitors. In 
addition to Russell, other communities' roads that are not on the 
Reservation but are nevertheless used heavily by Tribal members are 
also eligible for Tribal assistance. Thus, reductions to BIA roads 
maintenance funds may pose hardships not just to Red Cliff but to 
adjacent governments.
    Request: Reject Bush's proposed fiscal year 2009 50 percent 
reduction of BIA roads maintenance funding.

Land Consolidation
    The Indian Land Consolidation Program (ILCP) was proposed for 
elimination in fiscal year 2009.
    Red Cliff's Reservation is a mere 14,000 acres, only 8,000 of which 
are held in Trust for the Tribe. Land recovery is therefore a top 
priority, but the Tribe itself has no discretionary funds for 
acquisitions. Fractionation of ownership interests in land probated to 
heirs of Tribal land allotees poses major obstacles to land recovery, 
and it also places heavy probate administration costs on the BIA, which 
consequently diminishes other BIA and/or federal services available to 
the Tribe.
    The President's claims of ILCP inefficacy are misleading. The 
program's efforts have been strategically targeted, and in those areas 
have been very effective. ILCP reports 68 percent of fractionated 
interests in Red Cliff have been acquired by ILCP, which translates to 
just over 1,000 acres--a very significant portion of our Reservation! 
Continued ILCP effort toward land consolidation is very important to 
Red Cliff and to other Tribes around the nation.
    Request: Reject Bush's proposed fiscal year 2009 elimination of the 
ILCP.

General comments
    Contrary to what is sometimes heard from Indian Nations, the Red 
Cliff Band of Lake Superior Chippewa strongly supports the mission and 
budget of the Bureau of Indian Affairs. That is not to say we are 
entirely satisfied with BIA's performance or decisions, yet we 
recognize that we as individual Tribes are also responsible to aid the 
agency in attaining GPRA and PART goals.
    Of the Tribal casinos in the State of Wisconsin, the Red Cliff 
Tribe's Isle Vista Casino is distinguished as one of the lowest 
grossing, and thus it serves to offer only basic local employment and 
exceedingly little aid to local government. Stagnation in federal 
funding levels in the face of increasing costs of living therefore 
equates to lost programs, services, and organizational capacity. We ask 
you to protect and enhance Indian programs offered through BIA, IHS, 
HUD, USDA and others.
    The Red Cliff Tribe's greatest strides in recent years have been in 
the areas of housing and related infrastructure, and we are grateful 
for your support. Health care, education, economic development, and 
environmental protection remain as urgent needs in our community, and 
we look forward to working with you and your staff to discuss issues 
and implement solutions. Thank you.
                                 ______
                                 
  Prepared Statement of the Dakota Manufacturing Extension Partnership

    On behalf the Board of Directors of Dakota Manufacturing Extension 
Partnership, I would like to thank the Committee for allowing our 
organization to submit this testimony for the record. I am writing to 
respectfully request that the Hollings Manufacturing Extension 
Partnership program be provided the authorized $122 million within the 
fiscal year 2009 Commerce, Justice, Science and Related Agencies 
Appropriations Bill. This requested level of funding for 2009 was 
provided for in the recently enacted America COMPETES Act. As you know, 
the Hollings Manufacturing Extension Partnership (MEP) is a program 
within the Department of Commerce, National Institute of Standards and 
Technology, a program authorized to improve competitiveness of 
America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In the Dakotas, the Dakota MEP provides assistance 
to companies in continuous improvement, innovation, strategic growth, 
technology and workforce development--all major needs of our companies. 
Several years ago our company, Turtle Mountain Corporation in Dunseith, 
North Dakota, was able to significantly improve its overall 
competitiveness as a supplier and its workforce with the assistance of 
Dakota MEP.
    As a Dakota MEP Board Chairman, I would also like to report that 
the average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry compete with 
offshore companies. Without unwavering strong federal support, the MEP 
will be unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
   Prepared Statement of SEARCH, The National Consortium for Justice 
                       Information and Statistics

Introduction
    Mr. Chairman and members of the subcommittee, I am Ron Hawley, 
Executive Director of SEARCH. Thank you, Mr. Chairman and members of 
the Subcommittee for your support. The efforts of your outstanding 
subcommittee staff are also greatly appreciated. SEARCH has requested a 
$2 million earmark from the Department of Justice, Byrne Discretionary 
Grant Program to be included in the Commerce, Justice, Science, and 
Related Agencies Appropriation bill. This amount of funding will ensure 
that the SEARCH National Technical Assistance and Training Program can 
reach local and state criminal justice agencies that are truly in need 
of SEARCH's services.
    SEARCH is a state criminal justice support organization comprised 
of governors' appointees from each state. SEARCH's mission is to 
promote the effective use of information and identification technology 
by criminal justice agencies nationwide. For more than 20 years, the 
SEARCH National Technical Assistance and Training Program has been the 
only no-cost service for small- and medium-sized criminal justice 
agencies to assist them in: (1) enhancing and upgrading their 
information systems; (2) building integrated information systems that 
all criminal justice agencies need; (3) ensuring compatibility between 
local systems and state, regional and national systems; (4) developing 
and delivering high-tech crime training; and (5) providing computer 
forensic technical assistance support. SEARCH has provided training and 
technical assistance in every state. The criminal justice agencies that 
SEARCH has assisted have found our services invaluable.
    Because the National Technical Assistance and Training Program is 
national in scope, SEARCH is able to replicate successful 
implementation strategies in one state or locality and disseminate and 
transfer those strategies to other states and localities. This unique 
program not only helps state and local agencies work more efficiently 
and effectively through the use of advanced information technologies, 
but it also creates a foundation for a national information 
infrastructure for interoperable justice systems.
    SEARCH conducts research to examine emerging trends and issues that 
have the potential to impact the collection, maintenance and exchange 
of justice information, while advocating policies that ensure effective 
privacy protection for the subjects of those records. The technical 
assistance provided by SEARCH has always been sensitive to the privacy 
implications of the effective use of information systems.
    In short, the automated sharing of information is a critical 
component of effective justice. Better information means better 
decisions, and better decisions mean improved public safety. Creating 
information sharing capabilities among state and local public safety 
agencies that consistently conform to national and international 
standards efforts and that provide tangible benefits and outcomes will 
strengthen the foundation for successful nationwide information sharing 
to help prevent major national incidents and terrorist attacks.
    SEARCH's National Technical Assistance and Training Program has 
received rave reviews, not only from those local, regional and state 
law enforcement and criminal justice agencies that have received its 
services, but also from the Bureau of Justice Assistance (BJA), which 
administers the grants to SEARCH.
    In the Department of Justice Reauthorization Act (Public Law 109-
162), the Congress expressly and specifically authorized SEARCH's 
National Technical Assistance and Training Program. Chapter 5, 
Subsection C, 1184 of that provision reads:

    (a) In General.--Pursuant to subpart 1 of part E of title I of the 
Omnibus Crime Control and Safe Streets Act of 1968, the Attorney 
General may make grants to SEARCH, the National Consortium for Justice 
Information and Statistics, to carry out the operations of the National 
Technical Assistance and Training Program.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to the Attorney General to carry out this section 
$4,000,000 for each of fiscal years 2006 through 2009.

Byrne Competitive Grant Program
    Before talking specifically about the SEARCH National Technical 
Assistance and Training Program, let me take a moment to ask for 
enhanced funding for the Byrne Competitive Grant Program. Through the 
Chairman's leadership, the fiscal year 2008 omnibus appropriations bill 
established the competitive grant process for programs of national 
significance to prevent crime, improve the administration of justice, 
and assist victims of crime. The process is administered by the Office 
of Justice Programs (OJP) to those national programs that previously 
have received earmark funding under the Byrne discretionary program. 
However, the total amount of grant funding provided to all of the 
competing national programs was set at only $16 million in fiscal year 
2008. We believe that funding in the range of at least $65 million is 
the minimum necessary to permit a workable and effective competitive 
grant program.
    SEARCH supports the laudable goal of distributing funds on a 
competitive basis to those national programs that can demonstrate the 
most compelling uses for those funds. However, the outstanding 
leadership of the Subcommittee in creating this program is undermined 
by the harsh reality that $16 million is a woefully inadequate amount 
to provide funding for national programs to assist criminal justice and 
law enforcement efforts across the country.
    SEARCH's National Technical Assistance and Training, alone, 
received a $2 million grant from the Byrne Discretionary funds in 
2006--this would comprise one-eighth of the funds now available under 
the Byrne competitive grants. Dividing $16 million among dozens of 
national programs will result in drastic reductions in the level of 
funding provided to these programs or no funding at all for many 
deserving organizations.
    Indeed, for that reason we not only urge the Congress to fund the 
fiscal year 2009 competitive program at the $65 million level, but also 
to support emergency legislation that would increase the amount 
provided for the Byrne Competitive Grant program in fiscal year 2008 by 
approximately $50 million so that those national programs seeking to 
compete for these funds will have a chance at receiving a meaningful 
grant amount and, thereby, continuing to provide their vital criminal 
justice services. We have attached to our written testimony a letter 
from SEARCH and four other national programs supporting enhanced 
competitive grant funding.

Use of Past Funding
    Returning now to SEARCH, in fiscal year 2007, SEARCH's National 
Technical Assistance and Training Program received a $2 million earmark 
out of the Byrne Discretionary Grant Program in the Office of Justice 
Programs. Through funding provided in fiscal year 2007, the SEARCH 
National Technical Assistance and Training Program reached out to 
nearly every state, as well as the District of Columbia.
    SEARCH's on-site technical assistance customarily includes helping 
a state or local law enforcement agency establish an automated justice 
information system; evaluate and plan for integration of existing 
information systems; or enhance, expand or implement a computerized 
criminal justice record system. A typical technical assistance activity 
takes approximately six weeks and is staffed by two individuals with 
the required expertise making three site visits--one for an initial 
consultation and data gathering, one to provide recommendations, and 
one for follow-up. Each of these technical assistance activities cost 
approximately $50,000.
    SEARCH has been recognized for its longstanding commitment to 
improving criminal history records at both the state and national 
levels. SEARCH software and related materials assist police and other 
law enforcement agencies in areas such as computer-aided dispatch, 
records management systems and mobile computers. In the post-9/11 
world, information sharing and communications interoperability is more 
important than ever to protect our families and the first-responders 
responsible for their safety in an emergency.
    For example, SEARCH is helping state policymakers and technical and 
operational stakeholders in numerous jurisdictions develop standards-
based, high technology data sharing solutions so that critical law 
enforcement, court, corrections, prosecutor, and other justice agency 
information is rapidly shared to provide the foundation for accurate 
and appropriate decision-making. Simultaneously, SEARCH is actively 
focused on helping states develop privacy policies governing the 
collection of information in various state criminal justice systems to 
protect individual privacy and civil liberties in the growing 
information sharing environment.
    Meanwhile, SEARCH provides direct operational support to law 
enforcement in its cybercrime investigation program. SEARCH, for 
example, was integral in helping law enforcement identify and stop a 
suspect who was planning a shooting rampage at a local high school. A 
State Patrol officer contact SEARCH for immediate help after receiving 
reports about an individual making statements via the Internet that a 
local high school was to be the target of a shooting rampage. The State 
Police did not have the local resources or expertise to properly 
conduct an Internet investigation to identify the user. Using its 
knowledge of Internet Service Provider protocols and social networking 
Web sites, SEARCH located the individual's online profile on a 
networking site that displayed photos and videos of firearms and 
automatic weapons. The State Patrol was then able to gather the leads 
necessary to further their investigation. SEARCH performed a forensic 
capture of the individual's profile and videos, which were offered to 
the State Patrol.
    In other cybercrime assistance efforts, SEARCH has helped a number 
of police departments across the nation set up MySpace predator 
deterrent programs. The departments set up MySpace pages that encourage 
local youth to add the police department as a ``number one friend'' on 
the youths' MySpace Pages. This gives the police a prominent presence 
on the youth's page, and also enables the youth to quickly contact the 
police online if they receive inappropriate messages. This is just 
another example of how SEARCH helps law enforcement proactively work to 
protect their young citizens from Internet risks.
    Through SEARCH cybercrime training classes and technical workshops, 
investigators are taught methods to prevent, detect and investigate the 
rising tide of cybercrime, such as fraud, email threats, online 
stalking and child exploitation. In one-on-one work with law 
enforcement investigators and prosecutors, SEARCH provides immediate 
operational assistance and critical operational guidance to 
practitioners on emerging technological issues in high-tech crime, such 
as assisting a local law enforcement agency obtain evidence from cell 
phones seized at the scene of a gang-related drive-by shooting.
Intended Use of Funding From Fiscal Year 2009
    For fiscal year 2009, SEARCH is requesting $2 million for the 
National Technical Assistance and Training Program. If SEARCH is 
provided with the requested funding, SEARCH intends to utilize the 
funds to address goals in both the information sharing and high-tech 
crime investigation aspects of the program. In the information sharing 
space, SEARCH intends to: (1) support through training and technical 
assistance the adoption of national law enforcement and public safety 
information technology standards; (2) contribute to the development of 
new and emerging law enforcement and public safety standards; (3) 
develop specific information sharing requirements for the re-entry of 
prisoners into society following incarceration; and (4) improve 
agencies' ability to measure and manage their information sharing 
initiatives. SEARCH also intends to use the funds to train law 
enforcement investigators in high tech crime investigation, including 
training and education on cybercrime.

Conclusion
    Congressional support for the SEARCH National Technical Assistance 
and Training Program is vital. The federal investment of $2 million can 
be leveraged many times over by contributing to the ability of state 
and local criminal justice agencies to provide timely, accurate and 
compatible information throughout the nation.
    On behalf of SEARCH, its governors' appointees, and the thousands 
of criminal justice officials who participate in the SEARCH network and 
who benefit from SEARCH's efforts, I thank you for your time. It has 
been a pleasure appearing here today.
                                 ______
                                 
           Prepared Statement of The Florida State University

    Summary of Request: Florida State University is requesting 
$3,000,000 from the National Oceanic and Atmospheric Administration 
(NOAA) Air Research Laboratory (ARL) Account to fund the Center for 
Vapor Mercury in the Atmosphere.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $190 
million this past year in research awards.
    Florida State University attracts students from every state in the 
nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. Since 
2005, FSU students have won more than 30 nationally competitive 
scholarships and fellowships including 2 Rhodes Scholarships, 2 Truman 
Scholarships, Goldwater, Jack Kent Cooke and 18 Fulbright Fellowships.
    At Florida State University, we are proud of our successes as well 
as our emerging reputation as one of the nation's top public research 
universities.
    Mr. Chairman, let me summarize our primary interest today.
    Mercury is one of two very toxic trace elements known to be best 
transported through the atmosphere. Local, regional, and global 
distributions of gaseous elemental mercury are unknown even though 
vapor mercury is the most important source of anthropogenic mercury to 
the atmosphere. Most U.S. mercury emissions occur in the northeast yet 
most mercury deposits fall on Florida and the southeastern coastal 
zone. Patterns of mercury in local rainfall can be interpreted as 
either ``local source'' or ``long-distance source'' and are thus non-
diagnostic. These enormous gaps in scientific understanding undermine 
public policy initiatives to develop strategies to protect natural 
environments and human health and to find appropriate energy solutions 
to our national power and transportation needs.
    To this end, FSU is prepared to lead a Southeastern Mercury 
Consortium to study the large-scale sources and fates of atmospheric 
mercury. This consortium will be a partnership between NOAA's Air 
Resources Lab (ARL), Florida State University (FSU) and Georgia 
Institute of Technology. ARL's mercury research group has pioneered 
ground and airborne measurements and models of atmospheric mercury. 
FSU's Oceanography Department and Isotope Geochemistry Programs in the 
National High Magnetic Field Lab excel in ultra-trace element chemistry 
and isotopes--including mercury--in global atmospheric and aquatic 
environments. Georgia Tech's Schools of Earth & Atmospheric Sciences 
and Civil & Environmental Engineering have extensive regional and 
global programs in urban photochemistry, ``tailpipe'' and ``smoke 
stack'' gases, and global atmospheric mapping of reactive trace gases 
and aerosols from research airplanes and satellites. We will 
concentrate on the two most critical pieces of the puzzle--gaseous 
elemental mercury and reactive gaseous mercury. This effort will fill 
the gap we now have in the understanding of mercury vapors, so that we 
can ensure safe power and transportation to our citizens.
    Mr. Chairman, this project is extremely important and I appreciate 
your consideration.
                                 ______
                                 
Prepared Statement of the Educational Association of University Centers

    Mr. Chairman, as President of the Educational Association of 
University Centers, which is the advocacy organization for universities 
in the EDA University Center Program, I am pleased to offer this 
testimony regarding fiscal year 2009 funding for this important program 
administered by the Economic Development Administration at the 
Department of Commerce. On behalf of our the network of universities 
across the United States that are participating in the program, our 
appropriation request for the EDA University Center Program for fiscal 
year 2009 is $12.5 million. The EDA Technical Assistance line item is 
currently funded at about $9 million annually for the national EDA 
University Center Program.
    As you know, the EDA University Center Program is a network of 
centers located at universities and colleges in most states. The 
program has operated for over 30 years as the only federally funded 
program specifically designed to link the higher education system in 
the United States with local and regional economic development 
organizations, local units of government, private sector companies, 
non-profits and regional organizations. There are about 55 centers in 
the program currently.
    Through this program, the resources, research, expertise, 
experience and capabilities of the higher education system are made 
accessible to help capitalize on opportunities, address problems and 
overcome economic challenges for areas suffering economic dislocation 
and distress. Each University Center reflects the character and 
capacities of the sponsoring institution and tailors its portfolio of 
programs, projects and services based on the individual institution and 
the needs of the service region that center serves.
    Each EDA University Center currently receives approximately 
$100,000 to $150,000 per year. The program has been funded at the same 
level for over a decade. The additional funding that is requested would 
enable current University Centers to be funded at a level of $250,000 
per year, which combined with the required local match of an amount 
equal to the federal share, would create program budgets of $500,000 
per University Center. The nation's universities are a vital component 
of the economic development capacity of the United States and this 
increased funding will yield a strong return on the investment.
    The University Center Program and the University Centers that form 
it operate in conformance with the EDA's investment principles. That 
means that programs and projects undertaken by the university centers 
include: being market-based and results-driven; having strong 
organizational leadership; advancing productivity, innovation and 
entrepreneurship; addressing medium to long-term needs; anticipating 
economic changes; fostering economic diversification; and including a 
high degree of local commitment. To those ends, the University Center 
program nationwide participates in economic development activities that 
help leverage hundreds of millions of dollars in private sector 
investment.
    A fundamental objective of the University Center Program is to 
focus program activities on areas of economic distress and to conduct 
projects and programs that lead to the creation and retention of high-
wage, high-skill, and high-demand jobs. The types of activities 
undertaken by university centers include direct technical assistance. 
That assistance can take the form of direct assistance to private 
sector companies. A typical example of a technical assistance project 
would be working with a manufacturer to develop a prototype of a new 
product, analyze the potential market for the product, and help 
commercialize and launch the new product. The end result will hopefully 
lead to increases in production capacity within the firm, resulting in 
new job creation.
    University centers also often have the capacity and the mission to 
conduct applied research to inform economic development initiatives. 
Before a significant financial investment is made in an economic 
development project, due diligence must be performed to determine if 
there is a high probability for a significant return on investment in 
terms of jobs created and retained, as well as indirect jobs created 
and retained in the supply chain and in local and regional commercial 
and retail businesses. Typical projects that would require applied 
research to determine potential for success are industrial parks, 
technology parks, business incubators and accelerators, and public 
works projects to improve infrastructure, such as potable water 
treatment plants, wastewater treatment, access roads and other 
projects. Research such as market and feasibility analyses, business 
plans, operating plans and other types of analyses serves to strengthen 
projects and to help ensure that investments are directed toward 
projects with the highest potential to deliver in economic terms.
    University centers also conduct economic analyses to identify 
industry clusters that exist or that have the potential to be created. 
Industry clusters are private sector companies that exist in a defined 
geographic region and that have similar characteristics that can enable 
individual firms to create competitive advantages through relationships 
that often include pooled procurement activities or supply chain 
linkages, where firms provide raw materials, components or other 
products or services to companies that are using raw materials to 
produce value-added products or that create products by combining 
components to produce a finished item for delivery to customers. By 
conducting the research to identify companies with potential affinity 
and the potential for benefit from economies of scale, jobs may be 
created or retained and individual companies made more competitive and 
profitable. These efforts also can strengthen local and regional 
economies by developing a local supply chain and producing products 
that are exported from the region, thereby bringing revenue into the 
region from external sources.
    An example of university center activity is the initiative has been 
undertaken by the University Center program at the University of 
Michigan, which I oversee, along with our partners at Cleveland State 
University, Ohio University and Purdue University. Our work addresses 
the adverse impacts on communities in Michigan, Ohio and Indiana that 
are experiencing major manufacturing plant closures. The university 
center programs at these universities are collaborating to deliver 
services to the impacted communities and to help the communities to 
access resources from a range of federal agencies, state agencies and 
non-profit organizations. The EDA University Centers in each 
institution are active collaborating to provide student, staff and 
faculty support for the affected communities in their respective 
states.
    The tools that have been created to help these communities develop 
economic recovery plans include a resource guide to Federal, State and 
Non-profit agencies and organizations that can help communities in 
economic distress and experiencing sudden and severe economic 
dislocation. Communities also receive a Regional and Community Profile 
that contains critical information, such as key infrastructure, 
transportation corridor information, workforce characteristics, 
demographic information, and that helps identify core competencies and 
competitive advantages of communities and regions. A ``Strategic 
Planning for Economic Recovery Workbook'' helps to facilitate an 
accelerated strategic planning process that takes place over a period 
of 4-6 weeks and leads to a set of implementation projects to address 
economic, community and social needs in the communities and regions 
that are adversely impacted.
    After the community stakeholders have become organized and identify 
critical needs, the program convenes a Community Stakeholder Workshop 
that brings Program Representatives from Federal and State agencies to 
present information about their programs for distressed communities and 
to meet one-on-one with stakeholders representing a wide range of 
economic and community development organizations, social service 
agencies, local elected officials and units of governments that are 
qualified to receive funding.
    Another example of the wide range of University Center Program 
assistance activities is a project conducted by the University of 
Pennsylvania EDA University Center. The South Central Workforce 
Investment Area of Pennsylvania created a Department of Defense (DOD) 
Industry Partnership to strengthen the region's defense industry 
through targeted skills training. Penn State University's Pennsylvania 
Technical Assistance Program (PennTAP) managed the development of this 
Partnership. This Partnership grew out of a state-funded economic 
development initiative, Job Ready PA, which builds partnerships to more 
effectively respond to the workforce needs of targeted industries.
    The Industry Partnership is comprised of representatives from 
regional DOD commands and activities, the private contractors 
supporting those activities, and regional education institutions and 
training providers. The Partnership acts as a workforce intermediary, 
connecting the workers and contractors with the educational 
infrastructure by creating industry-driven training programs in 
response to identified skill gaps targeting three categories of 
workers: DOD personnel; civilian contractors providing both 
infrastructure as well as technical and mission support services; and 
DOD systems manufacturers and parts and component suppliers.
    Every University Center Program across the United States has many 
examples of terrific project and program activities that have greatly 
contributed to the health of regional and local economies and that have 
addressed economic distress.
    The economic security, national security and global competitiveness 
of our nation are increasingly bound with the higher education system 
of colleges and universities in America. The economy of our nation is 
in a period of transformation from a primarily industrial-based economy 
to a post-industrial economy. This transformation is creating enormous 
challenges as jobs are lost in some sectors and regions, and jobs are 
created in other sectors and regions. It is essential that the higher 
education system play an engaged and proactive role in the nation's 
economy.
    The EDA University Center Program is the primary federal program to 
ensure that that role is continual and successful. It is for that 
reason that the funding for this critical program be continued with the 
increase that is requested. Because it is a national program, no single 
state, region or economic sector gains at the expense of any other 
region or sector. I thank you for your attention to this issue and hope 
that this request will be approved.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
Subcommittee requesting a $30 million appropriation for the Commerce 
Department's Public Telecommunications Facilities Program (PTFP) in 
fiscal year 2008. As the President and CEO of the National Federation 
of Community Broadcasters, I speak on behalf of 250 community radio 
stations and related individuals and organizations across the country 
including many new Low Power FM stations. NFCB is the sole national 
organization representing this group of stations, which provide 
independent local service in the smallest communities and the largest 
metropolitan areas of this country. Nearly half of NFCB's members are 
rural stations, and half are controlled by people of color.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Supports funding for PTFP that will cover the ongoing needs of 
        public radio and television stations.
  --Supports funding for conversion of public radio and television to 
        digital broadcasting.
  --Supports funding to help public and community radio stations 
        prepare to provide emergency information during natural or 
        manmade disasters.
    Community Radio supports $30 million in funding for the Public 
Telecommunications Facilities Program in fiscal year 2009. Federal 
funding distributed through the PTFP is essential to continuing and 
expanding the public broadcasting service throughout the United States. 
It is particularly critical for rural stations and those serving low 
income communities. PTFP funds new stations, expanding the reach of 
public broadcasting to rural areas and to audiences that are not served 
by existing stations. In addition, it replaces obsolete and worn out 
equipment so that existing public stations can continue to broadcast 
high quality programming. PTFP funding is critical to ensuring public 
radio's readiness to provide life-saving information to communities in 
the event of local disasters, as we have seen during weather 
emergencies in the past few years. Finally, with the advent of digital 
broadcasting, PTFP funding is helping with the conversion to this new 
technology.
    We support $30 million in funding to ensure that both the ongoing 
program will be continued, and that there will be additional financial 
resources available to help cover the cost of improving the emergency 
infrastructure of public broadcasting stations. This additional funding 
is considered an urgent need if community stations are to withstand and 
continue broadcasting through extreme weather or other emergency 
situations. In addition, increased funding is necessary to assist the 
conversion of public radio and television to a digital format, which is 
particularly important when the FCC has endorsed a standard for digital 
radio broadcasting, the television conversion deadline is imminent, and 
commercial radio stations are converting to digital transmission, and 
public radio should not be left behind.
    PTFP funding is unique. It is the only funding source available to 
help get new stations on the air and ensure that public broadcasting is 
available everywhere in the United States. At a time when local service 
is being abandoned by commercial radio, PTFP aids communities 
developing their own stations which provide local information and 
emergency notifications.
    Funding from PTFP has been essential to keep public radio stations 
on the air by funding the replacement of equipment, often items that 
have been in use for 20 or more years. The program is administered 
carefully to be certain that stations are acquiring the most 
appropriate type of equipment. They also determine that equipment is 
being properly maintained and will not fund the replacement of 
equipment before an appropriate period of time in use. PTFP has also 
helped bring public radio service to rural areas where it is not 
otherwise available. Often they fund translators to expand the coverage 
of an existing station and they help with the planning and equipment 
needs of a new station. Recently, many of these new projects have been 
for Native American controlled stations on Indian Reservations or new 
Low Power FM installations that broadcast very locally.
    Federal funding is particularly critical to stations broadcasting 
to rural and underserved audiences which have limited potential for 
fundraising due to sparse populations, limited number of local 
businesses, and low income levels. Even so, PTFP funding is a matching 
program, so federal money is leveraged with a local commitment of 
funds. This program is a strong motivating factor in raising the 
significant money necessary to replace, upgrade and purchase expensive 
broadcast equipment.
    Community Radio stations must be prepared to provide continuing 
service during emergency situations. As we saw during the severe storms 
and devastating hurricanes of the last few years, radio is the most 
effective medium for informing a community of weather forecasts, 
traffic issues, services available, evacuations, etc. Since everyone 
has access to a radio and they are portable and battery operated, a 
radio is the first source for this critical information. Radio stations 
therefore must have emergency power at both their studios and their 
transmitter in order to provide this service.
    The National Federation of Community Broadcasters supports funding 
for the conversion to digital broadcasting in public radio and 
television. While public television's digital conversion is mandated by 
the Federal Communications Commission, public radio is converting to 
digital to provide more public service and keep up with the market. The 
digital standard for radio has been approved and over 365 public radio 
transmitters have been converted. Most exciting to public radio is that 
stations can broadcast two or more high quality signals, even while 
they continue to provide the analog signal. Currently 117 stations are 
providing 153 streams of programming. The development of additional 
digital audio channels will potentially more than double the service 
that public radio can provide, particularly to unserved and underserved 
communities.
    Thank you for your consideration of our testimony. If the 
Subcommittee has any questions or needs to follow up on any of the 
points expressed above, please contact the National Federation of 
Community Broadcasters at www.nfcb.org.
                                 ______
                                 
        Prepared Statement of the American Astronomical Society

    I appreciate the opportunity to comment on NASA's 2009 budget from 
my perspective as President of the American Astronomical Society (AAS).
    The AAS believes that the President's fiscal year 2009 request of 
$17.6 billion is the bare minimum necessary to meet the agency's many 
challenges--from the reinvention of manned spaceflight, to the agency's 
many scientific missions in Earth Science, Heliophysics, Astrophysics, 
and Planetary science.
    The AAS is the major organization of professional astronomers in 
the United States. The basic objective of the AAS is to promote the 
advancement of astronomy and closely related branches of science. The 
membership, numbering approximately 7,000, includes physicists, 
mathematicians, geologists, and engineers whose interests lie within 
the broad spectrum of modern astronomy. AAS members advise NASA on 
scientific priorities, participate in NASA missions, and use the data 
from NASA's outstanding scientific discoveries to build a coherent 
picture for the origin and evolution of the Earth, the solar system, 
our Galaxy, and the Universe as a whole.
    In recent years, the astronomical community, working together with 
NASA, has produced a remarkable string of successes that have changed 
our basic picture of the Universe. Observations with the Hubble Space 
Telescope (HST) of exploding stars whose light has been traveling for 
half the age of the Universe, combined with the exquisite map of the 
glow from the Big Bang itself from the Wilkinson Microwave Anisotropy 
Probe and information from other observatories, shows that the Universe 
we live in is not the Universe we see. Mysterious Dark Matter makes the 
ordinary particles clump together to form stars and galaxies. Even more 
mysterious Dark Energy makes the expansion of the Universe speed up. 
Both of these concepts challenge our understanding of the nature of 
matter and energy in the Universe and open up broad new vistas for 
future work.
    Similarly, exploration of the solar system has been a resounding 
success for NASA, with exciting missions to Mars and to Saturn 
revealing a beautiful and intricate history that is interwoven with the 
history of our planet Earth. A new mission is now on its way to Pluto. 
The discovery of planets around other stars has been a great triumph of 
the past decade, raising hopes for seeing planets like our own Earth, 
and placing our own solar system, and life itself, in a new context.
    In addition to contributing greatly to our knowledge and 
understanding of the universe, NASA continues its long history of 
contributing to the country's high technology economy via spin-offs 
from it science programs. Hubble Space Telescope (HST) images form one 
of the key databases behind GoogleSky bringing state-of-the-art imagery 
of the Universe into a tool now available to anyone, anywhere in the 
world with a computer (http://www.google.com/educators/
spacetools.html). NASA's leadership brings high visibility to U.S. 
science and technology achievements and attracts young people to these 
fields.
    NASA's key role in these discoveries makes its science program of 
deep interest to AAS members. In the past, NASA has worked with the 
astronomical community to find the most promising paths forward. The 
James Webb Space Telescope (JWST) is a large program that was endorsed 
by the National Academy of Sciences (NAS) Decadal Survey in astronomy. 
When completed in the next decade, it will help expand the frontier of 
knowledge to the deepest reaches of space and time and into the hidden 
places where stars and planets are formed. The astronomical community 
also recommended, and NASA plans to execute, a wide range of other 
programs--some of moderate scope and others that nourish the 
infrastructure for a healthy and vibrant community. This balanced 
approach has proved best--with a range of opportunities carefully 
crafted to get the best science from NASA's Science budget.
    While we enjoy a generous flow of data from past and current space 
telescopes, we are looking forward to new telescopes and new scientific 
challenges in the next decade. The astronomical community, under the 
leadership of the National Academy of Sciences (NAS), is preparing for 
the commencement of the Astronomy and Astrophysics Decadal Survey that 
is carried out once every ten years. This is an opportunity to look 
forward toward the future of space astrophysics in the context of a 
broad, national astronomy and astrophysics program. The next Decadal 
Survey will provide guidance for federal investment in the next 
generation of ground and space-based telescopes.
    This priority-setting exercise has been the key ingredient in the 
success of U.S. astronomy and astrophysics for the past five decades. 
It is very important for the health of NASA's astrophysics program that 
we conduct an orderly evaluation of concepts across the full spectrum 
of astrophysics missions and wavelengths. To emphasize this point, the 
American Astronomical Society issued this statement in January 2008:

    ``The American Astronomical Society and each of its five divisions 
strongly endorse community-based priority setting as a fundamental 
component in the effective federal funding of research. Broad community 
input is required in making difficult decisions that will be respected 
by policy makers and stake-holders. The decadal surveys are the premier 
examples of how to set priorities with community input. Other National 
Academy studies, standing advisory committees, senior reviews, and town 
hall meetings are important components. Mid-decade adjustments should 
also be open to appropriate community input. Pleadings outside this 
process for specific Congressional language to benefit projects or 
alter priorities are counterproductive and harm science as a whole. The 
American Astronomical Society opposes all attempts to circumvent the 
established and successful community-based priority-setting processes 
currently in place.''

    Recognizing the current challenging budget climate, in which 
federal non-security, discretionary spending is severely constrained, 
the current NASA budget for science is nonetheless cause for concern. 
Specifically, I am concerned about the overall drop in funding for 
Astrophysics from $1.363 billion in fiscal year 2008 to a proposed 
$1.162 billion in fiscal year 2009 (a decline of 14.7 percent). The 
budget is projected to remain flat thereafter.
    Using NASA's new-start inflation index, this forecast is a 
reduction of $423 million (31 percent) for fiscal year 2013 in real 
buying power over that for fiscal year 2008. This decrease is proposed 
to occur during an era of significant new astrophysics discoveries with 
observatories such as the JWST and with the expected exciting 
recommendations from the Decadal Survey.
    The fundamental issue is that NASA is under-funded for its overall 
mission and received no extra funds to help with the recovery of the 
Columbia disaster. This, in turn, creates budgetary stress for all of 
the Directorates including Science. In my view, this is the key problem 
that must be addressed by the Congress and the next Administration.
    The AAS therefore recommends that Congress fund NASA Science by 2.9 
percent over the fiscal year 2009 level. This modest increase over the 
President's fiscal year 2009 request will help maintain balance within 
the science portfolio, which is critical to our community. This 
increase is also the same increase as proposed for the top-line NASA 
budget. Small missions and research grants to individual investigators 
must also be supported. Otherwise, many exciting programs to explore 
the solar system, to detect planets around other stars, to measure 
gravitational waves from astronomical events, to explore black holes in 
all their manifestations, and to seek the nature of the dark energy may 
be threatened. The AAS also recommends a one-time supplement of $1 
billion to help allay expenses associated with the Columbia disaster 
and the Shuttle return to flight.
    Finally, the AAS strongly encourages the Administration and 
Congress to uphold the priorities of the NAS Decadal Survey in 
astronomy. We are pleased that the development of JWST and HST 
servicing mission are priorities in the new budget, but we stress that 
balance is critical in the Science portfolio.
    NASA Science has been and continues to be a beacon of innovation 
and discovery by inspiring generations of young people, capturing the 
imagination of the public, developing new technologies, and discovering 
profound insights into the nature of our Universe.
    The AAS and its members are prepared to work with Congress and with 
NASA to help find the best way forward. We will give you our best 
advice and we will work diligently to make the most of NASA's 
investment in science.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Thank you for the opportunity to offer the recommendations of The 
Nature Conservancy (Conservancy) on the fiscal year 2009 budget for the 
National Oceanic and Atmospheric Administration (NOAA). The Conservancy 
urges the Committee to provide appropriations for NOAA at or 
approaching $4.5 billion, as recommended by the Friends of NOAA 
Coalition. This funding level for NOAA would allow expanded ocean 
conservation, restoration, and management programs; increased research 
and education activities; and provide critical improvements in 
infrastructure (satellites, ships, high performance computers, 
facilities) and data management. More specifically, The Nature 
Conservancy supports the following funding levels for the following 
programs:

                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal Year
                                               2009         Fiscal Year
      Line Office, Account, Program         President's      2009 TNC
                                              Budget      Recommendation
------------------------------------------------------------------------
National Ocean Service:
    Operations, Research, and
     Facilities:
        Regional Collaboration..........           5              10
        Coral Reef Program..............          25.9            30.5
        Response and Restoration Base,             9.3             9.3
         Damage Assessment, Remediation,
         and Restoration Program (DARRP)
        Estuary Restoration Program.....           1.2             4
    Procurement, Acquisition, and                 15              60
     Construction: Coastal and Estuarine
     Land Conservation Program..........
National Marine Fisheries Service:
    Operations, Research, and
     Facilities:
        Community-based Restoration               13              23
         Program........................
        Open Rivers Initiative..........           7              12
        Protected Species Research &                .990           5
         Management, Cooperation with
         States.........................
National Environmental Satellite Data &             .737            .737
 Information Service: Operations,
 Research, and Facilities: Coral Reef
 Monitoring.............................
Pacific Coastal Salmon Recovery Fund....          35              90
------------------------------------------------------------------------

    The Conservancy works to identify priorities for coastal and marine 
conservation through ecoregional plans. We identify present and likely 
future threats to biological diversity and then identify appropriate 
strategies for conservation. At more than one hundred marine sites 
around the world, the Conservancy has used a variety of strategies for 
conservation including habitat restoration, removal of invasive 
species, coastal land acquisition, private conservation of submerged 
lands, establishment of protected areas, management of extractive 
marine resources activities, and reduction of nutrient and toxic inputs 
to coastal systems. No single strategy works everywhere; at every site 
multiple conservation approaches that take into account the biological, 
socioeconomic, and political circumstances are needed.
    NOAA is an important partner to the Conservancy in many aspects of 
our conservation work:
  --We work with NOAA's programs that support site-based conservation 
        and restoration activities of coastal and marine systems. 
        Programs such as Coastal and Estuarine Land Conservation, 
        Community-based Restoration, Open Rivers Initiative, and the 
        Pacific Coastal Salmon Recovery Fund are excellent examples of 
        practical, community-oriented approaches to conservation of 
        coastal and marine resources. These programs should be 
        expanded.
  --Our chapters routinely partner with NOAA programs that support 
        management of marine and coastal ecosystems. The National 
        Marine Sanctuary Program, the National Estuarine Research 
        Reserve System, the Coastal Zone Management Program, the Coral 
        Reef Program, the Marine Protected Areas Center, and fisheries 
        and protected species management programs, are all valuable 
        partners on Conservancy projects and should be funded robustly.
  --We rely upon NOAA's data, research, and monitoring of coastal and 
        marine systems, and have several shared priorities on which we 
        collaborate. For example, NOAA's Coastal Services Center 
        maintains a strong partnership-oriented approach to providing 
        information and technical assistance to states, local 
        governments, other federal agencies, and the private sector to 
        inform decision-making.
  --NOAA's contributions to state and local implementation and 
        education programs help ensure that the human capacity exists 
        to address environmental management issues at the necessary 
        scale. The Committee should provide funding for staff capacity 
        to provide technical assistance, efficiently manage grants and 
        programs, and help to measure effectiveness.
    The Conservancy highly values the contributions these NOAA programs 
make to sustaining healthy ocean and coastal ecosystems and we 
encourage the Committee provide significant funding for them. In 
particular, we would like to offer our recommendations regarding a 
specific set of programs that support conservation and restoration. 
NOAA has demonstrated significant capability to achieve results by 
advancing constructive, on-the-ground and in-the-water habitat 
conservation. Habitat losses have a substantial impact on the health 
and productivity of marine ecosystems, yet NOAA's ability to work 
closely with communities around the country to stem or reverse these 
losses is constrained by the relatively small amount of funding they 
receive. We would urge you to consider increasing funding for the 
following programs:

Habitat Restoration
    Community-based Restoration Program ($23 million).--Currently this 
program, with its exceptional track record since 1996, is able to fund 
only about 15 percent of the proposals it receives. Additional funds 
would be well-spent.
    Open Rivers Initiative ($12 million).--There are hundreds of 
thousands of small obsolete barriers on rivers and streams across the 
United States that block fish passage and restrict access to important 
habitat. This Initiative is part of a multi-agency commitment to 
address this problem.
    Damage Assessment, Remediation, and Restoration Program (DARRP) 
($9.3 million).--Thousands of oil spills and hazardous waste sites 
contaminate coastal and estuarine areas. DARRP uses a collaborative 
process to respond to pollution events, assess injuries, and work with 
responsible parties to restore natural trust resources. Through this 
program NOAA has secured nearly $450 million in settlements for 
restoration projects over the last 15 years. Additional funding is 
necessary for NOAA to continue to properly respond to spills, conduct 
initial environmental assessments, and work to resolve each settlement.
    Estuary Restoration Program ($4 million).--The Estuary Restoration 
Act (ERA), as reauthorized by the Water Resources Development Act of 
2007, sets a goal to restore one million acres of estuary habitat by 
2010. The Act encourages coordination among all levels of government, 
and engages the unique strengths of the public, nonprofit, and private 
sectors. The ERA authorizes $4 million for NOAA, including $2.5 million 
for on-the-ground restoration projects and $1.5 million for maintenance 
of restoration project monitoring data.

Protected Species Conservation
    Cooperation with the States ($5 million).--Through this program, 
authorized under Section 6 of the Endangered Species Act, NMFS provides 
grants to States to support conservation actions that contribute to 
recovery or benefit listed species, recently de-listed species, and 
candidate species that reside within that State. A comparable program 
in U.S. Fish and Wildlife Service (FWS) has been successful in funding 
activities that contribute to the recovery of listed species under FWS 
jurisdiction. With the exception of jointly managed species (e.g. 
Atlantic salmon), activities related to NMFS jurisdiction species are 
not eligible for funding under the FWS program. While substantial 
funding has been directed to Pacific salmon, there are few resources 
available to support proactive conservation efforts for the other 30 
species for which NMFS has sole or joint management responsibility.
    Pacific Coastal Salmon Recovery Fund ($90 million).--The 
Conservancy strongly supports $90 million for the Pacific Coast Salmon 
Recovery Fund (PCSRF). PCSRF has funded hundreds of successful on the 
ground salmon conservation efforts and is a critical state, tribal, and 
local complement to federal salmon recovery and management efforts. We 
are pleased that NOAA is moving towards a more merit-based allocation 
of funds focused on activities to recover and protect listed and at-
risk salmon populations. However, we are greatly concerned about the 
dramatic decline in funding for the program, from $89 million in fiscal 
year 2004 and fiscal year 2005 to $35 million in the President's fiscal 
year 2009 request.

Coastal and Estuarine Land Conservation
    Coastal and Estuarine Land Conservation Program (CELCP) ($60 
million).--The Nature Conservancy supports funding CELCP at $60 million 
for fiscal year 2009. We recognize that this is a substantial increase 
of prior year funding levels, but feel that it is warranted given the 
extraordinary circumstances surrounding the fiscal year 2007 and fiscal 
year 2008 budgets and the pent-up demand left over from low funding 
levels in those years. We support a competitive process to award CELCP 
funding. However, for a competitive process to be successful, funding 
for the program needs to accommodate a greater percentage of the 
overall demand for coastal acquisition projects.

Coral Reef Conservation
    Coral Reef Conservation Program ($30.5 million).--The Conservancy 
continues to work through a strong partnership with NOAA's Coral Reef 
program, and we are delighted with their enthusiastic desire to work 
together on improving resilience of coral reefs, developing approaches 
for sustainable financing for coral conservation activities at the 
local level, and other creative approaches to reducing threats to 
corals. The $30.5 million requested would include $1.5 million to 
support ``Local Action Strategies,'' a unique partnership between NOAA 
and states and territories to address threats to coral reefs at the 
local level.
    Coral Reef Monitoring ($737,000).--This line item is an important 
part of the Coral Reef Program, but is requested by the Administration 
through the National Environmental Satellite Data and Information 
Service (NESDIS). The President's budget requests $737,000 for this 
modest but effective program known as ``Coral Reef Watch.'' Whether 
funded in NESDIS or consolidated with the Coral Reef Program funding in 
NOS, we recommend that $737,000 be included in addition to the $30.5 
million referenced above.

Regional Approaches to Ocean and Coastal Issues
    Regional Collaboration ($10 million).--For the second year, the 
Administration's budget requests $5 million to help implement the Gulf 
of Mexico Governors' Action Plan. The Conservancy thanks the Committee 
for their support and appropriation of this funding in fiscal year 2008 
and urges the Committee to provide an additional $5 million of funding 
in 2009 to support implementation of regional collaborations in the 
Northeast and the West Coast, as well as the Governor's Alliance in the 
Gulf of Mexico. As states come together to form these collaborations, 
funding should be made available to address issues at the regional 
scale. As such, we also recommend including this funding in the budget 
under the title or ``Regional Collaborations'' rather than ``Gulf of 
Mexico Regional Collaboration.''
    Thank you for this opportunity to share with the Committee the 
Conservancy's priorities in NOAA's fiscal year 2009 budget. We would be 
pleased to provide the Committee with additional information on any of 
the Conservancy's activities described here or elsewhere. You may 
contact Emily Woglom at 703-841-5374 or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2045574f474c4f4d60544e430e4f5247">[email&#160;protected]</a>, 
if you have questions on which we might be of assistance.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground and in-the-water conservation work 
is carried out in all 50 states and in more than 30 countries and is 
supported by approximately one million individual members. We have 
helped conserve nearly 15 million acres of land in the United States 
and Canada and more than 102 million acres with local partner 
organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses to 
address sustained human well-being.
                                 ______
                                 
              Prepared Statement of Trail King Industries

    On behalf of Trail King Industries, major trailer manufacturer and 
employer of 900 people, with plants located in West Fargo, North 
Dakota, Mitchell, South Dakota and in Brookville, Pennsylvania, I would 
like to thank the Committee for allowing our organization to submit 
this testimony for the record. I am writing to respectfully request 
that the Hollings Manufacturing Extension Partnership program be 
provided the authorized $122 million within the fiscal year 2009 
Commerce, Justice, Science and Related Agencies Appropriations Bill. 
This requested level of funding for 2009 was provided for in the 
recently enacted America COMPETES Act. As you know, the Hollings 
Manufacturing Extension Partnership (MEP) is a program within the 
Department of Commerce, National Institute of Standards and Technology, 
a program authorized to improve competitiveness of America's 
manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In South Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. Last year, we were able to pilot a unique 
Manufacturing ``Boot Camp'' for unemployed, with the Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    I submit this written testimony for the record of the U.S. Senate 
Committee on Appropriations, Subcommittee on Commerce, Justice, 
Science, and Related Agencies, on behalf of the University Corporation 
for Atmospheric Research (UCAR). UCAR is a 71-university member 
consortium that manages and operates the National Center for 
Atmospheric Research (NCAR) and additional programs that support and 
extend the country's scientific research and education capabilities.
    We are reminded on almost a daily basis that the world faces 
significant and profound environmental challenges. Yet at a time when 
the need has never been greater, we are faced with decreasing 
investments in real terms for the National Science Foundation (NSF), 
the National Aeronautics and Space Administration (NASA), and the 
National Oceanic and Atmospheric Administration (NOAA). These are key 
agencies needed to provide the necessary observations, science, 
prediction models, and information that policy- and decision-makers 
need to respond effectively to short-term threats from weather hazards 
and to plan and prepare for the long-term future of the United States 
as we move into an uncharted climate. To meet both short- and long-term 
challenges the nation must support Earth sciences and applications in 
NSF, NASA and NOAA. I urge the Members to support the fiscal year 2009 
request of $6.84 billion for NSF at a minimum, $4.583 billion for 
NASA's Science Mission Directorate, and $4.5 billion for NOAA overall.
    The atmospheric and Earth sciences community appreciates the 
difficult choices Appropriators were forced to make in the fiscal year 
2008 Consolidated Appropriations Act, but remains concerned about the 
negative consequences of not investing now in science. We appreciate 
Congress' support for the enactment last year of the America COMPETES 
Act and urge the Appropriations Committee to follow through with fiscal 
year 2009 funding for NSF, NASA, and NOAA that reflects the concern 
demonstrated in that legislation for the health of this country's 
scientific programs.

National Science Foundation (NSF)
    While we lost a year with nearly flat NSF funding for fiscal year 
2008, this critical science agency can get back on track to planned 
accelerated research levels by receiving appropriated funds at the 
level of the authorized amount of $7.32 billion in the America COMPETES 
ACT. This would provide a return on investment that would benefit 
citizens in additional research funded for the short and long term 
health of the country. I urge the Members to support the President's 
overall fiscal year 2009 request of at least $6.84 billion for the NSF, 
and within NSF, the request of $5.59 billion at least for Research and 

Related Activities (R&RA), the heart of NSF's scientific enterprise.
    Geosciences Directorate (GEO).--In this most critical moment for 
the health of our planet and the future of life as we know it, the 
geosciences contribute knowledge that is absolutely necessary to 
understanding climate, weather, the dynamics of water resources, solar 
effects on Earth, space weather, the interactions of Earth's systems, 
energy resources, geologic hazards, and all aspects of the global 
oceans. The economic effects are substantial, with estimates of the 
component of the U.S. economy exposed to risks associated with weather 
and climate variability alone reaching $3 trillion annually. While we 
support the increase for NSF's GEO Directorate in the fiscal year 2009 
budget request, we urge the Committee to once again reiterate, as it 
did last year, that all disciplines of science, including the 
geosciences, should be considered integral to the American 
Competitiveness Initiative and urge even stronger increases to include 
GEO on the ``doubling track.'' I urge the Members to support the 
President's fiscal year 2009 request of $848.67 million, at a minimum, 
for the Geosciences Directorate, and within GEO, to provide the 
President's request of $240.8 million at least for the Atmospheric 
Sciences Division which provides resources for the atmospheric sciences 
community that are critical to the physical safety of our citizens, our 
economic health, and global issues of national security such as severe 
weather hazards, climate change, the security of our communications 
infrastructure, and the environmental health of the planet.
    Office of Cyberinsfrastructure (OCI).--As stated in the fiscal year 
2009 request, OCI ``supports research, development, acquisition and 
operation of advanced shared and connecting infrastructure that enables 
otherwise unrealizable advances in 21st century science and engineering 
research and education.'' The modeling of the Earth's atmosphere is one 
of these ``otherwise unrealizable advances.'' I urge the Members to 
support the fiscal year 2009 request of $220.08 million, an 18.8 
percent increase over fiscal year 2008 that recognizes 
cyberinfrastructure's key role.

National Aeronautics and Space Administration (NASA)
    NASA's Science Mission Directorate (SMD) has a central role in 
understanding our planet. Yet despite increasing policy-driven demand 
for information and analysis the funding in this area is not keeping up 
with needed support for observing systems and research. I appreciate 
the Administration's focus on the especially critical Earth Science 
account in the fiscal year 2009 request. But NASA's overall role in 
this country's scientific endeavor is so strategic and central to our 
well being that SMD should be one of this nation's highest priorities. 
I urge the Members to increase the Science Mission Directorate funding 
levels to at least $4.583 billion, $142 million above the fiscal year 
2009 request and sufficient to keep pace with 3 percent inflation.
    With accelerating climate change, there are few NASA 
responsibilities more important than monitoring the Earth's 
environment. Within NASA's SMD account, Earth Science does relatively 
well at $1.367 billion, a 6.8 percent increase, but much less well than 
in recommendations of the National Research Council's Earth and Science 
Applications From Space (Decadal Survey). Planned out-year funding 
absolutely falls short. It is encouraging to see the Decadal Survey 
being used as a benchmark for the order and timing of missions. 
However, falling behind schedule increases the risk of losing 
continuity in important observational data, which presents serious 
calibration issues. I urge the Members to plan for future investments 
of over $2 billion annually as called for by the Decadal Survey, 
whereas the fiscal year 2009 request includes out-year funding of 
approximately $1.3 billion annually.
    NASA's SMD programs that are in progress and others that are yet to 
be implemented will enable us to mitigate some of the property damage 
and prevent some of the deaths caused by severe weather and help us to 
mitigate, understand, and cope with the inevitable effects of natural 
and human-induced climate change. SMD ``space weather'' programs, part 
of the Living with a Star Program, will also protect space vehicles, 
astronauts, and satellites from the devastating radiation of solar 
storms. These programs are critical to the health of our economy, to 
the health of the Earth, and to our national security. Once again, I 
urge the Members to protect the vibrant NASA science accounts and 
missions, current and planned, that make possible the study of our own 
planet and the environment that sustains life on Earth.

National Oceanic and Atmospheric Administration (NOAA)
    As stated in the Friends of NOAA Coalition letter of March 12, 
2008, ``Assuming an annual inflationary rate of 3 percent, and using 
fiscal year 2005 as a baseline, the agency's budget would need to be 
$4.4 billion in fiscal year 2009 just to remain level in constant 
dollars.'' It is obviously impossible for NOAA to keep up with 
expanding responsibilities while its budget effectively shrinks. The 
atmospheric sciences community appreciates the Administration's request 
of $4.1 billion for fiscal year 2009, but this increase of 5.5 percent 
over fiscal year 2008 will primarily augment the satellite programs 
while others are diminished. The America COMPETES Act, signed into law 
last August, states that NOAA ``shall be a full participant in any 
interagency effort to promote innovation and economic competitiveness 
through near-term and long-term basic scientific research and 
development and the promotion of science, technology, engineering, and 
mathematics education consistent with the agency mission, including 
authorized activities.'' NOAA has the potential to make much greater 
contributions, but the agency is struggling. There simply must be a 
better balance between NOAA's infrastructure, operations, and research 
funding, as well as effective management and organizational structure 
at all levels, for this agency to accomplish its mission.
    I urge the Members to support an appropriation of at least $4.5 
billion for NOAA in fiscal year 2009--a level recommended by the Senate 
for the past three fiscal years and endorsed by the multi-sector 
Friends of NOAA Coalition and Weather Coalition--and to do so while 
maintaining vital support for other portion's of the Subcommittee's 
research and development portfolio. While not sufficient to meet all of 
NOAA's current obligations, it would begin to alleviate pressures that 
have built up over many years and set a more realistic (although still 
inadequate) base for this agency to meet current and future obligations 
of national importance.
    Office of Oceanic and Atmospheric Research (OAR).--Within OAR's 
Competitive Research Program request of $134.7 million, a small 
increase will support several climate and weather data related 
activities of great importance to the country and enable OAR to work 
more effectively with, and leverage from, the enormous base of 
expertise in the academic community. Within OAR Weather and Air Quality 
Research, the potentially substantial role of Unmanned Aircraft Systems 
in filling very serious observational gaps will be examined, and 
hurricane forecast improvement will be pursued. The fiscal year 2009 
request moves the U.S. Weather Research Program from the National 
Weather Service back to OAR. This chronically underfunded program will 
fund THORpex, a multi-year international field experiment to improve 
two to ten-day forecasts, as well as experimental hurricane forecasting 
work. I urge the Members to support the fiscal year 2009 request of 
$372.2 million (Operations, Research and Facilities--ORF) for the 
Office of Oceanic and Atmospheric Research.
    National Weather Service (NWS).--Within NWS, UCAR supports the 
fiscal year 2009 program changes including support for weather data 
buoys to enhance hurricane and severe storm observations, developing 
enhanced fire weather modeling capability, and additional water vapor 
sensors that contribute to improved weather aviation services within 
the Integrated Upper Air Observing System. I urge the Members to 
support the fiscal year 2009 request of $930.7 million for the NWS.
    National Environmental Satellite, Data and Information Service 
(NESDIS).--NESDIS receives an absolutely necessary increase for the 
geostationary satellite series, GOES-R. Any further delay or decrease 
in funding will cause additional program costs as well as interruption 
to the overall continuity of GOES comprehensive data coverage including 
atmospheric, oceanic, climatic, and solar observations. This would 
cause severe problems for the nation's weather forecasts and warnings, 
climatologic analysis and prediction, ecosystems management, and safe 
and efficient public and private transportation. The fiscal year 2009 
request cuts funding for the tri-agency National Polar-orbiting 
Operational Environmental Satellite (NPOESS) program, which we 
understand is a result of restructuring. We are extremely concerned 
about out-year funding for this critical program, but are pleased with 
the reinstatement of the development of two NPOESS climate sensors that 
were previously de-manifested, the Clouds and the Earth's Radiant 
Energy System (CERES) sensor and the Total Solar Irradiance Sensor 
(TSIS).
    Of additional concern is the nearly flat funding for NESDIS Data 
Centers. If the country is truly committed to renewing and capitalizing 
on its investment in Earth-observing systems, it must also invest in 
accessing, archiving and assessing the data gathered from these 
systems. The weather and climate community is concerned also that the 
President's request fails to begin initial planning for the CLARREO and 
GPSRO missions, as recommended in the NRC Decadal Survey. CLARREO and 
GPSRO provide critical measurements of Earth's and the sun's radiation, 
which are critical for climate, and temperature, water vapor, and 
electron density profiles for weather, climate, and space weather.
    I urge the Members to consider the NESDIS Procurement, Acquisition 
and Construction (PAC) account fiscal year 2009 request level of $1.24 
billion to be the base level for this line office; to examine the 
erosion of funding for the NESDIS Data Centers and appropriate for them 
an inflationary increase; to press the agency to begin planning for the 
CLARREO and GPSRO missions; and to continue to pursue solutions to this 
nation's critical Earth observing program, the infrastructural 
satellite component of which is going to cause NOAA's core programs to 
be undercut severely if additional resources or restructuring are not 
provided.
    National Ocean Service (NOS).--Ocean data are of great importance 
to the work of the atmospheric sciences community. Of particular 
interest are the efforts within NOS to manage hydrographic datasets 
more effectively and efficiently (Ping to Chart Infrastructure 
Streamlining), as well as the implementation as it was originally 
conceived, of the Integrated Ocean Observing System (IOOS). There is 
great concern that years of report recommendations have not been heeded 
and that the original concept of a ``system of systems'' providing 
information on the current and future state of the oceans, informed by 
competitive research grants to provide the technologies and 
understanding required to build and improve a scientifically sound 
system, has been abandoned. I urge the Members to support data 
gathering efforts within the National Ocean Service, but to ensure that 
a competitive grants program be fully funded for the Integrated Ocean 
Observing System so that this valuable program may be appropriately 
structured to meet its societal goals.
    I sincerely thank the members of the Committee for your stewardship 
of the nation's scientific enterprise and your understanding that the 
future strength of the nation depends on the investments we make in 
science and technology today.
                                 ______
                                 
                Prepared Statement of Mitchell V. Voydat

    My name is Mitchell V. Voydat and I'm a private citizen 
highlighting the extreme urgency of appropriations that need to be 
earmarked for the continuation of two very successful, critical and 
important programs. The two programs are the Whale disentanglement 
program of the Provincetown Center for Coastal Studies (PCCS), located 
in Provincetown, Massachusetts for the highly endangered species, the 
North Atlantic Right Whale and the Dolphin SMART program, for the wild 
bottlenose dolphin located in the Florida Keys National Marine 
Sanctuary. The North Atlantic Right Whale is a highly endangered 
species listed under the Federal Endangered Species Act and both right 
whales and the bottlenose dolphin must be protected under the Marine 
Mammal Protection Act. The National Marine Fisheries Service (NMFS) 
under the National Oceanic and Atmospheric Administration (NOAA) is the 
responsible agency for the protection of the North Atlantic Right Whale 
and the bottlenose dolphin.
    Let me explain the whale disentanglement program of PCCS.
    The main responsibility of the whale disentanglement program is 
freeing Right Whales from life-threatening entanglements in fishing 
gear. Without the necessary appropriations, there is a very, very high 
and very, very real possibility of North Atlantic Right Whales becoming 
entangled in life-threatening fishing gear, serious injury or death 
caused by the entanglement and extinction of the highly endangered 
species, because there are only approximately 350 North Atlantic Right 
Whales living today.
    The whale disentanglement program is world-renowned and the only 
one of its kind on the East Coast.
    The whale disentanglement program of PCCS have freed 89 Right Wales 
and five of these rescues were right whales who went on to have calves.
    Please help the PCCS secure the very necessary and urgent 
appropriations to continue its life savings services of freeing right 
whales from life-threatening entanglements in fishing gear.
    Let me explain the Dolphin SMART Program.
    A special area of the Florida Keys National Marine Sanctuary is 
home to a resident group of bottlenose dolphins. It is also where many 
businesses conduct dolphin tours in a small geographic area. This 
heightened amount of human activity in a small area may cause 
unnecessary stress to the local population by disrupting their natural 
behaviors. This prompted conservation agencies, including NOAA's 
National Marine Sanctuary Program and National Marine Fisheries 
Service, the Dolphin Ecology Project and the Whale and Dolphin 
Conservation Society, as well as local businesses and members of the 
public, to team up and develop a unique, multi-faceted program 
encouraging responsible viewing of wild dolphins and recognizing 
businesses that participated.
    When we approach wild dolphins too closely, move too quickly, or 
make too much noise, we increase the risk of disturbing their natural 
behaviors, such as migration, breathing, nursing, breeding, feeding and 
sheltering.
    The Dolphin SMART mission is to promote responsible stewardship of 
wild dolphins inhabiting the Florida Keys Nation Marine Sanctuary.
    Program participation is for commercial businesses conducting and 
booking wild dolphin tours in the Florida Keys. The Dolphin SMART 
program offers participation incentives for businesses that follow the 
program criteria and educate their customers about the importance of 
minimizing wild dolphin harassment.
    What does Dolphin SMART mean?
    S--Stay at least 50 yards from dolphins.
    M--Move away cautiously if dolphins show signs of disturbance.
    A--Always put your engine in neutral when dolphins are near.
    R--Refrain from swimming with, touching or feeding wild dolphins.
    T--Teach others to be Dolphin SMART.
    Purpose of the Dolphin SMART Program:
  --Minimize the potential of wild dolphin harassment caused by 
        commercial viewing vehicles.
  --Reduce expectations of wanting to closely interact with wild 
        dolphins in a manner that may cause harassment.
  --Eliminate advertising that creates expectations of engaging in 
        activities that may cause harassment.
  --Promote stewardship of the Florida Keys National Marine Sanctuary.
    Upon successful completion of the program criteria, the training 
and evaluation, Dolphin SMART businesses receive materials recognizing 
them as active Dolphin SMART participants. Participants must complete 
an annual refresher training and evaluation to ensure active 
participation. Dolphin SMART participants can easily be identified by a 
flag or decal displayed on their vessel featuring the Dolphin SMART 
logo and current calendar year.
    Madam Chairman and Honorable U.S. Senators: As you can see, here 
are two very, very successful programs, but without earmarking the 
necessary funds to keep these programs running, without the Dolphin 
SMART program, human intervention will threaten, disrupt and destroy 
the natural behaviors of wild dolphins in the Florida Keys, and without 
the whale disentanglement program of PCCS, extinction of the North 
Atlantic Right Whale is very, very real and very certain.
    I want to thank Madam Chairman, the Honorable U.S. Senator from 
Maryland, Senator Mikulski, and the ranking member, the Honorable U.S. 
Senator from Alabama, Senator Shelby and all the Honorable Committee 
Members on the U.S. Senate Subcommittee on Commerce, Justice, Science 
and related agencies for giving me the opportunity to submit my written 
testimony for these two very successful, critical and very important 
programs.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
